                                   United States Department of Agriculture

                                   Report to the Secretary of Agriculture




December 1997
                                   Nationwide Data on
                                   Minority Participation
                                   in Farm Service Agency’s
                                   Farm Loan Programs -
                                   Phase III
                                   Volume 3 of 5
                                   Massachusetts through New Jersey




Evaluation Report No. 50801-4-Hq
                            Demographics         705
                        FSA’s Loan Portfolio     707
                        FSA’s Application data   712




USDA/OIG-A/50801-4-Hq                                  704
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other             Hispanic
                                               Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
           MA                  Population      186,605      177,956    95%          2,727     1%       1,127      1%        942      1%      1,566      1%      2,287       1%
           Barnstable County   Borrowers            21           18    86%              2    10%           0      0%          0      0%          0      0%          1       5%
                               Farms               144          144   100%              0     0%           0      0%          0      0%          0      0%          0       0%
                               Land in Farms     5,340        5,340   100%              0     0%           0      0%          0      0%          0      0%          0       0%

           MA                  Population      139,352      134,177    96%          2,454      2%        214      0%        966      1%        134      0%      1,407       1%
           Berkshire County    Borrowers            12           12   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                               Farms               320          320   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                               Land in Farms    60,980       60,980   100%              0      0%          0      0%          0      0%          0      0%          0       0%

           MA                  Population      506,325      474,032    94%          7,203      1%        861      0%      4,403      1%      6,248      1%     13,578       3%
           Bristol County      Borrowers            44           43    98%              0      0%          0      0%          0      0%          0      0%          1       2%
                               Farms               523          520    99%              0      0%          0      0%          0      0%          3      1%          0       0%
                               Land in Farms    34,235       34,235   100%              0      0%          0      0%          0      0%          0      0%          0       0%

           MA                  Population       11,639       10,896    94%            323      3%        238      2%         39      0%         22      0%        121       1%
           Dukes County        Borrowers             2            2   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                               Farms                56           56   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                               Land in Farms     5,757        5,757   100%              0      0%          0      0%          0      0%          0      0%          0       0%

           MA                  Population      670,080      600,518    90%         10,242      2%        786      0%      9,414      1%        680      0%     48,440       7%
           Essex County        Borrowers            23           23   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                               Farms               357          347    97%              1      0%          0      0%          0      0%          1      0%          8       2%
                               Land in Farms    25,470       25,374   100%              0      0%          0      0%          0      0%          0      0%         96       0%

           MA                  Population       70,092       68,074    97%            457      1%        195      0%        476      1%         48      0%        842       1%
           Franklin County     Borrowers            41           40    98%              0      0%          1      2%          0      0%          0      0%          0       0%
                               Farms               519          519   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                               Land in Farms    74,484       74,484   100%              0      0%          0      0%          0      0%          0      0%          0       0%

           MA                  Population      456,310      373,426    82%         32,105      7%        668      0%      3,705      1%        621      0%     45,785    10%
           Hampden County      Borrowers            26           26   100%              0      0%          0      0%          0      0%          0      0%          0     0%
                               Farms               410          410   100%              0      0%          0      0%          0      0%          0      0%          0     0%
                               Land in Farms    37,477       37,477   100%              0      0%          0      0%          0      0%          0      0%          0     0%

           MA                  Population      146,568      135,451    92%          2,428      2%        254      0%      4,401      3%        147      0%      3,887       3%
           Hampshire County    Borrowers            32           31    97%              0      0%          1      3%          0      0%          0      0%          0       0%
                               Farms               527          525   100%              1      0%          0      0%          0      0%          1      0%          0       0%
                               Land in Farms    53,459       53,459   100%              0      0%          0      0%          0      0%          0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 705
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                Asian               Other             Hispanic
                                                Total       Number     Percent     Number    Percent   Number       Percent   Number    Percent   Number   Percent   Number    Percent
           MA                 Population      1,398,468    1,258,602    90%         37,677      3%      1,709          0%      51,113      4%      1,984      0%      47,383      3%
           Middlesex County   Borrowers              26           26   100%              0      0%          0          0%           0      0%          0      0%           0      0%
                              Farms                 535          531    99%              0      0%          0          0%           0      0%          0      0%           4      1%
                              Land in Farms      31,583       31,402    99%              0      0%          0          0%           0      0%          0      0%         181      1%

           MA                 Population          6,012        5,759    96%            140      2%              5      0%         18       0%         40      1%         50       1%
           Nantucket County   Borrowers               2            2   100%              0      0%              0      0%          0       0%          0      0%          0       0%
                              Farms                  14           14   100%              0      0%              0      0%          0       0%          0      0%          0       0%
                              Land in Farms           0            0                     0                      0                  0                   0                  0

           MA                 Population       616,087       577,079    94%         11,532      2%        734          0%      17,686      3%        642      0%       8,414      1%
           Norfolk County     Borrowers              6             6   100%              0      0%          0          0%           0      0%          0      0%           0      0%
                              Farms                186           186   100%              0      0%          0          0%           0      0%          0      0%           0      0%
                              Land in Farms      9,882         9,882   100%              0      0%          0          0%           0      0%          0      0%           0      0%

           MA                 Population       435,276       401,847    92%         15,003      3%        805          0%       3,376      1%      4,674      1%       9,571      2%
           Plymouth County    Borrowers             56            49    88%              5      9%          2          4%           0      0%          0      0%           0      0%
                              Farms                668           655    98%              8      1%          0          0%           0      0%          0      0%           5      1%
                              Land in Farms     72,247        72,079   100%              0      0%          0          0%           0      0%          0      0%         168      0%

           MA                 Population       663,906       412,210    62%        138,695    21%       1,682          0%      32,665      5%      5,810      1%      72,844    11%
           Suffolk County     Borrowers              0             0     0%              0     0%           0          0%           0      0%          0      0%           0     0%
                              Farms                  2             2   100%              0     0%           0          0%           0      0%          0      0%           0     0%
                              Land in Farms          0             0     0%              0     0%           0          0%           0      0%          0      0%           0     0%

           MA                 Population       709,705       650,265    92%         13,478      2%      1,267          0%      11,134      2%        621      0%      32,940      5%
           Worcester County   Borrowers             94            74    79%              0      0%          2          2%           1      1%          0      0%           2      2%
                              Farms                997           989    99%              0      0%          0          0%           4      0%          0      0%           4      0%
                              Land in Farms    114,805       114,561   100%              0      0%          0          0%           0      0%          0      0%         244      0%

           MA                 Population      6,016,425    5,280,292    88%        274,464      5%     10,545          0%     140,338      2%     23,237      0%     287,549      5%
           STATE              Borrowers             385          352    91%              7      2%          6          2%           1      0%          0      0%           4      1%
                              Farms               5,258        5,218    99%             10      0%          0          0%           4      0%          5      0%          21      0%
                              Land in Farms     525,719      525,030   100%              0      0%          0          0%           0      0%          0      0%         689      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 706
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BARNSTABLE, MASSACHUSETTS                         BARNSTABLE,PT, MASSACHUSETTS                           BERKSHIRE, MASSACHUSETTS
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         9                        4                        12                         2                         12                         6
                              Loans                            17                        7                        18                         3                         41                        16
                              Principal and Interest    1,313,813                   16,672                 1,610,370                    20,910                  2,654,616                   570,069
WHITE                         Borrowers                         6        67%              2      50%              12       100%              2        100%             12        100%             6     100%
                              Loans                            11        65%              2      29%              18       100%              3        100%             41        100%            16     100%
                              Principal and Interest    1,061,540        81%          3,980      24%       1,610,370       100%         20,910        100%      2,654,616        100%       570,069     100%
AFRICAN AMERICAN              Borrowers                         2        22%             2       50%                   0      0%                  0      0%                  0      0%              0      0%
                              Loans                             5        29%             5       71%                   0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest      150,375        11%        12,692       76%                   0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%                  0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                         1        11%               0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Loans                             1         6%               0      0%                   0      0%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest      101,897         8%               0      0%                   0      0%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                              Page 707
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BRISTOL, MASSACHUSETTS                             DUKES, MASSACHUSETTS                                  ESSEX, MASSACHUSETTS
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       44                       15                       2                         1                         23                        11
                              Loans                          118                       38                      12                         2                         43                        16
                              Principal and Interest   6,539,076                  322,391                 769,218                    40,110                  3,695,963                   362,606
WHITE                         Borrowers                       43        98%            14       93%             2       100%              1        100%             23        100%            11     100%
                              Loans                          117        99%            37       97%            12       100%              2        100%             43        100%            16     100%
                              Principal and Interest   6,384,719        98%       311,509       97%       769,218       100%         40,110        100%      3,695,963        100%       362,606     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                        1          2%            1        7%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                            1          1%            1        3%                 0      0%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest     154,357          2%       10,882        3%                 0      0%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 708
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       FRANKLIN,PT, MASSACHUSETTS                        HAMPDEN,PT, MASSACHUSETTS                            HAMPSHIRE, MASSACHUSETTS
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        41                       14                      26                         4                         32                         14
                              Loans                           131                       43                      53                         7                         92                         53
                              Principal and Interest    6,640,456                  344,529               3,748,311                    47,875                  8,134,909                  1,757,280
WHITE                         Borrowers                        40        98%            14     100%             26       100%              4        100%             31         97%        14         100%
                              Loans                           129        98%            43     100%             53       100%              7        100%             89         97%        53         100%
                              Principal and Interest    6,451,997        97%       344,529     100%      3,748,311       100%         47,875        100%      7,948,571         98% 1,757,280         100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                         1          2%              0      0%                 0      0%                  0      0%             1           3%              0      0%
                              Loans                             2          2%              0      0%                 0      0%                  0      0%             3           3%              0      0%
                              Principal and Interest      188,459          3%              0      0%                 0      0%                  0      0%       186,338           2%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 709
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MIDDLESEX, MASSACHUSETTS                         NANTUCKET, MASSACHUSETTS                             NORFOLK, MASSACHUSETTS
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                       13                       2                              0                    6                         1
                              Loans                           52                       24                       3                              0                   13                         2
                              Principal and Interest   2,558,629                  215,250                 161,075                              0              604,901                   121,153
WHITE                         Borrowers                       26       100%            13     100%              2       100%                   0      0%            6        100%             1     100%
                              Loans                           52       100%            24     100%              3       100%                   0      0%           13        100%             2     100%
                              Principal and Interest   2,558,629       100%       215,250     100%        161,075       100%                   0      0%      604,901        100%       121,153     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 710
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PLYMOUTH,PT, MASSACHUSETTS                        WORCESTER,PT, MASSACHUSETTS                             STATE OF MASSACHUSETTS
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        56                       19                       94                        53                         385                        157
                              Loans                           135                       44                      245                       136                         973                        391
                              Principal and Interest   11,275,323                  904,155               16,076,324                 1,438,652                  65,782,984                  6,161,652
WHITE                         Borrowers                        49        88%            14       74%             74        79%             50         94%             352         91%       146           93%
                              Loans                           118        87%            37       84%            224        91%            122         90%             923         95%       364           93%
                              Principal and Interest   10,053,498        89%       885,221       98%     13,825,610        86%      1,182,985         82%      61,529,018         94% 5,863,477           95%
AFRICAN AMERICAN              Borrowers                         5         9%             4       21%                  0      0%                  0      0%              7           2%            6        4%
                              Loans                            10         7%             5       11%                  0      0%                  0      0%             15           2%           10        3%
                              Principal and Interest    1,087,606        10%        17,581        2%                  0      0%                  0      0%      1,237,981           2%       30,273        0%
NATIVE AMERICAN               Borrowers                         2          4%             1       5%              2          2%             1           2%              6           2%            2        1%
                              Loans                             7          5%             2       5%              4          2%             2           1%             16           2%            4        1%
                              Principal and Interest      134,218          1%         1,352       0%        659,858          4%        90,435           6%      1,168,873           2%       91,787        1%
ASIAN                         Borrowers                             0      0%              0      0%                  1      1%                  1      2%                   1      0%              1      1%
                              Loans                                 0      0%              0      0%                  8      3%                  8      6%                   8      1%              8      2%
                              Principal and Interest                0      0%              0      0%        577,181          4%        46,654           3%        577,181           1%       46,654        1%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                   0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%              2          2%             1           2%              4           1%            2        1%
                              Loans                                 0      0%              0      0%              9          4%             4           3%             11           1%            5        1%
                              Prinicpal and Interest                0      0%              0      0%      1,013,675          6%       118,578           8%      1,269,929           2%      129,460        2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                              Page 711
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
 MA BRISTOL                Approved   No. of Applications                70        67   96%             2   3%            1   1%           0   0%          0     0%
                                      Receipt to Completion                        44                  27                53                0               0
                                      Completion to Approval                       12                   7                 3                0               0
                                      Approval to Loan Closing                     65                  29                57                0               0

                           Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                      186                   0                 0                 0              0
                                      Completion to Rejected                      66                   0                 0                 0              0

                           Withdrawn No. of Applications                 13       11    85%            1    8%           1    8%           0   0%         0      0%
                                     Receipt to Completion                        47                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0

 MA   HAMPSHIRE            Approved   No. of Applications                70       69    99%            0    0%           0    0%           0   0%         1      1%
                                      Receipt to Completion                       33                   0                 0                 0             17
                                      Completion to Approval                      18                   0                 0                 0             42
                                      Approval to Loan Closing                    36                   0                 0                 0             13

                           Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       96                   0                 0                 0              0
                                      Completion to Rejected                      22                   0                 0                 0              0

                           Withdrawn No. of Applications                 10       10    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         9                   0                 0                 0              0
                                     Completion to Withdrawn                      16                   0                 0                 0              0

 MA   WORCESTER            Approved   No. of Applications                39       38    97%            0    0%           0    0%           0   0%         1      3%
                                      Receipt to Completion                       35                   0                 0                 0            132
                                      Completion to Approval                      24                   0                 0                 0              1
                                      Approval to Loan Closing                    41                   0                 0                 0             19

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 4         4    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        23                   0                 0                 0              0
                                     Completion to Withdrawn                      39                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 712
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African           Native
State  Servicing Office   Decision           Average Days       Total    White            American          American          Asian            Hispanic
 MA STATE                 Approved   No. of Applications           179      174    97%             2   1%            1   1%           0   0%          2     1%
                                     Receipt to Completion                    38                  27                53                0              75
                                     Completion to Approval                   17                   7                 3                0              22
                                     Approval to Loan Closing                 48                  29                57                0              16

                          Rejected   No. of Applications            4         4    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                  141                   0                 0                 0              0
                                     Completion to Rejected                  44                   0                 0                 0              0

                          Withdrawn No. of Applications            27        25    93%            1    4%           1    4%           0   0%         0      0%
                                    Receipt to Completion                    28                   0                 0                 0              0
                                    Completion to Withdrawn                  13                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                           Page 713
                            Demographics         715
                        FSA’s Loan Portfolio     726
                        FSA’s Application data   753




USDA/OIG-A/50801-4-Hq                                  714
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American            Asian              Other                 Hispanic
                                          Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI               Population       10,145        9,987    98%             23      0%         56      1%         23      0%              1      0%         55       1%
         Alcona County    Borrowers            23           23   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms               209          209   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    42,572       42,572   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI               Population        8,972        8,392    94%            211      2%        301      3%         24      0%              1      0%         43       0%
         Alger County     Borrowers             5            5   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms                58           58   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    16,099       16,099   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI               Population       90,509       85,241    94%          1,419      2%        514      1%        396      0%         44          0%      2,895       3%
         Allegan County   Borrowers            44           43    98%              0      0%          0      0%          0      0%          0          0%          1       2%
                          Farms             1,469        1,457    99%              6      0%          3      0%          0      0%          0          0%          3       0%
                          Land in Farms   246,403      246,004   100%              0      0%          0      0%          0      0%          0          0%        399       0%

         MI               Population       30,605       30,249    99%             35      0%         88      0%         84      0%              4      0%        145       0%
         Alpena County    Borrowers            29           29   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms               379          379   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    77,493       77,493   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI               Population       18,185       17,829    98%             23      0%        210      1%         24      0%              3      0%         96       1%
         Antrim County    Borrowers            29           29   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms               247          247   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    51,517       51,517   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI               Population       14,931       14,577    98%             10      0%        137      1%         38      0%              2      0%        167       1%
         Arenac County    Borrowers            21           21   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms               276          269    97%              0      0%          0      0%          0      0%              0      0%          7       3%
                          Land in Farms    82,418       80,030    97%              0      0%          0      0%          0      0%              0      0%      2,388       3%

         MI               Population        7,954        6,950    87%             48      1%        910     11%         10      0%              2      0%         34       0%
         Baraga County    Borrowers             4            4   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms                57           57   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    14,104       14,104   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI               Population       50,057       49,095    98%            103      0%        183      0%        143      0%         12          0%        521       1%
         Barry County     Borrowers            24           24   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Farms               833          833   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms   165,371      165,371   100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 715
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                             Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                  Population      111,723      105,909    95%          1,228      1%        647      1%        402      0%         43          0%      3,494       3%
         Bay County          Borrowers            34           34   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               795          795   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   181,052      181,052   100%              0      0%          0      0%          0      0%          0          0%          0       0%

         MI                  Population       12,200       11,770    96%             30      0%        236      2%         35      0%              0      0%        129       1%
         Benzie County       Borrowers             9            9   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               120          120   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    19,844       19,844   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                  Population      161,378      131,798    82%         24,688     15%        651      0%      1,432      1%        126          0%      2,683       2%
         Berrien County      Borrowers            64           63    98%              0      0%          0      0%          0      0%          0          0%          1       2%
                             Farms             1,312        1,301    99%              8      1%          0      0%          0      0%          0          0%          3       0%
                             Land in Farms   166,886      166,781   100%              0      0%          0      0%          0      0%          0          0%        105       0%

         MI                  Population       41,502       39,975    96%            686      2%        215      1%        150      0%              8      0%        468       1%
         Branch County       Borrowers            34           34   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               935          930    99%              0      0%          0      0%          0      0%              0      0%          5       1%
                             Land in Farms   227,665      227,075   100%              0      0%          0      0%          0      0%              0      0%        590       0%

         MI                  Population      135,982      117,299    86%         14,258     10%        659      0%      1,044      1%        139          0%      2,583       2%
         Calhoun County      Borrowers            41           40    98%              1      2%          0      0%          0      0%          0          0%          0       0%
                             Farms             1,080        1,077   100%              0      0%          0      0%          0      0%          0          0%          3       0%
                             Land in Farms   244,927      244,342   100%              0      0%          0      0%          0      0%          0          0%        585       0%

         MI                  Population       49,477       44,423    90%          3,684      7%        463      1%        171      0%         85          0%        651       1%
         Cass County         Borrowers            46           43    93%              2      4%          0      0%          0      0%          0          0%          1       2%
                             Farms               735          728    99%              7      1%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   186,431      186,431   100%              0      0%          0      0%          0      0%          0          0%          0       0%

         MI                  Population       21,468       20,925    97%             17      0%        372      2%         38      0%              4      0%        112       1%
         Charlevoix County   Borrowers            12           12   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               196          196   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    41,037       41,037   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                  Population       21,398       20,768    97%             15      0%        477      2%         55      0%              3      0%         80       0%
         Cheboygan County    Borrowers            12           12   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               170          170   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    40,871       40,871   100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 716
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian              Other                 Hispanic
                                            Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                 Population       34,604       28,206    82%          2,157      6%      3,806     11%        146      0%         11          0%        278       1%
         Chippewa County    Borrowers            23           23   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               332          329    99%              0      0%          3      1%          0      0%          0          0%          0       0%
                            Land in Farms    92,809       92,349   100%              0      0%        460      0%          0      0%          0          0%          0       0%

         MI                 Population       24,952       24,569    98%             39      0%        156      1%         53      0%              3      0%        132       1%
         Clare County       Borrowers            11           11   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               292          292   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    64,084       64,084   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       57,883       55,924    97%            215      0%        262      0%        187      0%              9      0%      1,286       2%
         Clinton County     Borrowers            35           34    97%              0      0%          0      0%          0      0%              0      0%          1       3%
                            Farms             1,207        1,197    99%              4      0%          0      0%          0      0%              0      0%          6       0%
                            Land in Farms   256,236      255,782   100%              0      0%          0      0%          0      0%              0      0%        454       0%

         MI                 Population       12,260       11,737    96%            260      2%        142      1%         42      0%              0      0%         79       1%
         Crawford County    Borrowers             1            1   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                17           17   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     1,402        1,402   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       37,780       36,729    97%             15      0%        799      2%         98      0%              3      0%        136       0%
         Delta County       Borrowers            16           16   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               237          237   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    72,777       72,777   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       26,831       26,459    99%             23      0%        130      0%         96      0%              7      0%        116       0%
         Dickinson County   Borrowers             8            8   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                99           99   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    28,415       28,415   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       92,879       86,410    93%          3,271      4%        406      0%        543      1%         50          0%      2,199       2%
         Eaton County       Borrowers            41           38    93%              1      2%          2      5%          0      0%          0          0%          0       0%
                            Farms             1,069        1,066   100%              0      0%          3      0%          0      0%          0          0%          0       0%
                            Land in Farms   233,921      233,921   100%              0      0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       25,040       24,043    96%            131      1%        672      3%         69      0%              7      0%        118       0%
         Emmet County       Borrowers             9            9   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               188          188   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    40,365       40,365   100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 717
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian              Other                 Hispanic
                                            Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                 Population      430,459      331,833    77%         83,707     19%      2,918      1%      2,824      1%        300          0%      8,877       2%
         Genesee County     Borrowers            15           15   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               799          791    99%              3      0%          5      1%          0      0%          0          0%          0       0%
                            Land in Farms   137,082      136,835   100%              0      0%        247      0%          0      0%          0          0%          0       0%

         MI                 Population       21,896       21,590    99%             17      0%        114      1%         38      0%              1      0%        136       1%
         Gladwin County     Borrowers            14           14   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               400          395    99%              0      0%          0      0%          0      0%              0      0%          5       1%
                            Land in Farms    61,535       60,597    98%              0      0%          0      0%          0      0%              0      0%        938       2%

         MI                 Population       18,052       17,435    97%            240      1%        282      2%         25      0%              3      0%         67       0%
         Gogebic County     Borrowers             3            3   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                50           50   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     5,965        5,965   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       64,273       62,654    97%            251      0%        537      1%        309      0%         19          0%        503       1%
         Grand Traverse     Borrowers            40           40   100%              0      0%          0      0%          0      0%          0          0%          0       0%
         County             Farms               409          405    99%              0      0%          0      0%          0      0%          0          0%          4       1%
                            Land in Farms    66,789       66,789   100%              0      0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       38,982       36,956    95%            316      1%        133      0%         94      0%         16          0%      1,467       4%
         Gratiot County     Borrowers            54           54   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms               914          914   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   277,400      277,400   100%              0      0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       43,431       42,665    98%            113      0%        127      0%        110      0%         21          0%        395       1%
         Hillsdale County   Borrowers            85           85   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,018        1,014   100%              4      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   231,557      231,557   100%              0      0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       35,446       34,364    97%            156      0%        153      0%        604      2%              5      0%        164       0%
         Houghton County    Borrowers             5            5   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               139          139   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    29,161       29,161   100%              0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       34,951       34,405    98%             20      0%         88      0%         58      0%              8      0%        372       1%
         Huron County       Borrowers            32           32   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,325        1,321   100%              0      0%          0      0%          0      0%              0      0%          4       0%
                            Land in Farms   438,914      437,818   100%              0      0%          0      0%          0      0%              0      0%      1,096       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 718
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian              Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                 Population      281,912      231,489    82%         27,315        10%      1,767      1%      7,425      3%        438          0%     13,478       5%
         Ingham County      Borrowers            43           41    95%              0         0%          2      5%          0      0%          0          0%          0       0%
                            Farms               835          830    99%              0         0%          0      0%          0      0%          0          0%          5       1%
                            Land in Farms   193,688      193,326   100%              0         0%          0      0%          0      0%          0          0%        362       0%

         MI                 Population       57,024       52,553    92%          2,954         5%        212      0%        118      0%         11          0%      1,176       2%
         Ionia County       Borrowers            63           61    97%              0         0%          0      0%          0      0%          1          2%          1       2%
                            Farms             1,007          998    99%              0         0%          3      0%          0      0%          0          0%          6       1%
                            Land in Farms   254,793      253,992   100%              0         0%         99      0%          0      0%          0          0%        702       0%

         MI                 Population       30,209       28,739    95%            622         2%        224      1%        258      1%              9      0%        357       1%
         Iosco County       Borrowers             5            5   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               206          206   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    47,308       47,308   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       13,175       12,974    98%                 4      0%         98      1%         29      0%              3      0%         67       1%
         Iron County        Borrowers             6            5    83%                 0      0%          1     17%          0      0%              0      0%          0       0%
                            Farms                75           75   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    29,763       29,763   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       54,624       51,814    95%            628         1%        977      2%        451      1%         40          0%        714       1%
         Isabella County    Borrowers            33           33   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               883          883   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   199,733      199,733   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population      149,756      134,283    90%         11,822         8%        627      0%        641      0%         80          0%      2,303       2%
         Jackson County     Borrowers            46           46   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,041        1,032    99%              0         0%          4      0%          0      0%          0          0%          5       0%
                            Land in Farms   210,638      210,373   100%              0         0%        265      0%          0      0%          0          0%          0       0%

         MI                 Population      223,411      195,481    87%         19,668         9%        953      0%      3,124      1%        235          0%      3,950       2%
         Kalamazoo County   Borrowers            42           42   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               745          745   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   154,482      154,482   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       13,497       13,263    98%             10         0%        110      1%         23      0%              4      0%         87       1%
         Kalkaska County    Borrowers             2            2   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms                79           79   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    16,076       16,076   100%              0         0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 719
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         MI                  Population      500,631      438,294    88%         39,432         8%      2,493          0%      5,234          1%        494          0%     14,684          3%
         Kent County         Borrowers            29           29   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                             Farms             1,190        1,190   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                             Land in Farms   190,706      190,706   100%              0         0%          0          0%          0          0%          0          0%          0          0%

         MI                  Population        1,701        1,683    99%                 1      0%              4      0%              6      0%              1      0%              6      0%
         Keweenaw County     Borrowers             0            0     0%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms                 3            3   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms       264          264   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         MI                  Population        8,583        7,297    85%          1,142        13%         74          1%              9      0%              1      0%         60          1%
         Lake County         Borrowers             0            0     0%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Farms               101          101   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms    18,047       18,047   100%              0         0%          0          0%              0      0%              0      0%          0          0%

         MI                  Population       74,768       72,225    97%            473         1%        307          0%        262          0%              8      0%      1,493          2%
         Lapeer County       Borrowers            36           36   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms             1,119        1,114   100%              0         0%          0          0%          0          0%              0      0%          5          0%
                             Land in Farms   193,956      193,504   100%              0         0%          0          0%          0          0%              0      0%        452          0%

         MI                  Population       16,527       15,836    96%             16         0%        445          3%         39          0%              3      0%        188          1%
         Leelanau County     Borrowers            43           43   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               374          374   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    64,973       64,973   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         MI                  Population       91,476       83,805    92%          1,367         1%        246          0%        464          1%         79          0%      5,515          6%
         Lenawee County      Borrowers           120          120   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                             Farms             1,259        1,253   100%              0         0%          0          0%          0          0%          0          0%          6          0%
                             Land in Farms   336,273      333,488    99%              0         0%          0          0%          0          0%          0          0%      2,785          1%

         MI                  Population      115,645      112,827    98%            668         1%        674          1%        476          0%         26          0%        974          1%
         Livingston County   Borrowers            13           13   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                             Farms               683          676    99%              0         0%          3          0%          0          0%          0          0%          4          1%
                             Land in Farms   118,764      118,478   100%              0         0%          0          0%          0          0%          0          0%        286          0%

         MI                  Population        5,763        5,401    94%                 2      0%        327          6%              6      0%              0      0%         27          0%
         Luce County         Borrowers             2            2   100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Farms                31           31   100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms     9,391        9,391   100%                 0      0%          0          0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 720
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian              Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                 Population       10,674        8,933    84%                 5      0%      1,691     16%         11      0%              1      0%         33       0%
         Mackinac County    Borrowers             8            8   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                70           67    96%                 0      0%          3      4%          0      0%              0      0%          0       0%
                            Land in Farms    22,178       22,178   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population      717,400      687,480    96%         10,313         1%      2,529      0%      8,895      1%        205          0%      7,978       1%
         Macomb County      Borrowers             3            3   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               558          555    99%              0         0%          3      1%          0      0%          0          0%          0       0%
                            Land in Farms    70,306       70,259   100%              0         0%         47      0%          0      0%          0          0%          0       0%

         MI                 Population       21,265       20,647    97%             54         0%        186      1%         52      0%              3      0%        323       2%
         Manistee County    Borrowers             8            8   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               252          252   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    48,029       48,029   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       70,887       67,687    95%          1,149         2%        933      1%        523      1%         29          0%        566       1%
         Marquette County   Borrowers             5            5   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms                84           84   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    23,290       23,290   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       25,537       24,731    97%            152         1%        177      1%         75      0%              3      0%        399       2%
         Mason County       Borrowers            19           19   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               402          402   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    73,437       73,437   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       37,308       35,497    95%            968         3%        247      1%        183      0%         24          0%        389       1%
         Mecosta County     Borrowers            12           12   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               592          592   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   121,153      121,153   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population       24,920       24,413    98%                 7      0%        382      2%         58      0%              1      0%         59       0%
         Menominee County   Borrowers            23           23   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               309          309   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   110,014      110,014   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       75,651       72,788    96%            706         1%        311      0%        785      1%         26          0%      1,035       1%
         Midland County     Borrowers            15           15   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               442          442   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    89,173       89,173   100%              0         0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 721
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                 Population        12,147        11,978    99%                 3      0%         74      1%         25      0%              0      0%         67       1%
         Missaukee County   Borrowers             43            43   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                289           289   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     88,322        88,322   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         MI                 Population       133,600       128,188    96%          2,308         2%        430      0%        570      0%         27          0%      2,077       2%
         Monroe County      Borrowers             73            72    99%              0         0%          1      1%          0      0%          0          0%          0       0%
                            Farms              1,135         1,125    99%              7         1%          0      0%          0      0%          0          0%          3       0%
                            Land in Farms    217,095       217,095   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population        53,059        50,714    96%            949         2%        352      1%        144      0%         12          0%        888       2%
         Montcalm County    Borrowers             44            42    95%              0         0%          1      2%          0      0%          0          0%          1       2%
                            Farms                900           896   100%              0         0%          0      0%          0      0%          0          0%          4       0%
                            Land in Farms    224,030       220,835    99%              0         0%          0      0%          0      0%          0          0%      3,195       1%

         MI                 Population         8,936         8,815    99%                 1      0%         47      1%         10      0%              3      0%         60       1%
         Montmorency        Borrowers             15            15   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
         County             Farms                112           108    96%                 0      0%          4      4%          0      0%              0      0%          0       0%
                            Land in Farms     22,056        21,770    99%                 0      0%        286      1%          0      0%              0      0%          0       0%

         MI                 Population       158,983       132,045    83%         21,444        13%      1,236      1%        536      0%         99          0%      3,623       2%
         Muskegon County    Borrowers             14            14   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms                417           417   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms     73,661        73,661   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population        38,202        36,433    95%            465         1%        229      1%         91      0%         16          0%        968       3%
         Newaygo County     Borrowers             15            15   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms                667           664   100%              0         0%          0      0%          0      0%          0          0%          3       0%
                            Land in Farms    115,338       114,873   100%              0         0%          0      0%          0      0%          0          0%        465       0%

         MI                 Population      1,083,592      958,300    88%         76,801         7%      3,659      0%     24,643      2%        559          0%     19,630       2%
         Oakland County     Borrowers               5            5   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms                 503          503   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms      48,236       48,236   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                 Population        22,454        20,729    92%             58         0%        222      1%         39      0%         16          0%      1,390       6%
         Oceana County      Borrowers             18            18   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms                594           585    98%              0         0%          3      1%          0      0%          0          0%          6       1%
                            Land in Farms    129,083       128,769   100%              0         0%          0      0%          0      0%          0          0%        314       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 722
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian                  Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         MI                    Population       18,681       18,405    99%             18         0%        134      1%         17          0%              3      0%        104       1%
         Ogemaw County         Borrowers            11           11   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Farms               261          261   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms    75,345       75,345   100%              0         0%          0      0%          0          0%              0      0%          0       0%

         MI                    Population        8,854        8,695    98%                 4      0%        105      1%         15          0%              0      0%         35       0%
         Ontonagon County      Borrowers            11           11   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                               Farms                95           95   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms    32,980       32,980   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

         MI                    Population       20,146       19,785    98%             54         0%        116      1%         43          0%              5      0%        143       1%
         Osceola County        Borrowers            23           23   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Farms               458          452    99%              0         0%          0      0%          0          0%              0      0%          6       1%
                               Land in Farms   108,726      107,577    99%              0         0%          0      0%          0          0%              0      0%      1,149       1%

         MI                    Population        7,842        7,741    99%                 2      0%         41      1%              5      0%              3      0%         50       1%
         Oscoda County         Borrowers             6            6   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                               Farms                76           76   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                               Land in Farms    14,081       14,081   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         MI                    Population       17,957       17,682    98%             18         0%        103      1%         82          0%              5      0%         67       0%
         Otsego County         Borrowers             0            0     0%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Farms               133          133   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms    36,272       36,272   100%              0         0%          0      0%          0          0%              0      0%          0       0%

         MI                    Population      187,768      175,857     94%           937         0%        577      0%      2,388          1%         62          0%      7,947       4%
         Ottawa County         Borrowers            77           75     97%             0         0%          0      0%          0          0%          0          0%          2       3%
                               Farms             1,367        1,358     99%             0         0%          0      0%          0          0%          0          0%          9       1%
                               Land in Farms   176,305      175,177     99%             0         0%          0      0%          0          0%          0          0%      1,128       1%

         MI                    Population       13,743       13,622    99%             11         0%         43      0%         30          0%              0      0%         37       0%
         Presque Isle County   Borrowers            20           20   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Farms               278          278   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms    79,921       79,921   100%              0         0%          0      0%          0          0%              0      0%          0       0%

         MI                    Population       19,776       19,521    99%             37         0%        101      1%         23          0%              0      0%         94       0%
         Roscommon County      Borrowers             0            0     0%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Farms                36           36   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms     3,786        3,786   100%              0         0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 723
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         MI                   Population      211,946      160,331    76%         36,273        17%        775      0%      1,226      1%        155          0%     13,186       6%
         Saginaw County       Borrowers            29           29   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,294        1,285    99%              0         0%          0      0%          0      0%          0          0%          9       1%
                              Land in Farms   318,125      317,036   100%              0         0%          0      0%          0      0%          0          0%      1,089       0%

         MI                   Population      145,607      138,894     95%         2,942         2%        698      0%        458      0%         57          0%      2,558       2%
         St. Clair County     Borrowers            16           15     94%             0         0%          1      6%          0      0%          0          0%          0       0%
                              Farms               988          977     99%             3         0%          0      0%          0      0%          0          0%          8       1%
                              Land in Farms   181,569      179,560     99%             0         0%          0      0%          0      0%          0          0%      2,009       1%

         MI                   Population       58,913       56,296    96%          1,592         3%        209      0%        255      0%         15          0%        546       1%
         St. Joseph County    Borrowers            47           47   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms               855          855   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   234,823      234,823   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         MI                   Population       39,928       38,725    97%             38         0%        191      0%         59      0%         10          0%        905       2%
         Sanilac County       Borrowers            79           79   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,433        1,426   100%              0         0%          0      0%          0      0%          0          0%          7       0%
                              Land in Farms   444,407      443,093   100%              0         0%          0      0%          0      0%          0          0%      1,314       0%

         MI                   Population        8,302        7,732    93%                 7      0%        518      6%         13      0%              0      0%         32       0%
         Schoolcraft County   Borrowers             8            8   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms                49           49   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    13,908       13,908   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         MI                   Population       69,770       68,041    98%             92         0%        356      1%        209      0%         19          0%      1,053       2%
         Shiawassee County    Borrowers            41           40    98%              0         0%          1      2%          0      0%          0          0%          0       0%
                              Farms             1,086        1,082   100%              0         0%          0      0%          0      0%          0          0%          4       0%
                              Land in Farms   236,799      236,482   100%              0         0%          0      0%          0      0%          0          0%        317       0%

         MI                   Population       55,498       53,344    96%            469         1%        319      1%        197      0%         19          0%      1,150       2%
         Tuscola County       Borrowers            40           39    98%              1         3%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,128        1,121    99%              4         0%          0      0%          0      0%          0          0%          3       0%
                              Land in Farms   324,111      323,728   100%              0         0%          0      0%          0      0%          0          0%        383       0%

         MI                   Population       70,060       62,337     89%         4,643         7%        597      1%        192      0%         37          0%      2,254       3%
         Van Buren County     Borrowers            88           83     94%             4         5%          0      0%          0      0%          0          0%          1       1%
                              Farms             1,164        1,111     95%            35         3%          0      0%          0      0%          0          0%         18       2%
                              Land in Farms   206,781      203,267     98%         2,046         1%          0      0%          0      0%          0          0%      1,468       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 724
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American             Asian               Other                 Hispanic
                                               Total        Number     Percent     Number     Percent   Number   Percent   Number    Percent   Number       Percent   Number    Percent
         MI                 Population        282,937       232,938     82%         31,334      11%        987      0%      11,598      4%        349          0%       5,731      2%
         Washtenaw County   Borrowers              62            62    100%              0       0%          0      0%           0      0%          0          0%           0      0%
                            Farms               1,057         1,046     99%              8       1%          0      0%           0      0%          0          0%           3      0%
                            Land in Farms     188,958       188,576    100%            285       0%          0      0%           0      0%          0          0%          97      0%

         MI                 Population       2,111,687     1,185,576    56%        845,324      40%      7,442      0%      21,046      1%      1,793          0%      50,506      2%
         Wayne County       Borrowers               11            10    91%              1       9%          0      0%           0      0%          0          0%           0      0%
                            Farms                  303           290    96%              5       2%          0      0%           0      0%          0          0%           8      3%
                            Land in Farms       22,488        22,395   100%              0       0%          0      0%           0      0%          0          0%          93      0%

         MI                 Population         26,360        25,921     98%             33       0%        172      1%         80       0%              1      0%        153       1%
         Wexford County     Borrowers               8             8    100%              0       0%          0      0%          0       0%              0      0%          0       0%
                            Farms                 178           178    100%              0       0%          0      0%          0       0%              0      0%          0       0%
                            Land in Farms      31,427        31,427    100%              0       0%          0      0%          0       0%              0      0%          0       0%

         MI                 Population       9,295,297     7,649,951    82%       1,282,744     14%     52,571      1%     102,506      1%      5,929          0%     201,596      2%
         STATE              Borrowers            2,203         2,174    99%              10      0%          9      0%           0      0%          1          0%           9      0%
                            Farms               46,562        46,269    99%              94      0%         37      0%           0      0%          0          0%         162      0%
                            Land in Farms   10,088,170    10,060,272   100%           2,331      0%      1,404      0%           0      0%          0          0%      24,163      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 725
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ALCONA, MICHIGAN                                   ALGER, MICHIGAN                                   ALLEGAN, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       23                        8                      5                          4                         44                       16
                              Loans                           62                       16                     24                         14                         84                       29
                              Principal and Interest   2,519,002                  170,403                840,539                     88,307                  6,010,183                  314,785
WHITE                         Borrowers                       23       100%             8     100%             5        100%              4        100%             43         98%           16     100%
                              Loans                           62       100%            16     100%            24        100%             14        100%             83         99%           29     100%
                              Principal and Interest   2,519,002       100%       170,403     100%       840,539        100%         88,307        100%      5,879,542         98%      314,785     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%            1           2%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            1           1%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%      130,642           2%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 726
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ALPENA, MICHIGAN                                 ANTRIM, MICHIGAN                                     ARENAC, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       29                       12                      29                         5                         21                        8
                              Loans                          109                       29                      77                        10                         59                       32
                              Principal and Interest   4,777,056                  306,128               4,112,936                    77,758                  3,195,351                  696,232
WHITE                         Borrowers                       29       100%            12     100%             29       100%              5        100%             21       100%             8     100%
                              Loans                          109       100%            29     100%             77       100%             10        100%             59       100%            32     100%
                              Principal and Interest   4,777,056       100%       306,128     100%      4,112,936       100%         77,758        100%      3,195,351       100%       696,232     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 727
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           BARAGA, MICHIGAN                                   BARRY, MICHIGAN                                        BAY, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                           0                    24                        4                          34                       10
                              Loans                          10                           0                    55                        8                          96                       40
                              Principal and Interest    275,719                           0             3,285,266                  124,289                   3,631,286                  376,182
WHITE                         Borrowers                       4        100%               0      0%            24       100%             4         100%             34       100%            10     100%
                              Loans                          10        100%               0      0%            55       100%             8         100%             96       100%            40     100%
                              Principal and Interest    275,719        100%               0      0%     3,285,266       100%       124,289         100%      3,631,286       100%       376,182     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 728
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BENZIE, MICHIGAN                                BERRIEN, MICHIGAN                                    BRANCH, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       9                          2                     64                       30                          34                        11
                              Loans                          26                          8                    156                       57                          84                        37
                              Principal and Interest    945,253                     53,592              9,257,450                  782,880                   6,097,776                 1,281,746
WHITE                         Borrowers                       9        100%              2    100%             63         98%           29           97%            34       100%             11    100%
                              Loans                          26        100%              8    100%            152         97%           53           93%            84       100%             37    100%
                              Principal and Interest    945,253        100%         53,592    100%      8,973,177         97%      721,903           92%     6,097,776       100%      1,281,746    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%            1           2%             1           3%                 0      0%              0      0%
                              Loans                                0      0%              0      0%            4           3%             4           7%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%      284,273           3%        60,977           8%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 729
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CALHOUN, MICHIGAN                                      CASS, MICHIGAN                               CHARLEVOIX, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       41                       13                      46                       17                          12                        1
                              Loans                           86                       31                     124                       48                          34                        5
                              Principal and Interest   5,657,198                  280,324               8,423,375                  866,397                   2,837,008                  223,939
WHITE                         Borrowers                       40         98%           13     100%             43         93%           15           88%            12       100%             1     100%
                              Loans                           81         94%           31     100%            114         92%           42           88%            34       100%             5     100%
                              Principal and Interest   3,792,441         67%      280,324     100%      7,904,848         94%      776,828           90%     2,837,008       100%       223,939     100%
AFRICAN AMERICAN              Borrowers                        1          2%              0      0%            2           4%             2          12%                 0      0%              0      0%
                              Loans                            5          6%              0      0%            9           7%             6          13%                 0      0%              0      0%
                              Principal and Interest   1,864,757         33%              0      0%      478,431           6%        89,569          10%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%             1          2%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             1          1%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%        40,096          0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 730
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CHEBOYGAN, MICHIGAN                                CHIPPEWA, MICHIGAN                                       CLARE, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       12                        6                      23                         6                        11                          3
                              Loans                           57                       18                      57                        15                        21                          9
                              Principal and Interest   2,159,492                  302,682               2,911,606                    54,707                   883,095                     12,589
WHITE                         Borrowers                       12       100%             6     100%             23       100%              6        100%            11        100%              3    100%
                              Loans                           57       100%            18     100%             57       100%             15        100%            21        100%              9    100%
                              Principal and Interest   2,159,492       100%       302,682     100%      2,911,606       100%         54,707        100%       883,095        100%         12,589    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 731
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CLINTON, MICHIGAN                              CRAWFORD, MICHIGAN                                        DELTA, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       35                         9                     1                               0                    16                         5
                              Loans                           79                        14                     1                               0                    74                        14
                              Principal and Interest   4,234,757                    58,553               103,434                               0             2,174,391                    64,597
WHITE                         Borrowers                       34         97%             8      89%            1        100%                   0      0%            16       100%              5    100%
                              Loans                           78         99%            13      93%            1        100%                   0      0%            74       100%             14    100%
                              Principal and Interest   4,211,908         99%        56,297      96%      103,434        100%                   0      0%     2,174,391       100%         64,597    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                       1           3%             1      11%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                           1           1%             1       7%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest     22,849           1%         2,256       4%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 732
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        DICKINSON, MICHIGAN                                   EATON, MICHIGAN                                     EMMET, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       8                         5                      41                       10                           9                        7
                              Loans                          22                        13                     110                       34                          38                       24
                              Principal and Interest    791,304                   157,066               5,615,874                  629,632                   1,426,908                  115,911
WHITE                         Borrowers                       8        100%             5     100%             38         93%           10         100%              9       100%             7     100%
                              Loans                          22        100%            13     100%             92         84%           34         100%             38       100%            24     100%
                              Principal and Interest    791,304        100%       157,066     100%      4,729,024         84%      629,632         100%      1,426,908       100%       115,911     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%            1           2%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%            5           5%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      167,974           3%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%            2           5%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%           13          12%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      718,876          13%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 733
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          GENESEE, MICHIGAN                                GLADWIN, MICHIGAN                                    GOGEBIC, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                        4                      14                        8                          3                         2
                              Loans                           45                       11                      59                       45                          7                         5
                              Principal and Interest   3,045,631                  117,409               3,110,052                  875,740                    354,528                   155,125
WHITE                         Borrowers                       15       100%             4     100%             14       100%             8         100%             3        100%             2     100%
                              Loans                           45       100%            11     100%             59       100%            45         100%             7        100%             5     100%
                              Principal and Interest   3,045,631       100%       117,409     100%      3,110,052       100%       875,740         100%       354,528        100%       155,125     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 734
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GRAND TRAVERSE, MICHIGAN                              GRATIOT, MICHIGAN                                    HILLSDALE, MICHIGAN
                                                         Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        40                        11                      54                       21                           85                         38
                              Loans                           115                        36                     105                       39                          184                         80
                              Principal and Interest    7,117,170                   909,878               6,393,491                  441,445                   12,687,785                  1,437,332
WHITE                         Borrowers                        40        100%            11     100%             54       100%            21         100%              85        100%             38    100%
                              Loans                           115        100%            36     100%            105       100%            39         100%             184        100%             80    100%
                              Principal and Interest    7,117,170        100%       909,878     100%      6,393,491       100%       441,445         100%      12,687,785        100%      1,437,332    100%
AFRICAN AMERICAN              Borrowers                              0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                              0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
ASIAN                         Borrowers                              0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
OTHER                         Borrowers                              0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
HISPANIC                      Borrowers                              0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%
                              Prinicpal and Interest                 0      0%              0      0%                 0      0%                  0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 735
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        HOUGHTON, MICHIGAN                                   HURON, MICHIGAN                                     INGHAM, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       5                          1                     32                        7                          43                        14
                              Loans                          13                          2                     86                       16                         107                        37
                              Principal and Interest    337,379                      1,948              4,874,215                  102,375                   9,797,777                 1,865,289
WHITE                         Borrowers                       5        100%              1    100%             32       100%             7         100%             41         95%            13      93%
                              Loans                          13        100%              2    100%             86       100%            16         100%            102         95%            34      92%
                              Principal and Interest    337,379        100%          1,948    100%      4,874,215       100%       102,375         100%      9,063,226         93%     1,805,559      97%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%            2           5%             1       7%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            5           5%             3       8%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      734,551           7%        59,730       3%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 736
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              IONIA, MICHIGAN                                  IOSCO, MICHIGAN                                       IRON, MICHIGAN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        63                        23                     5                          2                         6                          4
                              Loans                           158                        55                    11                          2                        16                          9
                              Principal and Interest   10,645,236                 1,615,747               818,142                     20,593                   793,529                     44,106
WHITE                         Borrowers                        61         97%            22      96%            5        100%              2        100%             5          83%             3      75%
                              Loans                           156         99%            54      98%           11        100%              2        100%            15          94%             8      89%
                              Principal and Interest   10,445,355         98%     1,597,634      99%      818,142        100%         20,593        100%       578,748          73%        39,106      89%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%            1          17%             1      25%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%            1           6%             1      11%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%      214,781          27%         5,000      11%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1           2%             1       4%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            1           1%             1       2%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest      42,280           0%        18,113       1%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                        1           2%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            1           1%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest     157,601           1%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 737
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         ISABELLA, MICHIGAN                                JACKSON, MICHIGAN                                 KALAMAZOO, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                         5                     46                        14                         42                       23
                              Loans                           72                        11                    102                        45                         85                       52
                              Principal and Interest   3,167,144                    56,425              8,009,238                 1,240,558                  6,025,604                  519,318
WHITE                         Borrowers                       33       100%              5    100%             46       100%             14        100%             42       100%            23     100%
                              Loans                           72       100%             11    100%            102       100%             45        100%             85       100%            52     100%
                              Principal and Interest   3,167,144       100%         56,425    100%      8,009,238       100%      1,240,558        100%      6,025,604       100%       519,318     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 738
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        KALKASKA, MICHIGAN                                      KENT, MICHIGAN                                     LAPEER, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       2                           0                     29                         9                         36                       16
                              Loans                           6                           0                     76                        36                        118                       52
                              Principal and Interest    830,304                           0             12,693,625                 4,486,046                  7,510,634                  883,683
WHITE                         Borrowers                       2        100%               0      0%             29       100%              9        100%             36       100%            16     100%
                              Loans                           6        100%               0      0%             76       100%             36        100%            118       100%            52     100%
                              Principal and Interest    830,304        100%               0      0%     12,693,625       100%      4,486,046        100%      7,510,634       100%       883,683     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 739
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LEELANAU, MICHIGAN                                 LENAWEE, MICHIGAN                                  LIVINGSTON, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       43                        9                      120                        45                         13                         7
                              Loans                          117                       16                      373                       153                         26                        12
                              Principal and Interest   6,702,790                  227,778               23,335,582                 1,910,579                  1,331,767                    91,386
WHITE                         Borrowers                       43       100%             9     100%             120       100%             45        100%             13       100%              7    100%
                              Loans                          117       100%            16     100%             373       100%            153        100%             26       100%             12    100%
                              Principal and Interest   6,702,790       100%       227,778     100%      23,335,582       100%      1,910,579        100%      1,331,767       100%         91,386    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 740
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              LUCE, MICHIGAN                             MACKINAC, MICHIGAN                                     MACOMB, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       2                           0                     8                         2                         3                          1
                              Loans                           6                           0                    27                         3                         4                          2
                              Principal and Interest    279,567                           0             1,299,157                    15,687                   420,115                     28,118
WHITE                         Borrowers                       2        100%               0      0%             8       100%              2        100%             3        100%              1    100%
                              Loans                           6        100%               0      0%            27       100%              3        100%             4        100%              2    100%
                              Principal and Interest    279,567        100%               0      0%     1,299,157       100%         15,687        100%       420,115        100%         28,118    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 741
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         MANISTEE, MICHIGAN                             MARQUETTE, MICHIGAN                                       MASON, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        8                        4                      5                          1                         19                        6
                              Loans                           45                       27                      8                          1                         68                       30
                              Principal and Interest   2,521,560                  457,223                421,364                      2,000                  4,166,657                  646,283
WHITE                         Borrowers                        8       100%             4     100%             5        100%              1        100%             19       100%             6     100%
                              Loans                           45       100%            27     100%             8        100%              1        100%             68       100%            30     100%
                              Principal and Interest   2,521,560       100%       457,223     100%       421,364        100%          2,000        100%      4,166,657       100%       646,283     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 742
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         MECOSTA, MICHIGAN                              MENOMINEE, MICHIGAN                                     MIDLAND, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       12                         2                     23                         8                         15                         3
                              Loans                           23                         2                     68                        16                         32                         4
                              Principal and Interest   1,193,093                     7,363              2,785,617                    77,306                  1,818,830                    41,669
WHITE                         Borrowers                       12       100%              2    100%             23       100%              8        100%             15       100%              3    100%
                              Loans                           23       100%              2    100%             68       100%             16        100%             32       100%              4    100%
                              Principal and Interest   1,193,093       100%          7,363    100%      2,785,617       100%         77,306        100%      1,818,830       100%         41,669    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 743
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MISSAUKEE, MICHIGAN                                  MONROE, MICHIGAN                                  MONTCALM, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       43                       12                       73                        26                         44                        15
                              Loans                           97                       24                      270                       112                        108                        41
                              Principal and Interest   7,026,911                  986,391               22,115,795                 4,781,251                  7,860,957                 1,696,848
WHITE                         Borrowers                       43       100%            12     100%              72        99%             25         96%             42         95%            13      87%
                              Loans                           97       100%            24     100%             269       100%            111         99%             99         92%            35      85%
                              Principal and Interest   7,026,911       100%       986,391     100%      22,055,539       100%      4,780,122        100%      7,321,217         93%     1,627,062      96%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%              1          1%             1           4%            1           2%             1       7%
                              Loans                                0      0%              0      0%              1          0%             1           1%            5           5%             5      12%
                              Principal and Interest               0      0%              0      0%         60,255          0%         1,129           0%      498,914           6%        68,315       4%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%                  0      0%            1           2%             1       7%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%            4           4%             1       2%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%       40,826           1%         1,470       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 744
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MONTMORENCY, MICHIGAN                              MUSKEGON, MICHIGAN                                    NEWAYGO, MICHIGAN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                         6                      14                        6                          15                         6
                              Loans                           52                        19                      29                        9                          29                         9
                              Principal and Interest   1,719,139                   143,396               3,111,443                  115,135                   1,906,512                    70,596
WHITE                         Borrowers                       15        100%             6     100%             14       100%             6         100%             15       100%              6    100%
                              Loans                           52        100%            19     100%             29       100%             9         100%             29       100%              9    100%
                              Principal and Interest   1,719,139        100%       143,396     100%      3,111,443       100%       115,135         100%      1,906,512       100%         70,596    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 745
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         OAKLAND, MICHIGAN                                  OCEANA, MICHIGAN                                    OGEMAW, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                        3                      18                        9                          11                         3
                              Loans                           10                        6                      55                       36                          38                         9
                              Principal and Interest   1,212,127                  417,669               3,361,087                  853,702                   1,354,772                    69,368
WHITE                         Borrowers                        5       100%             3     100%             18       100%             9         100%             11       100%              3    100%
                              Loans                           10       100%             6     100%             55       100%            36         100%             38       100%              9    100%
                              Principal and Interest   1,212,127       100%       417,669     100%      3,361,087       100%       853,702         100%      1,354,772       100%         69,368    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 746
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ONTONAGON, MICHIGAN                                 OSCEOLA, MICHIGAN                                     OSCODA, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         3                     23                         5                         6                          3
                              Loans                           38                         7                     48                        11                        12                          5
                              Principal and Interest   1,130,765                     9,481              2,563,404                    97,839                   549,995                     14,452
WHITE                         Borrowers                       11       100%              3    100%             23       100%              5        100%             6        100%              3    100%
                              Loans                           38       100%              7    100%             48       100%             11        100%            12        100%              5    100%
                              Principal and Interest   1,130,765       100%          9,481    100%      2,563,404       100%         97,839        100%       549,995        100%         14,452    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 747
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           OTTAWA, MICHIGAN                              PRESQUE ISLE, MICHIGAN                                  SAGINAW, MICHIGAN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        77                        26                     20                        12                         29                        8
                              Loans                           212                        65                     47                        20                         49                       15
                              Principal and Interest   15,842,691                 2,056,172              2,728,663                    72,229                  3,341,463                  174,109
WHITE                         Borrowers                        75         97%            26    100%             20       100%             12        100%             29       100%             8     100%
                              Loans                           208         98%            65    100%             47       100%             20        100%             49       100%            15     100%
                              Principal and Interest   15,435,452         97%     2,056,172    100%      2,728,663       100%         72,229        100%      3,341,463       100%       174,109     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                        2           3%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            4           2%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest     407,239           3%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 748
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           SANILAC, MICHIGAN                             SCHOOLCRAFT, MICHIGAN                                SHIAWASSEE, MICHIGAN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        79                        41                      8                         3                         41                       13
                              Loans                           232                       136                     33                         9                         73                       24
                              Principal and Interest   14,586,202                 1,396,102              1,518,840                    29,886                  4,688,634                  374,814
WHITE                         Borrowers                        79       100%             41    100%              8       100%              3        100%             40        98%            12       92%
                              Loans                           232       100%            136    100%             33       100%              9        100%             72        99%            23       96%
                              Principal and Interest   14,586,202       100%      1,396,102    100%      1,518,840       100%         29,886        100%      4,673,733       100%       371,202       99%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%            1           2%             1       8%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%            1           1%             1       4%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%       14,901           0%         3,612       1%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 749
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          ST CLAIR, MICHIGAN                              ST JOSEPH, MICHIGAN                                   TUSCOLA, MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                        9                      47                       13                          40                       14
                              Loans                           63                       39                     108                       40                          81                       28
                              Principal and Interest   4,104,870                  732,214               7,253,286                  160,441                   4,743,705                  240,235
WHITE                         Borrowers                       15         94%            9     100%             47       100%            13         100%             39         98%           13       93%
                              Loans                           61         97%           39     100%            108       100%            40         100%             80         99%           27       96%
                              Principal and Interest   3,770,276         92%      732,214     100%      7,253,286       100%       160,441         100%      4,675,379         99%      232,721       97%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            1           3%             1       7%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            1           1%             1       4%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%       68,326           1%         7,513       3%
NATIVE AMERICAN               Borrowers                       1           6%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                           2           3%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest    334,594           8%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 750
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         VAN BUREN, MICHIGAN                              WASHTENAW, MICHIGAN                                       WAYNE, MICHIGAN
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        88                        39                      62                        20                         11                         2
                              Loans                           233                       117                     199                        58                         23                         2
                              Principal and Interest   19,198,579                 3,473,970              15,329,071                 1,167,931                  1,457,333                    32,737
WHITE                         Borrowers                        83         94%            34      87%             62       100%             20        100%             10         91%             2    100%
                              Loans                           220         94%           105      90%            199       100%             58        100%             22         96%             2    100%
                              Principal and Interest   18,309,446         95%     3,375,376      97%     15,329,071       100%      1,167,931        100%      1,355,674         93%        32,737    100%
AFRICAN AMERICAN              Borrowers                        4           5%             4      10%                  0      0%                  0      0%            1           9%              0      0%
                              Loans                           12           5%            11       9%                  0      0%                  0      0%            1           4%              0      0%
                              Principal and Interest     871,191           5%        85,011       2%                  0      0%                  0      0%      101,660           7%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                        1           1%             1       3%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                            1            0             1        0                  0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest      17,942            0        13,583        0                  0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 751
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WEXFORD, MICHIGAN                                   STATE OF MICHIGAN
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent    Delinquent       Percent
TOTAL                         Borrowers                        8                        3                     2,203                        782
                              Loans                           34                       18                     5,880                      2,163
                              Principal and Interest   1,458,096                  556,160               376,818,182                 45,040,236
WHITE                         Borrowers                        8       100%             3     100%            2,174         99%        765              98%
                              Loans                           34       100%            18     100%            5,801         99%      2,126              98%
                              Principal and Interest   1,458,096       100%       556,160     100%      369,545,224         98% 44,623,956              99%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%              10          0%             7            1%
                              Loans                                0      0%              0      0%              33          1%            18            1%
                              Principal and Interest               0      0%              0      0%       3,552,339          1%       182,093            0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%               9          0%             5            1%
                              Loans                                0      0%              0      0%              28          0%            11            1%
                              Principal and Interest               0      0%              0      0%       2,576,872          1%       137,786            0%
ASIAN                         Borrowers                            0      0%              0      0%                   0      0%                   0      0%
                              Loans                                0      0%              0      0%                   0      0%                   0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%                   0      0%
OTHER                         Borrowers                            0      0%              0      0%               1          0%              1           0%
                              Loans                                0      0%              0      0%               1          0%              1           0%
                              Principal and Interest               0      0%              0      0%          42,280          0%         18,113           0%
HISPANIC                      Borrowers                            0      0%              0      0%               9          0%              4           1%
                              Loans                                0      0%              0      0%              17          0%              7           0%
                              Prinicpal and Interest               0      0%              0      0%       1,101,468          0%         78,286           0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                            Page 752
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MI ALPENA                Approved   No. of Applications                23        23   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        17                   0                0                0               0
                                     Completion to Approval                       16                   0                0                0               0
                                     Approval to Loan Closing                     17                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        32                   0                0                 0              0
                                    Completion to Withdrawn                      34                   0                0                 0              0

  MI   ARENAC             Approved   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       30                   0                0                 0              0
                                     Completion to Approval                       7                   0                0                 0              0
                                     Approval to Loan Closing                    22                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 10       10    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         4                   0                0                 0              0
                                    Completion to Withdrawn                       9                   0                0                 0              0

  MI   BARRY              Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Approval                       6                   0                0                 0              0
                                     Approval to Loan Closing                    18                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                   0                0                 0              0
                                    Completion to Withdrawn                      21                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 753
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State   Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 MI B0IEN                  Approved   No. of Applications                25        21   84%             1   4%            0   0%           0   0%          3    12%
                                      Receipt to Completion                        35                  63                 0                0              55
                                      Completion to Approval                       31                  42                 0                0              30
                                      Approval to Loan Closing                     33                  59                 0                0              34

                           Rejected   No. of Applications                10        9    90%            1    10%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       28                   0                 0                 0              0
                                      Completion to Rejected                      27                   0                 0                 0              0

                           Withdrawn No. of Applications                 3         3    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        27                   0                 0                 0              0
                                     Completion to Withdrawn                      57                   0                 0                 0              0

  MI   CALHOUND            Approved   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       33                   0                 0                 0              0
                                      Completion to Approval                       3                   0                 0                 0              0
                                      Approval to Loan Closing                    16                   0                 0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0

  MI   CHIPPEWA            Approved   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Approval                       0                   0                 0                 0              0
                                      Approval to Loan Closing                     0                   0                 0                 0              0

                           Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                      15                   0                 0                 0              0

                           Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 754
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
 MI DELTA                 Approved   No. of Applications                17        17   100%            0   0%           0   0%            0   0%          0     0%
                                     Receipt to Completion                        39                   0                0                 0               0
                                     Completion to Approval                       10                   0                0                 0               0
                                     Approval to Loan Closing                     37                   0                0                 0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                  0              0
                                     Completion to Rejected                       0                   0                0                  0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                  0              0
                                    Completion to Withdrawn                       0                   0                0                  0              0

  MI   EATON              Approved   No. of Applications                5         2    40%            0    0%          3    60%           0   0%         0      0%
                                     Receipt to Completion                      148                   0               48                  0              0
                                     Completion to Approval                     182                   0               18                  0              0
                                     Approval to Loan Closing                    30                   0               19                  0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                  0              0
                                     Completion to Rejected                       0                   0                0                  0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                  0              0
                                    Completion to Withdrawn                       0                   0                0                  0              0

  MI   EMMET              Approved   No. of Applications                1         1    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       19                   0                0                  0              0
                                     Completion to Approval                      50                   0                0                  0              0
                                     Approval to Loan Closing                    15                   0                0                  0              0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       26                   0                0                  0              0
                                     Completion to Rejected                       0                   0                0                  0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                  0              0
                                    Completion to Withdrawn                       0                   0                0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 755
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MI GRAND TRAVERSE        Approved   No. of Applications                12        12   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        21                   0                0                0               0
                                     Completion to Approval                       24                   0                0                0               0
                                     Approval to Loan Closing                     31                   0                0                0               0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   0                0                 0              0
                                     Completion to Rejected                      32                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                   0                0                 0              0
                                    Completion to Withdrawn                      12                   0                0                 0              0

  MI   GRATIOT            Approved   No. of Applications                10       10    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       12                   0                0                 0              0
                                     Completion to Approval                       4                   0                0                 0              0
                                     Approval to Loan Closing                    25                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  MI   HILLSDALE          Approved   No. of Applications                37       37    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       34                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    41                   0                0                 0              0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       29                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 756
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 MI HURON                 Approved   No. of Applications                5         5      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       23                      0                0                0               0
                                     Completion to Approval                      23                      0                0                0               0
                                     Approval to Loan Closing                     9                      0                0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

  MI   IONIA              Approved   No. of Applications                4         4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                     0                0                 0              0
                                     Completion to Approval                      70                     0                0                 0              0
                                     Approval to Loan Closing                    51                     0                0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 2         2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        32                     0                0                 0              0
                                    Completion to Withdrawn                       3                     0                0                 0              0

  MI   ISABELLA           Approved   No. of Applications                15       15      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       47                     0                0                 0              0
                                     Completion to Approval                      19                     0                0                 0              0
                                     Approval to Loan Closing                    49                     0                0                 0              0

                          Rejected   No. of Applications                5         5      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       36                     0                0                 0              0
                                     Completion to Rejected                       1                     0                0                 0              0

                          Withdrawn No. of Applications                 3            3   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 757
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MI LAPEER                Approved   No. of Applications                10        10   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         7                   0                0                0               0
                                     Completion to Approval                       13                   0                0                0               0
                                     Approval to Loan Closing                     12                   0                0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        16                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  MI   LENAWEE            Approved   No. of Applications                44       43    98%            0    0%          1    2%           0   0%         0      0%
                                     Receipt to Completion                       30                   0               18                 0              0
                                     Completion to Approval                      19                   0               18                 0              0
                                     Approval to Loan Closing                    21                   0               15                 0              0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       18                   0                0                 0              0
                                     Completion to Rejected                      14                   0                0                 0              0

                          Withdrawn No. of Applications                 15       15    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        14                   0                0                 0              0
                                    Completion to Withdrawn                      41                   0                0                 0              0

  MI   MASON              Approved   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Approval                       0                   0                0                 0              0
                                     Approval to Loan Closing                     0                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        3                   0                0                 0              0
                                     Completion to Rejected                      75                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        35                   0                0                 0              0
                                    Completion to Withdrawn                      20                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 758
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
 MI MECOSTA               Approved   No. of Applications                3           3   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                          0                   0                0                0               0
                                     Completion to Approval                         2                   0                0                0               0
                                     Approval to Loan Closing                       3                   0                0                0               0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

  MI   MONTCALM           Approved   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      92                     0                0                 0              0
                                     Completion to Approval                     12                     0                0                 0              0
                                     Approval to Loan Closing                    3                     0                0                 0              0

                          Rejected   No. of Applications                3           2   67%            0    0%          0    0%           0   0%         1     33%
                                     Receipt to Completion                          9                  0                0                 0             96
                                     Completion to Rejected                         0                  0                0                 0             17

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

  MI   OGEMAW             Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       3                     0                0                 0              0
                                     Completion to Approval                     33                     0                0                 0              0
                                     Approval to Loan Closing                   16                     0                0                 0              0

                          Rejected   No. of Applications                1           1   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 4           4   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 759
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MI OTTAWA                Approved   No. of Applications                15        14   93%             0   0%           0   0%           0   0%          1     7%
                                     Receipt to Completion                        23                   0                0                0              14
                                     Completion to Approval                       16                   0                0                0              10
                                     Approval to Loan Closing                     51                   0                0                0              25

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        2                   0                0                 0              0
                                     Completion to Rejected                      10                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  MI   SANILAC            Approved   No. of Applications                17       17    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       19                   0                0                 0              0
                                     Completion to Approval                      12                   0                0                 0              0
                                     Approval to Loan Closing                    24                   0                0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                   0                0                 0              0
                                     Completion to Rejected                      13                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         5                   0                0                 0              0
                                    Completion to Withdrawn                       9                   0                0                 0              0

  MI   SHIAWASSEE         Approved   No. of Applications                15       15    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       34                   0                0                 0              0
                                     Completion to Approval                      47                   0                0                 0              0
                                     Approval to Loan Closing                    39                   0                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        34                   0                0                 0              0
                                    Completion to Withdrawn                      14                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 760
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State    Servicing Office   Decision           Average Days       Total        White            American           American         Asian              Hispanic
 MI ST. JOSEPH              Approved   No. of Applications                16        16   100%            0   0%            0   0%           0    0%           0     0%
                                       Receipt to Completion                        35                   0                 0                0                 0
                                       Completion to Approval                       13                   0                 0                0                 0
                                       Approval to Loan Closing                     46                   0                 0                0                 0

                            Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0    0%          0      0%
                                       Receipt to Completion                        0                   0                 0                 0                0
                                       Completion to Rejected                       0                   0                 0                 0                0

                            Withdrawn No. of Applications                 6         6    100%           0    0%           0    0%           0    0%          0      0%
                                      Receipt to Completion                         5                   0                 0                 0                0
                                      Completion to Withdrawn                       5                   0                 0                 0                0

  MI   TUSCOLA              Approved   No. of Applications                14       14    100%           0    0%           0    0%           0    0%          0      0%
                                       Receipt to Completion                       19                   0                 0                 0                0
                                       Completion to Approval                      26                   0                 0                 0                0
                                       Approval to Loan Closing                    12                   0                 0                 0                0

                            Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0    0%          0      0%
                                       Receipt to Completion                        0                   0                 0                 0                0
                                       Completion to Rejected                       0                   0                 0                 0                0

                            Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%           0    0%          0      0%
                                      Receipt to Completion                         0                   0                 0                 0                0
                                      Completion to Withdrawn                       0                   0                 0                 0                0

  MI   VAN BUREN            Approved   No. of Applications                15       14    93%            0    0%           0    0%            1   7%          0      0%
                                       Receipt to Completion                       34                   0                 0                 63               0
                                       Completion to Approval                       8                   0                 0                 15               0
                                       Approval to Loan Closing                    64                   0                 0                 15               0

                            Rejected   No. of Applications                6         2    33%            4    67%          0    0%           0    0%          0      0%
                                       Receipt to Completion                       41                  40                 0                 0                0
                                       Completion to Rejected                       0                   5                 0                 0                0

                            Withdrawn No. of Applications                 3         2    67%            0    0%           0    0%            1   33%         0      0%
                                      Receipt to Completion                        23                   0                 0                 63               0
                                      Completion to Withdrawn                      21                   0                 0                  9               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 761
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian             Hispanic
 MI WEXFORD               Approved   No. of Applications                1         1      100%            0   0%            0   0%           0    0%          0     0%
                                     Receipt to Completion                       17                      0                 0                0                0
                                     Completion to Approval                      25                      0                 0                0                0
                                     Approval to Loan Closing                    33                      0                 0                0                0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0    0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0               0
                                     Completion to Rejected                          0                  0                 0                 0               0

                          Withdrawn No. of Applications                 0            0    0%            0    0%           0    0%           0    0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0               0
                                    Completion to Withdrawn                          0                  0                 0                 0               0

  MI   STATE              Approved   No. of Applications           317          307      97%            1    0%           4    1%            1   0%         4      1%
                                     Receipt to Completion                       29                    63                41                 63             45
                                     Completion to Approval                      19                    42                18                 15             25
                                     Approval to Loan Closing                    32                    59                18                 15             32

                          Rejected   No. of Applications                48       42      88%            5    10%          0    0%           0    0%         1      2%
                                     Receipt to Completion                       20                    32                 0                 0              96
                                     Completion to Rejected                      13                     4                 0                 0              17

                          Withdrawn No. of Applications                 81       80      99%            0    0%           0    0%            1   1%         0      0%
                                    Receipt to Completion                        11                     0                 0                 63              0
                                    Completion to Withdrawn                      17                     0                 0                  9              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 762
                            Demographics         764
                        FSA’s Loan Portfolio     775
                        FSA’s Application data   805




USDA/OIG-A/50801-4-Hq                                  763
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      MN                    Population       12,425     12,176    98%             13         0%        169      1%         30      0%              2      0%         35       0%
      Aitkin County         Borrowers            22         22   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               563        563   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   168,073    168,073   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population      243,641    235,340    97%          1,266         1%      1,799      1%      2,876      1%         91          0%      2,269       1%
      Anoka County          Borrowers             3          3   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               507        507   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    61,832     61,832   100%              0         0%          0      0%          0      0%          0          0%          0       0%

      MN                    Population       27,881     25,786    92%             20         0%      1,853      7%        100      0%              2      0%        120       0%
      Becker County         Borrowers            77         73    95%              0         0%          4      5%          0      0%              0      0%          0       0%
                            Farms             1,037      1,033   100%              0         0%          4      0%          0      0%              0      0%          0       0%
                            Land in Farms   377,693    377,693   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       34,384     28,337    82%             98         0%      5,604     16%        194      1%              5      0%        146       0%
      Beltrami County       Borrowers            37         35    95%              0         0%          2      5%          0      0%              0      0%          0       0%
                            Farms               647        644   100%              0         0%          3      0%          0      0%              0      0%          0       0%
                            Land in Farms   224,923    224,923   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       30,185     29,729    98%             61         0%        123      0%        126      0%              7      0%        139       0%
      Benton County         Borrowers            52         52   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               865        865   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   183,760    183,760   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population        6,285      6,217    99%                 4      0%         25      0%         15      0%              1      0%         23       0%
      Big Stone County      Borrowers            31         31   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               460        460   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   262,207    262,207   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       54,044     52,384    97%            248         0%        127      0%        791      1%         14          0%        480       1%
      Blue Earth County     Borrowers            31         31   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,091      1,091   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   383,373    383,373   100%              0         0%          0      0%          0      0%          0          0%          0       0%

      MN                    Population       26,984     26,711    99%             11         0%         12      0%         98      0%              1      0%        151       1%
      Brown County          Borrowers            45         45   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,190      1,187   100%              0         0%          0      0%          0      0%              0      0%          3       0%
                            Land in Farms   347,420    346,670   100%              0         0%          0      0%          0      0%              0      0%        750       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 764
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      MN                    Population       29,259     27,750    95%             43         0%      1,291      4%         75      0%              1      0%         99       0%
      Carlton County        Borrowers            16         16   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               509        509   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   113,422    113,422   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       47,915     47,008    98%            103         0%        101      0%        438      1%         13          0%        252       1%
      Carver County         Borrowers            10         10   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               901        898   100%              0         0%          0      0%          0      0%          0          0%          3       0%
                            Land in Farms   165,961    165,635   100%              0         0%          0      0%          0      0%          0          0%        326       0%

      MN                    Population       21,791     19,251    88%             38         0%      2,356     11%         52      0%              0      0%         94       0%
      Cass County           Borrowers            23         23   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               595        590    99%              0         0%          5      1%          0      0%              0      0%          0       0%
                            Land in Farms   200,199    197,709    99%              0         0%      2,490      1%          0      0%              0      0%          0       0%

      MN                    Population       13,228     13,063    99%                 5      0%         23      0%         43      0%              0      0%         94       1%
      Chippewa County       Borrowers            83         83   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               689        689   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   326,804    326,804   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       30,521     30,099    99%             63         0%        120      0%         89      0%         13          0%        137       0%
      Chisago County        Borrowers            26         26   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               778        774    99%              0         0%          0      0%          0      0%          0          0%          4       1%
                            Land in Farms   138,594    137,990   100%              0         0%          0      0%          0      0%          0          0%        604       0%

      MN                    Population       50,422     48,111    95%            164         0%        537      1%        394      1%         37          0%      1,179       2%
      Clay County           Borrowers           139        138    99%              0         0%          1      1%          0      0%          0          0%          0       0%
                            Farms               875        875   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   566,981    566,981   100%              0         0%          0      0%          0      0%          0          0%          0       0%

      MN                    Population        8,309      7,653    92%                 2      0%        628      8%         10      0%              0      0%         16       0%
      Clearwater County     Borrowers           145        144    99%                 0      0%          1      1%          0      0%              0      0%          0       0%
                            Farms               583        580    99%                 0      0%          3      1%          0      0%              0      0%          0       0%
                            Land in Farms   210,897    210,897   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population        3,868      3,558    92%                 5      0%        271      7%         20      1%              0      0%         14       0%
      Cook County           Borrowers             0          0     0%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms                 7          7   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     1,249      1,249   100%                 0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 765
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      MN                    Population       12,694     12,520    99%                 8      0%         10      0%         88      1%              5      0%         63       0%
      Cottonwood County     Borrowers            52         52   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               876        872   100%                 0      0%          0      0%          0      0%              0      0%          4       0%
                            Land in Farms   374,920    372,866    99%                 0      0%          0      0%          0      0%              0      0%      2,054       1%

      MN                    Population       44,249     43,546    98%             94         0%        301      1%        131      0%              3      0%        174       0%
      Crow Wing County      Borrowers            13         13   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               509        509   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   130,683    130,683   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population      275,227    262,332    95%          3,363         1%        848      0%      4,531      2%        128          0%      4,025       1%
      Dakota County         Borrowers            13         13   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               869        864    99%              0         0%          0      0%          0      0%          0          0%          5       1%
                            Land in Farms   221,193    219,018    99%              0         0%          0      0%          0      0%          0          0%      2,175       1%

      MN                    Population       15,731     15,464    98%             11         0%         28      0%         57      0%              7      0%        164       1%
      Dodge County          Borrowers            35         34    97%              0         0%          0      0%          0      0%              1      3%          0       0%
                            Farms               740        740   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   241,148    241,148   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       28,674     28,409    99%             14         0%         73      0%        100      0%              0      0%         78       0%
      Douglas County        Borrowers            74         74   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               956        952   100%              0         0%          0      0%          0      0%              0      0%          4       0%
                            Land in Farms   260,125    259,371   100%              0         0%          0      0%          0      0%              0      0%        754       0%

      MN                    Population       16,937     16,528    98%             10         0%         19      0%         54      0%              4      0%        322       2%
      Faribault County      Borrowers            39         39   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,016      1,016   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   414,710    414,710   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       20,777     20,618    99%                 7      0%         32      0%         49      0%              0      0%         71       0%
      Fillmore County       Borrowers           100        100   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,618      1,613   100%                 0      0%          0      0%          0      0%              0      0%          5       0%
                            Land in Farms   443,496    442,267   100%                 0      0%          0      0%          0      0%              0      0%      1,229       0%

      MN                    Population       33,060     31,771    96%             11         0%         61      0%        126      0%         15          0%      1,076       3%
      Freeborn County       Borrowers            49         48    98%              0         0%          0      0%          0      0%          1          2%          0       0%
                            Farms             1,154      1,154   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   366,534    366,534   100%              0         0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 766
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian              Other                 Hispanic
                                             Total      Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number       Percent
      MN                    Population        40,690     39,982     98%             81         0%        268      1%        176      0%         10          0%        173          0%
      Goodhue County        Borrowers             24         24    100%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Farms              1,540      1,540    100%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Land in Farms    379,603    379,603    100%              0         0%          0      0%          0      0%          0          0%          0          0%

      MN                    Population         6,246      6,209     99%                 3      0%         15      0%         12      0%              0      0%              7      0%
      Grant County          Borrowers             37         37    100%                 0      0%          0      0%          0      0%              0      0%              0      0%
                            Farms                471        471    100%                 0      0%          0      0%          0      0%              0      0%              0      0%
                            Land in Farms    269,147    269,147    100%                 0      0%          0      0%          0      0%              0      0%              0      0%

      MN                    Population      1,032,431   914,870     89%         59,109         6%     14,272      1%     29,010      3%      1,192          0%     13,978          1%
      Hennepin County       Borrowers               0         0      0%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Farms                 683       683    100%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Land in Farms      79,183    79,183    100%              0         0%          0      0%          0      0%          0          0%          0          0%

      MN                    Population        18,497     18,337     99%             24         0%         48      0%         51      0%              0      0%         37          0%
      Houston County        Borrowers             43         43    100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Farms                974        974    100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Land in Farms    272,049    272,049    100%              0         0%          0      0%          0      0%              0      0%          0          0%

      MN                    Population        14,939     14,609     98%                 4      0%        276      2%         13      0%              0      0%         37          0%
      Hubbard County        Borrowers             17         16     94%                 0      0%          0      0%          0      0%              1      6%          0          0%
                            Farms                387        384     99%                 0      0%          0      0%          0      0%              0      0%          3          1%
                            Land in Farms    112,412    112,012    100%                 0      0%          0      0%          0      0%              0      0%        400          0%

      MN                    Population        25,921     25,492     98%             67         0%        134      1%        105      0%              4      0%        119          0%
      Isanti County         Borrowers             26         26    100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Farms                680        677    100%              0         0%          3      0%          0      0%              0      0%          0          0%
                            Land in Farms    131,563    131,353    100%              0         0%        210      0%          0      0%              0      0%          0          0%

      MN                    Population        40,863     39,263     96%             39         0%      1,334      3%         83      0%              1      0%        143          0%
      Itasca County         Borrowers              9          9    100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Farms                420        420    100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Land in Farms    107,810    107,810    100%              0         0%          0      0%          0      0%              0      0%          0          0%

      MN                    Population        11,677     11,387     98%                 2      0%         15      0%        160      1%              0      0%        113          1%
      Jackson County        Borrowers             24         24    100%                 0      0%          0      0%          0      0%              0      0%          0          0%
                            Farms              1,027      1,027    100%                 0      0%          0      0%          0      0%              0      0%          0          0%
                            Land in Farms    401,039    401,039    100%                 0      0%          0      0%          0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 767
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian              Other                 Hispanic
                                                 Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
      MN                         Population       12,802     12,622    99%             16         0%         56          0%         45      0%              2      0%         61       0%
      Kanabec County             Borrowers            46         45    98%              0         0%          1          2%          0      0%              0      0%          0       0%
                                 Farms               650        650   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms   145,545    145,545   100%              0         0%          0          0%          0      0%              0      0%          0       0%

      MN                         Population       38,761     37,057    96%             75         0%        152          0%        110      0%              4      0%      1,363       4%
      Kandiyohi County           Borrowers            85         85   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                                 Farms             1,113      1,113   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms   360,500    360,500   100%              0         0%          0          0%          0      0%              0      0%          0       0%

      MN                         Population        5,767      5,706    99%                 0      0%              5      0%         10      0%              0      0%         46       1%
      Kittson County             Borrowers           142        142   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                                 Farms               521        521   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                                 Land in Farms   482,991    482,991   100%                 0      0%              0      0%          0      0%              0      0%          0       0%

      MN                         Population       16,299     15,570    96%             43         0%        447          3%         50      0%              4      0%        185       1%
      Koochiching County         Borrowers            16         16   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                                 Farms               189        189   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms    68,778     68,778   100%              0         0%          0          0%          0      0%              0      0%          0       0%

      MN                         Population        8,924      8,851    99%                 9      0%         12          0%         28      0%              1      0%         23       0%
      Lac qui Parle County       Borrowers            90         90   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                                 Farms               866        866   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms   405,029    405,029   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

      MN                         Population       10,415     10,305    99%                 1      0%         61          1%         16      0%              0      0%         32       0%
      Lake County                Borrowers             0          0     0%                 0      0%          0          0%          0      0%              0      0%          0       0%
                                 Farms                35         35   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms     5,262      5,262   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

      MN                         Population        4,076      4,027    99%                 1      0%         13          0%         10      0%              0      0%         25       1%
      Lake of the Woods County   Borrowers            19         17    89%                 0      0%          1          5%          0      0%              1      5%          0       0%
                                 Farms               176        176   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                                 Land in Farms   103,665    103,665   100%                 0      0%          0          0%          0      0%              0      0%          0       0%

      MN                         Population       23,239     22,987    99%             13         0%         50          0%         62      0%              4      0%        123       1%
      Le Sueur County            Borrowers            20         20   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                                 Farms               845        840    99%              0         0%          0          0%          0      0%              0      0%          5       1%
                                 Land in Farms   205,031    201,485    98%              0         0%          0          0%          0      0%              0      0%      3,546       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 768
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American                   Asian                  Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
      MN                    Population        6,890      6,844    99%                 2      0%              9      0%              9      0%              0      0%         26       0%
      Lincoln County        Borrowers           119        119   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               696        696   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   255,453    255,453   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

      MN                    Population       24,789     24,328    98%             59         0%         63          0%        121          0%              4      0%        214       1%
      Lyon County           Borrowers            57         56    98%              0         0%          0          0%          0          0%              1      2%          0       0%
                            Farms               947        947   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   395,023    395,023   100%              0         0%          0          0%          0          0%              0      0%          0       0%

      MN                    Population       32,030     31,543    98%             30         0%         49          0%        124          0%              0      0%        284       1%
      McLeod County         Borrowers            42         42   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,114      1,114   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   250,507    250,507   100%              0         0%          0          0%          0          0%              0      0%          0       0%

      MN                    Population        5,044      3,827    76%                 1      0%      1,184         23%              5      0%              0      0%         27       1%
      Mahnomen County       Borrowers           107        105    98%                 1      1%          0          0%              1      1%              0      0%          0       0%
                            Farms               368        364    99%                 0      0%          4          1%              0      0%              0      0%          0       0%
                            Land in Farms   186,573    186,573   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

      MN                    Population       10,993     10,814    98%                 2      0%         50          0%         14          0%              0      0%        113       1%
      Marshall County       Borrowers           184        184   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,012      1,012   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   744,710    744,710   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

      MN                    Population       22,914     22,651    99%                 9      0%         29          0%         83          0%              5      0%        137       1%
      Martin County         Borrowers            54         54   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,123      1,123   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   412,660    412,660   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

      MN                    Population       20,846     20,467    98%             23         0%         29          0%         91          0%              5      0%        231       1%
      Meeker County         Borrowers           102        102   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,076      1,071   100%              0         0%          0          0%          0          0%              0      0%          5       0%
                            Land in Farms   301,111    299,568    99%              0         0%          0          0%          0          0%              0      0%      1,543       1%

      MN                    Population       18,670     17,906    96%             26         0%        615          3%         35          0%              1      0%         87       0%
      Mille Lacs County     Borrowers            46         46   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               739        739   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   142,432    142,432   100%              0         0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 769
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American                   Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
      MN                    Population       29,604     29,343    99%             33         0%         77          0%         45      0%              8      0%         98       0%
      Morrison County       Borrowers            93         92    99%              1         1%          0          0%          0      0%              0      0%          0       0%
                            Farms             1,807      1,803   100%              0         0%          0          0%          0      0%              0      0%          4       0%
                            Land in Farms   422,916    422,651   100%              0         0%          0          0%          0      0%              0      0%        265       0%

      MN                    Population       37,385     36,728    98%             67         0%         50          0%        290      1%              2      0%        248       1%
      Mower County          Borrowers            66         65    98%              0         0%          0          0%          0      0%              1      2%          0       0%
                            Farms             1,214      1,214   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   392,615    392,615   100%              0         0%          0          0%          0      0%              0      0%          0       0%

      MN                    Population        9,660      9,619   100%                 0      0%              3      0%         17      0%              0      0%         21       0%
      Murray County         Borrowers            52         52   100%                 0      0%              0      0%          0      0%              0      0%          0       0%
                            Farms               903        899   100%                 0      0%              0      0%          0      0%              0      0%          4       0%
                            Land in Farms   375,628    373,848   100%                 0      0%              0      0%          0      0%              0      0%      1,780       0%

      MN                    Population       28,076     27,529    98%             84         0%         54          0%        198      1%              8      0%        203       1%
      Nicollet County       Borrowers            18         18   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                            Farms               786        786   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   241,930    241,930   100%              0         0%          0          0%          0      0%              0      0%          0       0%

      MN                    Population       20,098     19,318    96%             49         0%         63          0%        399      2%              7      0%        262       1%
      Nobles County         Borrowers            24         24   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                            Farms             1,199      1,199   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                            Land in Farms   416,570    416,570   100%              0         0%          0          0%          0      0%              0      0%          0       0%

      MN                    Population        7,975      7,816    98%                 4      0%         67          1%         16      0%              0      0%         72       1%
      Norman County         Borrowers           105        105   100%                 0      0%          0          0%          0      0%              0      0%          0       0%
                            Farms               581        578    99%                 0      0%          0          0%          0      0%              0      0%          3       1%
                            Land in Farms   457,670    449,640    98%                 0      0%          0          0%          0      0%              0      0%      8,030       2%

      MN                    Population      106,470    101,255    95%            767         1%        280          0%      3,157      3%         41          0%        970       1%
      Olmsted County        Borrowers            23         23   100%              0         0%          0          0%          0      0%          0          0%          0       0%
                            Farms             1,270      1,270   100%              0         0%          0          0%          0      0%          0          0%          0       0%
                            Land in Farms   305,831    305,831   100%              0         0%          0          0%          0      0%          0          0%          0       0%

      MN                    Population       50,714     50,052    99%             27         0%        226          0%        182      0%              3      0%        224       0%
      Otter Tail County     Borrowers           183        183   100%              0         0%          0          0%          0      0%              0      0%          0       0%
                            Farms             2,509      2,503   100%              0         0%          3          0%          0      0%              0      0%          3       0%
                            Land in Farms   821,073    820,719   100%              0         0%          0          0%          0      0%              0      0%        354       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 770
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                             Total      Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
      MN                    Population        13,306      13,042     98%             10         0%        100          1%         48          0%              0      0%        106          1%
      Pennington County     Borrowers             88          87     99%              0         0%          0          0%          0          0%              1      1%          0          0%
                            Farms                480         480    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms    280,089     280,089    100%              0         0%          0          0%          0          0%              0      0%          0          0%

      MN                    Population        21,264      20,137     95%            324         2%        359          2%         81          0%         15          0%        348          2%
      Pine County           Borrowers             47          47    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Farms                979         975    100%              4         0%          0          0%          0          0%          0          0%          0          0%
                            Land in Farms    263,274     261,334     99%          1,940         1%          0          0%          0          0%          0          0%          0          0%

      MN                    Population        10,491      10,221     97%                 6      0%        153          1%         68          1%              1      0%         42          0%
      Pipestone County      Borrowers             37          37    100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                            Farms                778         778    100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms    252,658     252,658    100%                 0      0%          0          0%          0          0%              0      0%          0          0%

      MN                    Population         32,498      30,824    95%             53         0%        376          1%         89          0%         10          0%      1,146          4%
      Polk County           Borrowers             211         211   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Farms               1,334       1,328   100%              0         0%          0          0%          0          0%          0          0%          6          0%
                            Land in Farms   1,042,850   1,039,857   100%              0         0%          0          0%          0          0%          0          0%      2,993          0%

      MN                    Population        10,745      10,694    100%                 5      0%         23          0%         12          0%              4      0%              7      0%
      Pope County           Borrowers             38          38    100%                 0      0%          0          0%          0          0%              0      0%              0      0%
                            Farms                816         816    100%                 0      0%          0          0%          0          0%              0      0%              0      0%
                            Land in Farms    310,135     310,135    100%                 0      0%          0          0%          0          0%              0      0%              0      0%

      MN                    Population       485,765     420,949     87%         22,096         5%      4,129          1%     24,209          5%        492          0%     13,890          3%
      Ramsey County         Borrowers              0           0      0%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Farms                 44          44    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                            Land in Farms      2,142       2,142    100%              0         0%          0          0%          0          0%          0          0%          0          0%

      MN                    Population         4,525       4,469     99%                 0      0%              7      0%              3      0%              0      0%         46          1%
      Red Lake County       Borrowers             75          75    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms                352         352    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    183,208     183,208    100%                 0      0%              0      0%              0      0%              0      0%          0          0%

      MN                    Population        17,254      16,832     98%             27         0%        272          2%         31          0%              1      0%         91          1%
      Redwood County        Borrowers             91          90     99%              0         0%          1          1%          0          0%              0      0%          0          0%
                            Farms              1,259       1,259    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms    491,726     491,726    100%              0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                      THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 771
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      MN                    Population       17,673     17,345    98%                 6      0%         55      0%         46      0%              5      0%        216       1%
      Renville County       Borrowers            85         84    99%                 0      0%          0      0%          0      0%              1      1%          0       0%
                            Farms             1,302      1,302   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   600,114    600,114   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       49,183     47,770    97%            166         0%        108      0%        600      1%              9      0%        530       1%
      Rice County           Borrowers            23         23   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,099      1,099   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   227,519    227,519   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population        9,806      9,713    99%             12         0%         33      0%         19      0%              0      0%         29       0%
      Rock County           Borrowers            16         16   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               791        791   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   270,332    270,332   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       15,026     14,755    98%                 4      0%        146      1%         94      1%              1      0%         26       0%
      Roseau County         Borrowers           163        163   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               891        891   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   536,299    536,299   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population      198,213    191,447    97%          1,083         1%      3,608      2%      1,063      1%         60          0%        952       0%
      St. Louis County      Borrowers            18         17    94%              0         0%          0      0%          0      0%          1          6%          0       0%
                            Farms               677        677   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   153,188    153,188   100%              0         0%          0      0%          0      0%          0          0%          0       0%

      MN                    Population       57,846     56,312    97%            259         0%        344      1%        518      1%              6      0%        407       1%
      Scott County          Borrowers             4          4   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               838        835   100%              0         0%          0      0%          0      0%              0      0%          3       0%
                            Land in Farms   131,753    131,643   100%              0         0%          0      0%          0      0%              0      0%        110       0%

      MN                    Population       41,945     41,031    98%            262         1%        193      0%        193      0%              7      0%        259       1%
      Sherburne County      Borrowers             6          6   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               530        530   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   117,701    117,701   100%              0         0%          0      0%          0      0%              0      0%          0       0%

      MN                    Population       14,366     14,187    99%                 5      0%         15      0%         32      0%              0      0%        127       1%
      Sibley County         Borrowers            66         66   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,059      1,055   100%                 0      0%          0      0%          0      0%              0      0%          4       0%
                            Land in Farms   311,849    311,373   100%                 0      0%          0      0%          0      0%              0      0%        476       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 772
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American               Asian              Other                 Hispanic
                                            Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number       Percent
      MN                    Population      118,791    116,726    98%            408         0%        294      0%        821      1%         30          0%        512          0%
      Stearns County        Borrowers            74         74   100%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Farms             2,972      2,968   100%              0         0%          0      0%          0      0%          0          0%          4          0%
                            Land in Farms   643,762    642,699   100%              0         0%          0      0%          0      0%          0          0%      1,063          0%

      MN                    Population       30,729     29,934    97%             51         0%         45      0%        149      0%              6      0%        544          2%
      Steele County         Borrowers            27         27   100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Farms               819        816   100%              0         0%          0      0%          0      0%              0      0%          3          0%
                            Land in Farms   231,610    231,255   100%              0         0%          0      0%          0      0%              0      0%        355          0%

      MN                    Population       10,634     10,343    97%             56         1%         50      0%        116      1%         13          0%         56          1%
      Stevens County        Borrowers            23         23   100%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Farms               538        538   100%              0         0%          0      0%          0      0%          0          0%          0          0%
                            Land in Farms   286,337    286,337   100%              0         0%          0      0%          0      0%          0          0%          0          0%

      MN                    Population       10,724     10,566    99%                 4      0%         37      0%         37      0%              1      0%         79          1%
      Swift County          Borrowers            93         93   100%                 0      0%          0      0%          0      0%              0      0%          0          0%
                            Farms               760        757   100%                 0      0%          0      0%          0      0%              0      0%          3          0%
                            Land in Farms   389,897    387,787    99%                 0      0%          0      0%          0      0%              0      0%      2,110          1%

      MN                    Population       23,363     23,189    99%                 8      0%         51      0%         51      0%              6      0%         58          0%
      Todd County           Borrowers            88         88   100%                 0      0%          0      0%          0      0%              0      0%          0          0%
                            Farms             1,768      1,761   100%                 3      0%          0      0%          0      0%              0      0%          4          0%
                            Land in Farms   395,071    392,712    99%                 0      0%          0      0%          0      0%              0      0%      2,359          1%

      MN                    Population        4,463      4,314    97%                 0      0%        125      3%         16      0%              0      0%              8      0%
      Traverse County       Borrowers            13         13   100%                 0      0%          0      0%          0      0%              0      0%              0      0%
                            Farms               385        385   100%                 0      0%          0      0%          0      0%              0      0%              0      0%
                            Land in Farms   310,184    310,184   100%                 0      0%          0      0%          0      0%              0      0%              0      0%

      MN                    Population       19,744     19,518    99%             11         0%         47      0%         89      0%              0      0%         79          0%
      Wabasha County        Borrowers            17         17   100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Farms               928        928   100%              0         0%          0      0%          0      0%              0      0%          0          0%
                            Land in Farms   245,686    245,686   100%              0         0%          0      0%          0      0%              0      0%          0          0%

      MN                    Population       13,154     12,986    99%                 8      0%         77      1%         35      0%              1      0%         47          0%
      Wadena County         Borrowers            51         50    98%                 0      0%          1      2%          0      0%              0      0%          0          0%
                            Farms               602        602   100%                 0      0%          0      0%          0      0%              0      0%          0          0%
                            Land in Farms   171,412    171,412   100%                 0      0%          0      0%          0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 773
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American               Asian              Other                 Hispanic
                                                 Total       Number      Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      MN                       Population         18,079       17,814     99%             26         0%         35      0%         74      0%              1      0%        129       1%
      Waseca County            Borrowers              29           29    100%              0         0%          0      0%          0      0%              0      0%          0       0%
                               Farms                 759          756    100%              0         0%          0      0%          0      0%              0      0%          3       0%
                               Land in Farms     237,239      236,443    100%              0         0%          0      0%          0      0%              0      0%        796       0%

      MN                       Population        145,896      140,127     96%          1,548         1%        635      0%      1,626      1%         65          0%      1,895       1%
      Washington County        Borrowers               2            2    100%              0         0%          0      0%          0      0%          0          0%          0       0%
                               Farms                 647          647    100%              0         0%          0      0%          0      0%          0          0%          0       0%
                               Land in Farms     100,774      100,774    100%              0         0%          0      0%          0      0%          0          0%          0       0%

      MN                       Population         11,682       10,990     94%                 8      0%         20      0%         57      0%         14          0%        593       5%
      Watonwan County          Borrowers              19           19    100%                 0      0%          0      0%          0      0%          0          0%          0       0%
                               Farms                 663          663    100%                 0      0%          0      0%          0      0%          0          0%          0       0%
                               Land in Farms     249,731      249,731    100%                 0      0%          0      0%          0      0%          0          0%          0       0%

      MN                       Population          7,516        7,405     99%                 2      0%         41      1%         23      0%              2      0%         43       1%
      Wilkin County            Borrowers              28           28    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                               Farms                 456          456    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                               Land in Farms     420,778      420,778    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                       Population         47,828       46,655     98%            183         0%        111      0%        524      1%              5      0%        350       1%
      Winona County            Borrowers              32           32    100%              0         0%          0      0%          0      0%              0      0%          0       0%
                               Farms               1,090        1,087    100%              0         0%          3      0%          0      0%              0      0%          0       0%
                               Land in Farms     290,627      290,021    100%              0         0%        606      0%          0      0%              0      0%          0       0%

      MN                       Population         68,710       67,831     99%             74         0%        231      0%        272      0%         18          0%        284       0%
      Wright County            Borrowers              26           26    100%              0         0%          0      0%          0      0%          0          0%          0       0%
                               Farms               1,584        1,584    100%              0         0%          0      0%          0      0%          0          0%          0       0%
                               Land in Farms     272,540      272,540    100%              0         0%          0      0%          0      0%          0          0%          0       0%

      MN                       Population         11,684       11,465     98%                 3      0%        114      1%         19      0%              1      0%         82       1%
      Yellow Medicine County   Borrowers              77           76     99%                 0      0%          0      0%          0      0%              1      1%          0       0%
                               Farms                 923          923    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                               Land in Farms     407,953      407,953    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

      MN                       Population       4,375,099    4,101,266    94%         93,040         2%     48,251      1%     76,229      2%      2,429          0%     53,884       1%
      STATE                    Borrowers            4,555        4,530    99%              2         0%         12      0%          1      0%         10          0%          0       0%
                               Farms               75,079       74,959   100%              7         0%         28      0%          0      0%          0          0%         85       0%
                               Land in Farms   25,666,944   25,627,626   100%          1,940         0%      3,306      0%          0      0%          0          0%     34,072       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 774
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      AITKIN, MINNESOTA                                  ANOKA, MINNESOTA                                BECKER, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       22                         10                         3                        3                       77                       26
                       Loans                           88                         53                         9                        8                      187                       57
                       Principal and Interest   2,686,082                    479,314                 1,060,113                  228,498               10,975,177                  864,768
WHITE                  Borrowers                       22       100%              10       100%              3       100%             3     100%              73         95%           23       88%
                       Loans                           88       100%              53       100%              9       100%             8     100%             170         91%           50       88%
                       Principal and Interest   2,686,082       100%         479,314       100%      1,060,113       100%       228,498     100%      10,534,929         96%      839,872       97%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%              4          5%            3       12%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%             17          9%            7       12%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        440,248          4%       24,896        3%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 775
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                  BELTRAMI, MINNESOTA                                   BENTON, MINNESOTA                             BIG STONE, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       37                         18                        52                       19                      31                       10
                       Loans                          124                         58                       142                       44                      79                       18
                       Principal and Interest   5,871,935                    950,916                 8,348,550                  560,514               4,134,239                  112,692
WHITE                  Borrowers                       35         95%             18       100%             52       100%            19     100%             31       100%            10     100%
                       Loans                          122         98%             58       100%            142       100%            44     100%             79       100%            18     100%
                       Principal and Interest   5,828,965         99%        950,916       100%      8,348,550       100%       560,514     100%      4,134,239       100%       112,692     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                         2         5%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                             2         2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest       42,970         1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 776
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                BLUE EARTH, MINNESOTA                                   BROWN, MINNESOTA                               CARLTON, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       31                          4                        45                       20                      16                        4
                       Loans                           47                          6                        79                       44                      38                       11
                       Principal and Interest   2,617,785                     19,723                 5,460,072                  667,749               1,247,352                   35,400
WHITE                  Borrowers                       31       100%               4       100%             45       100%            20     100%             16       100%             4     100%
                       Loans                           47       100%               6       100%             79       100%            44     100%             38       100%            11     100%
                       Principal and Interest   2,617,785       100%          19,723       100%      5,460,072       100%       667,749     100%      1,247,352       100%        35,400     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 777
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    CARVER, MINNESOTA                                      CASS, MINNESOTA                             CHIPPEWA, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       10                          1                        23                         8                      83                       24
                       Loans                           15                          4                        40                        10                     162                       55
                       Principal and Interest   2,028,600                    154,575                 1,648,233                    44,764              12,030,402                  507,871
WHITE                  Borrowers                       10       100%               1       100%             23       100%              8    100%              83       100%            24     100%
                       Loans                           15       100%               4       100%             40       100%             10    100%             162       100%            55     100%
                       Principal and Interest   2,028,600       100%         154,575       100%      1,648,233       100%         44,764    100%      12,030,402       100%       507,871     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 778
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    CHISAGO, MINNESOTA                                     CLAY, MINNESOTA                             CLEARWATER, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       26                          6                        139                        55                     145                        57
                       Loans                           56                         20                        524                       245                     471                       142
                       Principal and Interest   3,120,781                    526,941                 27,224,700                 5,469,359              16,504,873                 1,172,893
WHITE                  Borrowers                       26       100%               6       100%             138         99%            54      98%            144         99%        57        100%
                       Loans                           56       100%              20       100%             521         99%           242      99%            464         99%       142        100%
                       Principal and Interest   3,120,781       100%         526,941       100%      27,022,981         99%     5,429,976      99%     16,269,703         99% 1,172,893        100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%             1           1%             1       2%              1          1%              0      0%
                       Loans                                0      0%                  0      0%             3           1%             3       1%              7          1%              0      0%
                       Principal and Interest               0      0%                  0      0%       201,719           1%        39,383       1%        235,170          1%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 779
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                COTTONWOOD, MINNESOTA                                CROW WING, MINNESOTA                               DAKOTA, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       52                         18                        13                         6                     13                        4
                       Loans                           78                         31                        36                        11                     19                        5
                       Principal and Interest   6,171,855                    475,567                 1,702,056                    27,156              1,891,487                   47,474
WHITE                  Borrowers                       52       100%              18       100%             13       100%              6    100%             13       100%             4     100%
                       Loans                           78       100%              31       100%             36       100%             11    100%             19       100%             5     100%
                       Principal and Interest   6,171,855       100%         475,567       100%      1,702,056       100%         27,156    100%      1,891,487       100%        47,474     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 780
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      DODGE, MINNESOTA                                 DOUGLAS, MINNESOTA                              FARIBAULT, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       35                         10                         74                       21                      39                        3
                       Loans                           83                         25                        238                       62                      72                        4
                       Principal and Interest   5,444,881                    244,239                 11,152,123                  736,962               3,494,098                   19,700
WHITE                  Borrowers                       34         97%             10       100%              74       100%            21     100%             39       100%             3     100%
                       Loans                           82         99%             25       100%             238       100%            62     100%             72       100%             4     100%
                       Principal and Interest   5,381,205         99%        244,239       100%      11,152,123       100%       736,962     100%      3,494,098       100%        19,700     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                         1         3%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                             1         1%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest       63,676         1%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 781
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                  FILLMORE, MINNESOTA                                 FREEBORN, MINNESOTA                             GOODHUE, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       100                        18                        49                       13                      24                        6
                       Loans                           231                        48                        97                       22                      40                       15
                       Principal and Interest   13,267,633                 1,203,405                 5,565,354                  222,120               3,243,659                  349,067
WHITE                  Borrowers                       100      100%              18       100%             48         98%           13     100%             24       100%             6     100%
                       Loans                           231      100%              48       100%             95         98%           22     100%             40       100%            15     100%
                       Principal and Interest   13,267,633      100%       1,203,405       100%      5,508,673         99%      222,120     100%      3,243,659       100%       349,067     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%             1          2%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%             2          2%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%        56,681          1%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 782
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      GRANT, MINNESOTA                                HOUSTON, MINNESOTA                               HUBBARD, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       37                         13                        43                        9                      17                        5
                       Loans                           93                         32                        89                       15                      48                       13
                       Principal and Interest   6,325,373                    273,045                 7,003,207                  339,652               2,196,702                   69,025
WHITE                  Borrowers                       37       100%              13       100%             43       100%             9     100%             16         94%            5     100%
                       Loans                           93       100%              32       100%             89       100%            15     100%             47         98%           13     100%
                       Principal and Interest   6,325,373       100%         273,045       100%      7,003,207       100%       339,652     100%      1,956,737         89%       69,025     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          6%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       239,965         11%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 783
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                      ISANTI, MINNESOTA                                  ITASCA, MINNESOTA                             JACKSON, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       26                         10                         9                         6                     24                        5
                       Loans                           48                         15                        23                        16                     37                       10
                       Principal and Interest   4,400,262                    649,575                 1,012,263                    59,886              1,732,315                   48,340
WHITE                  Borrowers                       26       100%              10       100%              9       100%              6    100%             24       100%             5     100%
                       Loans                           48       100%              15       100%             23       100%             16    100%             37       100%            10     100%
                       Principal and Interest   4,400,262       100%         649,575       100%      1,012,263       100%         59,886    100%      1,732,315       100%        48,340     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 784
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   KANABEC, MINNESOTA                                 KANDIYOHI, MINNESOTA                                KITTSON, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       46                         24                         85                       20                      142                        69
                       Loans                          166                        100                        208                       44                      379                       200
                       Principal and Interest   9,433,726                  1,771,956                 13,219,841                  519,750               29,002,448                 5,971,850
WHITE                  Borrowers                       45         98%             24       100%              85       100%            20     100%             142       100%        69         100%
                       Loans                          158         95%            100       100%             208       100%            44     100%             379       100%       200         100%
                       Principal and Interest   9,051,681         96%      1,771,956       100%      13,219,841       100%       519,750     100%      29,002,448       100% 5,971,850         100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                        1          2%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                            8          5%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest     382,045          4%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 785
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                KOOCHICHING, MINNESOTA                               LAC QUI PARLE, MINNESOTA LAKE OF THE WOODS, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       16                          8                         90                       24                      19                          0
                       Loans                           28                         12                        177                       57                      47                          0
                       Principal and Interest   1,215,729                    143,673                  9,560,812                  534,492               2,786,739                          0
WHITE                  Borrowers                       16       100%               8       100%              90       100%            24     100%             17         89%              0      0%
                       Loans                           28       100%              12       100%             177       100%            57     100%             42         89%              0      0%
                       Principal and Interest   1,215,729       100%         143,673       100%       9,560,812       100%       534,492     100%      2,641,905         95%              0      0%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%             1          5%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%             1          2%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%        85,319          3%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%             1          5%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%             4          9%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%        59,515          2%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 786
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                   LE SUEUR, MINNESOTA                                  LINCOLN, MINNESOTA                                  LYON, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       20                           2                       119                        56                     57                       16
                       Loans                           40                           2                       251                       114                    122                       40
                       Principal and Interest   1,716,661                       1,747                13,904,629                 1,323,007              6,747,969                  169,434
WHITE                  Borrowers                       20       100%                2      100%             119       100%             56    100%             56        98%            16     100%
                       Loans                           40       100%                2      100%             251       100%            114    100%            120        98%            40     100%
                       Principal and Interest   1,716,661       100%            1,747      100%      13,904,629       100%      1,323,007    100%      6,721,844       100%       169,434     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%             1          2%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%             2          2%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%        26,126          0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 787
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                 MAHNOMEN, MINNESOTA                                 MAHNOMEN, S, MINNESOTA                            MARSHALL,E, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                        69                        27                        38                        12                       66                       31
                       Loans                           257                       124                       137                        50                      201                       81
                       Principal and Interest   14,012,197                 2,594,567                 5,597,879                   225,580               10,620,342                  961,016
WHITE                  Borrowers                        68        99%             26        96%             37          97%           11       92%             66       100%            31     100%
                       Loans                           246        96%            120        97%            134          98%           47       94%            201       100%            81     100%
                       Principal and Interest   13,898,303        99%      2,585,584       100%      5,521,656          99%      219,355       97%     10,620,342       100%       961,016     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%              1          3%             1       8%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%              3          2%             3       6%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%         76,224          1%         6,225       3%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                        1          1%               1         4%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                           11          4%               4         3%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest     113,894          1%           8,983         0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 788
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                MARSHALL,W, MINNESOTA                                   MARTIN, MINNESOTA                               MCLEOD, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       118                        37                        54                        8                      42                       16
                       Loans                           317                       154                       105                       14                      89                       32
                       Principal and Interest   16,151,117                 3,185,563                 6,114,236                  232,457               5,524,126                  627,690
WHITE                  Borrowers                       118      100%              37       100%             54       100%             8     100%             42       100%            16     100%
                       Loans                           317      100%             154       100%            105       100%            14     100%             89       100%            32     100%
                       Principal and Interest   16,151,117      100%       3,185,563       100%      6,114,236       100%       232,457     100%      5,524,126       100%       627,690     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 789
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    MEEKER, MINNESOTA                                MILLE LACS, MINNESOTA                             MORRISON, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       102                        32                        46                       15                       93                       26
                       Loans                           279                        92                       122                       47                      241                       75
                       Principal and Interest   16,277,930                 2,396,329                 5,808,822                  517,417               11,989,690                  828,250
WHITE                  Borrowers                       102      100%              32       100%             46       100%            15     100%              92        99%            25       96%
                       Loans                           279      100%              92       100%            122       100%            47     100%             239        99%            73       97%
                       Principal and Interest   16,277,930      100%       2,396,329       100%      5,808,822       100%       517,417     100%      11,931,973       100%       822,017       99%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1          1%             1       4%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%              2          1%             2       3%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%         57,718          0%         6,233       1%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 790
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     MOWER, MINNESOTA                                  MURRAY, MINNESOTA                              NICOLLET, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       66                          4                        52                       14                      18                        2
                       Loans                          112                          6                       117                       29                      33                        3
                       Principal and Interest   6,958,880                     97,092                 6,729,833                  177,867               1,941,246                   17,594
WHITE                  Borrowers                       65         98%              4       100%             52       100%            14     100%             18       100%             2     100%
                       Loans                          110         98%              6       100%            117       100%            29     100%             33       100%             3     100%
                       Principal and Interest   6,873,279         99%         97,092       100%      6,729,833       100%       177,867     100%      1,941,246       100%        17,594     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                         1         2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                             2         2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest       85,601         1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 791
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     NOBLES, MINNESOTA                                  NORMAN, MINNESOTA                               OLMSTED, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       24                          5                        105                       40                      23                       12
                       Loans                           32                          7                        264                       94                      38                       20
                       Principal and Interest   2,233,701                     67,171                 12,319,359                  872,664               4,484,121                  248,872
WHITE                  Borrowers                       24       100%               5       100%             105       100%            40     100%             23       100%            12     100%
                       Loans                           32       100%               7       100%             264       100%            94     100%             38       100%            20     100%
                       Principal and Interest   2,233,701       100%          67,171       100%      12,319,359       100%       872,664     100%      4,484,121       100%       248,872     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 792
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                OTTER TAIL,E, MINNESOTA                              OTTER TAIL,W, MINNESOTA                           PENNINGTON, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       123                        40                        60                         21                      88                        48
                       Loans                           268                        70                       138                         43                     309                       178
                       Principal and Interest   16,694,570                   867,623                 8,504,615                  1,128,807              14,946,045                 2,621,322
WHITE                  Borrowers                       123      100%              40       100%             60        100%             21    100%              87        99%        47          98%
                       Loans                           268      100%              70       100%            138        100%             43    100%             307        99%       177          99%
                       Principal and Interest   16,694,570      100%         867,623       100%      8,504,615        100%      1,128,807    100%      14,944,488       100% 2,621,294         100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%               1         1%              1      2%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%               2         1%              1      1%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%           1,557         0%             28      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 793
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        PINE, MINNESOTA                              PIPESTONE, MINNESOTA                                POLK, W, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       47                         22                        37                       10                      151                        72
                       Loans                          128                         74                        89                       31                      452                       231
                       Principal and Interest   6,743,071                  1,116,894                 3,447,482                  135,202               27,825,223                 4,469,330
WHITE                  Borrowers                       47       100%              22       100%             37       100%            10     100%             151       100%        72         100%
                       Loans                          128       100%              74       100%             89       100%            31     100%             452       100%       231         100%
                       Principal and Interest   6,743,071       100%       1,116,894       100%      3,447,482       100%       135,202     100%      27,825,223       100% 4,469,330         100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 794
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     POLK,E, MINNESOTA                                     POPE, MINNESOTA                              RED LAKE, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       60                         25                        38                        7                       75                        25
                       Loans                          200                        106                       116                       17                      271                        94
                       Principal and Interest   9,459,862                  1,535,257                 6,039,986                  479,923               13,164,414                 1,766,295
WHITE                  Borrowers                       60       100%              25       100%             38       100%             7     100%              75       100%        25         100%
                       Loans                          200       100%             106       100%            116       100%            17     100%             271       100%        94         100%
                       Principal and Interest   9,459,862       100%       1,535,257       100%      6,039,986       100%       479,923     100%      13,164,414       100% 1,766,295         100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 795
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                  REDWOOD, MINNESOTA                                   RENVILLE, MINNESOTA                                   RICE, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                        91                        37                         85                       11                      23                        5
                       Loans                           179                        82                        201                       51                      39                        7
                       Principal and Interest   10,540,577                   925,048                 11,732,768                  820,335               2,986,198                   61,388
WHITE                  Borrowers                        90        99%             36         97%             84        99%            11     100%             23       100%             5     100%
                       Loans                           176        98%             79         96%            200       100%            51     100%             39       100%             7     100%
                       Principal and Interest   10,410,792        99%        873,126         94%     11,622,388        99%       820,335     100%      2,986,198       100%        61,388     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                        1          1%              1          3%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                            3          2%              3          4%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest     129,785          1%         51,922          6%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%             1           1%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%             1           0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%       110,380           1%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 796
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ROCK, MINNESOTA                                   ROSEAU, MINNESOTA                                 SCOTT, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       16                          4                        163                        78                      4                          0
                       Loans                           25                          6                        372                       186                      4                          0
                       Principal and Interest   1,376,270                     11,866                 24,153,101                 2,939,163                259,392                          0
WHITE                  Borrowers                       16       100%               4       100%             163       100%             78    100%              4       100%               0      0%
                       Loans                           25       100%               6       100%             372       100%            186    100%              4       100%               0      0%
                       Principal and Interest   1,376,270       100%          11,866       100%      24,153,101       100%      2,939,163    100%        259,392       100%               0      0%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 797
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                 SHERBURNE, MINNESOTA                                     SIBLEY, MINNESOTA                            ST LOUIS, N, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                        6                          1                         66                       15                      15                         3
                       Loans                           11                          1                        205                       51                      33                         5
                       Principal and Interest   1,017,730                     25,936                 12,187,463                  851,348                 778,966                     6,478
WHITE                  Borrowers                        6       100%               1       100%              66       100%            15     100%             14         93%             3    100%
                       Loans                           11       100%               1       100%             205       100%            51     100%             30         91%             5    100%
                       Principal and Interest   1,017,730       100%          25,936       100%      12,187,463       100%       851,348     100%        644,179         83%         6,478    100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%             1          7%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%             3          9%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%       134,788         17%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 798
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                  ST LOUIS, S, MINNESOTA                               STEARNS, MINNESOTA                                STEELE, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                        3                          2                        74                       23                      27                        2
                       Loans                           12                          8                       182                       54                      44                        4
                       Principal and Interest     682,519                     40,208                 8,720,666                  757,343               3,571,737                   15,491
WHITE                  Borrowers                        3       100%               2       100%             74       100%            23     100%             27       100%             2     100%
                       Loans                           12       100%               8       100%            182       100%            54     100%             44       100%             4     100%
                       Principal and Interest     682,519       100%          40,208       100%      8,720,666       100%       757,343     100%      3,571,737       100%        15,491     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 799
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    STEVENS, MINNESOTA                                     SWIFT, MINNESOTA                                  TODD, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       23                          5                         93                        24                      88                        27
                       Loans                           41                         11                        209                        85                     210                        85
                       Principal and Interest   2,967,219                     52,457                 16,677,228                 3,689,640              10,034,757                 1,030,631
WHITE                  Borrowers                       23       100%               5       100%              93       100%             24    100%              88       100%        27         100%
                       Loans                           41       100%              11       100%             209       100%             85    100%             210       100%        85         100%
                       Principal and Interest   2,967,219       100%          52,457       100%      16,677,228       100%      3,689,640    100%      10,034,757       100% 1,030,631         100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Loans                                0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 800
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                  TRAVERSE, MINNESOTA                                 WABASHA, MINNESOTA                                WADENA, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       13                          4                        17                         3                     51                       22
                       Loans                           36                          8                        45                         8                    112                       44
                       Principal and Interest   1,518,234                     29,363                 2,949,086                    85,629              7,203,003                  832,222
WHITE                  Borrowers                       13       100%               4       100%             17       100%              3    100%             50         98%           21       95%
                       Loans                           36       100%               8       100%             45       100%              8    100%            110         98%           43       98%
                       Principal and Interest   1,518,234       100%          29,363       100%      2,949,086       100%         85,629    100%      7,034,456         98%      827,953       99%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          2%             1       5%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%             2          2%             1       2%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       168,547          2%         4,269       1%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 801
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                    WASECA, MINNESOTA                                WASHINGTON, MINNESOTA                            WATONWAN, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       29                          2                        2                           0                    19                        3
                       Loans                           51                          2                        5                           0                    31                        3
                       Principal and Interest   3,592,669                     11,788                  146,282                           0             1,974,469                   24,700
WHITE                  Borrowers                       29       100%               2       100%             2        100%               0      0%            19       100%             3     100%
                       Loans                           51       100%               2       100%             5        100%               0      0%            31       100%             3     100%
                       Principal and Interest   3,592,669       100%          11,788       100%       146,282        100%               0      0%     1,974,469       100%        24,700     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 802
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                     WILKIN, MINNESOTA                                  WINONA, MINNESOTA                               WRIGHT, MINNESOTA
                                                Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                  Borrowers                       28                         10                        32                        9                      26                        8
                       Loans                           55                         19                        96                       38                      56                       18
                       Principal and Interest   4,313,412                    421,336                 6,503,411                  286,105               3,459,605                  137,582
WHITE                  Borrowers                       28       100%              10       100%             32       100%             9     100%             26       100%             8     100%
                       Loans                           55       100%              19       100%             96       100%            38     100%             56       100%            18     100%
                       Principal and Interest   4,313,412       100%         421,336       100%      6,503,411       100%       286,105     100%      3,459,605       100%       137,582     100%
AFRICAN AMERICAN       Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN        Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                  Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                       Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 803
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                YELLOW MEDICINE, MINNESOTA                                 STATE OF MINNESOTA
                                                  Portfolio       Percent   Delinquent       Percent     Portfolio       Percent    Delinquent   Percent
TOTAL                  Borrowers                         77                         23                       4,555                      1,503
                       Loans                            157                         61                      11,437                      4,177
                       Principal and Interest     9,491,855                  1,207,919                 649,578,080                 68,431,857
WHITE                  Borrowers                         76        99%              23       100%            4,530        99%      1,493          99%
                       Loans                            156        99%              61       100%           11,359        99%      4,153          99%
                       Principal and Interest     9,465,647       100%       1,207,919       100%      646,839,948       100% 68,289,918         100%
AFRICAN AMERICAN       Borrowers                              0      0%                  0      0%              2           0%              2       0%
                       Loans                                  0      0%                  0      0%              5           0%              5       0%
                       Principal and Interest                 0      0%                  0      0%        133,942           0%         12,458       0%
NATIVE AMERICAN        Borrowers                              0      0%                  0      0%              12          0%             6        0%
                       Loans                                  0      0%                  0      0%              43          0%            14        0%
                       Principal and Interest                 0      0%                  0      0%       1,685,803          0%       120,470        0%
ASIAN                  Borrowers                              0      0%                  0      0%              1           0%              1       0%
                       Loans                                  0      0%                  0      0%             11           0%              4       0%
                       Principal and Interest                 0      0%                  0      0%        113,894           0%          8,983       0%
OTHER                  Borrowers                           1         1%                  0      0%             10           0%               1      0%
                       Loans                               1         1%                  0      0%             19           0%               1      0%
                       Principal and Interest         26,208         0%                  0                804,497           0%              28      0%
HISPANIC               Borrowers                              0      0%                  0      0%                   0      0%               0      0%
                       Loans                                  0      0%                  0      0%                   0      0%               0      0%
                       Prinicpal and Interest                 0      0%                  0      0%                   0      0%               0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 804
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
 MN BECKER                Approved   No. of Applications                34        33   97%             0   0%           0   0%            0   0%          1     3%
                                     Receipt to Completion                        19                   0                0                 0              13
                                     Completion to Approval                       35                   0                0                 0              14
                                     Approval to Loan Closing                     22                   0                0                 0               0

                          Rejected   No. of Applications                9         8    89%            0    0%          1    11%           0   0%         0      0%
                                     Receipt to Completion                       20                   0                0                  0              0
                                     Completion to Rejected                      13                   0                0                  0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                  0              0
                                    Completion to Withdrawn                       0                   0                0                  0              0

 MN   BLUE EARTH          Approved   No. of Applications                17       17    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       23                   0                0                  0              0
                                     Completion to Approval                       7                   0                0                  0              0
                                     Approval to Loan Closing                    40                   0                0                  0              0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                        5                   0                0                  0              0
                                     Completion to Rejected                      88                   0                0                  0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%            0   0%         0      0%
                                    Receipt to Completion                        65                   0                0                  0              0
                                    Completion to Withdrawn                      55                   0                0                  0              0

 MN   CLAY                Approved   No. of Applications                33       32    97%            0    0%          1    3%            0   0%         0      0%
                                     Receipt to Completion                       52                   0                0                  0              0
                                     Completion to Approval                      14                   0               33                  0              0
                                     Approval to Loan Closing                    28                   0               21                  0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                  0              0
                                     Completion to Rejected                       0                   0                0                  0              0

                          Withdrawn No. of Applications                 5         3    60%            0    0%          2    40%           0   0%         0      0%
                                    Receipt to Completion                         5                   0               13                  0              0
                                    Completion to Withdrawn                      48                   0              119                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 805
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian            Hispanic
 MN CLEARWATER            Approved   No. of Applications                28        22   79%             0   0%            6   21%           0   0%          0     0%
                                     Receipt to Completion                         4                   0                 2                 0               0
                                     Completion to Approval                       62                   0                18                 0               0
                                     Approval to Loan Closing                     10                   0                16                 0               0

                          Rejected   No. of Applications                6         5    83%            0    0%           1    17%           0   0%         0      0%
                                     Receipt to Completion                       19                   0                 8                  0              0
                                     Completion to Rejected                      23                   0                 4                  0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                       0                   0                 0                  0              0

 MN   DOUGLAS             Approved   No. of Applications                19       19    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       29                   0                 0                  0              0
                                     Completion to Approval                      33                   0                 0                  0              0
                                     Approval to Loan Closing                    60                   0                 0                  0              0

                          Rejected   No. of Applications                5         5    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                  0              0
                                     Completion to Rejected                       0                   0                 0                  0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                       0                   0                 0                  0              0

 MN   FILLMORE            Approved   No. of Applications                16       16    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                        9                   0                 0                  0              0
                                     Completion to Approval                      19                   0                 0                  0              0
                                     Approval to Loan Closing                    55                   0                 0                  0              0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       10                   0                 0                  0              0
                                     Completion to Rejected                       7                   0                 0                  0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                       0                   0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 806
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 MN FREEBORN              Approved   No. of Applications                4         4      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       22                      0                0                0               0
                                     Completion to Approval                      16                      0                0                0               0
                                     Approval to Loan Closing                    58                      0                0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

 MN   ITASKA              Approved   No. of Applications                29       29      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       25                     0                0                 0              0
                                     Completion to Approval                      30                     0                0                 0              0
                                     Approval to Loan Closing                    41                     0                0                 0              0

                          Rejected   No. of Applications                5         5      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       51                     0                0                 0              0
                                     Completion to Rejected                      29                     0                0                 0              0

                          Withdrawn No. of Applications                 8            8   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

 MN   KANABEC             Approved   No. of Applications                4         4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       50                     0                0                 0              0
                                     Completion to Approval                      38                     0                0                 0              0
                                     Approval to Loan Closing                    25                     0                0                 0              0

                          Rejected   No. of Applications                3            3   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 2            2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 807
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN KANDIYOHI             Approved   No. of Applications                15        15   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        22                   0                0                0               0
                                     Completion to Approval                        6                   0                0                0               0
                                     Approval to Loan Closing                      6                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 MN   KITTSON             Approved   No. of Applications                73       73    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Approval                      22                   0                0                 0              0
                                     Approval to Loan Closing                    39                   0                0                 0              0

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                   0                0                 0              0
                                     Completion to Rejected                      26                   0                0                 0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         4                   0                0                 0              0
                                    Completion to Withdrawn                      47                   0                0                 0              0

 MN   LAC QUI PARLE       Approved   No. of Applications                38       38    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        8                   0                0                 0              0
                                     Completion to Approval                      22                   0                0                 0              0
                                     Approval to Loan Closing                    14                   0                0                 0              0

                          Rejected   No. of Applications                6         6    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       12                   0                0                 0              0
                                     Completion to Rejected                      24                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        25                   0                0                 0              0
                                    Completion to Withdrawn                      77                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 808
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN LINCOLN                Approved   No. of Applications                23        23   100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                        33                   0                0                0               0
                                      Completion to Approval                       33                   0                0                0               0
                                      Approval to Loan Closing                     19                   0                0                0               0

                           Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        23                   0                0                 0              0
                                     Completion to Withdrawn                      80                   0                0                 0              0

 MN   LYON                 Approved   No. of Applications                48       48    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       30                   0                0                 0              0
                                      Completion to Approval                       3                   0                0                 0              0
                                      Approval to Loan Closing                     5                   0                0                 0              0

                           Rejected   No. of Applications                7         7    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       28                   0                0                 0              0
                                      Completion to Rejected                      11                   0                0                 0              0

                           Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         9                   0                0                 0              0
                                     Completion to Withdrawn                      24                   0                0                 0              0

 MN   MARSHALL W           Approved   No. of Applications                17       17    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       18                   0                0                 0              0
                                      Completion to Approval                      10                   0                0                 0              0
                                      Approval to Loan Closing                    18                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 10       10    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        10                   0                0                 0              0
                                     Completion to Withdrawn                      28                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 809
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN MARTIN                Approved   No. of Applications                23        23   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        13                   0                0                0               0
                                     Completion to Approval                        6                   0                0                0               0
                                     Approval to Loan Closing                     31                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        21                   0                0                 0              0
                                    Completion to Withdrawn                     103                   0                0                 0              0

 MN   MCLEOD              Approved   No. of Applications                77       77    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       65                   0                0                 0              0
                                     Completion to Approval                      26                   0                0                 0              0
                                     Approval to Loan Closing                    17                   0                0                 0              0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 12       12    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        71                   0                0                 0              0
                                    Completion to Withdrawn                      78                   0                0                 0              0

 MN   MEEKER              Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        4                   0                0                 0              0
                                     Completion to Approval                      17                   0                0                 0              0
                                     Approval to Loan Closing                    20                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        11                   0                0                 0              0
                                    Completion to Withdrawn                     258                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 810
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN MILLE LACS             Approved   No. of Applications                12        11   92%             0   0%           0   0%           0   0%          1     8%
                                      Receipt to Completion                         9                   0                0                0               0
                                      Completion to Approval                       21                   0                0                0               0
                                      Approval to Loan Closing                      9                   0                0                0               0

                           Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        8                   0                0                 0              0
                                      Completion to Rejected                       7                   0                0                 0              0

                           Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        18                   0                0                 0              0
                                     Completion to Withdrawn                      20                   0                0                 0              0

 MN   MORRISON             Approved   No. of Applications                9         9    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       11                   0                0                 0              0
                                      Completion to Approval                      24                   0                0                 0              0
                                      Approval to Loan Closing                    15                   0                0                 0              0

                           Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       19                   0                0                 0              0
                                      Completion to Rejected                      23                   0                0                 0              0

                           Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                      35                   0                0                 0              0

 MN   MOWER                Approved   No. of Applications                37       37    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        4                   0                0                 0              0
                                      Completion to Approval                       1                   0                0                 0              0
                                      Approval to Loan Closing                     7                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 811
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN MURRAY                Approved   No. of Applications                25        25   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        33                   0                0                0               0
                                     Completion to Approval                       14                   0                0                0               0
                                     Approval to Loan Closing                     25                   0                0                0               0

                          Rejected   No. of Applications                7         7    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                0                 0              0
                                     Completion to Rejected                       9                   0                0                 0              0

                          Withdrawn No. of Applications                 10       10    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         8                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 MN   NOBLES              Approved   No. of Applications                18       18    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                   0                0                 0              0
                                     Completion to Approval                       9                   0                0                 0              0
                                     Approval to Loan Closing                    28                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                   0                0                 0              0
                                    Completion to Withdrawn                      25                   0                0                 0              0

 MN   NORMAN              Approved   No. of Applications                64       63    98%            0    0%          0    0%           0   0%         1      2%
                                     Receipt to Completion                       44                   0                0                 0             81
                                     Completion to Approval                      25                   0                0                 0              0
                                     Approval to Loan Closing                    35                   0                0                 0             37

                          Rejected   No. of Applications                8         8    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Rejected                      40                   0                0                 0              0

                          Withdrawn No. of Applications                 15       14    93%            0    0%          0    0%           0   0%         1      7%
                                    Receipt to Completion                         9                   0                0                 0             81
                                    Completion to Withdrawn                      10                   0                0                 0             37




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 812
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN OLMSTED               Approved   No. of Applications                24        24   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                         5                   0                0                0               0
                                     Completion to Approval                       29                   0                0                0               0
                                     Approval to Loan Closing                     18                   0                0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   0                0                 0              0
                                     Completion to Rejected                      23                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 MN   OTTER TAIL W        Approved   No. of Applications                21       21    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       21                   0                0                 0              0
                                     Completion to Approval                      17                   0                0                 0              0
                                     Approval to Loan Closing                    17                   0                0                 0              0

                          Rejected   No. of Applications                9         9    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        3                   0                0                 0              0
                                     Completion to Rejected                       5                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       1                   0                0                 0              0

 MN   PENNINGTON          Approved   No. of Applications                23       23    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       38                   0                0                 0              0
                                     Completion to Approval                      31                   0                0                 0              0
                                     Approval to Loan Closing                    34                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 9         9    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        26                   0                0                 0              0
                                    Completion to Withdrawn                      32                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 813
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN POLK E                Approved   No. of Applications                39        39   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        35                   0                0                0               0
                                     Completion to Approval                       23                   0                0                0               0
                                     Approval to Loan Closing                     22                   0                0                0               0

                          Rejected   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       90                   0                0                 0              0
                                     Completion to Rejected                      30                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        14                   0                0                 0              0
                                    Completion to Withdrawn                       4                   0                0                 0              0

 MN   POLK W              Approved   No. of Applications                78       78    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       40                   0                0                 0              0
                                     Completion to Approval                      37                   0                0                 0              0
                                     Approval to Loan Closing                    50                   0                0                 0              0

                          Rejected   No. of Applications                9         9    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       10                   0                0                 0              0
                                     Completion to Rejected                      36                   0                0                 0              0

                          Withdrawn No. of Applications                 25       25    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        26                   0                0                 0              0
                                    Completion to Withdrawn                      39                   0                0                 0              0

 MN   REDWOOD             Approved   No. of Applications                45       44    98%            0    0%          1    2%           0   0%         0      0%
                                     Receipt to Completion                       51                   0               76                 0              0
                                     Completion to Approval                      11                   0               13                 0              0
                                     Approval to Loan Closing                    27                   0               15                 0              0

                          Rejected   No. of Applications                13       13    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        6                   0                0                 0              0
                                     Completion to Rejected                      11                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 814
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN RENVILLE              Approved   No. of Applications                14        14   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        28                   0                0                0               0
                                     Completion to Approval                       13                   0                0                0               0
                                     Approval to Loan Closing                     23                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 MN   RICE                Approved   No. of Applications                10       10    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       53                   0                0                 0              0
                                     Completion to Approval                       6                   0                0                 0              0
                                     Approval to Loan Closing                    70                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 MN   ROSEAU              Approved   No. of Applications                46       45    98%            0    0%          1    2%           0   0%         0      0%
                                     Receipt to Completion                       12                   0               42                 0              0
                                     Completion to Approval                      56                   0               11                 0              0
                                     Approval to Loan Closing                    52                   0               15                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 11       11    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                   0                0                 0              0
                                    Completion to Withdrawn                      81                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 815
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN STEARNS               Approved   No. of Applications                10        10   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        23                   0                0                0               0
                                     Completion to Approval                       18                   0                0                0               0
                                     Approval to Loan Closing                     18                   0                0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       34                   0                0                 0              0
                                     Completion to Rejected                       7                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

 MN   STEVENS             Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       40                   0                0                 0              0
                                     Completion to Approval                       8                   0                0                 0              0
                                     Approval to Loan Closing                    14                   0                0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        98                   0                0                 0              0
                                    Completion to Withdrawn                     203                   0                0                 0              0

 MN   SWIFT               Approved   No. of Applications                17       17    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Approval                      36                   0                0                 0              0
                                     Approval to Loan Closing                    66                   0                0                 0              0

                          Rejected   No. of Applications                13       13    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       29                   0                0                 0              0
                                     Completion to Rejected                      18                   0                0                 0              0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         4                   0                0                 0              0
                                    Completion to Withdrawn                      55                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 816
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MN TODD                  Approved   No. of Applications                12        12   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        13                   0                0                0               0
                                     Completion to Approval                       43                   0                0                0               0
                                     Approval to Loan Closing                     25                   0                0                0               0

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                   0                0                 0              0
                                     Completion to Rejected                      29                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       5                   0                0                 0              0

 MN   WADENA              Approved   No. of Applications                30       30    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       44                   0                0                 0              0
                                     Completion to Approval                      30                   0                0                 0              0
                                     Approval to Loan Closing                    62                   0                0                 0              0

                          Rejected   No. of Applications                11       11    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                0                 0              0
                                     Completion to Rejected                       4                   0                0                 0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                      12                   0                0                 0              0

 MN   STATE               Approved   No. of Applications          1040         1028    99%            0    0%          9    1%           0   0%         3      0%
                                     Receipt to Completion                       29                   0               14                 0             31
                                     Completion to Approval                      24                   0               18                 0              5
                                     Approval to Loan Closing                    30                   0               16                 0             12

                          Rejected   No. of Applications           141          139    99%            0    0%          2    1%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                4                 0              0
                                     Completion to Rejected                      18                   0                2                 0              0

                          Withdrawn No. of Applications            185          182    98%            0    0%          2    1%           0   0%         1      1%
                                    Receipt to Completion                        17                   0               13                 0             81
                                    Completion to Withdrawn                      35                   0              119                 0             37




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 817
                            Demographics         819
                        FSA’s Loan Portfolio     830
                        FSA’s Application data   858




USDA/OIG-A/50801-4-Hq                                  818
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           MS               Population       35,356      17,938     51%         17,162    49%          38          0%         62          0%              4      0%        152       0%
           Adams County     Borrowers             4           4    100%              0     0%           0          0%          0          0%              0      0%          0       0%
                            Farms               136         111     82%             25    18%           0          0%          0          0%              0      0%          0       0%
                            Land in Farms    79,981      75,922     95%          4,059     5%           0          0%          0          0%              0      0%          0       0%

           MS               Population       31,722      27,988     88%          3,529    11%          22          0%         51          0%              5      0%        127       0%
           Alcorn County    Borrowers            55          55    100%              0     0%           0          0%          0          0%              0      0%          0       0%
                            Farms               392         385     98%              7     2%           0          0%          0          0%              0      0%          0       0%
                            Land in Farms    78,653      77,365     98%          1,288     2%           0          0%          0          0%              0      0%          0       0%

           MS               Population       13,328       7,252     54%          6,026    45%          11          0%              6      0%              0      0%         33       0%
           Amite County     Borrowers            44          35     80%              9    20%           0          0%              0      0%              0      0%          0       0%
                            Farms               439         375     85%             61    14%           0          0%              0      0%              0      0%          3       1%
                            Land in Farms   112,896     108,171     96%          4,509     4%           0          0%              0      0%              0      0%        216       0%

           MS               Population       18,481      11,103     60%          7,260    39%          32          0%         26          0%              2      0%         58       0%
           Attala County    Borrowers            40          31     78%              8    20%           1          3%          0          0%              0      0%          0       0%
                            Farms               379         349     92%             30     8%           0          0%          0          0%              0      0%          0       0%
                            Land in Farms   107,526     107,526    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS               Population        8,046       4,849     60%          3,153    39%               5      0%              2      0%              0      0%         37       0%
           Benton County    Borrowers            56          46     82%             10    18%               0      0%              0      0%              0      0%          0       0%
                            Farms               212         193     91%             19     9%               0      0%              0      0%              0      0%          0       0%
                            Land in Farms    91,367      86,980     95%          4,387     5%               0      0%              0      0%              0      0%          0       0%

           MS               Population       41,875      15,123     36%         26,214    63%          25          0%        136          0%              0      0%        377       1%
           Bolivar County   Borrowers           121          69     57%             52    43%           0          0%          0          0%              0      0%          0       0%
                            Farms               454         396     87%             58    13%           0          0%          0          0%              0      0%          0       0%
                            Land in Farms   426,584     419,816     98%          6,768     2%           0          0%          0          0%              0      0%          0       0%

           MS               Population       14,908      10,788     72%          4,024    27%          12          0%              3      0%              3      0%         78       1%
           Calhoun County   Borrowers            77          68     88%              7     9%           0          0%              0      0%              2      3%          0       0%
                            Farms               399         391     98%              8     2%           0          0%              0      0%              0      0%          0       0%
                            Land in Farms   127,351     125,451     99%          1,900     1%           0          0%              0      0%              0      0%          0       0%

           MS               Population        9,237       5,541     60%          3,633    39%          11          0%         10          0%              0      0%         42       0%
           Carroll County   Borrowers            24          16     67%              8    33%           0          0%          0          0%              0      0%          0       0%
                            Farms               394         358     91%             36     9%           0          0%          0          0%              0      0%          0       0%
                            Land in Farms   151,743     146,770     97%          4,973     3%           0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 819
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           MS               Population         18,085      11,022     61%          6,944    38%          20          0%         12          0%              2      0%         85       0%
           Chickasaw County Borrowers              87          76     87%             10    11%           0          0%          0          0%              1      1%          0       0%
                              Farms               450         413     92%             37     8%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   149,027     145,077     97%          3,950     3%           0          0%          0          0%              0      0%          0       0%

           MS                 Population        9,071       6,294     69%          2,726    30%               9      0%         10          0%              1      0%         31       0%
           Choctaw County     Borrowers            47          40     85%              7    15%               0      0%          0          0%              0      0%          0       0%
                              Farms               195         186     95%              9     5%               0      0%          0          0%              0      0%          0       0%
                              Land in Farms    42,712      42,319     99%            393     1%               0      0%          0          0%              0      0%          0       0%

           MS                 Population       11,370       1,976     17%          9,302    82%          20          0%         16          0%              0      0%         56       0%
           Claiborne County   Borrowers            32          17     53%             14    44%           0          0%          0          0%              1      3%          0       0%
                              Farms               190         141     74%             49    26%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms    88,522      88,522    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       17,313      11,271     65%          5,963    34%               6      0%              7      0%              2      0%         64       0%
           Clarke County      Borrowers            32          27     84%              5    16%               0      0%              0      0%              0      0%          0       0%
                              Farms               320         308     96%             12     4%               0      0%              0      0%              0      0%          0       0%
                              Land in Farms    68,663      67,811     99%            852     1%               0      0%              0      0%              0      0%          0       0%

           MS                 Population       21,120       9,745     46%         11,245    53%          19          0%         31          0%              0      0%         80       0%
           Clay County        Borrowers            68          56     82%             12    18%           0          0%          0          0%              0      0%          0       0%
                              Farms               364         311     85%             53    15%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   126,352     126,352    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       31,665      10,933     35%         20,335    64%          18          0%        105          0%              3      0%        271       1%
           Coahoma County     Borrowers            86          62     72%             24    28%           0          0%          0          0%              0      0%          0       0%
                              Farms               230         212     92%             18     8%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   294,547     293,241    100%          1,306     0%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       27,592      13,553     49%         13,885    50%          21          0%         25          0%              0      0%        108       0%
           Copiah County      Borrowers            39          36     92%              3     8%           0          0%          0          0%              0      0%          0       0%
                              Farms               490         456     93%             31     6%           3          1%          0          0%              0      0%          0       0%
                              Land in Farms   126,613     126,613    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       16,527      10,671     65%          5,779    35%               9      0%         19          0%              0      0%         49       0%
           Covington County   Borrowers            59          54     92%              4     7%               0      0%          0          0%              1      2%          0       0%
                              Farms               482         448     93%             34     7%               0      0%          0          0%              0      0%          0       0%
                              Land in Farms    79,962      79,962    100%              0     0%               0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 820
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           MS                Population       67,910      58,686     86%          8,646    13%         118          0%        149          0%              5      0%        306       0%
           De Soto County    Borrowers            21          16     76%              5    24%           0          0%          0          0%              0      0%          0       0%
                             Farms               488         456     93%             32     7%           0          0%          0          0%              0      0%          0       0%
                             Land in Farms   139,591     137,817     99%          1,774     1%           0          0%          0          0%              0      0%          0       0%

           MS                Population       68,314      46,315     68%         20,947    31%          89          0%        451          1%         13          0%        499       1%
           Forrest County    Borrowers            18          16     89%              2    11%           0          0%          0          0%          0          0%          0       0%
                             Farms               233         229     98%              4     2%           0          0%          0          0%          0          0%          0       0%
                             Land in Farms    37,147      37,147    100%              0     0%           0          0%          0          0%          0          0%          0       0%

           MS                Population        8,377       5,277     63%          3,074    37%               1      0%              4      0%              0      0%         21       0%
           Franklin County   Borrowers            20          17     85%              3    15%               0      0%              0      0%              0      0%          0       0%
                             Farms               175         168     96%              7     4%               0      0%              0      0%              0      0%          0       0%
                             Land in Farms    46,532      46,033     99%            499     1%               0      0%              0      0%              0      0%          0       0%

           MS                Population       16,673      14,989     90%          1,581      9%         38          0%         17          0%              0      0%         48       0%
           George County     Borrowers            42          39     93%              2      5%          0          0%          0          0%              1      2%          0       0%
                             Farms               381         374     98%              7      2%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms    43,498      43,498    100%              0      0%          0          0%          0          0%              0      0%          0       0%

           MS                Population       10,220       7,954     78%          2,185    21%          10          0%              6      0%              0      0%         65       1%
           Greene County     Borrowers            68          66     97%              2     3%           0          0%              0      0%              0      0%          0       0%
                             Farms               300         291     97%              9     3%           0          0%              0      0%              0      0%          0       0%
                             Land in Farms    49,282      48,343     98%            939     2%           0          0%              0      0%              0      0%          0       0%

           MS                Population       21,555      12,522     58%          8,886    41%          30          0%         31          0%              0      0%         86       0%
           Grenada County    Borrowers            16          15     94%              1     6%           0          0%          0          0%              0      0%          0       0%
                             Farms               212         199     94%             13     6%           0          0%          0          0%              0      0%          0       0%
                             Land in Farms    99,726      97,719     98%          2,007     2%           0          0%          0          0%              0      0%          0       0%

           MS                Population       31,760      28,172     89%          2,758      9%        123          0%        156          0%              2      0%        549       2%
           Hancock County    Borrowers            32          32    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Farms               173         169     98%              0      0%          0          0%          0          0%              0      0%          4       2%
                             Land in Farms    30,050      29,928    100%              0      0%          0          0%          0          0%              0      0%        122       0%

           MS                Population      165,365     125,635     76%         32,083    19%         431          0%      4,199          3%         78          0%      2,939       2%
           Harrison County   Borrowers            22          22    100%              0     0%           0          0%          0          0%          0          0%          0       0%
                             Farms               258         258    100%              0     0%           0          0%          0          0%          0          0%          0       0%
                             Land in Farms    16,665      16,665    100%              0     0%           0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 821
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
           MS                 Population      254,441     122,614     48%        129,216    51%         212          0%      1,216          0%         35          0%      1,148          0%
           Hinds County       Borrowers            30          23     77%              6    20%           0          0%          0          0%          0          0%          1          3%
                              Farms               740         626     85%            111    15%           0          0%          0          0%          0          0%          3          0%
                              Land in Farms   230,838     230,838    100%              0     0%           0          0%          0          0%          0          0%          0          0%

           MS                 Population       21,604       5,161     24%         16,336    76%          13          0%         31          0%              1      0%         62          0%
           Holmes County      Borrowers           114          60     53%             53    46%           0          0%          0          0%              1      1%          0          0%
                              Farms               426         308     72%            118    28%           0          0%          0          0%              0      0%          0          0%
                              Land in Farms   223,406     223,406    100%              0     0%           0          0%          0          0%              0      0%          0          0%

           MS               Population         12,134       3,837     32%          8,177    67%               8      0%         43          0%              0      0%         69          1%
           Humphreys County Borrowers             119          80     67%             39    33%               0      0%          0          0%              0      0%          0          0%
                              Farms               261         218     84%             43    16%               0      0%          0          0%              0      0%          0          0%
                              Land in Farms   180,102     169,830     94%         10,272     6%               0      0%          0          0%              0      0%          0          0%

           MS                 Population        1,909         833     44%          1,066    56%               1      0%              3      0%              0      0%              6      0%
           Issaquena County   Borrowers            35          26     74%              9    26%               0      0%              0      0%              0      0%              0      0%
                              Farms               109          94     86%             15    14%               0      0%              0      0%              0      0%              0      0%
                              Land in Farms   113,734     112,366     99%          1,368     1%               0      0%              0      0%              0      0%              0      0%

           MS                 Population       20,017      18,514     92%          1,357      7%         18          0%         29          0%              0      0%         99          0%
           Itawamba County    Borrowers            45          43     96%              2      4%          0          0%          0          0%              0      0%          0          0%
                              Farms               417         417    100%              0      0%          0          0%          0          0%              0      0%          0          0%
                              Land in Farms    76,673      76,673    100%              0      0%          0          0%          0          0%              0      0%          0          0%

           MS                 Population      115,243      89,315     78%         23,512    20%         249          0%      1,087          1%         20          0%      1,060          1%
           Jackson County     Borrowers            14          14    100%              0     0%           0          0%          0          0%          0          0%          0          0%
                              Farms               246         246    100%              0     0%           0          0%          0          0%          0          0%          0          0%
                              Land in Farms    24,845      24,845    100%              0     0%           0          0%          0          0%          0          0%          0          0%

           MS                 Population       17,114       8,378     49%          8,680    51%               8      0%              7      0%              0      0%         41          0%
           Jasper County      Borrowers            87          74     85%             12    14%               0      0%              0      0%              1      1%          0          0%
                              Farms               385         363     94%             22     6%               0      0%              0      0%              0      0%          0          0%
                              Land in Farms    89,168      86,725     97%          2,443     3%               0      0%              0      0%              0      0%          0          0%

           MS                 Population        8,653       1,174     14%          7,430    86%               2      0%              4      0%              0      0%         43          0%
           Jefferson County   Borrowers            38          21     55%             17    45%               0      0%              0      0%              0      0%          0          0%
                              Farms               182         139     76%             43    24%               0      0%              0      0%              0      0%          0          0%
                              Land in Farms    66,257      63,045     95%          3,212     5%               0      0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 822
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                Asian                  Other                 Hispanic
                                               Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           MS                  Population      14,051        6,324     45%          7,640    54%          21          0%         22          0%              0      0%         44       0%
                               Borrowers
           Jefferson Davis County                  60           41     68%             19    32%           0          0%          0          0%              0      0%          0       0%
                               Farms              425          338     80%             87    20%           0          0%          0          0%              0      0%          0       0%
                               Land in Farms   80,902       73,884     91%          7,018     9%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       62,031       46,064     74%         15,457    25%         211          0%         87          0%              7      0%        205       0%
           Jones County       Borrowers            59           56     95%              3     5%           0          0%          0          0%              0      0%          0       0%
                              Farms               822          799     97%             23     3%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms    96,919       95,716     99%          1,203     1%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       10,356        4,395     42%          5,721    55%         200          2%              8      0%              0      0%         32       0%
           Kemper County      Borrowers            82           54     66%             28    34%           0          0%              0      0%              0      0%          0       0%
                              Farms               375          322     86%             53    14%           0          0%              0      0%              0      0%          0       0%
                              Land in Farms    93,352       84,741     91%          8,611     9%           0          0%              0      0%              0      0%          0       0%

           MS                 Population       31,826       22,999     72%          7,955    25%          26          0%        639          2%              4      0%        203       1%
           Lafayette County   Borrowers            24           15     63%              9    38%           0          0%          0          0%              0      0%          0       0%
                              Farms               370          356     96%             14     4%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms    98,816       95,818     97%          2,998     3%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       30,424       26,477     87%          3,628    12%          37          0%        113          0%              1      0%        168       1%
           Lamar County       Borrowers            44           42     95%              1     2%           0          0%          0          0%              0      0%          1       2%
                              Farms               362          362    100%              0     0%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms    53,401       53,401    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS                Population        75,555       48,444     64%         26,204    35%          92          0%        299          0%         15          0%        501       1%
           Lauderdale County Borrowers             49           47     96%              1     2%           0          0%          0          0%          1          2%          0       0%
                             Farms                407          384     94%             23     6%           0          0%          0          0%          0          0%          0       0%
                              Land in Farms    80,683       79,012     98%          1,671     2%           0          0%          0          0%          0          0%          0       0%

           MS                 Population       12,458        8,275     66%          4,109    33%               7      0%         15          0%              1      0%         51       0%
           Lawrence County    Borrowers            56           51     91%              4     7%               0      0%          0          0%              1      2%          0       0%
                              Farms               295          271     92%             24     8%               0      0%          0          0%              0      0%          0       0%
                              Land in Farms    62,833       62,833    100%              0     0%               0      0%          0          0%              0      0%          0       0%

           MS                 Population       18,436       11,073     60%          6,530    35%         776          4%              8      0%              0      0%         49       0%
           Leake County       Borrowers            84           74     88%             10    12%           0          0%              0      0%              0      0%          0       0%
                              Farms               600          548     91%             48     8%           4          1%              0      0%              0      0%          0       0%
                              Land in Farms    95,736       95,736    100%              0     0%           0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 823
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                             Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
           MS                Population       65,581      51,059     78%         13,972    21%          57      0%        129      0%              4      0%        360       1%
           Lee County        Borrowers            24          23     96%              0     0%           0      0%          0      0%              1      4%          0       0%
                             Farms               534         514     96%             15     3%           0      0%          0      0%              0      0%          5       1%
                             Land in Farms   140,209     140,066    100%              0     0%           0      0%          0      0%              0      0%        143       0%

           MS                Population       37,341      14,471     39%         22,572    60%          23      0%        124      0%              5      0%        146       0%
           Leflore County    Borrowers            67          62     93%              5     7%           0      0%          0      0%              0      0%          0       0%
                             Farms               261         246     94%             15     6%           0      0%          0      0%              0      0%          0       0%
                             Land in Farms   262,371     258,101     98%          4,270     2%           0      0%          0      0%              0      0%          0       0%

           MS                Population       30,278      21,132     70%          9,021    30%          19      0%         45      0%              1      0%         60       0%
           Lincoln County    Borrowers            67          61     91%              6     9%           0      0%          0      0%              0      0%          0       0%
                             Farms               522         506     97%             16     3%           0      0%          0      0%              0      0%          0       0%
                             Land in Farms    98,914      97,853     99%          1,061     1%           0      0%          0      0%              0      0%          0       0%

           MS                Population       59,308      36,442     61%         21,990    37%          75      0%        289      0%         21          0%        491       1%
           Lowndes County    Borrowers            49          43     88%              6    12%           0      0%          0      0%          0          0%          0       0%
                             Farms               342         315     92%             27     8%           0      0%          0      0%          0          0%          0       0%
                             Land in Farms   125,713     121,259     96%          4,454     4%           0      0%          0      0%          0          0%          0       0%

           MS                Population       53,794      29,635     55%         23,656    44%          40      0%        182      0%              5      0%        276       1%
           Madison County    Borrowers            79          45     57%             34    43%           0      0%          0      0%              0      0%          0       0%
                             Farms               454         378     83%             76    17%           0      0%          0      0%              0      0%          0       0%
                             Land in Farms   198,955     198,955    100%              0     0%           0      0%          0      0%              0      0%          0       0%

           MS                Population       25,544      17,651     69%          7,683    30%          23      0%         44      0%              6      0%        137       1%
           Marion County     Borrowers            35          27     77%              8    23%           0      0%          0      0%              0      0%          0       0%
                             Farms               493         427     87%             66    13%           0      0%          0      0%              0      0%          0       0%
                             Land in Farms    89,816      84,145     94%          5,671     6%           0      0%          0      0%              0      0%          0       0%

           MS                Population       30,361      14,797     49%         15,331    50%          59      0%         36      0%              5      0%        133       0%
           Marshall County   Borrowers            73          59     81%             14    19%           0      0%          0      0%              0      0%          0       0%
                             Farms               527         419     80%            108    20%           0      0%          0      0%              0      0%          0       0%
                             Land in Farms   182,009     166,584     92%         15,425     8%           0      0%          0      0%              0      0%          0       0%

           MS                Population       36,582      25,321     69%         11,021    30%          24      0%         28      0%              2      0%        186       1%
           Monroe County     Borrowers            96          75     78%             21    22%           0      0%          0      0%              0      0%          0       0%
                             Farms               512         473     92%             39     8%           0      0%          0      0%              0      0%          0       0%
                             Land in Farms   175,231     169,205     97%          6,026     3%           0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 824
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
           MS                Population        12,388       6,903     56%          5,408    44%          11      0%         16          0%              0      0%         50       0%
           Montgomery County Borrowers             13          12     92%              1     8%           0      0%          0          0%              0      0%          0       0%
                             Farms                290         254     88%             32    11%           0      0%          0          0%              0      0%          4       1%
                             Land in Farms     80,272      75,951     95%          3,351     4%           0      0%          0          0%              0      0%        970       1%

           MS                 Population       24,800      16,888     68%          4,602    19%       3,170    13%          35          0%              1      0%        104       0%
           Neshoba County     Borrowers            40          32     80%              8    20%           0     0%           0          0%              0      0%          0       0%
                              Farms               700         678     97%             16     2%           3     0%           0          0%              0      0%          3       0%
                              Land in Farms   137,267     135,816     99%          1,078     1%           0     0%           0          0%              0      0%        373       0%

           MS                 Population       20,291      13,643     67%          5,826    29%         723      4%              6      0%              8      0%         85       0%
           Newton County      Borrowers           104          95     91%              7     7%           0      0%              0      0%              2      2%          0       0%
                              Farms               578         548     95%             30     5%           0      0%              0      0%              0      0%          0       0%
                              Land in Farms    96,474      93,304     97%          3,170     3%           0      0%              0      0%              0      0%          0       0%

           MS                 Population       12,604       3,952     31%          8,575    68%          44      0%              6      0%              0      0%         27       0%
           Noxubee County     Borrowers            85          64     75%             20    24%           1      1%              0      0%              0      0%          0       0%
                              Farms               426         379     89%             41    10%           0      0%              0      0%              0      0%          6       1%
                              Land in Farms   201,759     199,691     99%              0     0%           0      0%              0      0%              0      0%      2,068       1%

           MS                 Population       38,375      23,871     62%         13,131    34%          29      0%      1,002          3%         12          0%        330       1%
           Oktibbeha County   Borrowers            53          40     75%             11    21%           0      0%          0          0%          2          4%          0       0%
                              Farms               339         293     86%             43    13%           0      0%          0          0%          0          0%          3       1%
                              Land in Farms    80,761      80,571    100%              0     0%           0      0%          0          0%          0          0%        190       0%

           MS                 Population       29,996      15,326     51%         14,452    48%          31      0%         33          0%              1      0%        153       1%
           Panola County      Borrowers           127         106     83%             21    17%           0      0%          0          0%              0      0%          0       0%
                              Farms               577         519     90%             58    10%           0      0%          0          0%              0      0%          0       0%
                              Land in Farms   218,154     212,395     97%          5,759     3%           0      0%          0          0%              0      0%          0       0%

           MS                 Population       38,714      32,670     84%          5,522    14%         141      0%         79          0%              2      0%        300       1%
           Pearl River County Borrowers           113         109     96%              3     3%           0      0%          0          0%              1      1%          0       0%
                              Farms               554         547     99%              3     1%           0      0%          0          0%              0      0%          4       1%
                              Land in Farms    93,180      92,315     99%              0     0%           0      0%          0          0%              0      0%        865       1%

           MS                 Population       10,865       8,300     76%          2,447    23%          66      1%              5      0%              1      0%         46       0%
           Perry County       Borrowers            32          31     97%              1     3%           0      0%              0      0%              0      0%          0       0%
                              Farms               226         209     92%             17     8%           0      0%              0      0%              0      0%          0       0%
                              Land in Farms    31,587      30,328     96%          1,259     4%           0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 825
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian              Other                 Hispanic
                                             Total       Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
           MS                Population       36,882      19,826     54%         16,810    46%          26          0%         44      0%              3      0%        173       0%
           Pike County       Borrowers            59          49     83%             10    17%           0          0%          0      0%              0      0%          0       0%
                             Farms               459         410     89%             49    11%           0          0%          0      0%              0      0%          0       0%
                             Land in Farms    80,342      76,675     95%          3,667     5%           0          0%          0      0%              0      0%          0       0%

           MS                Population       22,237      18,873     85%          3,235    15%          32          0%         32      0%              0      0%         65       0%
           Pontotoc County   Borrowers            73          69     95%              3     4%           1          1%          0      0%              0      0%          0       0%
                             Farms               549         533     97%             16     3%           0          0%          0      0%              0      0%          0       0%
                             Land in Farms   124,202     123,315     99%            887     1%           0          0%          0      0%              0      0%          0       0%

           MS                Population       23,278      20,397     88%          2,739    12%          24          0%         23      0%              1      0%         94       0%
           Prentiss County   Borrowers            61          59     97%              2     3%           0          0%          0      0%              0      0%          0       0%
                             Farms               374         363     97%              7     2%           0          0%          0      0%              0      0%          4       1%
                             Land in Farms    86,096      84,896     99%              0     0%           0          0%          0      0%              0      0%      1,200       1%

           MS                Population       10,490       4,219     40%          6,189    59%          16          0%         18      0%              0      0%         48       0%
           Quitman County    Borrowers           108          88     81%             20    19%           0          0%          0      0%              0      0%          0       0%
                             Farms               219         189     86%             30    14%           0          0%          0      0%              0      0%          0       0%
                             Land in Farms   186,297     186,297    100%              0     0%           0          0%          0      0%              0      0%          0       0%

           MS                Population       87,161      71,683     82%         14,573    17%          70          0%        304      0%         11          0%        520       1%
           Rankin County     Borrowers            50          44     88%              6    12%           0          0%          0      0%          0          0%          0       0%
                             Farms               538         491     91%             47     9%           0          0%          0      0%          0          0%          0       0%
                             Land in Farms   118,651     113,890     96%          4,761     4%           0          0%          0      0%          0          0%          0       0%

           MS                Population       24,137      14,767     61%          9,149    38%          56          0%         23      0%              1      0%        141       1%
           Scott County      Borrowers            94          85     90%              7     7%           1          1%          0      0%              1      1%          0       0%
                             Farms               687         631     92%             56     8%           0          0%          0      0%              0      0%          0       0%
                             Land in Farms   110,124     106,846     97%          3,278     3%           0          0%          0      0%              0      0%          0       0%

           MS                Population        7,066       2,337     33%          4,653    66%               7      0%         21      0%              0      0%         48       1%
           Sharkey County    Borrowers            53          41     77%             11    21%               0      0%          0      0%              1      2%          0       0%
                             Farms               125         120     96%              5     4%               0      0%          0      0%              0      0%          0       0%
                             Land in Farms   181,946     181,228    100%            718     0%               0      0%          0      0%              0      0%          0       0%

           MS                Population       23,953      16,086     67%          7,732    32%          46          0%         22      0%              0      0%         67       0%
           Simpson County    Borrowers            66          54     82%             12    18%           0          0%          0      0%              0      0%          0       0%
                             Farms               587         553     94%             34     6%           0          0%          0      0%              0      0%          0       0%
                             Land in Farms    96,540      93,195     97%          3,345     3%           0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 826
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           MS                 Population       14,798      11,456     77%          3,237    22%          16          0%              7      0%              1      0%         81       1%
           Smith County       Borrowers           135         130     96%              5     4%           0          0%              0      0%              0      0%          0       0%
                              Farms               661         634     96%             24     4%           0          0%              0      0%              0      0%          3       0%
                              Land in Farms    95,121      92,666     97%          1,837     2%           0          0%              0      0%              0      0%        618       1%

           MS                 Population       10,750       8,326     77%          2,335    22%          20          0%         14          0%              1      0%         54       1%
           Stone County       Borrowers            97          92     95%              3     3%           0          0%          1          1%              1      1%          0       0%
                              Farms               222         219     99%              3     1%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms    32,666      32,218     99%            448     1%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       32,867      11,556     35%         21,001    64%          28          0%         90          0%              8      0%        184       1%
           Sunflower County   Borrowers           159         132     83%             26    16%           0          0%          0          0%              1      1%          0       0%
                              Farms               375         360     96%             15     4%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   361,003     357,694     99%          3,309     1%           0          0%          0          0%              0      0%          0       0%

           MS                  Population      15,210       6,235     41%          8,836    58%          14          0%         43          0%              0      0%         82       1%
           Tallahatchie County Borrowers          118          98     83%             20    17%           0          0%          0          0%              0      0%          0       0%
                               Farms              386         365     95%             21     5%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   273,117     269,161     99%          3,956     1%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       21,432      13,888     65%          7,361    34%          36          0%         26          0%              0      0%        121       1%
           Tate County        Borrowers            44          37     84%              7    16%           0          0%          0          0%              0      0%          0       0%
                              Farms               544         498     92%             46     8%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   141,245     135,673     96%          5,572     4%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       19,523      16,206     83%          3,221    16%          12          0%         17          0%              3      0%         64       0%
           Tippah County      Borrowers            42          38     90%              4    10%           0          0%          0          0%              0      0%          0       0%
                              Farms               551         529     96%             22     4%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   108,314     106,687     98%          1,627     2%           0          0%          0          0%              0      0%          0       0%

           MS                Population        17,683      16,967     96%            628     4%          18          0%         13          0%              1      0%         56       0%
           Tishomingo County Borrowers             10           9     90%              1    10%           0          0%          0          0%              0      0%          0       0%
                             Farms                269         262     97%              7     3%           0          0%          0          0%              0      0%          0       0%
                             Land in Farms     40,676      40,676    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS                 Population        8,164       1,986     24%          6,089    75%               2      0%              4      0%              2      0%         81       1%
           Tunica County      Borrowers            35          21     60%             14    40%               0      0%              0      0%              0      0%          0       0%
                              Farms               121         109     90%             12    10%               0      0%              0      0%              0      0%          0       0%
                              Land in Farms   230,524     228,843     99%          1,681     1%               0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 827
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           MS                 Population       22,085      18,744     85%          3,202    14%               9      0%         25          0%              2      0%        103       0%
           Union County       Borrowers            37          33     89%              3     8%               0      0%          0          0%              1      3%          0       0%
                              Farms               540         529     98%             11     2%               0      0%          0          0%              0      0%          0       0%
                              Land in Farms   100,433      97,547     97%          2,886     3%               0      0%          0          0%              0      0%          0       0%

           MS                 Population       14,352       8,216     57%          6,044    42%          15          0%         27          0%              0      0%         50       0%
           Walthall County    Borrowers            44          27     61%             17    39%           0          0%          0          0%              0      0%          0       0%
                              Farms               563         491     87%             65    12%           0          0%          0          0%              0      0%          7       1%
                              Land in Farms   108,236     102,216     94%          5,201     5%           0          0%          0          0%              0      0%        819       1%

           MS                 Population       47,880      28,743     60%         18,609    39%          44          0%        223          0%              7      0%        254       1%
           Warren County      Borrowers            22          19     86%              3    14%           0          0%          0          0%              0      0%          0       0%
                              Farms               193         165     85%             28    15%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms   114,083     110,743     97%          3,340     3%           0          0%          0          0%              0      0%          0       0%

           MS                Population        67,935      28,174     41%         39,035    57%          53          0%        244          0%         13          0%        416       1%
           Washington County Borrowers             91          73     80%             18    20%           0          0%          0          0%          0          0%          0       0%
                             Farms                344         309     90%             35    10%           0          0%          0          0%          0          0%          0       0%
                              Land in Farms   342,237     332,718     97%          9,519     3%           0          0%          0          0%          0          0%          0       0%

           MS                 Population       19,517      12,469     64%          6,920    35%          19          0%         32          0%              2      0%         75       0%
           Wayne County       Borrowers            31          28     90%              3    10%           0          0%          0          0%              0      0%          0       0%
                              Farms               449         429     96%             20     4%           0          0%          0          0%              0      0%          0       0%
                              Land in Farms    72,515      72,515    100%              0     0%           0          0%          0          0%              0      0%          0       0%

           MS                 Population       10,222       7,914     77%          2,238    22%               2      0%         10          0%              1      0%         57       1%
           Webster County     Borrowers            43          41     95%              1     2%               0      0%          0          0%              1      2%          0       0%
                              Farms               270         266     99%              4     1%               0      0%          0          0%              0      0%          0       0%
                              Land in Farms    75,551      75,229    100%            322     0%               0      0%          0          0%              0      0%          0       0%

           MS                 Population        9,678       3,103     32%          6,511    67%          15          0%              2      0%              2      0%         45       0%
           Wilkinson County   Borrowers            13           8     62%              5    38%           0          0%              0      0%              0      0%          0       0%
                              Farms               189         162     86%             27    14%           0          0%              0      0%              0      0%          0       0%
                              Land in Farms    89,807      83,081     93%          6,726     7%           0          0%              0      0%              0      0%          0       0%

           MS                 Population       19,433      11,121     57%          8,064    41%         162          1%         16          0%              0      0%         70       0%
           Winston County     Borrowers           151         120     79%             30    20%           1          1%          0          0%              0      0%          0       0%
                              Farms               486         444     91%             39     8%           0          0%          0          0%              0      0%          3       1%
                              Land in Farms    83,445      79,414     95%          3,715     4%           0          0%          0          0%              0      0%        316       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 828
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American            Asian              Other                 Hispanic
                                                 Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
           MS                 Population         12,033        7,448     62%          4,512    37%          10      0%         10      0%              0      0%         53       0%
           Yalobusha County   Borrowers              37           25     68%             11    30%           0      0%          0      0%              1      3%          0       0%
                              Farms                 263          232     88%             31    12%           0      0%          0      0%              0      0%          0       0%
                              Land in Farms      78,230       78,230    100%              0     0%           0      0%          0      0%              0      0%          0       0%

           MS                 Population         25,506       11,923     47%         13,401    53%          30      0%         49      0%              0      0%        103       0%
           Yazoo County       Borrowers             132          114     86%             17    13%           0      0%          0      0%              0      0%          1       1%
                              Farms                 531          496     93%             35     7%           0      0%          0      0%              0      0%          0       0%
                              Land in Farms     361,634      361,634    100%              0     0%           0      0%          0      0%              0      0%          0       0%

           MS                 Population       2,573,216    1,624,198    63%        911,891    35%       8,316      0%     12,543      0%        337          0%     15,931       1%
           STATE              Borrowers            4,912        4,054    83%            826    17%           5      0%          1      0%         23          0%          3       0%
                              Farms               31,998       29,462    92%          2,474     8%          10      0%          0      0%          0          0%         52       0%
                              Land in Farms   10,188,362    9,983,743    98%        196,719     2%           0      0%          0      0%          0          0%      7,900       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 829
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ADAMS, MISSISSIPPI                                   ALCORN, MISSISSIPPI                                    AMITE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       4                          1                          55                        23                         44                        16
                              Loans                           4                          1                         191                       143                         63                        21
                              Principal and Interest    650,569                      1,458                  11,520,731                 5,276,935                  1,745,908                    28,418
WHITE                         Borrowers                       4        100%              1        100%              55       100%             23        100%             35        80%             10         63%
                              Loans                           4        100%              1        100%             191       100%            143        100%             49        78%             11         52%
                              Principal and Interest    650,569        100%          1,458        100%      11,520,731       100%      5,276,935        100%      1,661,045        95%         19,040         67%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%                  0      0%             9        20%               6        38%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%            14        22%              10        48%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%        84,863         5%           9,377        33%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 830
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          ATTALA, MISSISSIPPI                                  BENTON, MISSISSIPPI                                  BOLIVAR, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       40                        17                         56                        23                         121                        79
                              Loans                           87                        36                        150                        75                         478                       355
                              Principal and Interest   2,614,357                   203,659                  4,880,606                 1,522,688                  25,228,555                 8,495,435
WHITE                         Borrowers                       31        78%             13         76%             46        82%             21         91%              69        57%             37         47%
                              Loans                           61        70%             20         56%            129        86%             69         92%             287        60%            201         57%
                              Principal and Interest   2,358,059        90%        169,165         83%      4,689,769        96%      1,497,329         98%      19,560,005        78%      5,769,476         68%
AFRICAN AMERICAN              Borrowers                       8         20%              3         18%            10         18%              2           9%             52        43%             42         53%
                              Loans                          17         20%              7         19%            21         14%              6           8%            191        40%            154         43%
                              Principal and Interest    114,689          4%          2,984          1%       190,837          4%         25,359           2%      5,668,550        22%      2,725,959         32%
NATIVE AMERICAN               Borrowers                       1          3%              1          6%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                           9         10%              9         25%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    141,609          5%         31,510         15%                  0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 831
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CALHOUN, MISSISSIPPI                                 CARROLL, MISSISSIPPI                               CHICKASAW, MISSISSIPPI
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        77                        22                         24                        10                          87                        42
                              Loans                           232                       101                         52                        19                         227                       120
                              Principal and Interest   11,757,077                 2,380,878                  2,277,213                   360,911                  10,658,460                 1,531,688
WHITE                         Borrowers                        68        88%             17         77%             16        67%              6         60%              76        87%             35         83%
                              Loans                           187        81%             73         72%             37        71%             15         79%             195        86%            101         84%
                              Principal and Interest   10,861,933        92%      2,161,363         91%      2,120,820        93%        352,045         98%      10,135,651        95%      1,435,821         94%
AFRICAN AMERICAN              Borrowers                        7          9%              5         23%             8         33%              4         40%              10        11%              7         17%
                              Loans                           38         16%             28         28%            15         29%              4         21%              30        13%             19         16%
                              Principal and Interest     748,908          6%        219,515          9%       156,393          7%          8,866          2%         445,322         4%         95,867          6%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                        2           3%                  0      0%                 0      0%                  0      0%              1          1%                  0      0%
                              Loans                            7           3%                  0      0%                 0      0%                  0      0%              2          1%                  0      0%
                              Principal and Interest     146,236           1%                  0      0%                 0      0%                  0      0%         77,488          1%                  0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 832
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CHOCTAW, MISSISSIPPI                                CLAIBORNE, MISSISSIPPI                                  CLARKE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       47                        20                         32                        21                         32                        15
                              Loans                           87                        27                         83                        43                         65                        29
                              Principal and Interest   1,194,979                    56,452                  2,418,011                   291,317                    571,435                    28,494
WHITE                         Borrowers                       40        85%             17         85%             17        53%             12         57%             27        84%             11         73%
                              Loans                           75        86%             22         81%             50        60%             29         67%             52        80%             21         72%
                              Principal and Interest   1,145,631        96%         51,470         91%      1,412,203        58%        222,884         77%        515,981        90%         24,609         86%
AFRICAN AMERICAN              Borrowers                       7         15%              3         15%            14         44%              9         43%              5        16%               4        27%
                              Loans                          12         14%              5         19%            32         39%             14         33%             13        20%               8        28%
                              Principal and Interest     49,347          4%          4,982          9%       925,018         38%         68,433         23%         55,455        10%           3,885        14%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           3%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%            1           1%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%       80,790           3%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 833
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CLAY, MISSISSIPPI                                COAHOMA, MISSISSIPPI                                    COPIAH, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       68                        25                          86                        55                         39                        22
                              Loans                          175                        66                         288                       204                         98                        55
                              Principal and Interest   8,134,528                 1,250,012                  12,367,984                 4,430,120                  5,632,703                 1,891,290
WHITE                         Borrowers                       56        82%             18         72%              62        72%             37         67%             36        92%             20         91%
                              Loans                          152        87%             55         83%             187        65%            136         67%             84        86%             46         84%
                              Principal and Interest   7,737,436        95%      1,234,925         99%      11,291,652        91%      4,064,156         92%      5,393,411        96%      1,871,820         99%
AFRICAN AMERICAN              Borrowers                      12         18%              7         28%              24        28%             18         33%              3         8%              2          9%
                              Loans                          23         13%             11         17%             101        35%             68         33%             14        14%              9         16%
                              Principal and Interest    397,091          5%         15,087          1%       1,076,332         9%        365,964          8%        239,292         4%         19,469          1%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 834
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       COVINGTON, MISSISSIPPI                                 DE SOTO, MISSISSIPPI                                 FORREST, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       59                        17                         21                        19                         18                         8
                              Loans                           97                        24                         77                        71                         41                        22
                              Principal and Interest   4,246,728                   171,279                  3,386,593                 1,480,392                  1,638,583                   391,405
WHITE                         Borrowers                       54        92%             17        100%             16        76%             14         74%             16        89%              6         75%
                              Loans                           91        94%             24        100%             65        84%             60         85%             37        90%             19         86%
                              Principal and Interest   4,190,251        99%        171,279        100%      3,237,203        96%      1,417,933         96%      1,600,309        98%        388,130         99%
AFRICAN AMERICAN              Borrowers                       4           7%                  0      0%            5         24%              5         26%              2        11%               2        25%
                              Loans                           5           5%                  0      0%           12         16%             11         15%              4        10%               3        14%
                              Principal and Interest     50,023           1%                  0      0%      149,390          4%         62,459          4%         38,273         2%           3,275         1%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                        1          2%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                            1          1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest       6,454          0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 835
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        FRANKLIN, MISSISSIPPI                                  GEORGE, MISSISSIPPI                                    GREENE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent    Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       20                         9                          42                         28                         68                        24
                              Loans                           45                        21                         274                        241                        143                        58
                              Principal and Interest   1,844,350                   428,826                  25,325,716                 15,223,110                  5,484,483                 1,939,362
WHITE                         Borrowers                       17        85%              7         78%              39        93%         26              93%             66        97%             24        100%
                              Loans                           41        91%             18         86%             248        91%        220              91%            139        97%             58        100%
                              Principal and Interest   1,681,989        91%        417,030         97%      24,113,758        95% 14,428,520              95%      5,368,635        98%      1,939,362        100%
AFRICAN AMERICAN              Borrowers                       3         15%              2         22%               2          5%              2           7%             2          3%                  0      0%
                              Loans                           4          9%              3         14%              25          9%             21           9%             4          3%                  0      0%
                              Principal and Interest    162,361          9%         11,795          3%       1,190,966          5%        794,590           5%       115,848          2%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%             1           2%                   0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%             1           0%                   0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%        20,991           0%                   0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                   0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                    Page 836
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        GRENADA, MISSISSIPPI                                 HANCOCK, MISSISSIPPI                                 HARRISON, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                      16                          6                         32                        14                         22                        14
                              Loans                          26                          8                        113                        49                        105                        87
                              Principal and Interest    749,415                     71,264                  4,349,520                 1,365,683                  3,529,981                 1,578,564
WHITE                         Borrowers                      15         94%              5         83%             32       100%             14        100%             22       100%             14        100%
                              Loans                          24         92%              7         88%            113       100%             49        100%            105       100%             87        100%
                              Principal and Interest    747,974        100%         71,253        100%      4,349,520       100%      1,365,683        100%      3,529,981       100%      1,578,564        100%
AFRICAN AMERICAN              Borrowers                        1          6%              1        17%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                            2          8%              1        13%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest       1,441          0%             11         0%                  0      0%                  0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 837
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             HINDS, MISSISSIPPI                                 HOLMES, MISSISSIPPI                                HUMPHREYS, MISSISSIPPI
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        30                        22                         114                        71                         119                         95
                              Loans                           135                       119                         325                       210                         452                        385
                              Principal and Interest   14,600,712                 7,614,412                  15,468,491                 3,591,595                  37,822,321                 18,440,262
WHITE                         Borrowers                         23       77%              16        73%               60       53%              28        39%                80      67%              64        67%
                              Loans                            125       93%             111        93%              135       42%              71        34%               288      64%             248        64%
                              Principal and Interest   14,201,394        97%      7,582,288        100%       8,874,148        57%      1,673,811         47%      31,962,511        85%      15,604,942        85%
AFRICAN AMERICAN              Borrowers                        6         20%              5         23%              53        46%             43         61%              39        33%              31        33%
                              Loans                            8          6%              7          6%             185        57%            139         66%             164        36%             137        36%
                              Principal and Interest     307,808          2%         29,824                   6,549,750        42%      1,917,784         53%       5,859,810        15%       2,835,320        15%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%                  0      0%             1           1%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%             5           2%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        44,593           0%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                        1           3%             1           5%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                            2           1%             1           1%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest      91,510           1%         2,300           0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                    Page 838
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ISSAQUENA, MISSISSIPPI                               ITAWAMBA, MISSISSIPPI                                  JACKSON, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       35                        25                         45                        14                         14                        10
                              Loans                           82                        57                         97                        45                         72                        61
                              Principal and Interest   8,198,663                 1,215,575                  4,063,866                   871,122                  4,875,305                 3,051,699
WHITE                         Borrowers                       26        74%             19         76%             43        96%             13         93%             14       100%             10        100%
                              Loans                           56        68%             37         65%             94        97%             44         98%             72       100%             61        100%
                              Principal and Interest   7,212,799        88%        846,968         70%      4,040,717        99%        871,081        100%      4,875,305       100%      3,051,699        100%
AFRICAN AMERICAN              Borrowers                       9         26%              6         24%             2           4%              1          7%                 0      0%                  0      0%
                              Loans                          26         32%             20         35%             3           3%              1          2%                 0      0%                  0      0%
                              Principal and Interest    985,865         12%        368,607         30%        23,149           1%             41          0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 839
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           JASPER, MISSISSIPPI                              JEFFERSON, MISSISSIPPI                               JEFFERSON DAVIS, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       87                        30                         38                        17                           60                        37
                              Loans                          146                        41                         75                        43                          144                        93
                              Principal and Interest   3,805,495                   218,074                  3,101,327                   514,986                    5,788,517                 1,855,805
WHITE                         Borrowers                       74        85%             25         83%             21        55%              6         35%               41        68%             24         65%
                              Loans                          129        88%             36         88%             45        60%             25         58%              106        74%             68         73%
                              Principal and Interest   3,522,802        93%        209,732         96%      2,059,984        66%        455,777         89%        4,163,693        72%      1,458,215         79%
AFRICAN AMERICAN              Borrowers                      12         14%              5         17%             17        45%             11         65%               19        32%             13         35%
                              Loans                          16         11%              5         12%             30        40%             18         42%               38        26%             25         27%
                              Principal and Interest    222,983          6%          8,342          4%      1,041,343        34%         59,209         11%        1,624,825        28%        397,589         21%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
OTHER                         Borrowers                       1           1%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                           1           1%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest     59,710           2%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                    Page 840
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            JONES, MISSISSIPPI                                 KEMPER, MISSISSIPPI                               LAFAYETTE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       59                        25                         82                        29                         24                        12
                              Loans                           96                        42                        132                        47                         90                        64
                              Principal and Interest   3,286,217                   312,585                  2,805,341                   114,192                  5,003,582                 2,287,514
WHITE                         Borrowers                       56        95%             23         92%             54        66%             14         48%             15        63%              9         75%
                              Loans                           90        94%             39         93%             89        67%             23         49%             74        82%             61         95%
                              Principal and Interest   3,171,627        97%        307,839         98%      2,307,796        82%         78,794         69%      4,634,069        93%      2,286,775        100%
AFRICAN AMERICAN              Borrowers                       3           5%             2           8%           28         34%             15         52%              9        38%               3        25%
                              Loans                           6           6%             3           7%           43         33%             24         51%             16        18%               3         5%
                              Principal and Interest    114,590           3%         4,746           2%      497,545         18%         35,398         31%        369,513         7%             739         0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 841
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           LAMAR, MISSISSIPPI                               LAUDERDALE, MISSISSIPPI                              LAWRENCE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       44                        20                         49                        10                         56                        23
                              Loans                          145                        97                         94                        19                        114                        58
                              Principal and Interest   9,042,103                 3,323,601                  1,220,589                    46,105                  2,499,994                   282,937
WHITE                         Borrowers                       42        95%             20        100%            47         96%             10        100%             51        91%             22         96%
                              Loans                          143        99%             97        100%            85         90%             19        100%            108        95%             57         98%
                              Principal and Interest   8,933,505        99%      3,323,601        100%       798,759         65%         46,105        100%      2,423,898        97%        282,933        100%
AFRICAN AMERICAN              Borrowers                       1           2%                  0      0%             1          2%                  0      0%             4          7%                  1      4%
                              Loans                           1           1%                  0      0%             4          4%                  0      0%             5          4%                  1      2%
                              Principal and Interest     49,619           1%                  0      0%         9,920          1%                  0      0%        15,263          1%                  3      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1          2%                   0      0%             1          2%                  0      0%
                              Loans                                0      0%                  0      0%            5          5%                   0      0%             1          1%                  0      0%
                              Principal and Interest               0      0%                  0      0%      411,909         34%                   0      0%        60,832          2%                  0      0%
HISPANIC                      Borrowers                       1           2%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                           1           1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest     58,979           1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 842
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           LEAKE, MISSISSIPPI                                      LEE, MISSISSIPPI                                 LEFLORE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       84                        39                         24                         9                          67                        36
                              Loans                          255                       133                         62                        24                         230                       169
                              Principal and Interest   8,457,768                 1,846,398                  2,190,387                   283,572                  22,945,722                 9,227,717
WHITE                         Borrowers                       74        88%             32         82%             23        96%              9        100%              62        93%             34         94%
                              Loans                          235        92%            123         92%             60        97%             24        100%             204        89%            156         92%
                              Principal and Interest   8,380,067        99%      1,828,229         99%      2,015,636        92%        283,572        100%      22,043,685        96%      8,887,987         96%
AFRICAN AMERICAN              Borrowers                      10         12%              7         18%                  0      0%                  0      0%              5         7%              2           6%
                              Loans                          20          8%             10          8%                  0      0%                  0      0%             26        11%             13           8%
                              Principal and Interest     77,701          1%         18,169          1%                  0      0%                  0      0%        902,037         4%        339,730           4%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           4%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%            2           3%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%      174,750           8%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 843
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LINCOLN, MISSISSIPPI                                LOWNDES, MISSISSIPPI                                   MADISON, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       67                        22                         49                        10                          79                        49
                              Loans                          135                        47                         96                        19                         176                        98
                              Principal and Interest   3,142,165                   303,922                  3,661,774                    75,045                  13,657,752                 1,520,685
WHITE                         Borrowers                       61        91%             19         86%             43        88%              8         80%              45        57%             25         51%
                              Loans                          117        87%             41         87%             83        86%             15         79%             107        61%             52         53%
                              Principal and Interest   2,821,265        90%        298,328         98%      3,499,587        96%         70,105         93%       9,621,844        70%        886,820         58%
AFRICAN AMERICAN              Borrowers                       6          9%              3         14%             6         12%              2         20%              34        43%             24         49%
                              Loans                          18         13%              6         13%            13         14%              4         21%              69        39%             46         47%
                              Principal and Interest    320,900         10%          5,594          2%       162,187          4%          4,940          7%       4,035,908        30%        633,864         42%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 844
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MARION, MISSISSIPPI                                 MARSHALL, MISSISSIPPI                                 MONROE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       35                        13                          73                        35                         96                        43
                              Loans                           65                        31                         189                       129                        278                       172
                              Principal and Interest   2,613,442                   650,683                  16,463,064                 9,020,733                  9,879,038                 3,645,094
WHITE                         Borrowers                       27        77%              8         62%              59        81%             24         69%             75        78%             28         65%
                              Loans                           50        77%             23         74%             152        80%            100         78%            192        69%            111         65%
                              Principal and Interest   2,526,742        97%        646,094         99%      15,268,674        93%      8,453,660         94%      9,152,076        93%      3,358,728         92%
AFRICAN AMERICAN              Borrowers                       8         23%              5         38%              14        19%             11         31%             21        22%             15         35%
                              Loans                          15         23%              8         26%              37        20%             29         22%             86        31%             61         35%
                              Principal and Interest     86,700          3%          4,589          1%       1,194,390         7%        567,073          6%        726,962         7%        286,366          8%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 845
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MONTGOMERY, MISSISSIPPI                                 NESHOBA, MISSISSIPPI                                  NEWTON, MISSISSIPPI
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       13                          3                         40                         8                        104                        32
                              Loans                           20                          8                        120                        15                        235                        89
                              Principal and Interest     483,398                     33,425                  2,031,128                    79,049                  8,573,197                   988,082
WHITE                         Borrowers                       12         92%              3        100%             32        80%              5         63%             95        91%             32        100%
                              Loans                           19         95%              8        100%             97        81%              9         60%            222        94%             89        100%
                              Principal and Interest     473,219         98%         33,425        100%      1,735,946        85%         49,816         63%      8,315,899        97%        988,082        100%
AFRICAN AMERICAN              Borrowers                        1           8%                  0      0%            8         20%              3         38%              7          7%                  0      0%
                              Loans                            1           5%                  0      0%           23         19%              6         40%              9          4%                  0      0%
                              Principal and Interest      10,179           2%                  0      0%      295,182         15%         29,234         37%        175,094          2%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%             2          2%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%             4          2%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%        82,204          1%                  0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 846
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         NOXUBEE, MISSISSIPPI                               OKTIBBEHA, MISSISSIPPI                                   PANOLA, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       85                        35                         53                        30                         127                         49
                              Loans                          194                        82                        158                        79                         344                        239
                              Principal and Interest   8,504,339                 1,030,024                  4,132,045                   517,086                  24,455,649                 16,361,549
WHITE                         Borrowers                       64        75%             28         80%             40        75%             23         77%             106        83%              39        80%
                              Loans                          151        78%             64         78%            118        75%             51         65%             272        79%             196        82%
                              Principal and Interest   7,709,235        91%        898,182         87%      3,487,801        84%        253,621         49%      23,401,723        96%      15,694,036        96%
AFRICAN AMERICAN              Borrowers                      20         24%              7         20%            11         21%              5         17%              21        17%             10         20%
                              Loans                          42         22%             18         22%            31         20%             21         27%              72        21%             43         18%
                              Principal and Interest    698,845          8%        131,843         13%       610,231         15%        257,982         50%       1,053,926         4%        667,512          4%
NATIVE AMERICAN               Borrowers                       1           1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                           1           1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     96,258           1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%            2           4%             2           7%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%            9           6%             7           9%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%       34,013           1%         5,482           1%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 847
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PEARL RIVER, MISSISSIPPI                                   PERRY, MISSISSIPPI                                       PIKE, MISSISSIPPI
                                                        Portfolio       Percent    Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       113                         66                         32                         7                          59                        34
                              Loans                           583                        462                         55                        15                         221                       139
                              Principal and Interest   36,650,099                 20,884,574                  2,004,402                   709,033                  12,617,538                 3,243,195
WHITE                         Borrowers                       109        96%         63              95%             31        97%              7        100%              49        83%             29         85%
                              Loans                           563        97%        444              96%             54        98%             15        100%             198        90%            124         89%
                              Principal and Interest   35,917,146        98% 20,359,716              97%      2,003,425       100%        709,033        100%      12,030,551        95%      3,115,158         96%
AFRICAN AMERICAN              Borrowers                        3           3%              2           3%              1         3%                  0      0%             10        17%              5         15%
                              Loans                           18           3%             16           3%              1         2%                  0      0%             23        10%             15         11%
                              Principal and Interest     703,186           2%        512,247           2%            978         0%                  0      0%        586,987         5%        128,037          4%
NATIVE AMERICAN               Borrowers                             0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                        1           1%              1           2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                            2           0%              2           0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest      29,768           0%         12,610           0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                    Page 848
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         PONTOTOC, MISSISSIPPI                                 PRENTISS, MISSISSIPPI                                 QUITMAN, MISSISSIPPI
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        73                        35                         61                        14                         108                         54
                              Loans                           274                       188                        145                        51                         419                        307
                              Principal and Interest   13,766,148                 4,912,986                  5,815,320                 1,787,408                  28,748,851                 13,257,539
WHITE                         Borrowers                        69        95%             32         91%             59        97%             14        100%              88        81%              40        74%
                              Loans                           261        95%            181         96%            142        98%             51        100%             310        74%             217        71%
                              Principal and Interest   13,339,819        97%      4,895,682        100%      5,718,943        98%      1,787,408        100%      26,298,431        91%      12,175,675        92%
AFRICAN AMERICAN              Borrowers                        3           4%             2           6%            2           3%                  0      0%             20        19%              14        26%
                              Loans                            9           3%             4           2%            3           2%                  0      0%            109        26%              90        29%
                              Principal and Interest      49,200           0%         2,015           0%       96,376           2%                  0      0%      2,450,421         9%       1,081,863         8%
NATIVE AMERICAN               Borrowers                        1           1%             1           3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                            4           1%             3           2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     377,130           3%        15,289           0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 849
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           RANKIN, MISSISSIPPI                                    SCOTT, MISSISSIPPI                                  SHARKEY, MISSISSIPPI
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        50                        25                          94                        35                          53                        32
                              Loans                           163                       115                         294                       124                         182                       142
                              Principal and Interest   16,648,378                 6,950,007                  12,205,050                 3,371,962                  11,579,699                 5,327,827
WHITE                         Borrowers                        44        88%             22         88%              85        90%             31         89%              41        77%             26         81%
                              Loans                           152        93%            112         97%             273        93%            120         97%             130        71%            102         72%
                              Principal and Interest   16,592,227       100%      6,948,229        100%      11,749,256        96%      3,371,229        100%       9,904,671        86%      4,306,400         81%
AFRICAN AMERICAN              Borrowers                        6         12%              3         12%              7           7%              4        11%              11        21%              6         19%
                              Loans                           11          7%              3          3%             14           5%              4         3%              51        28%             40         28%
                              Principal and Interest      56,151          0%          1,779          0%        207,803           2%            733         0%       1,615,553        14%      1,021,427         19%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%             1           1%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%             3           1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       173,428           1%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%                  0      0%             1           1%                  0      0%              1          2%                  0      0%
                              Loans                                 0      0%                  0      0%             4           1%                  0      0%              1          1%                  0      0%
                              Principal and Interest                0      0%                  0      0%        74,563           1%                  0      0%         59,475          1%                  0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                    Page 850
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SIMPSON, MISSISSIPPI                                    SMITH, MISSISSIPPI                                    STONE, MISSISSIPPI
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        66                        32                        135                        60                          97                        56
                              Loans                           252                       183                        276                       150                         234                       160
                              Principal and Interest   13,307,329                 5,941,707                  9,489,077                 1,627,039                  13,416,758                 3,713,019
WHITE                         Borrowers                        54        82%             23         72%            130        96%             55         92%              92        95%             52         93%
                              Loans                           230        91%            168         92%            271        98%            145         97%             217        93%            148         93%
                              Principal and Interest   13,134,265        99%      5,924,571        100%      9,415,350        99%      1,616,381         99%      12,702,223        95%      3,574,630         96%
AFRICAN AMERICAN              Borrowers                       12         18%              9         28%             5           4%             5           8%              3          3%             2           4%
                              Loans                           22          9%             15          8%             5           2%             5           3%             15          6%            10           6%
                              Principal and Interest     173,064          1%         17,136          0%        73,727           1%        10,658           1%        385,682          3%        97,776           3%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  1     1%                   1      2%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  1   100%                   0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%         82,759          1%        12,633           0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%              1          1%             1           2%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%              1          0%             1           1%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%        246,094          2%        27,980           1%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                   Page 851
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SUNFLOWER, MISSISSIPPI                                SUNFLOWER,PT, MISSISSIPPI                              TALLAHATCHIE, MISSISSIPPI
                                                        Portfolio       Percent    Delinquent       Percent    Portfolio       Percent    Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       100                         61                          59                         46                         118                         57
                              Loans                           282                        210                         333                        305                         423                        299
                              Principal and Interest   23,078,075                 10,563,605                  28,419,129                 18,041,065                  25,251,119                 11,512,631
WHITE                         Borrowers                        78        78%              45         74%              54        92%         43              93%              98        83%              45        79%
                              Loans                           232        82%             171         81%             314        94%        289              95%             345        82%             258        86%
                              Principal and Interest   19,937,665        86%       9,611,266         91%      28,170,567        99% 17,938,518              99%      23,140,299        92%      11,083,374        96%
AFRICAN AMERICAN              Borrowers                        22        22%              16         26%              4           7%              3           7%             20        17%             12         21%
                              Loans                            50        18%              39         19%             18           5%             16           5%             78        18%             41         14%
                              Principal and Interest    3,140,409        14%         952,339          9%        191,099           1%        102,547           1%      2,110,821         8%        429,257          4%
NATIVE AMERICAN               Borrowers                             0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%                   0      0%                  1      2%                   0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                  1      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                   0      0%        57,463           0%                   0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                   0      0%                  0      0%                   0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                      Page 852
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             TATE, MISSISSIPPI                                  TIPPAH, MISSISSIPPI                              TISHOMINGO, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       44                        19                         42                        16                         10                         3
                              Loans                           86                        43                        114                        51                         18                         7
                              Principal and Interest   3,995,974                 1,452,911                  5,198,184                 1,347,695                    197,184                    25,501
WHITE                         Borrowers                       37        84%             17         89%             38        90%             13         81%              9        90%              3        100%
                              Loans                           76        88%             41         95%            106        93%             44         86%             17        94%              7        100%
                              Principal and Interest   3,937,594        99%      1,451,006        100%      4,992,587        96%      1,329,929         99%        194,733        99%         25,501        100%
AFRICAN AMERICAN              Borrowers                       7         16%              2         11%             4         10%              3         19%               1       10%                   0      0%
                              Loans                          10         12%              2          5%             8          7%              7         14%               1        6%                   0      0%
                              Principal and Interest     58,380          1%          1,905          0%       205,597          4%         17,766          1%           2,451        1%                   0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 853
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          TUNICA, MISSISSIPPI                                    UNION, MISSISSIPPI                              WALTHALL, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       35                        25                         37                        20                         44                        12
                              Loans                          172                       146                        112                        63                         91                        45
                              Principal and Interest   9,191,157                 4,049,962                  3,952,128                 1,428,982                  2,540,348                   456,918
WHITE                         Borrowers                       21        60%             13         52%             33        89%             17         85%             27        61%              6         50%
                              Loans                           81        47%             66         45%            106        95%             60         95%             54        59%             21         47%
                              Principal and Interest   5,168,760        56%      1,930,446         48%      3,845,926        97%      1,405,684         98%      1,930,986        76%        259,347         57%
AFRICAN AMERICAN              Borrowers                       14        40%             12         48%             3           8%             2         10%             17        39%              6         50%
                              Loans                           91        53%             80         55%             5           4%             2          3%             37        41%             24         53%
                              Principal and Interest   4,022,397        44%      2,119,516         52%        67,412           2%         7,577          1%        609,361        24%        197,570         43%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           3%             1           5%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%            1           1%             1           2%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%       38,791           1%        15,721           1%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 854
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WARREN, MISSISSIPPI                                WASHINGTON, MISSISSIPPI                                    WAYNE, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent    Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        22                        15                          91                         48                             31                     12
                              Loans                            77                        63                         328                        240                             73                     25
                              Principal and Interest   9,270,983                 4,798,454                  28,797,200                 12,037,803                  1,824,904                     78,723
WHITE                         Borrowers                       19        86%             12         80%              73        80%         34              71%             28         90%             10         83%
                              Loans                           67        87%             53         84%             235        72%        173              72%             69         95%             22         88%
                              Principal and Interest   8,546,345        92%      4,531,119         94%      26,152,326        91% 10,998,456              91%      1,745,069         96%         42,308         54%
AFRICAN AMERICAN              Borrowers                       3         14%              3         20%              18        20%              14         29%              3         10%              2         17%
                              Loans                          10         13%             10         16%              93        28%              67         28%              4          5%              3         12%
                              Principal and Interest    724,637          8%        267,335          6%       2,644,873         9%       1,039,347          9%         79,835          4%         36,415         46%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                   0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                     Page 855
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WEBSTER, MISSISSIPPI                               WILKINSON, MISSISSIPPI                                 WINSTON, MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       43                        13                         13                         7                        151                        51
                              Loans                          135                        82                         45                        36                        314                        94
                              Principal and Interest   7,795,670                 3,082,653                  2,806,603                 1,302,193                  3,306,680                   168,546
WHITE                         Borrowers                       41        95%             12         92%              8        62%              4         57%            120        79%             34         67%
                              Loans                          130        96%             80         98%             38        84%             32         89%            249        79%             58         62%
                              Principal and Interest   7,714,809        99%      3,080,666        100%      2,686,921        96%      1,298,685        100%      2,868,084        87%         79,562         47%
AFRICAN AMERICAN              Borrowers                       1           2%             1           8%            5         38%              3         43%             30        20%             17         33%
                              Loans                           3           2%             2           2%            7         16%              4         11%             64        20%             36         38%
                              Principal and Interest     25,149           0%         1,987           0%      119,682          4%          3,508          0%        437,922        13%         88,984         53%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%               1        1%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%               1        0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%             674        0%                  0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
OTHER                         Borrowers                       1           2%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                           2           1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest     55,712           1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                  Page 856
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       YALOBUSHA, MISSISSIPPI                                    YAZOO, MISSISSIPPI                                    STATE OF MISSISSIPPI
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent    Delinquent       Percent     Portfolio       Percent     Delinquent       Percent
TOTAL                         Borrowers                      37                         12                         132                         87                        4,912                       2,337
                              Loans                          47                         13                         522                        372                       14,227                       8,721
                              Principal and Interest    764,534                     21,442                  57,301,059                 20,677,711                  794,921,456                 302,496,259
WHITE                         Borrowers                      25         68%              6         50%             114        86%         74              85%            4,054        83%       1,807              77%
                              Loans                          33         70%              7         54%             451        86%        331              89%           11,725        82%       7,084              81%
                              Principal and Interest    508,135         66%         13,374         62%      55,041,283        96% 20,245,407              98%      728,899,318        92% 280,750,255              93%
AFRICAN AMERICAN              Borrowers                      11         30%              6         50%              17        13%              12         14%              826        17%              520         22%
                              Loans                          12         26%              6         46%              69        13%              40         11%            2,425        17%            1,611         18%
                              Principal and Interest    178,313         23%          8,069         38%       2,122,326         4%         383,230          2%       63,022,416         8%       21,573,398          7%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                   0      0%               5          0%               2           0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%              18          0%              12           0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%         789,099          0%          46,799           0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                   0      0%                   1      0%                    1      0%
                              Loans                                0      0%                  0      0%                  0      0%                   0      0%                   1      0%                    1      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                   0      0%          82,759          0%          12,633           0%
OTHER                         Borrowers                       1          3%                   0      0%                  0      0%                   0      0%              23          0%               5           0%
                              Loans                           2          4%                   0      0%                  0      0%                   0      0%              53          0%              11           0%
                              Principal and Interest     78,086         10%                   0      0%                  0      0%                   0      0%       1,839,922          0%          61,793           0%
HISPANIC                      Borrowers                            0      0%                  0      0%             1           1%              1           0%               3          0%               2           0%
                              Loans                                0      0%                  0      0%             2           0%              1           0%               5          0%               2           0%
                              Prinicpal and Interest               0      0%                  0      0%       137,450           0%         49,073           0%         287,939          0%          51,373           0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                        Page 857
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African           Native
State   Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 MS AMITE                  Approved   No. of Applications                8         8      100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                      119                      0                0                0               0
                                      Completion to Approval                       4                      0                0                0               0
                                      Approval to Loan Closing                    44                      0                0                0               0

                           Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                           0                  0                0                 0              0
                                      Completion to Rejected                          0                  0                0                 0              0

                           Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                            0                  0                0                 0              0
                                     Completion to Withdrawn                          0                  0                0                 0              0

 MS   ATTALA               Approved   No. of Applications                12       12      100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       42                     0                0                 0              0
                                      Completion to Approval                       3                     0                0                 0              0
                                      Approval to Loan Closing                    33                     0                0                 0              0

                           Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                           0                  0                0                 0              0
                                      Completion to Rejected                          0                  0                0                 0              0

                           Withdrawn No. of Applications                 1         1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        36                     0                0                 0              0
                                     Completion to Withdrawn                       7                     0                0                 0              0

 MS   CALHOUN              Approved   No. of Applications                25       23      92%            2    8%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       37                    93                0                 0              0
                                      Completion to Approval                      10                     1                0                 0              0
                                      Approval to Loan Closing                    24                    27                0                 0              0

                           Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                           0                  0                0                 0              0
                                      Completion to Rejected                          0                  0                0                 0              0

                           Withdrawn No. of Applications                 4            4   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                            0                  0                0                 0              0
                                     Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 858
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 MS CHICKASAW              Approved   No. of Applications                36        36   100%            0   0%           0   0%           0   0%          0     0%
                                      Receipt to Completion                        40                   0                0                0               0
                                      Completion to Approval                       10                   0                0                0               0
                                      Approval to Loan Closing                     29                   0                0                0               0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        16                   0                0                 0              0
                                     Completion to Withdrawn                      13                   0                0                 0              0

 MS   COAHOMA              Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       42                   0                0                 0              0
                                      Completion to Approval                       1                   0                0                 0              0
                                      Approval to Loan Closing                    57                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0

 MS   COVINGTON            Approved   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                       34                   0                0                 0              0
                                      Completion to Approval                      14                   0                0                 0              0
                                      Approval to Loan Closing                    56                   0                0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                0                 0              0
                                      Completion to Rejected                       0                   0                0                 0              0

                           Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                0                 0              0
                                     Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 859
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 MS FORREST               Approved   No. of Applications                2         2      100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       17                      0                 0                0               0
                                     Completion to Approval                       0                      0                 0                0               0
                                     Approval to Loan Closing                    38                      0                 0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 MS   GEORGE              Approved   No. of Applications                1         1      100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       46                     0                 0                 0              0
                                     Completion to Approval                       7                     0                 0                 0              0
                                     Approval to Loan Closing                    28                     0                 0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 MS   HOLMES              Approved   No. of Applications                65       31      48%           34    52%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       77                    59                 0                 0              0
                                     Completion to Approval                       8                    22                 0                 0              0
                                     Approval to Loan Closing                    25                    30                 0                 0              0

                          Rejected   No. of Applications                14           8   57%            6    43%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 27       16      59%           11    41%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                    15                 0                 0              0
                                    Completion to Withdrawn                       0                    36                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 860
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State  Servicing Office   Decision           Average Days       Total       White              American           American         Asian            Hispanic
 MS JASPER                Approved   No. of Applications                4        3      75%             0   0%            0   0%           0   0%          1    25%
                                     Receipt to Completion                      20                      0                 0                0               3
                                     Completion to Approval                     12                      0                 0                0              11
                                     Approval to Loan Closing                   30                      0                 0                0               0

                          Rejected   No. of Applications                0           0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                 0                 0              0
                                     Completion to Rejected                         0                  0                 0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                 0              0
                                    Completion to Withdrawn                         0                  0                 0                 0              0

 MS   JONES               Approved   No. of Applications                8        8      100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                      18                     0                 0                 0              0
                                     Completion to Approval                      3                     0                 0                 0              0
                                     Approval to Loan Closing                   36                     0                 0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                 0                 0              0
                                     Completion to Rejected                         0                  0                 0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                 0              0
                                    Completion to Withdrawn                         0                  0                 0                 0              0

 MS   KEMPER              Approved   No. of Applications                2        1      50%            1    50%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      13                    28                 0                 0              0
                                     Completion to Approval                     13                    37                 0                 0              0
                                     Approval to Loan Closing                   13                    21                 0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                 0                 0              0
                                     Completion to Rejected                         0                  0                 0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                 0              0
                                    Completion to Withdrawn                         0                  0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 861
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
State  Servicing Office   Decision           Average Days       Total        White              American            American         Asian            Hispanic
 MS LEFORE                Approved   No. of Applications                8         7      88%             1   13%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       13                     13                  0                0               0
                                     Completion to Approval                       5                      5                  0                0               0
                                     Approval to Loan Closing                    35                    141                  0                0               0

                          Rejected   No. of Applications                0            0    0%            0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                  0                 0              0
                                     Completion to Rejected                          0                  0                  0                 0              0

                          Withdrawn No. of Applications                 8            7   88%            1    13%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                  0                 0              0
                                    Completion to Withdrawn                          0                  0                  0                 0              0

 MS   LINCOLN             Approved   No. of Applications                10       10      100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       37                     0                  0                 0              0
                                     Completion to Approval                      10                     0                  0                 0              0
                                     Approval to Loan Closing                    18                     0                  0                 0              0

                          Rejected   No. of Applications                0            0    0%            0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                  0                 0              0
                                     Completion to Rejected                          0                  0                  0                 0              0

                          Withdrawn No. of Applications                 2         1      50%            1    50%           0    0%           0   0%         0      0%
                                    Receipt to Completion                       171                   140                  0                 0              0
                                    Completion to Withdrawn                       0                     0                  0                 0              0

 MS   MARION              Approved   No. of Applications                12       10      83%            2    17%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       46                    76                  0                 0              0
                                     Completion to Approval                      43                     8                  0                 0              0
                                     Approval to Loan Closing                    25                    33                  0                 0              0

                          Rejected   No. of Applications                1            0    0%            1    100%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                 41                  0                 0              0
                                     Completion to Rejected                          0                 46                  0                 0              0

                          Withdrawn No. of Applications                 5            1   20%            4    80%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  7                  0                 0              0
                                    Completion to Withdrawn                          0                  3                  0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 862
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 MS NEWTON                Approved   No. of Applications                7         7      100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       54                      0                 0                0               0
                                     Completion to Approval                      10                      0                 0                0               0
                                     Approval to Loan Closing                    20                      0                 0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 2         2      100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                     0                 0                 0              0
                                    Completion to Withdrawn                      38                     0                 0                 0              0

 MS   NOXUBEE             Approved   No. of Applications                32       30      94%            2    6%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       46                    39                 0                 0              0
                                     Completion to Approval                      15                     2                 0                 0              0
                                     Approval to Loan Closing                    30                    25                 0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 4            3   75%            1    25%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 MS   OKTIBBEHA           Approved   No. of Applications                39       36      92%            3    8%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       48                    60                 0                 0              0
                                     Completion to Approval                      10                     0                 0                 0              0
                                     Approval to Loan Closing                    40                    19                 0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 9         7      78%            2    22%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        50                    52                 0                 0              0
                                    Completion to Withdrawn                       6                     0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 863
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                     African                 Native
State  Servicing Office   Decision           Average Days           Total        White              American                American                 Asian                Hispanic
 MS PANOLA                Approved   No. of Applications                    7         6      86%             1       14%            0         0%             0       0%          0     0%
                                     Receipt to Completion                            4                     22                      0                        0                   0
                                     Completion to Approval                          15                     25                      0                        0                   0
                                     Approval to Loan Closing                        26                     15                      0                        0                   0

                          Rejected   No. of Applications                    0            0    0%             0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                               0                   0                       0                       0                  0
                                     Completion to Rejected                              0                   0                       0                       0                  0

                          Withdrawn No. of Applications                     2            2   100%            0        0%             0        0%             0       0%         0      0%
                                    Receipt to Completion                                0                   0                       0                       0                  0
                                    Completion to Withdrawn                              0                   0                       0                       0                  0

                                     This county was not using FSA's automated application tracking system; therefore this data was not obtained from the APPL Database and
                                     has not been included in this report's State totals. This data was obtained during fieldwork in the servicing office.

 MS   PEARL RIVER         Approved   No. of Applications                    2         2      100%            0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                           91                      0                       0                       0                  0
                                     Completion to Approval                           0                      0                       0                       0                  0
                                     Approval to Loan Closing                        25                      0                       0                       0                  0

                          Rejected   No. of Applications                    0            0    0%             0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                               0                   0                       0                       0                  0
                                     Completion to Rejected                              0                   0                       0                       0                  0

                          Withdrawn No. of Applications                     0            0    0%             0        0%             0        0%             0       0%         0      0%
                                    Receipt to Completion                                0                   0                       0                       0                  0
                                    Completion to Withdrawn                              0                   0                       0                       0                  0

 MS   PRENTISS            Approved   No. of Applications                    10       10      100%            0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                           25                      0                       0                       0                  0
                                     Completion to Approval                          18                      0                       0                       0                  0
                                     Approval to Loan Closing                        43                      0                       0                       0                  0

                          Rejected   No. of Applications                    10       10      100%            0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                            0                      0                       0                       0                  0
                                     Completion to Rejected                           0                      0                       0                       0                  0

                          Withdrawn No. of Applications                     2         2      100%            0        0%             0        0%             0       0%         0      0%
                                    Receipt to Completion                            20                      0                       0                       0                  0
                                    Completion to Withdrawn                          69                      0                       0                       0                  0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 864
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African             Native
State   Servicing Office   Decision           Average Days       Total        White            American            American         Asian            Hispanic
 MS QUITMAN                Approved   No. of Applications                22        21   95%             1    5%            0   0%           0   0%          0     0%
                                      Receipt to Completion                        14                   1                  0                0               0
                                      Completion to Approval                       19                 146                  0                0               0
                                      Approval to Loan Closing                     27                   0                  0                0               0

                           Rejected   No. of Applications                2         0     0%            2    100%          0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                  29                  0                 0              0
                                      Completion to Rejected                       0                   4                  0                 0              0

                           Withdrawn No. of Applications                 3         2    67%            1    33%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        15                   0                  0                 0              0
                                     Completion to Withdrawn                      76                   0                  0                 0              0

 MS   SMITH                Approved   No. of Applications                13       13    100%           0     0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       65                   0                  0                 0              0
                                      Completion to Approval                      16                   0                  0                 0              0
                                      Approval to Loan Closing                    97                   0                  0                 0              0

                           Rejected   No. of Applications                3         3    100%           0     0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        3                   0                  0                 0              0
                                      Completion to Rejected                      40                   0                  0                 0              0

                           Withdrawn No. of Applications                 3         2    67%            1    33%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                 132                  0                 0              0
                                     Completion to Withdrawn                       0                 131                  0                 0              0

 MS   SUNFLOWER            Approved   No. of Applications                31       28    90%            3    10%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       30                  37                  0                 0              0
                                      Completion to Approval                      35                  21                  0                 0              0
                                      Approval to Loan Closing                     6                  12                  0                 0              0

                           Rejected   No. of Applications                2         2    100%           0     0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       46                   0                  0                 0              0
                                      Completion to Rejected                       8                   0                  0                 0              0

                           Withdrawn No. of Applications                 6         4    67%            2    33%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         3                   0                  0                 0              0
                                     Completion to Withdrawn                     143                   0                  0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 865
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State   Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 MS TALLAHATCHIE           Approved   No. of Applications                18        11   61%             7   39%           0   0%           0   0%          0     0%
                                      Receipt to Completion                        21                   3                 0                0               0
                                      Completion to Approval                        3                  60                 0                0               0
                                      Approval to Loan Closing                     27                  29                 0                0               0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0

 MS   UNION                Approved   No. of Applications                48       46    96%            2    4%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       43                  26                 0                 0              0
                                      Completion to Approval                      10                   0                 0                 0              0
                                      Approval to Loan Closing                    40                  29                 0                 0              0

                           Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       73                   0                 0                 0              0
                                      Completion to Rejected                       3                   0                 0                 0              0

                           Withdrawn No. of Applications                 5         5    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       114                   0                 0                 0              0
                                     Completion to Withdrawn                       4                   0                 0                 0              0

 MS   WARREN               Approved   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       47                   0                 0                 0              0
                                      Completion to Approval                      12                   0                 0                 0              0
                                      Approval to Loan Closing                    17                   0                 0                 0              0

                           Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 866
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 MS WASHINGTON            Approved   No. of Applications                31        28   90%             3   10%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        35                  52                 0                0               0
                                     Completion to Approval                       16                   0                 0                0               0
                                     Approval to Loan Closing                     32                  15                 0                0               0

                          Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       26                   0                 0                 0              0
                                     Completion to Rejected                      41                   0                 0                 0              0

                          Withdrawn No. of Applications                 7         6    86%            1    14%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                  13                 0                 0              0
                                    Completion to Withdrawn                       0                  58                 0                 0              0

 MS   YAZOO               Approved   No. of Applications           107           85    79%           21    20%          0    0%           0   0%         1      1%
                                     Receipt to Completion                       54                  54                 0                 0             23
                                     Completion to Approval                      16                  11                 0                 0              6
                                     Approval to Loan Closing                    27                  24                 0                 0             29

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 14       10    71%            4    29%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        11                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 MS   STATE               Approved   No. of Applications           562          478    85%           82    15%          0    0%           0   0%         2      0%
                                     Receipt to Completion                       45                  50                 0                 0             13
                                     Completion to Approval                      14                  20                 0                 0              9
                                     Approval to Loan Closing                    31                  28                 0                 0             15

                          Rejected   No. of Applications                38       29    76%            9    24%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       11                  11                 0                 0              0
                                     Completion to Rejected                       9                   6                 0                 0              0

                          Withdrawn No. of Applications            111           82    74%           29    26%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        18                  20                 0                 0              0
                                    Completion to Withdrawn                      13                  21                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 867
                            Demographics         869
                        FSA’s Loan Portfolio     884
                        FSA’s Application data   922




USDA/OIG-A/50801-4-Hq                                  868
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                Population       24,577       23,919    97%            213      1%         39      0%        218          1%              6      0%        182       1%
          Adair County      Borrowers            60           60   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               788          782    99%              0      0%          0      0%          0          0%              0      0%          6       1%
                            Land in Farms   267,066      266,179   100%              0      0%          0      0%          0          0%              0      0%        887       0%

          MO                Population       14,632       14,437    99%             30      0%         39      0%         23          0%              0      0%        103       1%
          Andrew County     Borrowers            35           35   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               830          830   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   227,156      227,156   100%              0      0%          0      0%          0          0%              0      0%          0       0%

          MO                Population        7,457        7,238    97%             82      1%         14      0%         14          0%              5      0%        104       1%
          Atchison County   Borrowers            94           93    99%              0      0%          0      0%          0          0%              1      1%          0       0%
                            Farms               509          509   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   304,032      304,032   100%              0      0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       23,599       21,976    93%          1,417      6%         33      0%         83          0%              9      0%         81       0%
          Audrain County    Borrowers            42           42   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms             1,035        1,035   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   377,059      377,059   100%              0      0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       27,547       27,030    98%             24      0%        266      1%         73          0%              2      0%        152       1%
          Barry County      Borrowers            33           32    97%              0      0%          0      0%          0          0%              1      3%          0       0%
                            Farms             1,531        1,524   100%              0      0%          4      0%          0          0%              0      0%          3       0%
                            Land in Farms   292,426      292,219   100%              0      0%          0      0%          0          0%              0      0%        207       0%

          MO                Population       11,312       11,113    98%             11      0%        102      1%         28          0%              1      0%         57       1%
          Barton County     Borrowers            63           63   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               864          861   100%              0      0%          0      0%          0          0%              0      0%          3       0%
                            Land in Farms   311,161      309,595    99%              0      0%          0      0%          0          0%              0      0%      1,566       1%

          MO                Population       15,025       14,756    98%            107      1%         69      0%              8      0%              3      0%         82       1%
          Bates County      Borrowers            49           47    96%              0      0%          1      2%              0      0%              0      0%          1       2%
                            Farms             1,206        1,206   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms   430,451      430,451   100%              0      0%          0      0%              0      0%              0      0%          0       0%

          MO                Population       13,859       13,677    99%             13      0%         75      1%         16          0%              0      0%         78       1%
          Benton County     Borrowers            28           25    89%              0      0%          3     11%          0          0%              0      0%          0       0%
                            Farms               835          835   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   239,298      239,298   100%              0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 869
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                 Population       10,619       10,479    99%             12      0%         30      0%         28          0%              0      0%         70       1%
          Bollinger County   Borrowers            25           25   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               786          786   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   197,530      197,530   100%              0      0%          0      0%          0          0%              0      0%          0       0%

          MO                 Population      112,379       99,275    88%          8,306      7%        374      0%      3,093          3%        105          0%      1,226       1%
          Boone County       Borrowers            22           20    91%              2      9%          0      0%          0          0%          0          0%          0       0%
                             Farms             1,269        1,262    99%              7      1%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms   271,914      271,914   100%              0      0%          0      0%          0          0%          0          0%          0       0%

          MO                 Population       83,083       78,233    94%          2,615      3%        233      0%        252          0%         41          0%      1,709       2%
          Buchanan County    Borrowers            21           21   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms               754          754   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms   181,292      181,292   100%              0      0%          0      0%          0          0%          0          0%          0       0%

          MO                 Population       38,765       36,329    94%          1,971      5%        130      0%        116          0%              2      0%        217       1%
          Butler County      Borrowers            70           61    87%              8     11%          1      1%          0          0%              0      0%          0       0%
                             Farms               734          725    99%              9      1%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   255,498      255,498   100%              0      0%          0      0%          0          0%              0      0%          0       0%

          MO                 Population        8,380        8,293    99%             14      0%         21      0%              1      0%              1      0%         50       1%
          Caldwell County    Borrowers            81           80    99%              0      0%          0      0%              0      0%              1      1%          0       0%
                             Farms               820          820   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms   232,189      232,189   100%              0      0%          0      0%              0      0%              0      0%          0       0%

          MO                 Population       32,809       30,832    94%          1,579      5%         99      0%        119          0%              9      0%        171       1%
          Callaway County    Borrowers            12           12   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms             1,300        1,287    99%              6      0%          0      0%          0          0%              0      0%          7       1%
                             Land in Farms   339,372      337,024    99%              0      0%          0      0%          0          0%              0      0%      2,348       1%

          MO                 Population       27,495       27,120    99%             57      0%        101      0%         45          0%              2      0%        170       1%
          Camden County      Borrowers             1            1   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               567          567   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   163,076      163,076   100%              0      0%          0      0%          0          0%              0      0%          0       0%

          MO                 Population       61,633       57,761    94%          2,979      5%         92      0%        467          1%         21          0%        313       1%
          Cape Girardeau County
                             Borrowers            25           24    96%              1      4%          0      0%          0          0%          0          0%          0       0%
                             Farms             1,203        1,200   100%              0      0%          0      0%          0          0%          0          0%          3       0%
                             Land in Farms   252,890      252,522   100%              0      0%          0      0%          0          0%          0          0%        368       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 870
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
          MO                 Population       10,748       10,460    97%            219         2%         13          0%         11          0%              5      0%         40       0%
          Carroll County     Borrowers           138          138   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               919          919   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   377,000      377,000   100%              0         0%          0          0%          0          0%              0      0%          0       0%

          MO                 Population        5,515        5,443    99%                 1      0%         33          1%              5      0%              0      0%         33       1%
          Carter County      Borrowers             2            2   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                             Farms               196          196   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms    54,767       54,767   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

          MO                 Population       63,808       61,689    97%            672         1%        355          1%        251          0%         12          0%        829       1%
          Cass County        Borrowers            25           25   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                             Farms             1,517        1,503    99%              3         0%          8          1%          0          0%          0          0%          3       0%
                             Land in Farms   325,796      324,556   100%            125         0%        968          0%          0          0%          0          0%        147       0%

          MO                 Population       12,093       11,935    99%                 3      0%         76          1%         20          0%              1      0%         58       0%
          Cedar County       Borrowers            22           21    95%                 0      0%          0          0%          0          0%              1      5%          0       0%
                             Farms               821          818   100%                 0      0%          3          0%          0          0%              0      0%          0       0%
                             Land in Farms   187,856      187,288   100%                 0      0%        568          0%          0          0%              0      0%          0       0%

          MO                 Population        9,202        8,820     96%           337         4%         15          0%              7      0%              4      0%         19       0%
          Chariton County    Borrowers           121          119     98%             1         1%          1          1%              0      0%              0      0%          0       0%
                             Farms             1,075        1,065     99%             4         0%          0          0%              0      0%              0      0%          6       1%
                             Land in Farms   403,597      399,058     99%             0         0%          0          0%              0      0%              0      0%      4,539       1%

          MO                 Population       32,644       32,126     98%            35         0%        190          1%         74          0%              3      0%        216       1%
          Christian County   Borrowers             5            3     60%             0         0%          0          0%          0          0%              2     40%          0       0%
                             Farms             1,278        1,270     99%             0         0%          3          0%          0          0%              0      0%          5       0%
                             Land in Farms   211,148      209,268     99%             0         0%          0          0%          0          0%              0      0%      1,880       1%

          MO                 Population        7,547        7,506    99%                 3      0%              6      0%              4      0%              2      0%         26       0%
          Clark County       Borrowers            79           78    99%                 0      0%              1      1%              0      0%              0      0%          0       0%
                             Farms               611          611   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms   244,810      244,810   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

          MO                 Population      153,411      145,334    95%          2,649         2%        738          0%      1,089          1%         62          0%      3,539       2%
          Clay County        Borrowers             4            4   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                             Farms               654          654   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms   130,358      130,358   100%              0         0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 871
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian              Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          MO                Population       16,595       16,033    97%            326         2%         71      0%         22      0%              4      0%        139       1%
          Clinton County    Borrowers            26           26   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               714          714   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   207,611      207,611   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          MO                Population       63,579       57,837    91%          4,776         8%        226      0%        255      0%         38          0%        447       1%
          Cole County       Borrowers             4            4   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms             1,041        1,041   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms   187,239      187,239   100%              0         0%          0      0%          0      0%          0          0%          0       0%

          MO                Population       14,835       13,491    91%          1,143         8%         50      0%         47      0%              8      0%         96       1%
          Cooper County     Borrowers            24           24   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               892          883    99%              6         1%          0      0%          0      0%              0      0%          3       0%
                            Land in Farms   298,709      296,425    99%            965         0%          0      0%          0      0%              0      0%      1,319       0%

          MO                Population       19,173       18,995    99%                 3      0%         36      0%         24      0%              1      0%        114       1%
          Crawford County   Borrowers             3            3   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               680          680   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms   201,670      201,670   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          MO                Population        7,449        7,279    98%             20         0%         62      1%         12      0%              0      0%         76       1%
          Dade County       Borrowers            24           24   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               850          846   100%              0         0%          0      0%          0      0%              0      0%          4       0%
                            Land in Farms   252,783      252,035   100%              0         0%          0      0%          0      0%              0      0%        748       0%

          MO                Population       12,646       12,462    99%             16         0%         86      1%         17      0%              0      0%         65       1%
          Dallas County     Borrowers            23           23   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,089        1,084   100%              0         0%          0      0%          0      0%              0      0%          5       0%
                            Land in Farms   227,783      226,717   100%              0         0%          0      0%          0      0%              0      0%      1,066       0%

          MO                Population        7,865        7,781    99%                 2      0%         24      0%         12      0%              0      0%         46       1%
          Daviess County    Borrowers            80           80   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               830          827   100%                 0      0%          0      0%          0      0%              0      0%          3       0%
                            Land in Farms   278,841      278,841   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          MO                Population        9,967        8,934    90%            729         7%         65      1%         31      0%              8      0%        200       2%
          De Kalb County    Borrowers            52           51    98%              0         0%          0      0%          0      0%              1      2%          0       0%
                            Farms               725          722   100%              0         0%          3      0%          0      0%              0      0%          0       0%
                            Land in Farms   210,829      210,314   100%              0         0%        515      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 872
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                 Population       13,702       13,513    99%                 9      0%         60      0%         28          0%              3      0%         89       1%
          Dent County        Borrowers            11           11   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               702          702   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   219,440      219,440   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

          MO                 Population       11,876       11,680     98%             3         0%         88      1%         15          0%              0      0%         90       1%
          Douglas County     Borrowers            57           56     98%             0         0%          0      0%          0          0%              1      2%          0       0%
                             Farms             1,187        1,175     99%             3         0%          4      0%          0          0%              0      0%          5       0%
                             Land in Farms   300,970      298,141     99%           370         0%      1,062      0%          0          0%              0      0%      1,397       0%

          MO                 Population       33,112       30,155    91%          2,624         8%         84      0%         70          0%         10          0%        169       1%
          Dunklin County     Borrowers            79           76    96%              2         3%          1      1%          0          0%          0          0%          0       0%
                             Farms               537          537   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms   288,810      288,810   100%              0         0%          0      0%          0          0%          0          0%          0       0%

          MO                 Population       80,603       79,069    98%            737         1%        145      0%        189          0%         22          0%        441       1%
          Franklin County    Borrowers            21           21   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                             Farms             1,586        1,575    99%              5         0%          0      0%          0          0%          0          0%          6       0%
                             Land in Farms   296,281      295,258   100%            537         0%          0      0%          0          0%          0          0%        486       0%

          MO                 Population       14,006       13,924    99%             10         0%         20      0%         17          0%              0      0%         35       0%
          Gasconade County   Borrowers             7            7   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                             Farms               816          812   100%              0         0%          0      0%          0          0%              0      0%          4       0%
                             Land in Farms   196,959      196,001   100%              0         0%          0      0%          0          0%              0      0%        958       0%

          MO                 Population        6,848        6,785    99%                 6      0%         25      0%              4      0%              1      0%         27       0%
          Gentry County      Borrowers            35           35   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Farms               624          624   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms   245,827      245,827   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

          MO                 Population      207,949      199,639    96%          3,712         2%      1,238      1%      1,485          1%        100          0%      1,775       1%
          Greene County      Borrowers             8            8   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                             Farms             2,103        2,091    99%              4         0%          3      0%          0          0%          0          0%          5       0%
                             Land in Farms   285,496      284,888   100%              0         0%        368      0%          0          0%          0          0%        240       0%

          MO                 Population       10,536       10,381    99%             11         0%         43      0%         24          0%              0      0%         77       1%
          Grundy County      Borrowers            65           65   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                             Farms               618          618   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   226,336      226,336   100%              0         0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 873
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                Population        8,469        8,374    99%                 8      0%         31      0%         17          0%              2      0%         37       0%
          Harrison County   Borrowers            70           70   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               860          860   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   399,193      399,193   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       20,044       19,545    98%            227         1%         81      0%         46          0%              1      0%        144       1%
          Henry County      Borrowers            24           24   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               952          949   100%              0         0%          3      0%          0          0%              0      0%          0       0%
                            Land in Farms   321,181      321,181   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population        7,335        7,242    99%                 5      0%         53      1%              6      0%              0      0%         29       0%
          Hickory County    Borrowers            35           35   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               532          529    99%                 0      0%          3      1%              0      0%              0      0%          0       0%
                            Land in Farms   174,314      173,360    99%                 0      0%        954      1%              0      0%              0      0%          0       0%

          MO                Population        6,034        5,982    99%                 7      0%         22      0%              5      0%              2      0%         16       0%
          Holt County       Borrowers            55           55   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               518          518   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms   232,592      232,592   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

          MO                Population        9,631        8,802    91%            732         8%         28      0%         17          0%              7      0%         45       0%
          Howard County     Borrowers            33           33   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               687          687   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   238,909      238,909   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       31,447       30,983    99%             62         0%        164      1%         75          0%              2      0%        161       1%
          Howell County     Borrowers            32           29    91%              0         0%          3      9%          0          0%              0      0%          0       0%
                            Farms             1,706        1,699   100%              0         0%          0      0%          0          0%              0      0%          7       0%
                            Land in Farms   372,292      370,804   100%              0         0%          0      0%          0          0%              0      0%      1,488       0%

          MO                Population       10,726       10,601    99%             49         0%         14      0%         12          0%              6      0%         44       0%
          Iron County       Borrowers             2            2   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               284          284   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms    68,596       68,596   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population      633,232      470,011    74%        134,828        21%      2,825      0%      6,145          1%        533          0%     18,890       3%
          Jackson County    Borrowers             1            1   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms               757          753    99%              0         0%          0      0%          0          0%          0          0%          4       1%
                            Land in Farms   134,196      134,021   100%              0         0%          0      0%          0          0%          0          0%        175       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 874
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number       Percent
          MO                 Population       90,465       86,530     96%         1,147         1%      1,471      2%        495          1%         25          0%        797          1%
          Jasper County      Borrowers            34           33     97%             0         0%          1      3%          0          0%          0          0%          0          0%
                             Farms             1,317        1,306     99%             0         0%          6      0%          0          0%          0          0%          5          0%
                             Land in Farms   281,327      279,782     99%             0         0%        617      0%          0          0%          0          0%        928          0%

          MO                 Population      171,380      168,071    98%          1,188         1%        407      0%        526          0%         37          0%      1,151          1%
          Jefferson County   Borrowers             4            3    75%              0         0%          0      0%          0          0%          1         25%          0          0%
                             Farms               648          648   100%              0         0%          0      0%          0          0%          0          0%          0          0%
                             Land in Farms   119,595      119,595   100%              0         0%          0      0%          0          0%          0          0%          0          0%

          MO                 Population       42,514       38,589     91%         2,407         6%        199      0%        584          1%         26          0%        709          2%
          Johnson County     Borrowers            66           65     98%             1         2%          0      0%          0          0%          0          0%          0          0%
                             Farms             1,526        1,508     99%             5         0%          6      0%          0          0%          0          0%          7          0%
                             Land in Farms   371,022      366,043     99%           727         0%      1,157      0%          0          0%          0          0%      3,095          1%

          MO                 Population        4,482        4,454    99%                 6      0%         10      0%              3      0%              0      0%              9      0%
          Knox County        Borrowers            58           58   100%                 0      0%          0      0%              0      0%              0      0%              0      0%
                             Farms               587          587   100%                 0      0%          0      0%              0      0%              0      0%              0      0%
                             Land in Farms   268,447      268,447   100%                 0      0%          0      0%              0      0%              0      0%              0      0%

          MO                 Population       27,158       26,702    98%             95         0%        143      1%         76          0%              1      0%        141          1%
          Laclede County     Borrowers            24           24   100%              0         0%          0      0%          0          0%              0      0%          0          0%
                             Farms             1,272        1,265    99%              0         0%          0      0%          0          0%              0      0%          7          1%
                             Land in Farms   304,560      301,540    99%              0         0%          0      0%          0          0%              0      0%      3,020          1%

          MO                 Population       31,107       29,831    96%            873         3%        103      0%         66          0%         15          0%        219          1%
          Lafayette County   Borrowers            40           39    98%              0         0%          0      0%          0          0%          1          3%          0          0%
                             Farms             1,312        1,312   100%              0         0%          0      0%          0          0%          0          0%          0          0%
                             Land in Farms   356,164      356,164   100%              0         0%          0      0%          0          0%          0          0%          0          0%

          MO                 Population       30,236       29,667     98%            24         0%        271      1%         56          0%              7      0%        211          1%
          Lawrence County    Borrowers            39           38     97%             0         0%          1      3%          0          0%              0      0%          0          0%
                             Farms             1,668        1,655     99%             0         0%          7      0%          0          0%              0      0%          6          0%
                             Land in Farms   332,910      330,016     99%             0         0%      1,312      0%          0          0%              0      0%      1,582          0%

          MO                 Population       10,233        9,823    96%            342         3%         19      0%         16          0%              7      0%         26          0%
          Lewis County       Borrowers            62           61    98%              0         0%          0      0%          0          0%              1      2%          0          0%
                             Farms               662          662   100%              0         0%          0      0%          0          0%              0      0%          0          0%
                             Land in Farms   249,046      249,046   100%              0         0%          0      0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 875
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          MO                  Population       28,892       27,928    97%            588         2%         95      0%         54      0%              8      0%        219       1%
          Lincoln County      Borrowers            14           14   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms             1,013        1,009   100%              4         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   253,281      253,281   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          MO                  Population       13,885       13,645    98%            107         1%         22      0%         13      0%              4      0%         94       1%
          Linn County         Borrowers            97           96    99%              0         0%          0      0%          0      0%              1      1%          0       0%
                              Farms               847          847   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   337,893      337,893   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          MO                  Population       14,592       14,148    97%            316         2%         38      0%         27      0%              0      0%         63       0%
          Livingston County   Borrowers            84           84   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               717          714   100%              0         0%          0      0%          0      0%              0      0%          3       0%
                              Land in Farms   270,576      270,576   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          MO                  Population       16,938       16,230     96%                4      0%        540      3%         40      0%              3      0%        121       1%
          McDonald County     Borrowers            29           27     93%                0      0%          1      3%          0      0%              1      3%          0       0%
                              Farms             1,016          998     98%                0      0%         11      1%          0      0%              0      0%          7       1%
                              Land in Farms   199,292      197,383     99%                0      0%          0      0%          0      0%              0      0%      1,909       1%

          MO                  Population       15,345       14,852    97%            363         2%         50      0%         19      0%              2      0%         59       0%
          Macon County        Borrowers            71           70    99%              1         1%          0      0%          0      0%              0      0%          0       0%
                              Farms             1,127        1,127   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   381,934      381,934   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          MO                  Population       11,127       10,988    99%             10         0%         32      0%         34      0%              1      0%         62       1%
          Madison County      Borrowers             5            4    80%              0         0%          0      0%          0      0%              1     20%          0       0%
                              Farms               380          380   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   111,549      111,549   100%              0         0%          0      0%          0      0%              0      0%          0       0%

          MO                  Population        7,976        7,879    99%             27         0%         19      0%         10      0%              1      0%         40       1%
          Maries County       Borrowers            11           11   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               813          810   100%              0         0%          0      0%          0      0%              0      0%          3       0%
                              Land in Farms   233,304      232,458   100%              0         0%          0      0%          0      0%              0      0%        846       0%

          MO                  Population       27,682       26,131    94%          1,239         4%         68      0%        106      0%         20          0%        118       0%
          Marion County       Borrowers            42           40    95%              0         0%          2      5%          0      0%          0          0%          0       0%
                              Farms               702          699   100%              0         0%          0      0%          0      0%          0          0%          3       0%
                              Land in Farms   219,894      219,165   100%              0         0%          0      0%          0      0%          0          0%        729       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 876
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
          MO                 Population        3,723        3,706   100%                 3      0%              6      0%              1      0%              0      0%              7      0%
          Mercer County      Borrowers            80           80   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms               485          485   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms   210,253      210,253   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

          MO                 Population       20,700       20,469    99%             23         0%         83          0%         21          0%              3      0%        101          0%
          Miller County      Borrowers            39           39   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms             1,080        1,074    99%              0         0%          6          1%          0          0%              0      0%          0          0%
                             Land in Farms   242,018      241,466   100%              0         0%        552          0%          0          0%              0      0%          0          0%

          MO                 Population       14,442       11,565     80%         2,796        19%         26          0%         15          0%              0      0%         40          0%
          Mississippi County Borrowers            30           23     77%             6        20%          1          3%          0          0%              0      0%          0          0%
                             Farms               293          278     95%            15         5%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms   265,245      262,015     99%         3,230         1%          0          0%          0          0%              0      0%          0          0%

          MO                 Population       12,298       12,006    98%            157         1%         51          0%         36          0%              2      0%         46          0%
          Moniteau County    Borrowers            21           21   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               989          986   100%              0         0%          0          0%          0          0%              0      0%          3          0%
                             Land in Farms   217,116      217,116   100%              0         0%          0          0%          0          0%              0      0%          0          0%

          MO                 Population        9,104        8,675    95%            351         4%         18          0%         12          0%              0      0%         48          1%
          Monroe County      Borrowers            73           67    92%              1         1%          5          7%          0          0%              0      0%          0          0%
                             Farms               833          833   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms   306,175      306,175   100%              0         0%          0          0%          0          0%              0      0%          0          0%

          MO                Population        11,355       10,987    97%            289         3%         12          0%         20          0%              2      0%         45          0%
          Montgomery County Borrowers             15           14    93%              1         7%          0          0%          0          0%              0      0%          0          0%
                            Farms                717          711    99%              3         0%          0          0%          0          0%              0      0%          3          0%
                             Land in Farms   224,716      223,766   100%            305         0%          0          0%          0          0%              0      0%        645          0%

          MO                 Population       15,574       15,314    98%             94         1%         68          0%         25          0%              4      0%         69          0%
          Morgan County      Borrowers            30           30   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               849          846   100%              0         0%          0          0%          0          0%              0      0%          3          0%
                             Land in Farms   201,714      201,275   100%              0         0%          0          0%          0          0%              0      0%        439          0%

          MO                Population        20,928       17,497    84%          3,267        16%         34          0%         36          0%              1      0%         93          0%
          New Madrid County Borrowers             58           55    95%              2         3%          1          2%          0          0%              0      0%          0          0%
                            Farms                442          442   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms    368,849      368,849   100%              0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 877
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                Population       44,445       42,757     96%           173         0%        937      2%        223          1%              2      0%        353       1%
          Newton County     Borrowers            41           40     98%             0         0%          1      2%          0          0%              0      0%          0       0%
                            Farms             1,644        1,627     99%             0         0%         12      1%          0          0%              0      0%          5       0%
                            Land in Farms   256,023      253,574     99%             0         0%      1,917      1%          0          0%              0      0%        532       0%

          MO                Population       21,709       21,203    98%            164         1%         38      0%        164          1%              5      0%        135       1%
          Nodaway County    Borrowers           130          129    99%              0         0%          1      1%          0          0%              0      0%          0       0%
                            Farms             1,349        1,349   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   507,875      507,875   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population        9,470        9,383    99%                 3      0%         38      0%         13          0%              1      0%         32       0%
          Oregon County     Borrowers            25           23    92%                 0      0%          2      8%          0          0%              0      0%          0       0%
                            Farms               791          791   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   252,074      252,074   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       12,018       11,901    99%             38         0%         20      0%              2      0%              1      0%         56       0%
          Osage County      Borrowers            36           34    94%              0         0%          0      0%              0      0%              2      6%          0       0%
                            Farms             1,171        1,168   100%              0         0%          0      0%              0      0%              0      0%          3       0%
                            Land in Farms   316,809      315,401   100%              0         0%          0      0%              0      0%              0      0%      1,408       0%

          MO                Population        8,598        8,490    99%                 2      0%         35      0%         12          0%              3      0%         56       1%
          Ozark County      Borrowers            27           27   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               802          799   100%                 0      0%          0      0%          0          0%              0      0%          3       0%
                            Land in Farms   250,475      250,074   100%                 0      0%          0      0%          0          0%              0      0%        401       0%

          MO                Population       21,921       16,175     74%         5,575        25%         33      0%         45          0%              4      0%         89       0%
          Pemiscot County   Borrowers            41           38     93%             3         7%          0      0%          0          0%              0      0%          0       0%
                            Farms               348          340     98%             5         1%          0      0%          0          0%              0      0%          3       1%
                            Land in Farms   291,846      290,362     99%         1,281         0%          0      0%          0          0%              0      0%        203       0%

          MO                Population       16,648       16,467    99%             11         0%         29      0%         68          0%              1      0%         72       0%
          Perry County      Borrowers            31           31   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               897          897   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   209,452      209,452   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       35,437       33,781    95%          1,164         3%         96      0%        114          0%         14          0%        268       1%
          Pettis County     Borrowers            75           72    96%              0         0%          2      3%          1          1%          0          0%          0       0%
                            Farms             1,225        1,221   100%              4         0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   359,434      359,434   100%              0         0%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 878
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
          MO                Population       35,248       33,626    95%            396         1%        141          0%        773          2%              9      0%        303       1%
          Phelps County     Borrowers            21           21   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               716          712    99%              0         0%          0          0%          0          0%              0      0%          4       1%
                            Land in Farms   200,766      199,845   100%              0         0%          0          0%          0          0%              0      0%        921       0%

          MO                Population       15,969       14,939    94%            832         5%         49          0%         22          0%              8      0%        119       1%
          Pike County       Borrowers            72           70    97%              0         0%          1          1%          1          1%              0      0%          0       0%
                            Farms               968          957    99%             11         1%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   323,465      323,465   100%              0         0%          0          0%          0          0%              0      0%          0       0%

          MO                Population       57,867       54,438    94%          1,195         2%        298          1%        762          1%         13          0%      1,161       2%
          Platte County     Borrowers            13           13   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms               704          701   100%              0         0%          3          0%          0          0%          0          0%          0       0%
                            Land in Farms   188,595      188,496   100%              0         0%         99          0%          0          0%          0          0%          0       0%

          MO                Population       21,826       21,384     98%            67         0%        125          1%         71          0%              6      0%        173       1%
          Polk County       Borrowers            18           15     83%             0         0%          2         11%          0          0%              0      0%          1       6%
                            Farms             1,600        1,583     99%             0         0%          6          0%          0          0%              0      0%         11       1%
                            Land in Farms   345,673      342,067     99%             0         0%      1,171          0%          0          0%              0      0%      2,435       1%

          MO                Population       41,307       32,377    78%          5,493        13%        251          1%      1,144          3%         89          0%      1,953       5%
          Pulaski County    Borrowers             3            3   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms               494          485    98%              0         0%          9          2%          0          0%          0          0%          0       0%
                            Land in Farms   138,986      138,986   100%              0         0%          0          0%          0          0%          0          0%          0       0%

          MO                Population        5,079        5,042    99%                 1      0%              8      0%              4      0%              0      0%         24       0%
          Putnam County     Borrowers            50           50   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               581          581   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   254,493      254,493   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

          MO                Population        8,476        8,300    98%            138         2%         18          0%              6      0%              0      0%         14       0%
          Ralls County      Borrowers            27           26    96%              0         0%          1          4%              0      0%              0      0%          0       0%
                            Farms               570          570   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   228,936      228,936   100%              0         0%          0          0%              0      0%              0      0%          0       0%

          MO                Population       24,370       22,199    91%          1,826         7%         80          0%         79          0%              7      0%        179       1%
          Randolph County   Borrowers            60           58    97%              0         0%          2          3%          0          0%              0      0%          0       0%
                            Farms               745          741    99%              0         0%          0          0%          0          0%              0      0%          4       1%
                            Land in Farms   221,122      220,832   100%              0         0%          0          0%          0          0%              0      0%        290       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 879
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian                  Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                   Population       21,971       21,410    97%            296         1%        109      0%         33          0%              4      0%        119       1%
          Ray County           Borrowers            34           34   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Farms             1,045        1,042   100%              0         0%          3      0%          0          0%              0      0%          0       0%
                               Land in Farms   277,322      276,825   100%              0         0%        497      0%          0          0%              0      0%          0       0%

          MO                   Population        6,661        6,613    99%                 3      0%         14      0%              2      0%              1      0%         28       0%
          Reynolds County      Borrowers             4            4   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                               Farms               298          298   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                               Land in Farms    89,683       89,683   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

          MO                   Population       12,303       12,150     99%                6      0%         49      0%         19          0%              1      0%         78       1%
          Ripley County        Borrowers            32           31     97%                0      0%          0      0%          0          0%              1      3%          0       0%
                               Farms               465          460     99%                0      0%          5      1%          0          0%              0      0%          0       0%
                               Land in Farms   152,529      151,456     99%                0      0%      1,073      1%          0          0%              0      0%          0       0%

          MO                   Population      212,907      203,705    96%          4,917         2%        509      0%      1,394          1%         74          0%      2,308       1%
          St. Charles County   Borrowers             4            3    75%              0         0%          0      0%          0          0%          1         25%          0       0%
                               Farms               783          776    99%              7         1%          0      0%          0          0%          0          0%          0       0%
                               Land in Farms   204,171      203,857   100%            314         0%          0      0%          0          0%          0          0%          0       0%

          MO                   Population        8,457        8,356    99%             22         0%         41      0%              5      0%              0      0%         33       0%
          St. Clair County     Borrowers            38           35    92%              0         0%          3      8%              0      0%              0      0%          0       0%
                               Farms               726          726   100%              0         0%          0      0%              0      0%              0      0%          0       0%
                               Land in Farms   257,217      257,217   100%              0         0%          0      0%              0      0%              0      0%          0       0%

          MO                  Population        16,037       15,888    99%             45         0%         30      0%         24          0%              1      0%         49       0%
          Ste. Genevieve County
                              Borrowers              6            6   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                              Farms                635          635   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms   168,586      168,586   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                  Population        48,904       47,489    97%            945         2%        103      0%        120          0%              8      0%        239       0%
          St. Francois County Borrowers             12           12   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                              Farms                693          690   100%              0         0%          0      0%          0          0%              0      0%          3       0%
                              Land in Farms    116,910      115,970    99%              0         0%          0      0%          0          0%              0      0%        940       1%

          MO                   Population      993,529      829,052    83%        138,786        14%      1,358      0%     13,936          1%        586          0%      9,811       1%
          St. Louis County     Borrowers             0            0     0%              0         0%          0      0%          0          0%          0          0%          0       0%
                               Farms               295          295   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                               Land in Farms    54,082       54,082   100%              0         0%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 880
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
          MO                Population       23,523       21,862    93%          1,342         6%         45          0%         55          0%         11          0%        208       1%
          Saline County     Borrowers            50           50   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                            Farms               939          929    99%              7         1%          0          0%          0          0%          0          0%          3       0%
                            Land in Farms   414,394      413,681   100%            460         0%          0          0%          0          0%          0          0%        253       0%

          MO                Population        4,236        4,207    99%                 0      0%              8      0%              3      0%              0      0%         18       0%
          Schuyler County   Borrowers            67           66    99%                 0      0%              1      1%              0      0%              0      0%          0       0%
                            Farms               488          484    99%                 0      0%              0      0%              0      0%              0      0%          4       1%
                            Land in Farms   165,225      165,225   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

          MO                Population        4,822        4,797     99%                3      0%         10          0%              0      0%              0      0%         12       0%
          Scotland County   Borrowers            63           62     98%                0      0%          1          2%              0      0%              0      0%          0       0%
                            Farms               530          523     99%                0      0%          4          1%              0      0%              0      0%          3       1%
                            Land in Farms   216,694      215,399     99%                0      0%      1,295          1%              0      0%              0      0%          0       0%

          MO                Population       39,376       35,537    90%          3,486         9%         82          0%         62          0%              3      0%        206       1%
          Scott County      Borrowers            28           28   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               545          542    99%              0         0%          0          0%          0          0%              0      0%          3       1%
                            Land in Farms   219,042      218,083   100%              0         0%          0          0%          0          0%              0      0%        959       0%

          MO                Population        7,613        7,559    99%                 3      0%         25          0%              4      0%              0      0%         22       0%
          Shannon County    Borrowers            18           18   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               424          424   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   120,036      120,036   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

          MO                Population        6,942        6,841    99%             55         1%         18          0%              3      0%              2      0%         23       0%
          Shelby County     Borrowers            38           38   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Farms               655          655   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   273,393      273,393   100%              0         0%          0          0%              0      0%              0      0%          0       0%

          MO                Population       28,895       28,249     98%           408         1%         58          0%         41          0%              7      0%        132       0%
          Stoddard County   Borrowers           145          132     91%             9         6%          3          2%          0          0%              1      1%          0       0%
                            Farms               953          943     99%            10         1%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   438,142      435,633     99%         2,509         1%          0          0%          0          0%              0      0%          0       0%

          MO                Population       19,078       18,790    98%                 6      0%        131          1%         37          0%              0      0%        114       1%
          Stone County      Borrowers            21           21   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               698          695   100%                 0      0%          3          0%          0          0%              0      0%          0       0%
                            Land in Farms   137,747      137,747   100%                 0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 881
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian                  Other                 Hispanic
                                            Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          MO                Population        6,326        6,281     99%                1      0%         14      0%              2      0%              0      0%         28       0%
          Sullivan County   Borrowers            85           84     99%                0      0%          0      0%              0      0%              0      0%          1       1%
                            Farms               779          772     99%                0      0%          0      0%              0      0%              0      0%          7       1%
                            Land in Farms   329,999      321,695     97%                0      0%          0      0%              0      0%              0      0%      8,304       3%

          MO                Population       25,561       25,119    98%             16         0%        147      1%         81          0%              4      0%        194       1%
          Taney County      Borrowers             9            9   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               493          493   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   160,576      160,576   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       21,476       21,203    99%             16         0%         82      0%         59          0%              3      0%        113       1%
          Texas County      Borrowers            89           89   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms             1,536        1,528    99%              0         0%          8      1%          0          0%              0      0%          0       0%
                            Land in Farms   459,671      459,671   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       19,041       18,703    98%             59         0%        108      1%         65          0%              4      0%        102       1%
          Vernon County     Borrowers            47           47   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms             1,249        1,249   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   402,202      402,202   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       19,534       18,790    96%            507         3%         45      0%         30          0%         10          0%        152       1%
          Warren County     Borrowers             2            1    50%              0         0%          1     50%          0          0%          0          0%          0       0%
                            Farms               526          526   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms   126,474      126,474   100%              0         0%          0      0%          0          0%          0          0%          0       0%

          MO                Population       20,380       19,863    97%            378         2%         40      0%         12          0%              4      0%         83       0%
          Washington County Borrowers             5            5   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Farms               476          476   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   111,850      111,850   100%              0         0%          0      0%          0          0%              0      0%          0       0%

          MO                Population       11,543       11,437    99%                 7      0%         45      0%              9      0%              1      0%         44       0%
          Wayne County      Borrowers             5            5   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               361          357    99%                 0      0%          4      1%              0      0%              0      0%          0       0%
                            Land in Farms    93,053       92,304    99%                 0      0%        749      1%              0      0%              0      0%          0       0%

          MO                Population       23,753       23,232    98%            190         1%        145      1%         45          0%              1      0%        140       1%
          Webster County    Borrowers            19           18    95%              0         0%          0      0%          0          0%              0      0%          1       5%
                            Farms             1,541        1,533    99%              0         0%          3      0%          0          0%              0      0%          5       0%
                            Land in Farms   289,729      289,104   100%              0         0%          0      0%          0          0%              0      0%        625       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 882
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
          MO               Population          2,440         2,424    99%                 1      0%              1      0%              5      0%              0      0%              9      0%
          Worth County     Borrowers              30            30   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                 327           327   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms     134,028       134,028   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

          MO               Population         16,758        16,524    99%             36         0%        117          1%         12          0%              8      0%         61          0%
          Wright County    Borrowers              45            45   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               1,330         1,323    99%              0         0%          3          0%          0          0%              0      0%          4          0%
                           Land in Farms     316,617       316,128   100%              0         0%          0          0%          0          0%              0      0%        489          0%

          MO               Population        396,685       198,956     50%       187,805        47%        874          0%      3,616          1%        310          0%      5,124          1%
          St. Louis city   Borrowers               0             0      0%             0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms                   0             0      0%             0         0%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms           0             0      0%             0         0%          0          0%          0          0%          0          0%          0          0%

          MO               Population       5,117,073    4,448,465    87%        545,527        11%     18,873          0%     40,087          1%      2,419          0%     61,702          1%
          STATE            Borrowers            4,420        4,313    98%             38         1%         44          1%          2          0%         19          0%          4          0%
                           Farms               98,082       97,634   100%            118         0%        133          0%          0          0%          0          0%        197          0%
                           Land in Farms   28,546,875   28,470,406   100%         10,823         0%     14,874          0%          0          0%          0          0%     50,772          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 883
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              ADAIR, MISSOURI                                ANDREW, MISSOURI                                ATCHISON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       60                        16                      35                         6                      94                      24
                              Loans                          147                        40                      81                        18                     236                      84
                              Principal and Interest   6,040,937                   320,253               3,119,798                    59,466               8,125,429                 839,227
WHITE                         Borrowers                       60        100%            16     100%             35       100%              6    100%              93        99%           24     100%
                              Loans                          147        100%            40     100%             81       100%             18    100%             234        99%           84     100%
                              Principal and Interest   6,040,937        100%       320,253     100%      3,119,798       100%         59,466    100%       8,026,247        99%      839,227     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               2        1%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          99,182        1%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 884
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            AUDRAIN, MISSOURI                                  BARRY, MISSOURI                                 BARTON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       42                         10                     33                         6                      63                      16
                              Loans                           93                         23                     60                        13                     146                      28
                              Principal and Interest   5,752,054                     72,854              4,039,261                    39,417               7,224,349                 170,039
WHITE                         Borrowers                       42        100%             10    100%             32        97%              6    100%              63      100%            16     100%
                              Loans                           93        100%             23    100%             58        97%             13    100%             146      100%            28     100%
                              Principal and Interest   5,752,054        100%         72,854    100%      3,988,873        99%         39,417    100%       7,224,349      100%       170,039     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%            1           3%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%            2           3%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       50,388           1%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 885
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              BATES, MISSOURI                                 BENTON, MISSOURI                             BOLLINGER, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                        49                         10                     28                        10                         25                      7
                              Loans                           112                         30                     56                        16                         45                     15
                              Principal and Interest   6,314,404                   267,330               2,276,963                  177,921                1,695,087                    44,509
WHITE                         Borrowers                       47         96%             9      90%             25        89%             9      90%              25       100%              7    100%
                              Loans                          109         97%            28      93%             50        89%            13      81%              45       100%             15    100%
                              Principal and Interest   6,142,427         97%       260,958      98%      2,061,411        91%       167,870      94%       1,695,087       100%         44,509    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                       1            2%             1     10%             3         11%              1     10%                   0      0%              0      0%
                              Loans                           2            2%             2      7%             6         11%              3     19%                   0      0%              0      0%
                              Principal and Interest    155,135            2%         6,372      2%       215,551          9%         10,051      6%                   0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                        1           2%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                            1           1%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest      16,842           0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 886
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              BOONE, MISSOURI                              BUCHANAN, MISSOURI                                  BUTLER, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                          4                     21                        3                       70                       9
                              Loans                           47                          9                     35                        8                      137                      15
                              Principal and Interest   2,057,309                     16,127              2,199,745                  119,505                5,234,556                 250,167
WHITE                         Borrowers                       20         91%              3     75%             21       100%             3     100%              61        87%            9     100%
                              Loans                           43         91%              8     89%             35       100%             8     100%             120        88%           15     100%
                              Principal and Interest   2,049,214        100%         16,119    100%      2,199,745       100%       119,505     100%       5,085,175        97%      250,167     100%
AFRICAN AMERICAN              Borrowers                         2          9%              1    25%                  0      0%              0      0%               8       11%              0      0%
                              Loans                             4          9%              1    11%                  0      0%              0      0%              14       10%              0      0%
                              Principal and Interest        8,094          0%              8     0%                  0      0%              0      0%         127,294        2%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               3        2%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          22,087        0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 887
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CALDWELL, MISSOURI                                CALLAWAY, MISSOURI                                 CAMDEN, MISSOURI
                                                         Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        81                        20                      12                        3                         1                       1
                              Loans                           228                        56                      25                        5                         2                       2
                              Principal and Interest   11,835,079                   971,701               1,685,737                  115,697                    43,717                   2,507
WHITE                         Borrowers                        80         99%            20     100%             12       100%             3     100%                1     100%              1    100%
                              Loans                           226         99%            56     100%             25       100%             5     100%                2     100%              2    100%
                              Principal and Interest   11,824,280        100%       971,701     100%      1,685,737       100%       115,697     100%           43,717     100%          2,507    100%
AFRICAN AMERICAN              Borrowers                              0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                              0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                              0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                         1           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             2           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       10,799           0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                              0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 888
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CAPE GIRARDEAU, MISSOURI                               CARROLL, MISSOURI                             CARTER, MISSOURI
                                                         Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        25                          7                     138                       32                         2                        0
                              Loans                            49                         14                     312                       79                         2                        0
                              Principal and Interest    2,113,102                     57,990              12,374,518                  287,757                    82,483                        0
WHITE                         Borrowers                        24         96%              6     86%             138       100%            32     100%                2     100%               0      0%
                              Loans                            48         98%             13     93%             312       100%            79     100%                2     100%               0      0%
                              Principal and Interest    2,053,594         97%         57,690     99%      12,374,518       100%       287,757     100%           82,483     100%               0      0%
AFRICAN AMERICAN              Borrowers                         1           4%             1     14%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                             1           2%             1      7%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       59,508           3%           300      1%                   0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 889
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                CASS, MISSOURI                                 CEDAR, MISSOURI                              CHARITON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                         7                      22                        7                      121                      25
                              Loans                           59                        23                      43                       14                      370                      57
                              Principal and Interest   3,455,245                   777,498               2,869,919                  112,898               12,742,874                 537,719
WHITE                         Borrowers                       25        100%             7     100%             21        95%             7     100%             119        98%           25     100%
                              Loans                           59        100%            23     100%             41        95%            14     100%             364        98%           57     100%
                              Principal and Interest   3,455,245        100%       777,498     100%      2,779,758        97%       112,898     100%      12,634,629        99%      537,719     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               3        1%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          17,053        0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               3        1%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          91,192        1%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%            1           5%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%            2           5%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       90,161           3%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 890
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CHRISTIAN, MISSOURI                                   CLARK, MISSOURI                                   CLAY, MISSOURI
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      5                            0                     79                        24                        4                        0
                              Loans                         15                            0                    254                       108                        5                        0
                              Principal and Interest   532,624                            0             11,456,329                 2,015,003                  277,713                        0
WHITE                         Borrowers                      3          60%               0      0%             78        99%             24    100%                4     100%               0      0%
                              Loans                          7          47%               0      0%            253       100%            108    100%                5     100%               0      0%
                              Principal and Interest   262,179          49%               0      0%     11,395,085        99%      2,015,003    100%          277,713     100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%             1           1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             1           0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        61,244           1%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                      2          40%               0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                          8          53%               0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest   270,446          51%               0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 891
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CLINTON, MISSOURI                                   COLE, MISSOURI                                 COOPER, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                          7                     4                          1                      24                        3
                              Loans                           60                         16                     7                          2                      46                        6
                              Principal and Interest   2,816,065                     61,675               458,725                     20,676               1,739,526                   16,410
WHITE                         Borrowers                       26        100%              7    100%             4        100%              1    100%              24      100%              3    100%
                              Loans                           60        100%             16    100%             7        100%              2    100%              46      100%              6    100%
                              Principal and Interest   2,816,065        100%         61,675    100%       458,725        100%         20,676    100%       1,739,526      100%         16,410    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 892
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CRAWFORD, MISSOURI                                     DADE, MISSOURI                                 DALLAS, MISSOURI
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      3                            0                    24                         3                      23                      12
                              Loans                          5                            0                    48                         8                      46                      26
                              Principal and Interest   572,616                            0             1,955,366                    27,931               2,226,069                 689,543
WHITE                         Borrowers                      3         100%               0      0%            24       100%              3    100%              23      100%            12     100%
                              Loans                          5         100%               0      0%            48       100%              8    100%              46      100%            26     100%
                              Principal and Interest   572,616         100%               0      0%     1,955,366       100%         27,931    100%       2,226,069      100%       689,543     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 893
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            DAVIESS, MISSOURI                                DE KALB, MISSOURI                                    DENT, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       80                        17                      52                       10                       11                       5
                              Loans                          224                        60                     194                       39                       32                       7
                              Principal and Interest   8,122,498                   494,593               6,633,067                  125,032                1,740,707                 103,457
WHITE                         Borrowers                       80        100%            17     100%             51        98%            10     100%              11      100%             5     100%
                              Loans                          224        100%            60     100%            191        98%            39     100%              32      100%             7     100%
                              Principal and Interest   8,122,498        100%       494,593     100%      6,570,352        99%       125,032     100%       1,740,707      100%       103,457     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%            1           2%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%            3           2%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       62,714           1%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 894
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           DOUGLAS, MISSOURI                                 DUNKLIN, MISSOURI                               FRANKLIN, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       57                        17                      79                       15                       21                       8
                              Loans                          172                        55                     187                       33                       53                      27
                              Principal and Interest   6,198,756                   169,829               7,828,575                  491,340                2,223,930                 206,649
WHITE                         Borrowers                       56         98%            17     100%             76        96%            14      93%              21      100%             8     100%
                              Loans                          168         98%            55     100%            172        92%            32      97%              53      100%            27     100%
                              Principal and Interest   6,151,526         99%       169,829     100%      7,573,047        97%       485,488      99%       2,223,930      100%       206,649     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%            2           3%             1       7%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%           14           7%             1       3%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%      217,763           3%         5,852       1%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%            1           1%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%            1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       37,765           0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            4           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      47,230           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 895
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        GASCONADE, MISSOURI                                  GENTRY, MISSOURI                                  GREENE, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                          1                     35                         6                       8                        2
                              Loans                           20                          8                     94                        22                      25                        5
                              Principal and Interest   1,011,251                     27,308              5,232,632                    40,119               1,730,352                   33,323
WHITE                         Borrowers                        7        100%              1    100%             35       100%              6    100%               8      100%              2    100%
                              Loans                           20        100%              8    100%             94       100%             22    100%              25      100%              5    100%
                              Principal and Interest   1,011,251        100%         27,308    100%      5,232,632       100%         40,119    100%       1,730,352      100%         33,323    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 896
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GRUNDY, MISSOURI                               HARRISON, MISSOURI                                   HENRY, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       65                        13                      70                       19                       24                       4
                              Loans                          178                        46                     197                       64                       50                      12
                              Principal and Interest   7,689,700                   173,909               8,415,337                  279,175                2,940,009                 279,787
WHITE                         Borrowers                       65        100%            13     100%             70       100%            19     100%              24      100%             4     100%
                              Loans                          178        100%            46     100%            197       100%            64     100%              50      100%            12     100%
                              Principal and Interest   7,689,700        100%       173,909     100%      8,415,337       100%       279,175     100%       2,940,009      100%       279,787     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 897
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           HICKORY, MISSOURI                                    HOLT, MISSOURI                                HOWARD, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       35                        11                      55                        8                       33                       9
                              Loans                           94                        33                     107                       15                      102                      36
                              Principal and Interest   4,110,008                   448,858               6,108,338                  363,768                2,522,143                 221,540
WHITE                         Borrowers                       35        100%            11     100%             55       100%             8     100%              33      100%             9     100%
                              Loans                           94        100%            33     100%            107       100%            15     100%             102      100%            36     100%
                              Principal and Interest   4,110,008        100%       448,858     100%      6,108,338       100%       363,768     100%       2,522,143      100%       221,540     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 898
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            HOWELL, MISSOURI                                     IRON, MISSOURI                               JACKSON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       32                          8                     2                           0                       1                        0
                              Loans                           58                         14                     5                           0                       1                        0
                              Principal and Interest   2,547,015                     82,408               107,452                           0                  88,620                        0
WHITE                         Borrowers                       29         91%              6     75%             2        100%               0      0%               1     100%               0      0%
                              Loans                           51         88%             12     86%             5        100%               0      0%               1     100%               0      0%
                              Principal and Interest   2,090,760         82%         70,921     86%       107,452        100%               0      0%          88,620     100%               0      0%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       3           9%              2     25%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           7          12%              2     14%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    456,255          18%         11,487     14%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 899
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             JASPER, MISSOURI                             JEFFERSON, MISSOURI                                JOHNSON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       34                         11                     4                          1                      66                      11
                              Loans                           77                         17                     5                          1                     145                      23
                              Principal and Interest   3,414,291                     37,483               537,506                      8,374               7,842,457                 609,539
WHITE                         Borrowers                       33         97%             11    100%             3         75%              1    100%              65        98%           10      91%
                              Loans                           76         99%             17    100%             3         60%              1    100%             142        98%           20      87%
                              Principal and Interest   3,395,990         99%         37,483    100%       526,322         98%          8,374    100%       7,395,840        94%      284,907      47%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 1      2%              1     9%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 3      2%              3    13%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         446,616        6%      324,631      53%
NATIVE AMERICAN               Borrowers                        1           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      18,301           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%            1         25%               0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%            2         40%               0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       11,184          2%               0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 900
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               KNOX, MISSOURI                               LACLEDE, MISSOURI                              LAFAYETTE, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       58                        17                      24                         7                      40                        4
                              Loans                          181                        58                      54                         9                      97                       13
                              Principal and Interest   7,161,645                   424,262               2,498,349                    22,948               4,132,723                   49,547
WHITE                         Borrowers                       58        100%            17     100%             24       100%              7    100%              39        98%             4    100%
                              Loans                          181        100%            58     100%             54       100%              9    100%              96        99%            13    100%
                              Principal and Interest   7,161,645        100%       424,262     100%      2,498,349       100%         22,948    100%       4,063,325        98%        49,547    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        3%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          69,398        2%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 901
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LAWRENCE, MISSOURI                                    LEWIS, MISSOURI                                LINCOLN, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       39                        10                      62                       14                       14                        3
                              Loans                          103                        42                     131                       31                       28                        4
                              Principal and Interest   5,369,372                   753,936               6,693,830                  179,247                1,650,071                   66,738
WHITE                         Borrowers                       38         97%            10     100%             61        98%            14     100%              14      100%              3    100%
                              Loans                          102         99%            42     100%            130        99%            31     100%              28      100%              4    100%
                              Principal and Interest   5,283,782         98%       753,936     100%      6,588,671        98%       179,247     100%       1,650,071      100%         66,738    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      85,590           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%            1           2%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%            1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%      105,159           2%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 902
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                 LINN, MISSOURI                             LIVINGSTON, MISSOURI                                 MACON, MISSOURI
                                                         Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        97                        28                       84                       19                       71                      19
                              Loans                           291                        69                      208                       44                      187                      50
                              Principal and Interest   12,689,683                   649,518               10,654,861                  560,041                8,091,070                 721,968
WHITE                         Borrowers                        96         99%            28     100%              84       100%            19     100%              70        99%           18      95%
                              Loans                           290        100%            69     100%             208       100%            44     100%             181        97%           47      94%
                              Principal and Interest   12,587,741         99%       649,518     100%      10,654,861       100%       560,041     100%       7,880,821        97%      716,053      99%
AFRICAN AMERICAN              Borrowers                              0      0%              0      0%                  0      0%              0      0%               1        1%             1       5%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%               6        3%             3       6%
                              Principal and Interest                 0      0%              0      0%                  0      0%              0      0%         210,249        3%         5,915       1%
NATIVE AMERICAN               Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1            1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                            1            0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     101,942            1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                              0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 903
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MADISON, MISSOURI                                  MARIES, MISSOURI                                 MARION, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                         3                      11                         6                      42                       15
                              Loans                           15                        12                      25                        15                      98                       25
                              Principal and Interest   1,455,691                   195,390               1,057,731                    44,699               3,211,033                   97,115
WHITE                         Borrowers                        4         80%             3     100%             11       100%              6    100%              40        95%            15    100%
                              Loans                           14         93%            12     100%             25       100%             15    100%              95        97%            25    100%
                              Principal and Interest   1,368,507         94%       195,390     100%      1,057,731       100%         44,699    100%       2,924,615        91%        97,115    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               2        5%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               3        3%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         286,418        9%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1         20%               0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          7%               0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      87,185          6%               0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 904
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         MCDONALD, MISSOURI                                  MERCER, MISSOURI                                  MILLER, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       29                          8                     80                       34                       39                      11
                              Loans                           52                         13                    243                       93                      102                      34
                              Principal and Interest   3,685,903                     95,938              9,994,493                  446,065                5,226,123                 268,291
WHITE                         Borrowers                       27         93%              8    100%             80       100%            34     100%              39      100%            11     100%
                              Loans                           50         96%             13    100%            243       100%            93     100%             102      100%            34     100%
                              Principal and Interest   3,512,190         95%         95,938    100%      9,994,493       100%       446,065     100%       5,226,123      100%       268,291     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      77,350           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      96,363           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 905
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         MISSISSIPPI, MISSOURI                             MONITEAU, MISSOURI                                 MONROE, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       30                         5                      21                         8                      73                      15
                              Loans                           75                        15                      48                        15                     147                      34
                              Principal and Interest   4,606,402                   110,289               1,621,447                    90,768               6,010,241                 135,688
WHITE                         Borrowers                       23         77%             5     100%             21       100%              8    100%              67        92%           15     100%
                              Loans                           59         79%            15     100%             48       100%             15    100%             137        93%           34     100%
                              Principal and Interest   3,704,517         80%       110,289     100%      1,621,447       100%         90,768    100%       5,000,410        83%      135,688     100%
AFRICAN AMERICAN              Borrowers                       6          20%               0      0%                 0      0%              0      0%               1        1%              0      0%
                              Loans                          15          20%               0      0%                 0      0%              0      0%               2        1%              0      0%
                              Principal and Interest    888,250          19%               0      0%                 0      0%              0      0%         240,882        4%              0      0%
NATIVE AMERICAN               Borrowers                        1           3%              0      0%                 0      0%              0      0%               5        7%              0      0%
                              Loans                            1           1%              0      0%                 0      0%              0      0%               8        5%              0      0%
                              Principal and Interest      13,635           0%              0      0%                 0      0%              0      0%         768,949       13%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 906
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MONTGOMERY, MISSOURI                                  MORGAN, MISSOURI                             NEW MADRID, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                          2                     30                        8                       58                       22
                              Loans                           31                          7                     95                       40                      156                       70
                              Principal and Interest   1,712,136                     19,014              5,533,548                  734,251                8,302,385                1,136,179
WHITE                         Borrowers                       14         93%              2    100%             30       100%             8     100%              55        95%           20      91%
                              Loans                           30         97%              7    100%             95       100%            40     100%             139        89%           55      79%
                              Principal and Interest   1,660,417         97%         19,014    100%      5,533,548       100%       734,251     100%       7,561,813        91%      951,000      84%
AFRICAN AMERICAN              Borrowers                             1      7%              0      0%                 0      0%              0      0%                 2      3%              1     5%
                              Loans                                 1      3%              0      0%                 0      0%              0      0%                 8      5%              7    10%
                              Principal and Interest      51,719           3%              0      0%                 0      0%              0      0%         358,167        4%        93,947       8%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        2%             1      5%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               9        6%             8     11%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         382,406        5%        91,232      8%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 907
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            NEWTON, MISSOURI                                NODAWAY, MISSOURI                                  OREGON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       41                          8                     130                       34                       25                        7
                              Loans                           69                          9                     343                       91                       47                       12
                              Principal and Interest   4,364,279                     62,399              16,541,233                  638,868                2,950,442                   91,545
WHITE                         Borrowers                       40         98%              8    100%             129        99%            33      97%              23        92%             6     86%
                              Loans                           67         97%              9    100%             340        99%            88      97%              43        91%            11     92%
                              Principal and Interest   4,323,258         99%         62,399    100%      16,315,822        99%       628,172      98%       2,743,863        93%        86,542     95%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1           2%              0      0%             1           1%             1       3%               2        8%             1     14%
                              Loans                            2           3%              0      0%             3           1%             3       3%               4        9%             1      8%
                              Principal and Interest      41,021           1%              0      0%       225,412           1%        10,696       2%         206,579        7%         5,003      5%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 908
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              OSAGE, MISSOURI                                  OZARK, MISSOURI                               PEMISCOT, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                        13                      27                         7                      41                       8
                              Loans                           96                        32                      87                        17                      90                      22
                              Principal and Interest   3,325,218                   149,117               2,721,344                    64,986               3,325,850                 273,689
WHITE                         Borrowers                       34         94%            13     100%             27       100%              7    100%              38        93%             5     63%
                              Loans                           93         97%            32     100%             87       100%             17    100%              73        81%             7     32%
                              Principal and Interest   3,188,842         96%       149,117     100%      2,721,344       100%         64,986    100%       2,505,387        75%        18,612      7%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%               3        7%            3      38%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%              17       19%           15      68%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%         820,463       25%      255,077      93%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                       2            6%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           3            3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    136,376            4%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 909
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              PERRY, MISSOURI                                   PETTIS, MISSOURI                                PHELPS, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       31                         11                      75                       25                       21                       5
                              Loans                           60                         16                     194                       61                       42                       9
                              Principal and Interest   2,747,619                     69,807              10,785,284                  326,080                2,397,050                 196,307
WHITE                         Borrowers                       31        100%             11    100%              72        96%            25     100%              21      100%             5     100%
                              Loans                           60        100%             16    100%             189        97%            61     100%              42      100%             9     100%
                              Principal and Interest   2,747,619        100%         69,807    100%      10,108,999        94%       326,080     100%       2,397,050      100%       196,307     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%             2           3%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%             3           2%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       386,424           4%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%             1           1%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%             2           1%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       289,862           3%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 910
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                 PIKE, MISSOURI                                PLATTE, MISSOURI                                   POLK, MISSOURI
                                                         Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        72                        13                      13                         2                      18                        5
                              Loans                           167                        29                      28                         5                      36                       10
                              Principal and Interest   11,965,444                   311,345               1,262,532                    27,294               1,619,016                   23,909
WHITE                         Borrowers                        70         97%            13     100%             13       100%              2    100%              15        83%             3     60%
                              Loans                           163         98%            29     100%             28       100%              5    100%              25        69%             6     60%
                              Principal and Interest   11,834,032         99%       311,345     100%      1,262,532       100%         27,294    100%       1,177,260        73%        10,009     42%
AFRICAN AMERICAN              Borrowers                              0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                         1           1%              0      0%                 0      0%              0      0%               2       11%             1     20%
                              Loans                             1           1%              0      0%                 0      0%              0      0%              10       28%             3     30%
                              Principal and Interest       66,554           1%              0      0%                 0      0%              0      0%         432,971       27%        11,994     50%
ASIAN                         Borrowers                         1           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             3           2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       64,859           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                              0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                              0      0%              0      0%                 0      0%              0      0%                1       6%             1     20%
                              Loans                                  0      0%              0      0%                 0      0%              0      0%                1       3%             1     10%
                              Prinicpal and Interest                 0      0%              0      0%                 0      0%              0      0%            8,784       1%         1,906      8%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 911
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           PULASKI, MISSOURI                                PUTNAM, MISSOURI                                   RALLS, MISSOURI
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      3                           1                     50                       23                       27                        6
                              Loans                          7                           5                    116                       53                       57                        9
                              Principal and Interest   202,901                       7,041              4,571,117                  382,253                2,229,949                   13,192
WHITE                         Borrowers                      3         100%              1    100%             50       100%            23     100%              26        96%             6    100%
                              Loans                          7         100%              5    100%            116       100%            53     100%              54        95%             9    100%
                              Principal and Interest   202,901         100%          7,041    100%      4,571,117       100%       382,253     100%       2,122,747        95%        13,192    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%               1        4%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               3        5%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         107,203        5%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 912
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          RANDOLPH, MISSOURI                                     RAY, MISSOURI                              REYNOLDS, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       60                        15                      34                        9                         4                       3
                              Loans                          142                        53                      61                       20                         6                       3
                              Principal and Interest   8,196,876                   227,246               3,391,954                  548,017                   233,566                   6,558
WHITE                         Borrowers                       58         97%            15     100%             34       100%             9     100%                4     100%              3    100%
                              Loans                          139         98%            53     100%             61       100%            20     100%                6     100%              3    100%
                              Principal and Interest   7,784,332         95%       227,246     100%      3,391,954       100%       548,017     100%          233,566     100%          6,558    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       2            3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           3            2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    412,544            5%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 913
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             RIPLEY, MISSOURI                                 SALINE, MISSOURI                              SCHUYLER, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       32                          7                     50                        9                       67                      24
                              Loans                           72                         14                     97                       24                      184                      77
                              Principal and Interest   2,954,120                     20,265              4,362,357                  148,844                7,707,334                 971,317
WHITE                         Borrowers                       31         97%              7    100%             50       100%             9     100%              66        99%           24     100%
                              Loans                           70         97%             14    100%             97       100%            24     100%             183        99%           77     100%
                              Principal and Interest   2,856,978         97%         20,265    100%      4,362,357       100%       148,844     100%       7,608,384        99%      971,317     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               1        1%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          98,949        1%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      97,143           3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 914
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SCOTLAND, MISSOURI                                   SCOTT, MISSOURI                               SHANNON, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       63                        14                      28                       11                       18                        1
                              Loans                          151                        34                      60                       24                       49                        4
                              Principal and Interest   6,789,717                   204,848               3,775,510                  386,309                1,000,587                    5,470
WHITE                         Borrowers                       62         98%            13      93%             28       100%            11     100%              18      100%              1    100%
                              Loans                          146         97%            29      85%             60       100%            24     100%              49      100%              4    100%
                              Principal and Interest   6,604,859         97%       192,238      94%      3,775,510       100%       386,309     100%       1,000,587      100%          5,470    100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       1            2%             1      7%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           5            3%             5     15%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    184,858            3%        12,610      6%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 915
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             SHELBY, MISSOURI                             ST CHARLES, MISSOURI                                ST CLAIR, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       38                         8                      4                          1                      38                        9
                              Loans                          106                        25                      6                          1                      90                       18
                              Principal and Interest   5,353,571                   430,319                192,635                      4,738               3,751,114                   95,931
WHITE                         Borrowers                       38        100%             8     100%             3         75%               0      0%             35        92%             8     89%
                              Loans                          106        100%            25     100%             4         67%               0      0%             87        97%            17     94%
                              Principal and Interest   5,353,571        100%       430,319     100%       145,268         75%               0      0%      3,721,206        99%        93,770     98%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               3        8%             1     11%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               3        3%             1      6%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          29,908        1%         2,161      2%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%            1         25%              1    100%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%            2         33%              1    100%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       47,368         25%          4,738    100%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 916
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ST FRANCOIS, MISSOURI                            STE GENEVIEVE, MISSOURI                             STODDARD, MISSOURI
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                     12                           3                      6                         1                      145                      28
                              Loans                         16                           4                     10                         3                      352                      58
                              Principal and Interest   588,416                       5,128                787,857                   101,284               18,524,992                 815,135
WHITE                         Borrowers                     12         100%              3    100%              6        100%             1     100%             132        91%           25      89%
                              Loans                         16         100%              4    100%             10        100%             3     100%             311        88%           53      91%
                              Principal and Interest   588,416         100%          5,128    100%        787,857        100%       101,284     100%      16,866,383        91%      798,823      98%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%              9         6%             3     11%
                              Loans                                0      0%              0      0%                  0      0%              0      0%             36        10%             5      9%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      1,450,154         8%        16,313      2%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%               3        2%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%               3        1%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%         102,772        1%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 1      1%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 2      1%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%         105,683        1%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 917
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              STONE, MISSOURI                                SULLIVAN, MISSOURI                                  TANEY, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                          8                      85                       29                         9                        0
                              Loans                           50                         17                     242                       81                        17                        0
                              Principal and Interest   1,974,207                     88,693              11,103,114                  886,323                   639,473                        0
WHITE                         Borrowers                       21        100%              8    100%              84        99%            29     100%                9     100%               0      0%
                              Loans                           50        100%             17    100%             241       100%            81     100%               17     100%               0      0%
                              Principal and Interest   1,974,207        100%         88,693    100%      10,925,627        98%       886,323     100%          639,473     100%               0      0%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%             1           1%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%             1           0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%       177,486           2%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 918
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              TEXAS, MISSOURI                                VERNON, MISSOURI                                 WARREN, MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       89                        22                      47                       14                         2                        0
                              Loans                          192                        45                     125                       42                         4                        0
                              Principal and Interest   7,582,591                   131,986               5,723,001                  495,912                   298,563                        0
WHITE                         Borrowers                       89        100%            22     100%             47       100%            14     100%                1       50%              0      0%
                              Loans                          192        100%            45     100%            125       100%            42     100%                1       25%              0      0%
                              Principal and Interest   7,582,591        100%       131,986     100%      5,723,001       100%       495,912     100%          230,549       77%              0      0%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%               1       50%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               3       75%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          68,014       23%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 919
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WASHINGTON, MISSOURI                                  WAYNE, MISSOURI                                WEBSTER, MISSOURI
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      5                          2                      5                          1                      19                       5
                              Loans                         15                          9                      7                          1                      72                      17
                              Principal and Interest   789,147                    271,996                289,612                        118               2,632,893                 237,535
WHITE                         Borrowers                      5         100%             2     100%             5        100%              1    100%              18        95%            5     100%
                              Loans                         15         100%             9     100%             7        100%              1    100%              61        85%           17     100%
                              Principal and Interest   789,147         100%       271,996     100%       289,612        100%            118    100%       2,345,028        89%      237,535     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%               1        5%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              11       15%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%         287,865       11%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 920
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             WORTH, MISSOURI                                 WRIGHT, MISSOURI                                  STATE OF MISSOURI
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio         Percent    Delinquent   Percent
TOTAL                         Borrowers                       30                          7                     45                       16                     4,420                       1,122
                              Loans                           69                         19                    139                       38                    10,931                       2,936
                              Principal and Interest   3,467,372                     77,920              4,649,283                  102,780               499,490,120                  27,972,707
WHITE                         Borrowers                       30        100%              7    100%             45       100%            16     100%            4,313          98%      1,098         98%
                              Loans                           69        100%             19    100%            139       100%            38     100%           10,658          98%      2,870         98%
                              Principal and Interest   3,467,372        100%         77,920    100%      4,649,283       100%       102,780     100%      487,224,404          98% 27,102,414         97%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                   38      1%              12      1%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  124      1%              36      1%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%       4,896,212           1%       702,043        3%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%              44           1%            10        1%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%              91           1%            28        1%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%       5,035,087           1%       161,606        1%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                    2      0%               0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                    5      0%               0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%          354,721          0%               0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%              19           0%              1       0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%              39           0%              1       0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%       1,488,721           0%          4,738       0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                4          0%              1       0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%               14          0%              1       0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%          490,977          0%          1,906       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 921
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO 3CAPE GIRARDEAU       Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      16                      0                0                0               0
                                    Completion to Approval                      4                      0                0                0               0
                                    Approval to Loan Closing                   72                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   ADAIR              Approved   No. of Applications                6        6      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      40                     0                0                 0              0
                                    Completion to Approval                     71                     0                0                 0              0
                                    Approval to Loan Closing                   23                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 5        5      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       23                     0                0                 0              0
                                   Completion to Withdrawn                     73                     0                0                 0              0

 MO   ANDREW             Approved   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      38                     0                0                 0              0
                                    Completion to Approval                     17                     0                0                 0              0
                                    Approval to Loan Closing                   45                     0                0                 0              0

                         Rejected   No. of Applications                2           2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 922
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African            Native
State Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
MO ATCHISON              Approved   No. of Applications                37        37   100%            0   0%            0   0%           0   0%          0     0%
                                    Receipt to Completion                        27                   0                 0                0               0
                                    Completion to Approval                       24                   0                 0                0               0
                                    Approval to Loan Closing                      5                   0                 0                0               0

                         Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 7         7    100%           0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                         8                   0                 0                 0              0
                                   Completion to Withdrawn                       4                   0                 0                 0              0

 MO   AUDRAIN            Approved   No. of Applications                7         5    71%            2    29%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       12                  25                 0                 0              0
                                    Completion to Approval                       1                   0                 0                 0              0
                                    Approval to Loan Closing                    21                  18                 0                 0              0

                         Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 5         4    80%            1    20%          0    0%           0   0%         0      0%
                                   Receipt to Completion                        15                   0                 0                 0              0
                                   Completion to Withdrawn                       3                   0                 0                 0              0

 MO   BARRY              Approved   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                       14                   0                 0                 0              0
                                    Completion to Approval                       9                   0                 0                 0              0
                                    Approval to Loan Closing                     8                   0                 0                 0              0

                         Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                 0                 0              0
                                   Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 923
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO BARTON                Approved   No. of Applications                3        3      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      29                      0                0                0               0
                                    Completion to Approval                     64                      0                0                0               0
                                    Approval to Loan Closing                   20                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                        0                     0                0                 0              0
                                   Completion to Withdrawn                     69                     0                0                 0              0

 MO   BATES              Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      33                     0                0                 0              0
                                    Completion to Approval                      0                     0                0                 0              0
                                    Approval to Loan Closing                    9                     0                0                 0              0

                         Rejected   No. of Applications                5           5   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   BENTON             Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      16                     0                0                 0              0
                                    Completion to Approval                      0                     0                0                 0              0
                                    Approval to Loan Closing                   14                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 924
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO BOLLINGER             Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      21                      0                0                0               0
                                    Completion to Approval                     21                      0                0                0               0
                                    Approval to Loan Closing                   11                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   BUCHANAN           Approved   No. of Applications                5        5      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      18                     0                0                 0              0
                                    Completion to Approval                      1                     0                0                 0              0
                                    Approval to Loan Closing                    4                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 3           3   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   BUTLER             Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 925
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO CALDWELL              Approved   No. of Applications                3        3      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      52                      0                0                0               0
                                    Completion to Approval                      1                      0                0                0               0
                                    Approval to Loan Closing                    9                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       20                     0                0                 0              0
                                   Completion to Withdrawn                      8                     0                0                 0              0

 MO   CARROLL            Approved   No. of Applications                6        6      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      27                     0                0                 0              0
                                    Completion to Approval                     20                     0                0                 0              0
                                    Approval to Loan Closing                   28                     0                0                 0              0

                         Rejected   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      35                     0                0                 0              0
                                    Completion to Rejected                      3                     0                0                 0              0

                         Withdrawn No. of Applications                 5        5      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                        0                     0                0                 0              0
                                   Completion to Withdrawn                     43                     0                0                 0              0

 MO   CASS               Approved   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      41                     0                0                 0              0
                                    Completion to Approval                      0                     0                0                 0              0
                                    Approval to Loan Closing                   14                     0                0                 0              0

                         Rejected   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      18                     0                0                 0              0
                                    Completion to Rejected                      4                     0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 926
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
MO CEDAR                 Approved   No. of Applications                2         2      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                       28                      0                0                0               0
                                    Completion to Approval                      36                      0                0                0               0
                                    Approval to Loan Closing                    17                      0                0                0               0

                         Rejected   No. of Applications                2         2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       51                     0                0                 0              0
                                    Completion to Rejected                       0                     0                0                 0              0

                         Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                            0                  0                0                 0              0
                                   Completion to Withdrawn                          0                  0                0                 0              0

 MO   CHARITON           Approved   No. of Applications                42       40      95%            2    5%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       46                    45                0                 0              0
                                    Completion to Approval                      19                    21                0                 0              0
                                    Approval to Loan Closing                    26                    23                0                 0              0

                         Rejected   No. of Applications                1         1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       85                     0                0                 0              0
                                    Completion to Rejected                      28                     0                0                 0              0

                         Withdrawn No. of Applications                 5         5      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                        28                     0                0                 0              0
                                   Completion to Withdrawn                      46                     0                0                 0              0

 MO   CLARK              Approved   No. of Applications                5         5      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       53                     0                0                 0              0
                                    Completion to Approval                       6                     0                0                 0              0
                                    Approval to Loan Closing                    33                     0                0                 0              0

                         Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Rejected                          0                  0                0                 0              0

                         Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                            0                  0                0                 0              0
                                   Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 927
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO CLAY                  Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      41                      0                0                0               0
                                    Completion to Approval                     10                      0                0                0               0
                                    Approval to Loan Closing                    0                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       37                     0                0                 0              0
                                   Completion to Withdrawn                      0                     0                0                 0              0

 MO   DADE               Approved   No. of Applications                3        3      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      55                     0                0                 0              0
                                    Completion to Approval                      0                     0                0                 0              0
                                    Approval to Loan Closing                   16                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   DALLAS             Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 928
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African           Native
State Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
MO DAVIESS               Approved   No. of Applications                11        11   100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                        30                   0                0                0               0
                                    Completion to Approval                       11                   0                0                0               0
                                    Approval to Loan Closing                     13                   0                0                0               0

                         Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0

 MO   DEKALB             Approved   No. of Applications                12       12    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       29                   0                0                 0              0
                                    Completion to Approval                      10                   0                0                 0              0
                                    Approval to Loan Closing                     5                   0                0                 0              0

                         Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         8                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0

 MO   DOUGLAS/OZARK      Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        9                   0                0                 0              0
                                    Completion to Approval                      81                   0                0                 0              0
                                    Approval to Loan Closing                    77                   0                0                 0              0

                         Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 929
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African            Native
State Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
MO DUNKLIN               Approved   No. of Applications                34        30   88%             4   12%           0   0%           0   0%          0     0%
                                    Receipt to Completion                        56                  53                 0                0               0
                                    Completion to Approval                        6                   7                 0                0               0
                                    Approval to Loan Closing                     32                  14                 0                0               0

                         Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 20       20    100%           0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                        31                   0                 0                 0              0
                                   Completion to Withdrawn                       9                   0                 0                 0              0

 MO   FRANKLIN           Approved   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Approval                       0                   0                 0                 0              0
                                    Approval to Loan Closing                     0                   0                 0                 0              0

                         Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                 0                 0              0
                                   Completion to Withdrawn                       0                   0                 0                 0              0

 MO   GENTRY             Approved   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                       31                   0                 0                 0              0
                                    Completion to Approval                       1                   0                 0                 0              0
                                    Approval to Loan Closing                     4                   0                 0                 0              0

                         Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                 0                 0              0
                                   Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 930
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO GRUNDY                Approved   No. of Applications                2        2      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      19                      0                0                0               0
                                    Completion to Approval                      8                      0                0                0               0
                                    Approval to Loan Closing                   18                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 6        6      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       18                     0                0                 0              0
                                   Completion to Withdrawn                     10                     0                0                 0              0

 MO   HARRISON           Approved   No. of Applications                6        6      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      14                     0                0                 0              0
                                    Completion to Approval                     36                     0                0                 0              0
                                    Approval to Loan Closing                    5                     0                0                 0              0

                         Rejected   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      21                     0                0                 0              0
                                    Completion to Rejected                     39                     0                0                 0              0

                         Withdrawn No. of Applications                 4        4      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       10                     0                0                 0              0
                                   Completion to Withdrawn                      3                     0                0                 0              0

 MO   HENRY              Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 931
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
MO HICKORY                Approved   No. of Applications                4         4      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       33                      0                0                0               0
                                     Completion to Approval                       0                      0                0                0               0
                                     Approval to Loan Closing                    35                      0                0                0               0

                          Rejected   No. of Applications                1         1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       41                     0                0                 0              0
                                     Completion to Rejected                     149                     0                0                 0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

 MO   HOLT                Approved   No. of Applications                16       16      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       26                     0                0                 0              0
                                     Completion to Approval                      11                     0                0                 0              0
                                     Approval to Loan Closing                     9                     0                0                 0              0

                          Rejected   No. of Applications                1         1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       23                     0                0                 0              0
                                     Completion to Rejected                      56                     0                0                 0              0

                          Withdrawn No. of Applications                 2         2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                     0                0                 0              0
                                    Completion to Withdrawn                      29                     0                0                 0              0

 MO   HOUSTON             Approved   No. of Applications                3         3      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       18                     0                0                 0              0
                                     Completion to Approval                      16                     0                0                 0              0
                                     Approval to Loan Closing                    10                     0                0                 0              0

                          Rejected   No. of Applications                2         2      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       43                     0                0                 0              0
                                     Completion to Rejected                      82                     0                0                 0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 932
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American           Asian            Hispanic
MO HOWARD                Approved   No. of Applications                6        6      100%            0   0%           0    0%            0   0%          0     0%
                                    Receipt to Completion                      12                      0                0                  0               0
                                    Completion to Approval                    100                      0                0                  0               0
                                    Approval to Loan Closing                   84                      0                0                  0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                   0              0
                                    Completion to Rejected                         0                  0                0                   0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0     0%            0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                   0              0
                                   Completion to Withdrawn                         0                  0                0                   0              0

 MO   HOWELL             Approved   No. of Applications                1           0    0%            0    0%          1    100%           0   0%         0      0%
                                    Receipt to Completion                          0                  0               26                   0              0
                                    Completion to Approval                         0                  0                0                   0              0
                                    Approval to Loan Closing                       0                  0               23                   0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                   0              0
                                    Completion to Rejected                         0                  0                0                   0              0

                         Withdrawn No. of Applications                 1           0    0%            0    0%          1    100%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                   0              0
                                   Completion to Withdrawn                         0                  0                0                   0              0

 MO   JASPER             Approved   No. of Applications                0           0    0%            0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                   0              0
                                    Completion to Approval                         0                  0                0                   0              0
                                    Approval to Loan Closing                       0                  0                0                   0              0

                         Rejected   No. of Applications                2        2      100%           0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                      14                     0                0                   0              0
                                    Completion to Rejected                    134                     0                0                   0              0

                         Withdrawn No. of Applications                 1        1      100%           0    0%          0     0%            0   0%         0      0%
                                   Receipt to Completion                        0                     0                0                   0              0
                                   Completion to Withdrawn                    114                     0                0                   0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 933
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO JEFFERSON              Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                      34                      0                0                0               0
                                     Completion to Approval                      3                      0                0                0               0
                                     Approval to Loan Closing                   19                      0                0                0               0

                          Rejected   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      17                     0                0                 0              0
                                     Completion to Rejected                     35                     0                0                 0              0

                          Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       58                     0                0                 0              0
                                    Completion to Withdrawn                     15                     0                0                 0              0

 MO   JOHNSON             Approved   No. of Applications                4        4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      49                     0                0                 0              0
                                     Completion to Approval                     13                     0                0                 0              0
                                     Approval to Loan Closing                   11                     0                0                 0              0

                          Rejected   No. of Applications                1           1   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MO   KNOX                Approved   No. of Applications                1           1   100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Approval                         0                  0                0                 0              0
                                     Approval to Loan Closing                       0                  0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 934
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO LAFAYETTE             Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                       0                      0                0                0               0
                                    Completion to Approval                      0                      0                0                0               0
                                    Approval to Loan Closing                   18                      0                0                0               0

                         Rejected   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      32                     0                0                 0              0
                                    Completion to Rejected                      3                     0                0                 0              0

                         Withdrawn No. of Applications                 3           3   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   LAWRENCE           Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       0                     0                0                 0              0
                                    Completion to Approval                      0                     0                0                 0              0
                                    Approval to Loan Closing                   17                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   LEWIS              Approved   No. of Applications                7        7      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      38                     0                0                 0              0
                                    Completion to Approval                      2                     0                0                 0              0
                                    Approval to Loan Closing                   25                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 935
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
MO LINN                   Approved   No. of Applications                11        11   100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        33                   0                 0                0               0
                                     Completion to Approval                       58                   0                 0                0               0
                                     Approval to Loan Closing                     22                   0                 0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 26       26    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        21                   0                 0                 0              0
                                    Completion to Withdrawn                       2                   0                 0                 0              0

 MO   LIVINGSTON          Approved   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       27                   0                 0                 0              0
                                     Completion to Approval                      48                   0                 0                 0              0
                                     Approval to Loan Closing                    18                   0                 0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       76                   0                 0                 0              0
                                     Completion to Rejected                      15                   0                 0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                   0                 0                 0              0
                                    Completion to Withdrawn                       1                   0                 0                 0              0

 MO   MACON               Approved   No. of Applications                7         6    86%            1    14%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       22                  29                 0                 0              0
                                     Completion to Approval                      21                   0                 0                 0              0
                                     Approval to Loan Closing                    30                  14                 0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        49                   0                 0                 0              0
                                    Completion to Withdrawn                      12                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 936
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African           Native
State Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
MO MARION                Approved   No. of Applications                10        10   100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                        28                   0                0                0               0
                                    Completion to Approval                       36                   0                0                0               0
                                    Approval to Loan Closing                     92                   0                0                0               0

                         Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0

 MO   MERCER             Approved   No. of Applications                9         9    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       33                   0                0                 0              0
                                    Completion to Approval                      17                   0                0                 0              0
                                    Approval to Loan Closing                    10                   0                0                 0              0

                         Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       22                   0                0                 0              0
                                    Completion to Rejected                      17                   0                0                 0              0

                         Withdrawn No. of Applications                 13       13    100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                        13                   0                0                 0              0
                                   Completion to Withdrawn                      14                   0                0                 0              0

 MO   MILLER             Approved   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        7                   0                0                 0              0
                                    Completion to Approval                      18                   0                0                 0              0
                                    Approval to Loan Closing                    10                   0                0                 0              0

                         Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 937
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State  Servicing Office   Decision           Average Days       Total       White              American           American          Asian            Hispanic
MO MISSISSIPPI            Approved   No. of Applications                6        6      100%            0   0%            0   0%            0   0%          0     0%
                                     Receipt to Completion                      28                      0                 0                 0               0
                                     Completion to Approval                      3                      0                 0                 0               0
                                     Approval to Loan Closing                   19                      0                 0                 0               0

                          Rejected   No. of Applications                0           0    0%            0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                          0                  0                 0                  0              0
                                     Completion to Rejected                         0                  0                 0                  0              0

                          Withdrawn No. of Applications                 3        1      33%            2    67%          0    0%            0   0%         0      0%
                                    Receipt to Completion                        0                     0                 0                  0              0
                                    Completion to Withdrawn                     15                     0                 0                  0              0

 MO   MONITEAU            Approved   No. of Applications                2        2      100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                      55                     0                 0                  0              0
                                     Completion to Approval                      8                     0                 0                  0              0
                                     Approval to Loan Closing                    7                     0                 0                  0              0

                          Rejected   No. of Applications                0           0    0%            0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                          0                  0                 0                  0              0
                                     Completion to Rejected                         0                  0                 0                  0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Withdrawn                         0                  0                 0                  0              0

 MO   MONROE              Approved   No. of Applications                8        4      50%            0    0%           3    38%           0   0%         1     13%
                                     Receipt to Completion                      21                     0                23                  0              1
                                     Completion to Approval                     37                     0                 0                  0             10
                                     Approval to Loan Closing                   93                     0                52                  0              9

                          Rejected   No. of Applications                0           0    0%            0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                          0                  0                 0                  0              0
                                     Completion to Rejected                         0                  0                 0                  0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Withdrawn                         0                  0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 938
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African           Native
State Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
MO NEW MADRID            Approved   No. of Applications                22        21   95%             1   5%           0   0%           0   0%          0     0%
                                    Receipt to Completion                        22                   5                0                0               0
                                    Completion to Approval                        8                   0                0                0               0
                                    Approval to Loan Closing                     20                  17                0                0               0

                         Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 12       12    100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                        13                   0                0                 0              0
                                   Completion to Withdrawn                       9                   0                0                 0              0

 MO   NEWTON/MADONALD    Approved   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Approval                       0                   0                0                 0              0
                                    Approval to Loan Closing                     0                   0                0                 0              0

                         Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                0                 0              0
                                    Completion to Rejected                       0                   0                0                 0              0

                         Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0

 MO   NODAWAY            Approved   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       25                   0                0                 0              0
                                    Completion to Approval                      38                   0                0                 0              0
                                    Approval to Loan Closing                    21                   0                0                 0              0

                         Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                       26                   0                0                 0              0
                                    Completion to Rejected                      22                   0                0                 0              0

                         Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                0                 0              0
                                   Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 939
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State Servicing Office   Decision           Average Days       Total        White              American          American           Asian            Hispanic
MO OREGON                Approved   No. of Applications                2         1      50%             0   0%            1   50%           0   0%          0     0%
                                    Receipt to Completion                       23                      0                29                 0               0
                                    Completion to Approval                       0                      0                33                 0               0
                                    Approval to Loan Closing                    36                      0                31                 0               0

                         Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Rejected                          0                  0                 0                  0              0

                         Withdrawn No. of Applications                 0            0    0%            0    0%           0    0%            0   0%         0      0%
                                   Receipt to Completion                            0                  0                 0                  0              0
                                   Completion to Withdrawn                          0                  0                 0                  0              0

 MO   OSAGE/MARIES       Approved   No. of Applications                3         3      100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                       23                     0                 0                  0              0
                                    Completion to Approval                       0                     0                 0                  0              0
                                    Approval to Loan Closing                    32                     0                 0                  0              0

                         Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Rejected                          0                  0                 0                  0              0

                         Withdrawn No. of Applications                 0            0    0%            0    0%           0    0%            0   0%         0      0%
                                   Receipt to Completion                            0                  0                 0                  0              0
                                   Completion to Withdrawn                          0                  0                 0                  0              0

 MO   PEMISCOT           Approved   No. of Applications                13       13      100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                       32                     0                 0                  0              0
                                    Completion to Approval                       1                     0                 0                  0              0
                                    Approval to Loan Closing                    19                     0                 0                  0              0

                         Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Rejected                          0                  0                 0                  0              0

                         Withdrawn No. of Applications                 6         6      100%           0    0%           0    0%            0   0%         0      0%
                                   Receipt to Completion                        28                     0                 0                  0              0
                                   Completion to Withdrawn                      16                     0                 0                  0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 940
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO P0Y                    Approved   No. of Applications                3        3      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                      43                      0                0                0               0
                                     Completion to Approval                      2                      0                0                0               0
                                     Approval to Loan Closing                   24                      0                0                0               0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 2           2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MO   PHELPS              Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      25                     0                0                 0              0
                                     Completion to Approval                      0                     0                0                 0              0
                                     Approval to Loan Closing                   14                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MO   PIKE                Approved   No. of Applications                7        7      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      34                     0                0                 0              0
                                     Completion to Approval                     12                     0                0                 0              0
                                     Approval to Loan Closing                   35                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 941
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO PLATTE                Approved   No. of Applications                0           0    0%             0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                          0                   0                0                0               0
                                    Completion to Approval                         0                   0                0                0               0
                                    Approval to Loan Closing                       0                   0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       75                     0                0                 0              0
                                   Completion to Withdrawn                      0                     0                0                 0              0

 MO   POLK               Approved   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      72                     0                0                 0              0
                                    Completion to Approval                     31                     0                0                 0              0
                                    Approval to Loan Closing                   25                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   PUTMAN             Approved   No. of Applications                3        3      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      22                     0                0                 0              0
                                    Completion to Approval                     41                     0                0                 0              0
                                    Approval to Loan Closing                   39                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 5        5      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       22                     0                0                 0              0
                                   Completion to Withdrawn                     20                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 942
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO RALLS                 Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      30                      0                0                0               0
                                    Completion to Approval                      8                      0                0                0               0
                                    Approval to Loan Closing                   60                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   RANDOLPH           Approved   No. of Applications                3        3      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      29                     0                0                 0              0
                                    Completion to Approval                     18                     0                0                 0              0
                                    Approval to Loan Closing                   23                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 2        2      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       40                     0                0                 0              0
                                   Completion to Withdrawn                     44                     0                0                 0              0

 MO   RAY                Approved   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      48                     0                0                 0              0
                                    Completion to Approval                     21                     0                0                 0              0
                                    Approval to Loan Closing                   13                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 2        2      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       20                     0                0                 0              0
                                   Completion to Withdrawn                    112                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 943
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO RIPLEY/CARTER          Approved   No. of Applications                7        7      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                      36                      0                0                0               0
                                     Completion to Approval                      5                      0                0                0               0
                                     Approval to Loan Closing                   17                      0                0                0               0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MO   SADELIA             Approved   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      37                     0                0                 0              0
                                     Completion to Approval                      5                     0                0                 0              0
                                     Approval to Loan Closing                   15                     0                0                 0              0

                          Rejected   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      15                     0                0                 0              0
                                     Completion to Rejected                     49                     0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 MO   SALINE              Approved   No. of Applications                4        4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                      45                     0                0                 0              0
                                     Completion to Approval                     18                     0                0                 0              0
                                     Approval to Loan Closing                   41                     0                0                 0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 944
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO SCHUYLER              Approved   No. of Applications                4        4      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                      15                      0                0                0               0
                                    Completion to Approval                     10                      0                0                0               0
                                    Approval to Loan Closing                    7                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 2        2      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       50                     0                0                 0              0
                                   Completion to Withdrawn                     32                     0                0                 0              0

 MO   SCOTLAND           Approved   No. of Applications                6        6      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      30                     0                0                 0              0
                                    Completion to Approval                     30                     0                0                 0              0
                                    Approval to Loan Closing                   89                     0                0                 0              0

                         Rejected   No. of Applications                2           2   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 3           3   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           7                  0                0                 0              0
                                   Completion to Withdrawn                         7                  0                0                 0              0

 MO   SCOTT              Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 945
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO SHANNON               Approved   No. of Applications                1        1      100%            0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                     140                      0                0                0               0
                                    Completion to Approval                      0                      0                0                0               0
                                    Approval to Loan Closing                   44                      0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0

 MO   SHELBY             Approved   No. of Applications                6        6      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      23                     0                0                 0              0
                                    Completion to Approval                     55                     0                0                 0              0
                                    Approval to Loan Closing                   22                     0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 4        4      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       11                     0                0                 0              0
                                   Completion to Withdrawn                     29                     0                0                 0              0

 MO   ST CHARLES         Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                4        4      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      98                     0                0                 0              0
                                    Completion to Rejected                      1                     0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 946
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American           Asian            Hispanic
MO ST CLAIR               Approved   No. of Applications                0           0    0%             0   0%           0    0%            0   0%          0     0%
                                     Receipt to Completion                          0                   0                0                  0               0
                                     Completion to Approval                         0                   0                0                  0               0
                                     Approval to Loan Closing                       0                   0                0                  0               0

                          Rejected   No. of Applications                1           1   100%           0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                   0              0
                                     Completion to Rejected                         0                  0                0                   0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                   0              0
                                    Completion to Withdrawn                         0                  0                0                   0              0

 MO   ST FRANCOIS/IRON    Approved   No. of Applications                1           0    0%            0    0%          1    100%           0   0%         0      0%
                                     Receipt to Completion                          0                  0               62                   0              0
                                     Completion to Approval                         0                  0                6                   0              0
                                     Approval to Loan Closing                       0                  0               16                   0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                   0              0
                                     Completion to Rejected                         0                  0                0                   0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                   0              0
                                    Completion to Withdrawn                         0                  0                0                   0              0

 MO   STE. GENEVIEVE      Approved   No. of Applications                1        1      100%           0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                      27                     0                0                   0              0
                                     Completion to Approval                     14                     0                0                   0              0
                                     Approval to Loan Closing                   15                     0                0                   0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0     0%            0   0%         0      0%
                                     Receipt to Completion                          0                  0                0                   0              0
                                     Completion to Rejected                         0                  0                0                   0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0     0%            0   0%         0      0%
                                    Receipt to Completion                           0                  0                0                   0              0
                                    Completion to Withdrawn                         0                  0                0                   0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 947
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African           Native
State Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
MO STODDARD              Approved   No. of Applications                14        13   93%             0   0%            1   7%           0   0%          0     0%
                                    Receipt to Completion                        21                   0                53                0               0
                                    Completion to Approval                        2                   0                10                0               0
                                    Approval to Loan Closing                     24                   0                71                0               0

                         Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 5         5    100%           0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                        19                   0                 0                 0              0
                                   Completion to Withdrawn                      13                   0                 0                 0              0

 MO   SULLIVAN           Approved   No. of Applications                8         8    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                       22                   0                 0                 0              0
                                    Completion to Approval                      43                   0                 0                 0              0
                                    Approval to Loan Closing                    69                   0                 0                 0              0

                         Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                       51                   0                 0                 0              0
                                    Completion to Rejected                       9                   0                 0                 0              0

                         Withdrawn No. of Applications                 8         8    100%           0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                        26                   0                 0                 0              0
                                   Completion to Withdrawn                     112                   0                 0                 0              0

 MO   VERNON             Approved   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                       25                   0                 0                 0              0
                                    Completion to Approval                      27                   0                 0                 0              0
                                    Approval to Loan Closing                    19                   0                 0                 0              0

                         Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        0                   0                 0                 0              0
                                    Completion to Rejected                       0                   0                 0                 0              0

                         Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                   Receipt to Completion                         0                   0                 0                 0              0
                                   Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 948
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
MO WEBSTER               Approved   No. of Applications                0           0    0%             0   0%           0   0%           0   0%          0     0%
                                    Receipt to Completion                          0                   0                0                0               0
                                    Completion to Approval                         0                   0                0                0               0
                                    Approval to Loan Closing                       0                   0                0                0               0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       50                     0                0                 0              0
                                   Completion to Withdrawn                     90                     0                0                 0              0

 MO   WORTH              Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Rejected                         0                  0                0                 0              0

                         Withdrawn No. of Applications                 4        4      100%           0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                       17                     0                0                 0              0
                                   Completion to Withdrawn                     30                     0                0                 0              0

 MO   WRIGHT             Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                          0                  0                0                 0              0
                                    Completion to Approval                         0                  0                0                 0              0
                                    Approval to Loan Closing                       0                  0                0                 0              0

                         Rejected   No. of Applications                2        2      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                      51                     0                0                 0              0
                                    Completion to Rejected                     32                     0                0                 0              0

                         Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0      0%
                                   Receipt to Completion                           0                  0                0                 0              0
                                   Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 949
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                          African           Native
State Servicing Office   Decision           Average Days       Total    White            American          American          Asian            Hispanic
MO STATE                 Approved   No. of Applications           431      413    96%            10   2%            7   2%           0   0%          1     0%
                                    Receipt to Completion                    32                  39                34                0               1
                                    Completion to Approval                   19                   7                 7                0              10
                                    Approval to Loan Closing                 25                  17                42                0               9

                         Rejected   No. of Applications           50        50    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                   29                   0                 0                 0              0
                                    Completion to Rejected                  20                   0                 0                 0              0

                         Withdrawn No. of Applications            205      201    98%            3    1%           1    0%           0   0%         0      0%
                                   Receipt to Completion                    16                   0                 0                 0              0
                                   Completion to Withdrawn                  18                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                           Page 950
                            Demographics         952
                        FSA’s Loan Portfolio     960
                        FSA’s Application data   981




USDA/OIG-A/50801-4-Hq                                  951
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                              Total      Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       MT                   Population          8,424       8,138    97%                 8      0%         116         1%         29          0%              0      0%        133       2%
       Beaverhead County    Borrowers              26          22    85%                 0      0%           0         0%          0          0%              4     15%          0       0%
                            Farms                 345         345   100%                 0      0%           0         0%          0          0%              0      0%          0       0%
                            Land in Farms   1,342,484   1,342,484   100%                 0      0%           0         0%          0          0%              0      0%          0       0%

       MT                   Population         11,337       4,801     42%            16         0%       6,180        55%         46          0%              0      0%        294       3%
       Big Horn County      Borrowers              92          65     71%             0         0%          24        26%          1          1%              1      1%          1       1%
                            Farms                 485         431     89%             0         0%          41         8%          5          1%              4      1%          4       1%
                            Land in Farms   3,002,378   2,336,383     78%             0         0%     657,275        22%          0          0%              0      0%      8,720       0%

       MT                   Population          6,728       4,026     60%                6      0%       2,636        39%              6      0%              0      0%         54       1%
       Blaine County        Borrowers              91          68     75%                0      0%          19        21%              3      3%              0      0%          1       1%
                            Farms                 514         469     91%                0      0%          45         9%              0      0%              0      0%          0       0%
                            Land in Farms   2,338,866   1,918,173     82%                0      0%     420,693        18%              0      0%              0      0%          0       0%

       MT                   Population         3,318       3,235     97%                 1      0%          42         1%              5      0%              2      0%         33       1%
       Broadwater County    Borrowers             17          17    100%                 0      0%           0         0%              0      0%              0      0%          0       0%
                            Farms                205         205    100%                 0      0%           0         0%              0      0%              0      0%          0       0%
                            Land in Farms    449,970     449,970    100%                 0      0%           0         0%              0      0%              0      0%          0       0%

       MT                   Population         8,080       7,928      98%                3      0%          41         1%         17          0%              1      0%         90       1%
       Carbon County        Borrowers             47          46      98%                0      0%           1         2%          0          0%              0      0%          0       0%
                            Farms                599         591      99%                0      0%           3         1%          0          0%              0      0%          5       1%
                            Land in Farms    598,694     583,630      97%                0      0%           0         0%          0          0%              0      0%     15,064       3%

       MT                   Population          1,503       1,480    98%                 0      0%              9      1%              2      0%              0      0%         12       1%
       Carter County        Borrowers              45          44    98%                 1      2%              0      0%              0      0%              0      0%          0       0%
                            Farms                 308         308   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   1,619,482   1,619,482   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

       MT                   Population         77,691      71,569    92%          1,018         1%       2,921         4%        751          1%         34          0%      1,398       2%
       Cascade County       Borrowers              42          41    98%              0         0%           0         0%          0          0%          1          2%          0       0%
                            Farms                 792         787    99%              0         0%           0         0%          0          0%          0          0%          5       1%
                            Land in Farms   1,424,228   1,422,170   100%              0         0%           0         0%          0          0%          0          0%      2,058       0%

       MT                   Population          5,452       5,205    95%                 4      0%         210         4%              8      0%              0      0%         25       0%
       Chouteau County      Borrowers              28          28   100%                 0      0%           0         0%              0      0%              0      0%          0       0%
                            Farms                 737         734   100%                 0      0%           0         0%              3      0%              0      0%          0       0%
                            Land in Farms   2,277,936   2,277,936   100%                 0      0%           0         0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 952
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian              Other                 Hispanic
                                              Total      Number     Percent     Number       Percent   Number       Percent   Number   Percent   Number       Percent   Number       Percent
       MT                   Population         11,697      11,309    97%             11         0%         191         2%         26      0%              0      0%        160          1%
       Custer County        Borrowers              26          25    96%              0         0%           1         4%          0      0%              0      0%          0          0%
                            Farms                 380         380   100%              0         0%           0         0%          0      0%              0      0%          0          0%
                            Land in Farms   2,085,181   2,085,181   100%              0         0%           0         0%          0      0%              0      0%          0          0%

       MT                   Population         2,266       2,230     98%                 0      0%           6         0%         18      1%              0      0%         12          1%
       Daniels County       Borrowers             35          35    100%                 0      0%           0         0%          0      0%              0      0%          0          0%
                            Farms                325         320     98%                 0      0%           5         2%          0      0%              0      0%          0          0%
                            Land in Farms    761,459     737,349     97%                 0      0%      24,110         3%          0      0%              0      0%          0          0%

       MT                   Population          9,505       9,341    98%                 0      0%          72         1%         28      0%              0      0%         64          1%
       Dawson County        Borrowers              46          45    98%                 0      0%           0         0%          0      0%              1      2%          0          0%
                            Farms                 451         451   100%                 0      0%           0         0%          0      0%              0      0%          0          0%
                            Land in Farms   1,334,041   1,334,041   100%                 0      0%           0         0%          0      0%              0      0%          0          0%

       MT                   Population        10,278       9,816     96%             29         0%         250         2%         21      0%              5      0%        157          2%
       Deer Lodge County    Borrowers              9           8     89%              0         0%           1        11%          0      0%              0      0%          0          0%
                            Farms                 70          70    100%              0         0%           0         0%          0      0%              0      0%          0          0%
                            Land in Farms    135,126     135,126    100%              0         0%           0         0%          0      0%              0      0%          0          0%

       MT                   Population         3,103       3,075     99%                 0      0%              9      0%         13      0%              0      0%              6      0%
       Fallon County        Borrowers             17          17    100%                 0      0%              0      0%          0      0%              0      0%              0      0%
                            Farms                302         302    100%                 0      0%              0      0%          0      0%              0      0%              0      0%
                            Land in Farms    944,497     944,497    100%                 0      0%              0      0%          0      0%              0      0%              0      0%

       MT                   Population         12,083      11,874    98%                 8      0%         115         1%         13      0%              1      0%         72          1%
       Fergus County        Borrowers              60          60   100%                 0      0%           0         0%          0      0%              0      0%          0          0%
                            Farms                 804         797    99%                 0      0%           0         0%          0      0%              0      0%          7          1%
                            Land in Farms   2,232,575   2,211,789    99%                 0      0%           0         0%          0      0%              0      0%     20,786          1%

       MT                   Population        59,218      57,447     97%             55         0%         867         1%        225      0%              8      0%        616          1%
       Flathead County      Borrowers             27          25     93%              0         0%           1         4%          0      0%              1      4%          0          0%
                            Farms                813         813    100%              0         0%           0         0%          0      0%              0      0%          0          0%
                            Land in Farms    277,050     277,050    100%              0         0%           0         0%          0      0%              0      0%          0          0%

       MT                   Population        50,463      48,751     97%             78         0%         587         1%        440      1%         14          0%        593          1%
       Gallatin County      Borrowers             39          39    100%              0         0%           0         0%          0      0%          0          0%          0          0%
                            Farms                789         785     99%              0         0%           4         1%          0      0%          0          0%          0          0%
                            Land in Farms    699,409     699,409    100%              0         0%           0         0%          0      0%          0          0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 953
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                                Total      Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       MT                     Population          1,589       1,583   100%                 0      0%              4      0%              2      0%              0      0%              0      0%
       Garfield County        Borrowers              37          36    97%                 0      0%              0      0%              0      0%              1      3%              0      0%
                              Farms                 263         263   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                              Land in Farms   2,000,266   2,000,266   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

       MT                     Population         12,121      5,244      43%            11         0%       6,773        56%         10          0%              5      0%         78          1%
       Glacier County         Borrowers              88         53      60%             0         0%          31        35%          1          1%              1      1%          2          2%
                              Farms                 376        291      77%             0         0%          85        23%          0          0%              0      0%          0          0%
                              Land in Farms   1,730,537    807,962      47%             0         0%     922,575        53%          0          0%              0      0%          0          0%

       MT                     Population           912         890     98%                 0      0%          10         1%              4      0%              0      0%              8      1%
       Golden Valley County   Borrowers              5           5    100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                              Farms                121         121    100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                              Land in Farms    636,514     636,514    100%                 0      0%           0         0%              0      0%              0      0%              0      0%

       MT                     Population         2,548       2,514     99%                 0      0%          21         1%              4      0%              0      0%              9      0%
       Granite County         Borrowers             13          13    100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                              Farms                138         138    100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                              Land in Farms    349,938     349,938    100%                 0      0%           0         0%              0      0%              0      0%              0      0%

       MT                     Population         17,654      14,646     83%            19         0%       2,726        15%         86          0%              1      0%        176          1%
       Hill County            Borrowers              50          46     92%             0         0%           2         4%          1          2%              1      2%          0          0%
                              Farms                 641         617     96%             0         0%          24         4%          0          0%              0      0%          0          0%
                              Land in Farms   1,644,001   1,495,660     91%             0         0%     148,341         9%          0          0%              0      0%          0          0%

       MT                     Population         7,939       7,715     97%                 4      0%         117         1%         15          0%              5      0%         83          1%
       Jefferson County       Borrowers              9           8     89%                 0      0%           0         0%          0          0%              1     11%          0          0%
                              Farms                236         233     99%                 0      0%           3         1%          0          0%              0      0%          0          0%
                              Land in Farms    367,482     367,482    100%                 0      0%           0         0%          0          0%              0      0%          0          0%

       MT                     Population         2,282       2,262     99%                 0      0%              7      0%              5      0%              0      0%              8      0%
       Judith Basin County    Borrowers             20          20    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                              Farms                328         328    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                              Land in Farms    868,064     868,064    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

       MT                     Population        21,041      16,270      77%            14         0%       4,313        20%         31          0%         11          0%        402          2%
       Lake County            Borrowers             62          57      92%             0         0%           5         8%          0          0%          0          0%          0          0%
                              Farms                948         881      93%             0         0%          60         6%          0          0%          0          0%          7          1%
                              Land in Farms    631,377     625,747      99%             0         0%           0         0%          0          0%          0          0%      5,630          1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 954
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American                Asian                  Other                 Hispanic
                                                  Total      Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number       Percent
       MT                       Population        47,495      45,597     96%             63         0%       1,014      2%        233          0%         12          0%        576          1%
       Lewis and Clark County   Borrowers             16          14     88%              0         0%           0      0%          0          0%          2         13%          0          0%
                                Farms                438         438    100%              0         0%           0      0%          0          0%          0          0%          0          0%
                                Land in Farms    883,479     883,479    100%              0         0%           0      0%          0          0%          0          0%          0          0%

       MT                       Population         2,295       2,274     99%                 3      0%          11      0%              3      0%              0      0%              4      0%
       Liberty County           Borrowers             19          19    100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                                Farms                274         274    100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                                Land in Farms    951,780     951,780    100%                 0      0%           0      0%              0      0%              0      0%              0      0%

       MT                       Population        17,481      16,945     97%             11         0%         273      2%         54          0%              1      0%        197          1%
       Lincoln County           Borrowers              5           5    100%              0         0%           0      0%          0          0%              0      0%          0          0%
                                Farms                219         219    100%              0         0%           0      0%          0          0%              0      0%          0          0%
                                Land in Farms     50,220      50,220    100%              0         0%           0      0%          0          0%              0      0%          0          0%

       MT                       Population          2,276       2,246    99%                 1      0%          17      1%              2      0%              0      0%         10          0%
       McCone County            Borrowers              45          45   100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                                Farms                 415         415   100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                                Land in Farms   1,290,134   1,290,134   100%                 0      0%           0      0%              0      0%              0      0%          0          0%

       MT                       Population          5,989       5,847    98%                 0      0%          41      1%         13          0%              0      0%         88          1%
       Madison County           Borrowers              52          50    96%                 0      0%           0      0%          0          0%              2      4%          0          0%
                                Farms                 418         418   100%                 0      0%           0      0%          0          0%              0      0%          0          0%
                                Land in Farms   1,271,160   1,271,160   100%                 0      0%           0      0%          0          0%              0      0%          0          0%

       MT                       Population         1,819       1,774     98%                 0      0%          17      1%              2      0%              0      0%         26          1%
       Meagher County           Borrowers             10          10    100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                                Farms                134         134    100%                 0      0%           0      0%              0      0%              0      0%          0          0%
                                Land in Farms    912,154     912,154    100%                 0      0%           0      0%              0      0%              0      0%          0          0%

       MT                       Population         3,315       3,174     96%                 3      0%          74      2%         22          1%              1      0%         41          1%
       Mineral County           Borrowers              0           0      0%                 0      0%           0      0%          0          0%              0      0%          0          0%
                                Farms                 67          67    100%                 0      0%           0      0%          0          0%              0      0%          0          0%
                                Land in Farms     19,158      19,158    100%                 0      0%           0      0%          0          0%              0      0%          0          0%

       MT                       Population        78,687      75,017     95%            172         0%       1,708      2%        819          1%              9      0%        962          1%
       Missoula County          Borrowers              4           4    100%              0         0%           0      0%          0          0%              0      0%          0          0%
                                Farms                450         443     98%              0         0%           7      2%          0          0%              0      0%          0          0%
                                Land in Farms    248,215     246,929     99%              0         0%       1,286      1%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 955
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                               Total      Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       MT                    Population          4,106       4,034    98%                 2      0%          26         1%              8      0%              0      0%         36          1%
       Musselshell County    Borrowers              16          15    94%                 0      0%           0         0%              0      0%              1      6%          0          0%
                             Farms                 253         253   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                             Land in Farms   1,031,872   1,031,872   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

       MT                    Population        14,562      14,091     97%             60         0%         110         1%         66          0%              3      0%        232          2%
       Park County           Borrowers             25          24     96%              0         0%           0         0%          0          0%              0      0%          1          4%
                             Farms                385         385    100%              0         0%           0         0%          0          0%              0      0%          0          0%
                             Land in Farms    777,803     777,803    100%              0         0%           0         0%          0          0%              0      0%          0          0%

       MT                    Population           519         516     99%                 0      0%              3      1%              0      0%              0      0%              0      0%
       Petroleum County      Borrowers             15          15    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms                105         105    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms    669,516     669,516    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

       MT                    Population          5,163       4,718    91%                 2      0%         385         7%         13          0%              1      0%         44          1%
       Phillips County       Borrowers              55          47    85%                 0      0%           7        13%          0          0%              1      2%          0          0%
                             Farms                 479         467    97%                 0      0%          12         3%          0          0%              0      0%          0          0%
                             Land in Farms   1,968,857   1,968,857   100%                 0      0%           0         0%          0          0%              0      0%          0          0%

       MT                    Population         6,433       5,676      88%                5      0%         701        11%         20          0%              0      0%         31          0%
       Pondera County        Borrowers             76          59      78%                1      1%          15        20%          1          1%              0      0%          0          0%
                             Farms                463         445      96%                0      0%          18         4%          0          0%              0      0%          0          0%
                             Land in Farms    893,872     792,869      89%                0      0%     101,003        11%          0          0%              0      0%          0          0%

       MT                    Population          2,090       2,030    97%                 0      0%          37         2%              3      0%              0      0%         20          1%
       Powder River County   Borrowers              20          19    95%                 0      0%           0         0%              0      0%              1      5%          0          0%
                             Farms                 295         295   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                             Land in Farms   1,629,363   1,629,363   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

       MT                    Population         6,620       6,239     94%             22         0%         252         4%         25          0%              5      0%         77          1%
       Powell County         Borrowers             28          26     93%              0         0%           0         0%          0          0%              1      4%          1          4%
                             Farms                233         233    100%              0         0%           0         0%          0          0%              0      0%          0          0%
                             Land in Farms    675,569     675,569    100%              0         0%           0         0%          0          0%              0      0%          0          0%

       MT                    Population         1,383       1,348     97%                 0      0%          15         1%              4      0%              0      0%         16          1%
       Prairie County        Borrowers             16          16    100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                             Farms                165         165    100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                             Land in Farms    683,088     683,088    100%                 0      0%           0         0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 956
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                              Total      Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number   Percent
       MT                   Population        25,010      24,256     97%             34         0%         278      1%         71          0%              2      0%        369       1%
       Ravalli County       Borrowers              5           5    100%              0         0%           0      0%          0          0%              0      0%          0       0%
                            Farms                937         926     99%              0         0%           0      0%          0          0%              3      0%          8       1%
                            Land in Farms    241,655     239,962     99%              0         0%           0      0%          0          0%              0      0%      1,693       1%

       MT                   Population         10,716      10,309     96%                3      0%         139      1%         24          0%              1      0%        240       2%
       Richland County      Borrowers              58          56     97%                0      0%           0      0%          0          0%              1      2%          1       2%
                            Farms                 563         552     98%                0      0%           3      1%          0          0%              0      0%          8       1%
                            Land in Farms   1,197,028   1,175,637     98%                0      0%           0      0%          0          0%              0      0%     21,391       2%

       MT                   Population         10,999       5,545     50%            17         0%       5,293     48%         40          0%              1      0%        103       1%
       Roosevelt County     Borrowers              55          39     71%             0         0%          15     27%          0          0%              1      2%          0       0%
                            Farms                 525         463     88%             0         0%          58     11%          0          0%              0      0%          4       1%
                            Land in Farms   1,414,415   1,020,870     72%             0         0%     388,628     27%          0          0%              0      0%      4,917       0%

       MT                   Population         10,505       7,470    71%             25         0%       2,735     26%         50          0%              0      0%        225       2%
       Rosebud County       Borrowers              41          33    80%              0         0%           6     15%          1          2%              1      2%          0       0%
                            Farms                 357         346    97%              0         0%           6      2%          0          0%              0      0%          5       1%
                            Land in Farms   2,585,834   2,585,834   100%              0         0%           0      0%          0          0%              0      0%          0       0%

       MT                   Population         8,669       8,058      93%            12         0%         459      5%         36          0%              0      0%        104       1%
       Sanders County       Borrowers             21          19      90%             0         0%           2     10%          0          0%              0      0%          0       0%
                            Farms                348         334      96%             0         0%          14      4%          0          0%              0      0%          0       0%
                            Land in Farms    381,104     227,529      60%             0         0%     153,575     40%          0          0%              0      0%          0       0%

       MT                   Population         4,732       4,632     98%                 0      0%          50      1%         12          0%              0      0%         38       1%
       Sheridan County      Borrowers             37          35     95%                 0      0%           2      5%          0          0%              0      0%          0       0%
                            Farms                526         526    100%                 0      0%           0      0%          0          0%              0      0%          0       0%
                            Land in Farms    962,450     962,450    100%                 0      0%           0      0%          0          0%              0      0%          0       0%

       MT                   Population        33,941      32,500     96%             32         0%         469      1%        125          0%              5      0%        810       2%
       Silver Bow County    Borrowers              5           5    100%              0         0%           0      0%          0          0%              0      0%          0       0%
                            Farms                105         105    100%              0         0%           0      0%          0          0%              0      0%          0       0%
                            Land in Farms     99,746      99,746    100%              0         0%           0      0%          0          0%              0      0%          0       0%

       MT                   Population         6,536       6,383     98%                 5      0%          48      1%              8      0%              0      0%         92       1%
       Stillwater County    Borrowers             19          19    100%                 0      0%           0      0%              0      0%              0      0%          0       0%
                            Farms                446         446    100%                 0      0%           0      0%              0      0%              0      0%          0       0%
                            Land in Farms    889,294     889,294    100%                 0      0%           0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 957
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                              Total      Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       MT                   Population         3,154       3,121     99%                 2      0%          16         1%              5      0%              3      0%              7      0%
       Sweet Grass County   Borrowers             32          31     97%                 0      0%           0         0%              0      0%              0      0%              1      3%
                            Farms                295         295    100%                 0      0%           0         0%              0      0%              0      0%              0      0%
                            Land in Farms    837,904     837,904    100%                 0      0%           0         0%              0      0%              0      0%              0      0%

       MT                   Population          6,271       6,127    98%                 3      0%          92         1%              9      0%              3      0%         37          1%
       Teton County         Borrowers             118         118   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Farms                 556         556   100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Land in Farms   1,178,885   1,178,885   100%                 0      0%           0         0%              0      0%              0      0%          0          0%

       MT                   Population          5,046       4,871    97%                 5      0%         118         2%         16          0%              0      0%         36          1%
       Toole County         Borrowers              36          36   100%                 0      0%           0         0%          0          0%              0      0%          0          0%
                            Farms                 358         358   100%                 0      0%           0         0%          0          0%              0      0%          0          0%
                            Land in Farms   1,063,086   1,063,086   100%                 0      0%           0         0%          0          0%              0      0%          0          0%

       MT                   Population           874         840     96%                 0      0%              6      1%              2      0%              0      0%         26          3%
       Treasure County      Borrowers              7           7    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms                113         113    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    599,014     599,014    100%                 0      0%              0      0%              0      0%              0      0%          0          0%

       MT                   Population          8,239       7,390     90%                9      0%         758         9%         19          0%              1      0%         62          1%
       Valley County        Borrowers             105         100     95%                0      0%           2         2%          0          0%              2      2%          1          1%
                            Farms                 624         610     98%                0      0%          14         2%          0          0%              0      0%          0          0%
                            Land in Farms   1,688,070   1,532,174     91%                0      0%     155,896         9%          0          0%              0      0%          0          0%

       MT                   Population         2,246       2,196     98%                 1      0%          19         1%              8      0%              0      0%         22          1%
       Wheatland County     Borrowers             11          11    100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Farms                146         146    100%                 0      0%           0         0%              0      0%              0      0%          0          0%
                            Land in Farms    850,599     850,599    100%                 0      0%           0         0%              0      0%              0      0%          0          0%

       MT                   Population         1,191       1,185     99%                 0      0%              2      0%              2      0%              0      0%              2      0%
       Wibaux County        Borrowers             20          20    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                165         165    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    490,988     490,988    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

       MT                   Population        113,419     106,068    94%            465         0%       3,086         3%        604          1%         38          0%      3,158          3%
       Yellowstone County   Borrowers              37          33    89%              0         0%           1         3%          0          0%          1          3%          2          5%
                            Farms                 994         985    99%              0         0%           6         1%          0          0%          0          0%          3          0%
                            Land in Farms   1,454,669   1,454,321   100%              0         0%           0         0%          0          0%          0          0%        348          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 958
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                        White             African American Native American                   Asian                  Other                 Hispanic
                                                      Total          Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       MT                          Population                 52          52    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
       Yellowstone National Park   Borrowers                   0           0      0%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                   Farms                       0           0      0%                 0      0%              0      0%              0      0%              0      0%              0      0%
                                   Land in Farms               0           0      0%                 0      0%              0      0%              0      0%              0      0%              0      0%

       MT                          Population         799,065         733,878     92%         2,242         0%    46,475           6%      4,123          1%        173          0%     12,174          2%
       STATE                       Borrowers            1,940           1,758     91%             2         0%       135           7%          8          0%         26          1%         11          1%
                                   Farms               22,821          22,342     98%             0         0%       408           2%          8          0%          7          0%         56          0%
                                   Land in Farms   59,642,536      56,588,547     95%             0         0% 2,973,382           5%          0          0%          0          0%     80,607          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 959
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BEAVERHEAD, MONTANA                                    BIG HORN, MONTANA                                BIG HORN,PT, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent    Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                        10                         16                        10                       76                         41
                              Loans                           74                        26                         67                        38                      225                        130
                              Principal and Interest   7,653,977                 1,018,714                  3,365,404                   730,833               24,160,877                  5,605,379

WHITE                         Borrowers                       22        85%              9         90%              5         31%              2     20%              60         79%        31          76%
                              Loans                           68        92%             25         96%             17         25%              6     16%             171         76%        93          72%
                              Principal and Interest   6,212,018        81%        993,944         98%        992,982         30%         16,026      2%      15,541,721         64% 4,146,065          74%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 10    63%               8    80%                   14    18%              10    24%
                              Loans                                0      0%                  0      0%            48         72%            32      84%              46         20%        37          28%
                              Principal and Interest               0      0%                  0      0%     2,369,559         70%       714,807      98%       3,966,951         16% 1,459,314          26%

ASIAN                         Borrowers                            0      0%                  0      0%              1          6%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%              2          3%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%          2,862          0%              0      0%                   0      0%              0      0%

OTHER                         Borrowers                        4        15%               1        10%                  0       0%              0      0%              1          1%               0      0%
                              Loans                            6         8%               1         4%                  0       0%              0      0%              5          2%               0      0%
                              Principal and Interest   1,441,958        19%          24,770         2%                  0       0%              0      0%      4,548,605         19%               0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   1      1%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   3      1%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%       103,600            0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 960
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              BLAINE, MONTANA                                 BROADWATER, MONTANA                                    CARBON, MONTANA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent    Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                        91                         36                         17                         10                      47                         14
                              Loans                           293                        153                         49                         28                     127                         70
                              Principal and Interest   21,430,061                  4,713,270                  7,542,596                  1,881,289              11,749,707                  2,143,663

WHITE                         Borrowers                             68    75%               23       64%                  17   100%              10   100%                   46    98%              14   100%
                              Loans                           206         70%            110         72%             49        100%             28    100%             124         98%        70         100%
                              Principal and Interest   16,007,668         75%      3,708,180         79%      7,542,596        100%      1,881,289    100%      11,396,552         97% 2,143,663         100%

AFRICAN AMERICAN              Borrowers                             0       0%                  0      0%                 0       0%              0      0%                   0      0%              0      0%
                              Loans                                 0       0%                  0      0%                 0       0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0       0%                  0      0%                 0       0%              0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                        19         21%             10         28%                  0       0%              0      0%             1            2%              0      0%
                              Loans                            72         25%             33         22%                  0       0%              0      0%             3            2%              0      0%
                              Principal and Interest    4,526,307         21%        690,677         15%                  0       0%              0      0%       353,154            3%              0      0%

ASIAN                         Borrowers                         3           3%              2          6%                 0       0%              0      0%                   0      0%              0      0%
                              Loans                            11           4%              6          4%                 0       0%              0      0%                   0      0%              0      0%
                              Principal and Interest      125,471           1%         28,535          1%                 0       0%              0      0%                   0      0%              0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0       0%              0      0%                   0      0%              0      0%
                              Loans                                 0       0%                  0      0%                 0       0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0       0%                  0      0%                 0       0%              0      0%                   0      0%              0      0%

HISPANIC                      Borrowers                         1           1%             1           3%                 0       0%              0      0%                   0      0%              0      0%
                              Loans                             4           1%             4           3%                 0       0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest      770,614           4%       285,878           6%                 0       0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 961
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CARTER, MONTANA                                     CASCADE, MONTANA                                CHOUTEAU, MONTANA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                        45                         16                         42                        11                      28                        14
                              Loans                           139                         49                         87                        24                      75                        25
                              Principal and Interest   11,740,346                    821,278                  8,379,057                   569,660               6,932,573                   409,894

WHITE                         Borrowers                             44    98%               16      100%                  41    98%              11   100%                  28   100%              14   100%
                              Loans                           138         99%             49        100%             86         99%            24     100%             75        100%            25     100%
                              Principal and Interest   11,692,893        100%        821,278        100%      8,298,469         99%       569,660     100%      6,932,573        100%       409,894     100%

AFRICAN AMERICAN              Borrowers                          1          2%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Loans                              1          1%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Principal and Interest        47,453          0%                  0                         0       0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Loans                                 0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Loans                                 0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                             0       0%                  0      0%             1           2%              0      0%                  0      0%              0      0%
                              Loans                                 0       0%                  0      0%             1           1%              0      0%                  0      0%              0      0%
                              Principal and Interest                0       0%                  0      0%        80,588           1%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                             0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Loans                                 0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0       0%                  0      0%                 0       0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 962
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CUSTER, MONTANA                                     DANIELS, MONTANA                                 DAWSON, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                        10                         35                         7                      46                       10
                              Loans                           68                        31                         76                        22                     114                       17
                              Principal and Interest   8,304,267                   481,470                  6,146,358                 1,113,900              11,269,994                  225,330

WHITE                         Borrowers                       25        96%              9         90%             35       100%              7    100%              45        98%            10     100%
                              Loans                           67        99%             30         97%             76       100%             22    100%             110        96%            17     100%
                              Principal and Interest   8,090,122        97%        472,902         98%      6,146,358       100%      1,113,900    100%      10,867,945        96%       225,330     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            1      4%                  1    10%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                            1          1%              1          3%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest     214,145          3%          8,568          2%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1           2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             4           4%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       402,049           4%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 963
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       DEER LODGE, MONTANA                                      FALLON, MONTANA                                  FERGUS, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                         7                         17                       10                      60                        9
                              Loans                           34                        21                         52                       34                     101                       11
                              Principal and Interest   3,369,414                   166,002                  4,681,770                  379,503               7,035,686                  196,185

WHITE                         Borrowers                        8        89%              7        100%             17       100%            10     100%             60       100%             9     100%
                              Loans                           32        94%             21        100%             52       100%            34     100%            101       100%            11     100%
                              Principal and Interest   3,081,937        91%        166,002        100%      4,681,770       100%       379,503     100%      7,035,686       100%       196,185     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            1    11%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          6%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     287,477          9%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 964
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          FLATHEAD, MONTANA                                 FLATHEAD-RE, MONTANA                               GALLATIN, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                        15                          2                          0                    39                       12
                              Loans                           64                        40                          6                          0                   104                       27
                              Principal and Interest   8,118,513                 2,164,526                    633,320                          0             8,032,068                  821,809

WHITE                         Borrowers                       24        96%             15        100%              1        50%               0      0%            39       100%            12     100%
                              Loans                           63        98%             40        100%              1        17%               0      0%           104       100%            27     100%
                              Principal and Interest   7,921,431        98%      2,164,526        100%        180,679        29%               0      0%     8,032,068       100%       821,809     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 1    50%               0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             5        83%               0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       452,641        71%               0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     197,082          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 965
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           GARFIELD, MONTANA                                     GLACIER, MONTANA                               GOLDEN VALLEY, MONTANA
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        37                         7                          88                         42                      5                           0
                              Loans                           117                        41                         248                        129                      9                           0
                              Principal and Interest   12,808,561                 3,534,325                  18,726,899                  2,150,352                688,184                           0

WHITE                         Borrowers                        36        97%              7        100%              53         60%             24     57%              5        100%               0      0%
                              Loans                           116        99%             41        100%             140         56%             66     51%              9        100%               0      0%
                              Principal and Interest   11,892,205        93%      3,534,325        100%       8,968,949         48%      1,341,836     62%        688,184        100%               0      0%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0       0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0       0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0       0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  31    35%              15    36%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%             79         32%            43      33%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%      3,706,245         20%       270,036      13%                   0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%              1           1%             1       2%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%              7           3%             7       5%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%        198,376           1%        20,574       1%                  0      0%              0      0%

OTHER                         Borrowers                         1          3%                  0      0%              1          1%               0      0%                  0      0%              0      0%
                              Loans                             1          1%                  0      0%              9          4%               0      0%                  0      0%              0      0%
                              Principal and Interest      916,356          7%                  0      0%      4,691,561         25%               0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                   2      2%              2     5%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  13      5%             13    10%                   0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%      1,161,769           6%      517,907      24%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 966
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           GRANITE, MONTANA                                         HILL, MONTANA                               JEFFERSON, MONTANA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                          6                         50                        16                       9                          0
                              Loans                           33                         13                         91                        31                      24                          0
                              Principal and Interest   2,615,775                    211,940                  5,669,764                   370,760               2,681,396                          0

WHITE                         Borrowers                            13   100%                   6   100%                  46    92%              14    88%                  8    89%               0      0%
                              Loans                           33        100%             13        100%             84         92%            28      90%             23        96%               0      0%
                              Principal and Interest   2,615,775        100%        211,940        100%      5,401,410         95%       352,904      95%      2,539,266        95%               0      0%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  2      4%              2    13%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  3      3%              3    10%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%       145,040           3%        17,856       5%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%             1           2%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%             3           3%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%        59,143           1%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%                  0      0%             1           2%              0      0%            1         11%               0      0%
                              Loans                                0       0%                  0      0%             1           1%              0      0%            1          4%               0      0%
                              Principal and Interest               0       0%                  0      0%        64,171           1%              0      0%      142,130          5%               0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 967
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       JUDITH BASIN, MONTANA                                        LAKE, MONTANA                             LEWIS AND CLARK, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                         5                          62                        29                       16                        3
                              Loans                           37                        12                         158                        96                       38                        9
                              Principal and Interest   5,053,441                   426,701                  11,781,066                 2,045,540                3,271,858                  466,766

WHITE                         Borrowers                       20       100%              5        100%              57        92%             28     97%               14        88%             3     100%
                              Loans                           37       100%             12        100%             148        94%             94     98%               36        95%             9     100%
                              Principal and Interest   5,053,441       100%        426,701        100%      10,867,296        92%      1,987,527     97%        3,181,042        97%       466,766     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  5      8%              1      3%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%             10          6%             2       2%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%        913,769          8%        58,013       3%                   0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%               2        13%               0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%               2         5%               0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%          90,816         3%               0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 968
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LIBERTY, MONTANA                                   LINCOLN, MONTANA                                  MADISON, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                         9                          5                        2                       52                        15
                              Loans                           40                        18                         10                        5                      214                        96
                              Principal and Interest   2,455,745                   394,573                  1,305,502                  112,805               15,057,738                 3,380,289

WHITE                         Borrowers                       19       100%              9        100%              5       100%             2     100%              50        96%        15         100%
                              Loans                           40       100%             18        100%             10       100%             5     100%             211        99%        96         100%
                              Principal and Interest   2,455,745       100%        394,573        100%      1,305,502       100%       112,805     100%      14,829,820        98% 3,380,289         100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             2           4%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             3           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       227,918           2%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 969
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MCCONE, MONTANA                                    MEAGHER, MONTANA                                  MISSOULA, MONTANA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        45                         23                         10                         4                      4                         1
                              Loans                           139                         78                         28                        13                      7                         4
                              Principal and Interest   16,867,191                  5,332,108                  3,214,802                   160,526                982,371                    27,115

WHITE                         Borrowers                             45   100%               23      100%                  10   100%               4   100%                  4   100%               1   100%
                              Loans                           139        100%             78        100%             28        100%            13     100%             7        100%             4     100%
                              Principal and Interest   16,867,191        100%      5,332,108        100%      3,214,802        100%       160,526     100%       982,371        100%        27,115     100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 970
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MUSSELSHELL, MONTANA                                        PARK, MONTANA                             PETROLEUM, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                         5                         25                        9                      15                          0
                              Loans                           43                        12                         62                       28                      23                          0
                              Principal and Interest   3,433,182                   295,233                  3,348,992                  317,334               1,316,035                          0

WHITE                         Borrowers                       15        94%              5        100%             24        96%             9     100%             15       100%               0      0%
                              Loans                           42        98%             12        100%             60        97%            28     100%             23       100%               0      0%
                              Principal and Interest   3,156,771        92%        295,233        100%      3,026,061        90%       317,334     100%      1,316,035       100%               0      0%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          6%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     276,411          8%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 1      4%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 2      3%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%       322,931        10%               0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 971
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            PHILLIPS, MONTANA                                PHILLIPS-FT, MONTANA                               PONDERA, MONTANA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        49                        15                          6                          0                    60                       15
                              Loans                           120                        47                         27                          0                   155                       48
                              Principal and Interest   11,057,718                 1,110,515                  3,247,283                          0             9,466,824                  871,264

WHITE                         Borrowers                        47        96%             15        100%                  0      0%              0      0%            53        88%            13      87%
                              Loans                           112        93%             47        100%                  0      0%              0      0%           129        83%            41      85%
                              Principal and Interest    9,420,613        85%      1,110,515        100%                  0      0%              0      0%     8,458,438        89%       819,554      94%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%             1          1%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%         7,168          0%              0      0%

NATIVE AMERICAN               Borrowers                             1      2%                  0      0%                 6   100%               0      0%                 6    10%               2    13%
                              Loans                             5          4%                  0      0%            27       100%               0      0%            25        16%             7      15%
                              Principal and Interest      174,593          2%                  0      0%     3,247,283       100%               0      0%     1,001,218        11%        51,710       6%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                         1         2%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             3         3%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    1,462,513        13%                   0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 972
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PONDERA-RES, MONTANA                                 POWDER RIVER, MONTANA                                POWELL, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                              0                    20                          2                     28                       11
                              Loans                           48                              0                    42                          5                     90                       37
                              Principal and Interest   1,639,643                              0             5,100,087                     21,860              6,893,462                  471,619

WHITE                         Borrowers                        6        38%                   0      0%            19         95%              2    100%             26        93%            10      91%
                              Loans                           11        23%                   0      0%            41         98%              5    100%             82        91%            31      84%
                              Principal and Interest     467,184        28%                   0      0%     4,436,087         87%         21,860    100%      6,279,686        91%       405,793      86%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            9    56%                   0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           36        75%                   0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest   1,157,812        71%                   0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                         1         6%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                             1         2%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       14,647         1%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%              1         5%               0      0%            1           4%              0      0%
                              Loans                                0      0%                  0      0%              1         2%               0      0%            2           2%              0      0%
                              Principal and Interest               0      0%                  0      0%        664,000        13%               0      0%      100,860           1%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 1      4%              1     9%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 6      7%              6    16%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%      512,916           7%       65,826      14%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 973
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            PRAIRIE, MONTANA                                   RAVALLI, MONTANA                                RICHLAND, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                          3                         5                         1                      58                         13
                              Loans                           24                          4                         9                         3                     159                         53
                              Principal and Interest   3,792,745                     83,640                   528,166                     9,279              16,358,945                  1,566,331

WHITE                         Borrowers                       16       100%               3       100%              5       100%              1    100%              56         97%        12          92%
                              Loans                           24       100%               4       100%              9       100%              3    100%             148         93%        44          83%
                              Principal and Interest   3,792,745       100%          83,640       100%        528,166       100%          9,279    100%      15,510,594         95% 1,305,291          83%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1           2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              1           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%         98,326           1%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   1      2%              1     8%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  10      6%              9    17%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%       750,025            5%      261,041      17%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 974
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         ROOSEVELT, MONTANA                                      ROSEBUD, MONTANA                                 SANDERS, MONTANA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        55                         15                         41                       22                       3                         1
                              Loans                           158                         55                        114                       71                       6                         3
                              Principal and Interest   15,894,042                  1,974,450                  8,160,948                  721,316                  83,927                     2,519

WHITE                         Borrowers                        39         71%              8         53%             33        80%            16      73%              3       100%              1    100%
                              Loans                           101         64%             25         45%             85        75%            47      66%              6       100%              3    100%
                              Principal and Interest    6,297,724         40%        825,468         42%      6,268,906        77%       365,005      51%         83,927       100%          2,519    100%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             15    27%                   7    47%                  6    15%               5    23%                  0      0%              0      0%
                              Loans                            46         29%             30         55%             24        21%            20      28%                  0      0%              0      0%
                              Principal and Interest    2,952,504         19%      1,148,982         58%      1,240,978        15%       239,252      33%                  0      0%              0      0%

ASIAN                         Borrowers                              0      0%                  0      0%             1          2%            1       5%                  0      0%              0      0%
                              Loans                                  0      0%                  0      0%             4          4%            4       6%                  0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%       394,346          5%      117,059      16%                  0      0%              0      0%

OTHER                         Borrowers                         1          2%                   0      0%             1          2%              0      0%                 0      0%              0      0%
                              Loans                            11          7%                   0      0%             1          1%              0      0%                 0      0%              0      0%
                              Principal and Interest    6,643,814         42%                   0      0%       256,717          3%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 975
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SANDERS-RES, MONTANA                                   SHERIDAN, MONTANA                              SILVER BOW, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       18                              0                    37                         5                     5                          3
                              Loans                           29                              0                    61                        11                    16                          7
                              Principal and Interest   3,463,392                              0             5,546,829                    43,512               776,717                      7,127

WHITE                         Borrowers                       16        89%                   0                    35        95%              5    100%             5        100%              3    100%
                              Loans                           24        83%                   0                    57        93%             11    100%            16        100%              7    100%
                              Principal and Interest   2,983,444        86%                   0             5,469,668        99%         43,512    100%       776,717        100%          7,127    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0                         0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            2    11%                   0                         2      5%              0      0%                 0      0%              0      0%
                              Loans                            5        17%                   0                     4          7%              0      0%                 0      0%              0      0%
                              Principal and Interest     479,948        14%                   0                77,161          1%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0                         0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0                         0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0                         0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0                         0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 976
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       STILLWATER, MONTANA                                  SWEET GRASS, MONTANA                                   TETON, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                         7                         32                       15                      118                        32
                              Loans                           46                        22                        101                       48                      270                        86
                              Principal and Interest   3,165,679                   569,721                  6,568,946                  418,158               18,511,462                 1,353,787

WHITE                         Borrowers                       19       100%              7        100%             31        97%            15     100%             118       100%        32         100%
                              Loans                           46       100%             22        100%             99        98%            48     100%             270       100%        86         100%
                              Principal and Interest   3,165,679       100%        569,721        100%      6,562,392       100%       418,158     100%      18,511,462       100% 1,353,787         100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 1      3%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 2      2%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%          6,554         0%              0                          0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 977
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             TOOLE, MONTANA                                   TREASURE, MONTANA                                   VALLEY, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       36                         7                          7                         2                     105                        32
                              Loans                           71                        13                         13                         4                     352                       128
                              Principal and Interest   4,612,175                   188,499                    706,677                    18,394              29,368,233                 6,714,412

WHITE                         Borrowers                       36       100%              7        100%              7       100%              2    100%             100        95%        31          97%
                              Loans                           71       100%             13        100%             13       100%              4    100%             345        98%       127          99%
                              Principal and Interest   4,612,175       100%        188,499        100%        706,677       100%         18,394    100%      27,831,650        95% 6,696,799         100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  2      2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             4           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       358,825           1%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%              2          2%            1        3%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              2          1%            1        1%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      1,163,403          4%       17,613        0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  1      1%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  1      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%         14,356          0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 978
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WHEATLAND, MONTANA                                       WIBAUX, MONTANA                              YELLOWSTONE, MONTANA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         4                         20                        6                      35                         9
                              Loans                           19                         8                         62                       20                      75                        15
                              Principal and Interest   3,153,505                 2,030,300                  4,085,048                  376,637               7,359,441                   164,887

WHITE                         Borrowers                       11       100%              4        100%             20       100%             6     100%             32         91%             9     100%
                              Loans                           19       100%              8        100%             62       100%            20     100%             69         92%            15     100%
                              Principal and Interest   3,153,505       100%      2,030,300        100%      4,085,048       100%       376,637     100%      6,557,600         89%       164,887     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1           3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1           1%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%       326,741           4%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  2      6%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  5      7%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%       475,099           6%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 979
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       YELLOWSTONE-RES, MONTANA                                    STATE OF MONTANA
                                                         Portfolio       Percent   Delinquent       Percent     Portfolio        Percent    Delinquent   Percent
TOTAL                         Borrowers                          2                              0                   1,940                         638
                              Loans                              2                              0                   5,145                       2,019
                              Principal and Interest       157,166                              0             441,523,550                  61,387,299

WHITE                         Borrowers                           1       50%                   0      0%           1,758         91%        566          89%
                              Loans                               1       50%                   0      0%           4,566         89%      1,760          87%
                              Principal and Interest         11,091        7%                   0      0%     384,988,512         87% 55,388,883          90%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%               2           0%               0      0%
                              Loans                                  0      0%                  0      0%               2           0%               0      0%
                              Principal and Interest                 0      0%                  0      0%          54,621           0%               0      0%

NATIVE AMERICAN               Borrowers                              1    50%                   0      0%              135          7%              61    10%
                              Loans                              1        50%                   0      0%             446           9%            208     10%
                              Principal and Interest       146,075        93%                   0      0%      27,771,685           6%      4,659,215      8%

ASIAN                         Borrowers                              0      0%                  0      0%               8           0%             4        1%
                              Loans                                  0      0%                  0      0%              28           1%            17        1%
                              Principal and Interest                 0      0%                  0      0%         794,845           0%       166,168        0%

OTHER                         Borrowers                              0      0%                  0      0%              26           1%              2       0%
                              Loans                                  0      0%                  0      0%              57           1%              2       0%
                              Principal and Interest                 0      0%                  0      0%      23,796,019           5%         42,383       0%

HISPANIC                      Borrowers                              0      0%                  0      0%                   11      1%               5      1%
                              Loans                                  0      0%                  0      0%                   46      1%              32      2%
                              Prinicpal and Interest                 0      0%                  0      0%       4,117,864           1%      1,130,652       2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 980
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African             Native
 State   Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  MT BLAINE                 Approved   No. of Applications                0           0    0%               0   0%              0   0%           0   0%           0    0%
                                       Receipt to Completion                          0                     0                   0                0                0
                                       Completion to Approval                         0                     0                   0                0                0
                                       Approval to Loan Closing                       0                     0                   0                0                0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      116                        0                   0                0               0
                                      Completion to Withdrawn                     36                        0                   0                0               0

 MT    BROADWATER           Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0     0%
                                       Receipt to Completion                       0                        0                   0                0               0
                                       Completion to Approval                      3                        0                   0                0               0
                                       Approval to Loan Closing                   14                        0                   0                0               0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0

 MT    CARBON               Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%          0     0%
                                       Receipt to Completion                       0                        0                   0                0               0
                                       Completion to Approval                     16                        0                   0                0               0
                                       Approval to Loan Closing                   21                        0                   0                0               0

                            Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                       Receipt to Completion                          0                     0                   0                0               0
                                       Completion to Rejected                         0                     0                   0                0               0

                            Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                           0                     0                   0                0               0
                                      Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 981
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  MT CARTER                Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%           0    0%
                                      Receipt to Completion                       9                        0                   0                0                0
                                      Completion to Approval                     26                        0                   0                0                0
                                      Approval to Loan Closing                   19                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    CASCADE             Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      21                        0                   0                0               0
                                      Completion to Approval                     19                        0                   0                0               0
                                      Approval to Loan Closing                   21                        0                   0                0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                       5                        0                   0                0               0
                                      Completion to Rejected                     14                        0                   0                0               0

                           Withdrawn No. of Applications                 6           6   100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           5                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    CHOUTEAU            Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      22                        0                   0                0               0
                                      Completion to Approval                     29                        0                   0                0               0
                                      Approval to Loan Closing                   28                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 5        5      100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                       16                        0                   0                0               0
                                     Completion to Withdrawn                     15                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 982
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  MT CUSTER                Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%           0    0%
                                      Receipt to Completion                       0                        0                   0                0                0
                                      Completion to Approval                    147                        0                   0                0                0
                                      Approval to Loan Closing                    0                        0                   0                0                0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      45                        0                   0                0               0
                                      Completion to Rejected                     70                        0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    DANIELS             Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                       0                        0                   0                0               0
                                      Completion to Approval                     47                        0                   0                0               0
                                      Approval to Loan Closing                   22                        0                   0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      64                        0                   0                0               0
                                      Completion to Rejected                      0                        0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    DAWSON              Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      33                        0                   0                0               0
                                      Completion to Approval                     35                        0                   0                0               0
                                      Approval to Loan Closing                   41                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                        7                        0                   0                0               0
                                     Completion to Withdrawn                    149                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 983
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  MT FALLON                Approved   No. of Applications                0           0    0%               0   0%              0   0%           0   0%           0    0%
                                      Receipt to Completion                          0                     0                   0                0                0
                                      Completion to Approval                         0                     0                   0                0                0
                                      Approval to Loan Closing                       0                     0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 5        5      100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                       17                        0                   0                0               0
                                     Completion to Withdrawn                      0                        0                   0                0               0

 MT    FERGUS              Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                       5                        0                   0                0               0
                                      Completion to Approval                     10                        0                   0                0               0
                                      Approval to Loan Closing                   22                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 3           3   100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    GALLATIN            Approved   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      35                        0                   0                0               0
                                      Completion to Approval                      3                        0                   0                0               0
                                      Approval to Loan Closing                   50                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                       34                        0                   0                0               0
                                     Completion to Withdrawn                      0                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 984
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  MT GARFIELD              Approved   No. of Applications                3        3      100%              0   0%              0   0%            0   0%           0    0%
                                      Receipt to Completion                       9                        0                   0                 0                0
                                      Completion to Approval                    101                        0                   0                 0                0
                                      Approval to Loan Closing                   17                        0                   0                 0                0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      45                        0                   0                 0               0
                                      Completion to Rejected                      2                        0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 MT    GLAZIER             Approved   No. of Applications                3        2      67%               0   0%          1       33%           0   0%          0     0%
                                      Receipt to Completion                       0                        0              24                     0               0
                                      Completion to Approval                      3                        0              25                     0               0
                                      Approval to Loan Closing                   10                        0              72                     0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 MT    HILL                Approved   No. of Applications                6        3      50%               0   0%          3       50%           0   0%          0     0%
                                      Receipt to Completion                      38                        0              33                     0               0
                                      Completion to Approval                     87                        0              21                     0               0
                                      Approval to Loan Closing                   96                        0              28                     0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 3           2   67%               0   0%          1       33%           0   0%          0     0%
                                     Receipt to Completion                           0                     0              34                     0               0
                                     Completion to Withdrawn                         0                     0              92                     0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 985
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  MT JUDITH BASIN          Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%           0    0%
                                      Receipt to Completion                      16                        0                   0                0                0
                                      Completion to Approval                      8                        0                   0                0                0
                                      Approval to Loan Closing                  158                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    LAKE                Approved   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Approval                         0                     0                   0                0               0
                                      Approval to Loan Closing                       0                     0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                       18                        0                   0                0               0
                                     Completion to Withdrawn                      0                        0                   0                0               0

 MT    LIBERTY             Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                      13                        0                   0                0               0
                                      Completion to Approval                      5                        0                   0                0               0
                                      Approval to Loan Closing                   14                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 986
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  MT MC CONE               Approved   No. of Applications                3        3      100%              0   0%              0   0%            0   0%           0    0%
                                      Receipt to Completion                      35                        0                   0                 0                0
                                      Completion to Approval                     71                        0                   0                 0                0
                                      Approval to Loan Closing                   31                        0                   0                 0                0

                           Rejected   No. of Applications                6        6      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      12                        0                   0                 0               0
                                      Completion to Rejected                     15                        0                   0                 0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 MT    MUSSELSHELL         Approved   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      76                        0                   0                 0               0
                                      Completion to Approval                      0                        0                   0                 0               0
                                      Approval to Loan Closing                   16                        0                   0                 0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      11                        0                   0                 0               0
                                      Completion to Rejected                     12                        0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 MT    PHILLIPS            Approved   No. of Applications                3        3      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      91                        0                   0                 0               0
                                      Completion to Approval                      0                        0                   0                 0               0
                                      Approval to Loan Closing                  131                        0                   0                 0               0

                           Rejected   No. of Applications                5        4      80%               0   0%          1       20%           0   0%          0     0%
                                      Receipt to Completion                      52                        0              49                     0               0
                                      Completion to Rejected                      0                        0              24                     0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 987
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  MT PONDERA               Approved   No. of Applications                8        8      100%              0   0%              0   0%            0   0%           0    0%
                                      Receipt to Completion                      42                        0                   0                 0                0
                                      Completion to Approval                      1                        0                   0                 0                0
                                      Approval to Loan Closing                   29                        0                   0                 0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 9        6      67%               0   0%          2       22%           0   0%          1    11%
                                     Receipt to Completion                       31                        0              11                     0               0
                                     Completion to Withdrawn                      0                        0               0                     0              10

 MT    POWDER RIVER        Approved   No. of Applications                2        2      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                       0                        0                   0                 0               0
                                      Completion to Approval                     56                        0                   0                 0               0
                                      Approval to Loan Closing                    8                        0                   0                 0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 MT    PRAIRIE             Approved   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                       0                        0                   0                 0               0
                                      Completion to Approval                     23                        0                   0                 0               0
                                      Approval to Loan Closing                   90                        0                   0                 0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 988
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American              Asian            Hispanic
  MT RICHLAND              Approved   No. of Applications             14        14   100%              0   0%              0    0%            0   0%           0    0%
                                      Receipt to Completion                     47                     0                   0                  0                0
                                      Completion to Approval                    25                     0                   0                  0                0
                                      Approval to Loan Closing                  36                     0                   0                  0                0

                           Rejected   No. of Applications             4         4    100%              0   0%              0    0%            0   0%          0     0%
                                      Receipt to Completion                    98                      0                   0                  0               0
                                      Completion to Rejected                   17                      0                   0                  0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0    0%            0   0%          0     0%
                                     Receipt to Completion                      0                      0                   0                  0               0
                                     Completion to Withdrawn                    8                      0                   0                  0               0

 MT    ROOSEVELT           Approved   No. of Applications             8         5    63%               0   0%          3       38%            0   0%          0     0%
                                      Receipt to Completion                    19                      0               9                      0               0
                                      Completion to Approval                   77                      0              32                      0               0
                                      Approval to Loan Closing                 37                      0              32                      0               0

                           Rejected   No. of Applications             2         1    50%               0   0%          1       50%            0   0%          0     0%
                                      Receipt to Completion                    62                      0               1                      0               0
                                      Completion to Rejected                   21                      0              85                      0               0

                           Withdrawn No. of Applications              1         0     0%               0   0%              1   100%           0   0%          0     0%
                                     Receipt to Completion                      0                      0                   0                  0               0
                                     Completion to Withdrawn                    0                      0                   0                  0               0

 MT    ROSEBUD             Approved   No. of Applications             3         1    33%               0   0%          2       67%            0   0%          0     0%
                                      Receipt to Completion                     0                      0               0                      0               0
                                      Completion to Approval                   32                      0             264                      0               0
                                      Approval to Loan Closing                  0                      0               0                      0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0    0%            0   0%          0     0%
                                      Receipt to Completion                     0                      0                   0                  0               0
                                      Completion to Rejected                    0                      0                   0                  0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0    0%            0   0%          0     0%
                                     Receipt to Completion                      0                      0                   0                  0               0
                                     Completion to Withdrawn                    0                      0                   0                  0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 989
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  MT SHERIDAN              Approved   No. of Applications                5        4      80%               0   0%          1       20%           0   0%           0    0%
                                      Receipt to Completion                      15                        0              25                     0                0
                                      Completion to Approval                      0                        0              61                     0                0
                                      Approval to Loan Closing                   35                        0              36                     0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                        0                        0                   0                 0               0
                                     Completion to Withdrawn                     52                        0                   0                 0               0

 MT    STILLWATER          Approved   No. of Applications                3        3      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      32                        0                   0                 0               0
                                      Completion to Approval                     14                        0                   0                 0               0
                                      Approval to Loan Closing                   23                        0                   0                 0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

 MT    SWEETGRASS          Approved   No. of Applications                2        2      100%              0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                      20                        0                   0                 0               0
                                      Completion to Approval                      4                        0                   0                 0               0
                                      Approval to Loan Closing                   27                        0                   0                 0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                 0               0
                                      Completion to Rejected                         0                     0                   0                 0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 990
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  MT TETON                 Approved   No. of Applications             13        13   100%              0   0%              0   0%           0   0%           0    0%
                                      Receipt to Completion                      9                     0                   0                0                0
                                      Completion to Approval                    20                     0                   0                0                0
                                      Approval to Loan Closing                  23                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    9                      0                   0                0               0

                           Withdrawn No. of Applications             22        22    100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                   16                      0                   0                0               0

 MT    TOOLE               Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                    42                      0                   0                0               0
                                      Completion to Approval                    2                      0                   0                0               0
                                      Approval to Loan Closing                 22                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 MT    VALLEY              Approved   No. of Applications             9         9    100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                   112                      0                   0                0               0
                                      Completion to Approval                   50                      0                   0                0               0
                                      Approval to Loan Closing                 31                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                    35                      0                   0                0               0
                                      Completion to Rejected                   43                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                     79                      0                   0                0               0
                                     Completion to Withdrawn                   19                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 991
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  MT WHEATLAND             Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%           0    0%
                                      Receipt to Completion                      14                        0                   0                0                0
                                      Completion to Approval                      4                        0                   0                0                0
                                      Approval to Loan Closing                  133                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 MT    WIBAUX              Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                       2                        0                   0                0               0
                                      Completion to Approval                     33                        0                   0                0               0
                                      Approval to Loan Closing                   28                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0     0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0     0%
                                     Receipt to Completion                        0                        0                   0                0               0
                                     Completion to Withdrawn                    183                        0                   0                0               0

 MT    STATE               Approved   No. of Applications           140         130      93%               0   0%         10       7%           0   0%          0     0%
                                      Receipt to Completion                      31                        0              18                    0               0
                                      Completion to Approval                     33                        0              77                    0               0
                                      Approval to Loan Closing                   33                        0              29                    0               0

                           Rejected   No. of Applications            31          29      94%               0   0%          2       6%           0   0%          0     0%
                                      Receipt to Completion                      40                        0              25                    0               0
                                      Completion to Rejected                     15                        0              55                    0               0

                           Withdrawn No. of Applications             72          67      93%               0   0%          4       6%           0   0%          1     1%
                                     Receipt to Completion                       14                        0              14                    0               0
                                     Completion to Withdrawn                     17                        0              23                    0              10




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 992
                            Demographics         994
                        FSA’s Loan Portfolio     1006
                        FSA’s Application data   1038




USDA/OIG-A/50801-4-Hq                                   993
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                  Asian                  Other                 Hispanic
                                            Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                 Population       29,625       28,922     98%           181         1%        101          0%        112          0%              6      0%        303          1%
         Adams County       Borrowers            33           33    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Farms               657          654    100%             0         0%          0          0%          0          0%              0      0%          3          0%
                            Land in Farms   335,465      335,465    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                 Population        7,965        7,928    100%                2      0%         20          0%              9      0%              1      0%              5      0%
         Antelope County    Borrowers            73           72     99%                0      0%          0          0%              0      0%              1      1%              0      0%
                            Farms               891          891    100%                0      0%          0          0%              0      0%              0      0%              0      0%
                            Land in Farms   489,384      489,384    100%                0      0%          0          0%              0      0%              0      0%              0      0%

         NE                 Population          462          459     99%                0      0%              2      0%              0      0%              1      0%              0      0%
         Arthur County      Borrowers             3            3    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                93           93    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   460,156      460,156    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population          852          829     97%                1      0%              3      0%              0      0%              0      0%         19          2%
         Banner County      Borrowers            13           13    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms               200          200    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms   407,678      407,678    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                 Population          675          671     99%                1      0%              1      0%              0      0%              2      0%              0      0%
         Blaine County      Borrowers             5            5    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms               116          116    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   460,513      460,513    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population        6,667        6,636    100%                1      0%         11          0%              1      0%              1      0%         17          0%
         Boone County       Borrowers            80           80    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                            Farms               787          784    100%                0      0%          0          0%              0      0%              0      0%          3          0%
                            Land in Farms   437,826      437,186    100%                0      0%          0          0%              0      0%              0      0%        640          0%

         NE                 Population       13,130       12,022     92%            49         0%        277          2%         56          0%              4      0%        722          5%
         Box Butte County   Borrowers            25           25    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Farms               516          516    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   649,612      649,612    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                 Population        2,835        2,806     99%                0      0%         22          1%              1      0%              0      0%              6      0%
         Boyd County        Borrowers            43           43    100%                0      0%          0          0%              0      0%              0      0%              0      0%
                            Farms               395          395    100%                0      0%          0          0%              0      0%              0      0%              0      0%
                            Land in Farms   296,164      296,164    100%                0      0%          0          0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 994
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                  Asian                  Other                 Hispanic
                                            Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         NE               Population         3,657         3,617     99%                1      0%         11          0%              7      0%              0      0%         21       1%
         Brown County     Borrowers             36            36    100%                0      0%          0          0%              0      0%              0      0%          0       0%
                          Farms                332           332    100%                0      0%          0          0%              0      0%              0      0%          0       0%
                          Land in Farms    649,634       649,634    100%                0      0%          0          0%              0      0%              0      0%          0       0%

         NE               Population        37,447        35,992     96%           161         0%        101          0%        156          0%         14          0%      1,023       3%
         Buffalo County   Borrowers             91            91    100%             0         0%          0          0%          0          0%          0          0%          0       0%
                          Farms              1,097         1,097    100%             0         0%          0          0%          0          0%          0          0%          0       0%
                          Land in Farms    587,595       587,595    100%             0         0%          0          0%          0          0%          0          0%          0       0%

         NE               Population         7,868         7,708     98%                8      0%         63          1%         14          0%              1      0%         74       1%
         Burt County      Borrowers             61            61    100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Farms                588           588    100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms    270,005       270,005    100%                0      0%          0          0%          0          0%              0      0%          0       0%

         NE               Population         8,601         8,542     99%            10         0%         16          0%         13          0%              0      0%         20       0%
         Butler County    Borrowers             60            60    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                          Farms                805           805    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms    335,849       335,849    100%             0         0%          0          0%          0          0%              0      0%          0       0%

         NE               Population        21,318        20,909     98%            39         0%        107          1%         62          0%              6      0%        195       1%
         Cass County      Borrowers             31            30     97%             0         0%          0          0%          0          0%              1      3%          0       0%
                          Farms                721           721    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms    296,016       296,016    100%             0         0%          0          0%          0          0%              0      0%          0       0%

         NE               Population        10,131        10,085    100%                6      0%         14          0%              9      0%              0      0%         17       0%
         Cedar County     Borrowers            114           114    100%                0      0%          0          0%              0      0%              0      0%          0       0%
                          Farms              1,041         1,041    100%                0      0%          0          0%              0      0%              0      0%          0       0%
                          Land in Farms    428,769       428,769    100%                0      0%          0          0%              0      0%              0      0%          0       0%

         NE               Population         4,381         4,281     98%                1      0%              6      0%              2      0%              3      0%         88       2%
         Chase County     Borrowers             32            32    100%                0      0%              0      0%              0      0%              0      0%          0       0%
                          Farms                368           368    100%                0      0%              0      0%              0      0%              0      0%          0       0%
                          Land in Farms    521,389       521,389    100%                0      0%              0      0%              0      0%              0      0%          0       0%

         NE               Population          6,307        6,091     97%                2      0%        176          3%         14          0%              0      0%         24       0%
         Cherry County    Borrowers              74           73     99%                0      0%          1          1%          0          0%              0      0%          0       0%
                          Farms                 676          673    100%                0      0%          0          0%          0          0%              0      0%          3       0%
                          Land in Farms   3,887,635    3,873,116    100%                0      0%          0          0%          0          0%              0      0%     14,519       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 995
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American              Asian                  Other                 Hispanic
                                             Total       Number      Percent    Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         NE                Population         9,494         9,090     96%                6      0%         64      1%         15          0%              2      0%        317       3%
         Cheyenne County   Borrowers             28            27     96%                0      0%          0      0%          0          0%              1      4%          0       0%
                           Farms                668           668    100%                0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    772,453       772,453    100%                0      0%          0      0%          0          0%              0      0%          0       0%

         NE                Population         7,123         7,050     99%                1      0%         16      0%         13          0%              0      0%         43       1%
         Clay County       Borrowers             41            40     98%                0      0%          0      0%          0          0%              1      2%          0       0%
                           Farms                592           592    100%                0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    357,067       357,067    100%                0      0%          0      0%          0          0%              0      0%          0       0%

         NE                Population         9,139         8,878     97%                3      0%         26      0%              7      0%              1      0%        224       2%
         Colfax County     Borrowers             39            39    100%                0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms                694           694    100%                0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    228,988       228,988    100%                0      0%          0      0%              0      0%              0      0%          0       0%

         NE                Population        10,117        10,064     99%                8      0%         10      0%         20          0%              0      0%         15       0%
         Cuming County     Borrowers             66            65     98%                0      0%          0      0%          0          0%              1      2%          0       0%
                           Farms              1,079         1,076    100%                0      0%          0      0%          0          0%              0      0%          3       0%
                           Land in Farms    345,739       345,739    100%                0      0%          0      0%          0          0%              0      0%          0       0%

         NE                Population         12,270       12,104     99%                3      0%         68      1%         11          0%              0      0%         84       1%
         Custer County     Borrowers              67           66     99%                0      0%          0      0%          0          0%              1      1%          0       0%
                           Farms               1,321        1,318    100%                0      0%          3      0%          0          0%              0      0%          0       0%
                           Land in Farms   1,425,338    1,425,338    100%                0      0%          0      0%          0          0%              0      0%          0       0%

         NE                Population        16,742        14,996     90%            74         0%        294      2%        336          2%         26          0%      1,016       6%
         Dakota County     Borrowers              4             4    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                           Farms                295           295    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    138,022       138,022    100%             0         0%          0      0%          0          0%          0          0%          0       0%

         NE                Population         9,021         8,409     93%            53         1%        335      4%         74          1%              8      0%        142       2%
         Dawes County      Borrowers             55            54     98%             0         0%          1      2%          0          0%              0      0%          0       0%
                           Farms                446           446    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    842,110       842,110    100%             0         0%          0      0%          0          0%              0      0%          0       0%

         NE                Population        19,940        19,164     96%            11         0%         62      0%         38          0%              2      0%        663       3%
         Dawson County     Borrowers             86            86    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                           Farms                876           876    100%             0         0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    658,572       658,572    100%             0         0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 996
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                  Asian                  Other                 Hispanic
                                           Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                Population        2,237        2,118     95%                1      0%              9      0%              7      0%              0      0%        102          5%
         Deuel County      Borrowers             4            4    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Farms               244          244    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms   265,048      265,048    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                Population        6,143        6,121    100%                4      0%         11          0%              3      0%              0      0%              4      0%
         Dixon County      Borrowers            60           60    100%                0      0%          0          0%              0      0%              0      0%              0      0%
                           Farms               609          609    100%                0      0%          0          0%              0      0%              0      0%              0      0%
                           Land in Farms   242,898      242,898    100%                0      0%          0          0%              0      0%              0      0%              0      0%

         NE                Population       34,500       33,979     98%            63         0%        109          0%        119          0%              7      0%        223          1%
         Dodge County      Borrowers            82           82    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               855          852    100%             0         0%          0          0%          0          0%              0      0%          3          0%
                           Land in Farms   298,854      296,710     99%             0         0%          0          0%          0          0%              0      0%      2,144          1%

         NE                Population      416,444      353,374     85%        45,104        11%      2,279          1%      3,945          1%        374          0%     11,368          3%
         Douglas County    Borrowers             8            8    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               388          388    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    96,093       96,093    100%             0         0%          0          0%          0          0%          0          0%          0          0%

         NE                Population        2,582        2,559     99%                0      0%              3      0%              4      0%              1      0%         15          1%
         Dundy County      Borrowers            21           21    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Farms               308          308    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms   528,731      528,731    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                Population        7,103        7,014     99%            13         0%         33          0%              4      0%              4      0%         35          0%
         Fillmore County   Borrowers            29           28     97%             0         0%          0          0%              0      0%              1      3%          0          0%
                           Farms               637          637    100%             0         0%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms   340,471      340,471    100%             0         0%          0          0%              0      0%              0      0%          0          0%

         NE                Population        3,938        3,908     99%                6      0%         10          0%              6      0%              0      0%              8      0%
         Franklin County   Borrowers            30           29     97%                0      0%          0          0%              0      0%              1      3%              0      0%
                           Farms               444          444    100%                0      0%          0          0%              0      0%              0      0%              0      0%
                           Land in Farms   323,315      323,315    100%                0      0%          0          0%              0      0%              0      0%              0      0%

         NE                Population        3,101        3,062     99%                1      0%              4      0%              8      0%              7      0%         19          1%
         Frontier County   Borrowers            64           64    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Farms               419          419    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms   526,476      526,476    100%                0      0%              0      0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 997
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                  Asian                  Other                 Hispanic
                                             Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                Population         5,553         5,490     99%                2      0%         18          0%              6      0%              0      0%         37          1%
         Furnas County     Borrowers             30            30    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                           Farms                459           459    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms    430,972       430,972    100%                0      0%          0          0%              0      0%              0      0%          0          0%

         NE                Population        22,794        22,459     99%            45         0%        101          0%         76          0%              3      0%        110          0%
         Gage County       Borrowers            148           146     99%             0         0%          0          0%          0          0%              2      1%          0          0%
                           Farms              1,140         1,140    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    508,754       508,754    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                Population          2,460        2,445     99%                0      0%              0      0%              0      0%              0      0%         15          1%
         Garden County     Borrowers               9            9    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Farms                 297          297    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms   1,069,778    1,069,778    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                Population         2,141         2,130     99%                0      0%              3      0%              5      0%              0      0%              3      0%
         Garfield County   Borrowers             14            14    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                228           228    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    338,136       338,136    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                Population         1,928         1,918     99%                0      0%              0      0%              1      0%              0      0%              9      0%
         Gosper County     Borrowers             42            42    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                282           282    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    229,703       229,703    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                Population           769           759     99%                0      0%              5      1%              3      0%              0      0%              2      0%
         Grant County      Borrowers              1             1    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms                 82            82    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    545,799       545,799    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                Population         3,006         2,997    100%                0      0%              4      0%              3      0%              0      0%          2          0%
         Greeley County    Borrowers             58            57     98%                1      2%              0      0%              0      0%              0      0%          0          0%
                           Farms                394           390     99%                0      0%              0      0%              0      0%              0      0%          4          1%
                           Land in Farms    304,180       296,577     98%                0      0%              0      0%              0      0%              0      0%      7,603          2%

         NE                Population        48,925        45,986     94%           134         0%        139          0%        521          1%         29          0%      2,116          4%
         Hall County       Borrowers             33            32     97%             0         0%          0          0%          0          0%          1          3%          0          0%
                           Farms                744           740     99%             0         0%          0          0%          0          0%          0          0%          4          1%
                           Land in Farms    316,551       315,961    100%             0         0%          0          0%          0          0%          0          0%        590          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 998
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                  Asian                  Other                 Hispanic
                                              Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                 Population         8,862         8,766     99%                9      0%              8      0%         22          0%              0      0%         57          1%
         Hamilton County    Borrowers             42            42    100%                0      0%              0      0%          0          0%              0      0%          0          0%
                            Farms                664           664    100%                0      0%              0      0%          0          0%              0      0%          0          0%
                            Land in Farms    321,080       321,080    100%                0      0%              0      0%          0          0%              0      0%          0          0%

         NE                 Population         3,810         3,800    100%                2      0%              2      0%              1      0%              0      0%              5      0%
         Harlan County      Borrowers             40            40    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                385           385    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    305,724       305,724    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population         1,222         1,212     99%                0      0%              2      0%              2      0%              0      0%              6      0%
         Hayes County       Borrowers             47            47    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                273           273    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    401,978       401,978    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population         3,750         3,715     99%                0      0%              8      0%              3      0%              1      0%         23          1%
         Hitchcock County   Borrowers             31            31    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms                379           379    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    403,584       403,584    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                 Population         12,599       12,526     99%                3      0%         30          0%         17          0%              0      0%         23          0%
         Holt County        Borrowers              64           64    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                            Farms               1,265        1,265    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   1,387,740    1,387,740    100%                0      0%          0          0%          0          0%              0      0%          0          0%

         NE                 Population           793           779     98%                0      0%              0      0%              0      0%              0      0%         14          2%
         Hooker County      Borrowers              5             5    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms                 76            76    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    375,188       375,188    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                 Population         6,055         6,000     99%                1      0%         10          0%              2      0%              0      0%         42          1%
         Howard County      Borrowers             59            59    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                            Farms                657           654    100%                0      0%          0          0%              0      0%              0      0%          3          0%
                            Land in Farms    325,330       325,330    100%                0      0%          0          0%              0      0%              0      0%          0          0%

         NE                 Population         8,759         8,646     99%                2      0%         23          0%              7      0%              0      0%         81          1%
         Jefferson County   Borrowers            113           113    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                            Farms                683           683    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                            Land in Farms    326,831       326,831    100%                0      0%          0          0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 999
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                  Asian                  Other                 Hispanic
                                              Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                 Population         4,673         4,522     97%                1      0%              0      0%        101          2%              2      0%         47          1%
         Johnson County     Borrowers             53            53    100%                0      0%              0      0%          0          0%              0      0%          0          0%
                            Farms                488           488    100%                0      0%              0      0%          0          0%              0      0%          0          0%
                            Land in Farms    186,806       186,806    100%                0      0%              0      0%          0          0%              0      0%          0          0%

         NE                 Population         6,629         6,506     98%                0      0%              3      0%              4      0%              2      0%        114          2%
         Kearney County     Borrowers             22            21     95%                0      0%              0      0%              0      0%              1      5%          0          0%
                            Farms                502           502    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    310,042       310,042    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                 Population         8,584         8,185     95%            10         0%         36          0%         15          0%              2      0%        336          4%
         Keith County       Borrowers             23            22     96%             0         0%          0          0%          0          0%              0      0%          1          4%
                            Farms                348           345     99%             0         0%          0          0%          0          0%              0      0%          3          1%
                            Land in Farms    668,957       665,900    100%             0         0%          0          0%          0          0%              0      0%      3,057          0%

         NE                 Population         1,029         1,027    100%                0      0%              1      0%              0      0%              0      0%              1      0%
         Keya Paha County   Borrowers             49            49    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms                206           206    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms    446,007       446,007    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population         4,108         3,947     96%                2      0%              7      0%              6      0%              0      0%        146          4%
         Kimball County     Borrowers             20            20    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Farms                292           292    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms    505,150       505,150    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                 Population         9,534         9,025      95%               0      0%        482          5%         17          0%              1      0%              9      0%
         Knox County        Borrowers            144           139      97%               0      0%          3          2%          0          0%              1      1%              1      1%
                            Farms              1,086         1,078      99%               0      0%          8          1%          0          0%              0      0%              0      0%
                            Land in Farms    612,694       591,354      97%               0      0%     21,340          3%          0          0%              0      0%              0      0%

         NE                 Population       213,641       200,521     94%         4,583         2%      1,090          1%      3,335          2%        174          0%      3,938          2%
         Lancaster County   Borrowers             58            58    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                            Farms              1,359         1,352     99%             0         0%          0          0%          0          0%          0          0%          7          1%
                            Land in Farms    414,763       412,268     99%             0         0%          0          0%          0          0%          0          0%      2,495          1%

         NE                 Population         32,508       30,561     94%            90         0%        108          0%        111          0%         15          0%      1,623          5%
         Lincoln County     Borrowers              84           82     98%             0         0%          1          1%          0          0%          0          0%          1          1%
                            Farms               1,031        1,026    100%             0         0%          0          0%          0          0%          0          0%          5          0%
                            Land in Farms   1,450,481    1,450,285    100%             0         0%          0          0%          0          0%          0          0%        196          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1000
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                  Asian                  Other                 Hispanic
                                            Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                 Population          878          872     99%                3      0%              0      0%              0      0%              0      0%              3      0%
         Logan County       Borrowers             6            6    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms               133          133    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   335,820      335,820    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population          683          681    100%                0      0%              0      0%              1      0%              0      0%              1      0%
         Loup County        Borrowers             9            9    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms               134          134    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   330,369      330,369    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population          546          545    100%                1      0%              0      0%              0      0%              0      0%              0      0%
         McPherson County   Borrowers            10           10    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Farms               121          121    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                            Land in Farms   464,534      464,534    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                 Population       32,655       31,524     97%           238         1%        233          1%         86          0%              5      0%        569          2%
         Madison County     Borrowers            17           17    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Farms               825          825    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   322,120      322,120    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                 Population        8,042        7,938     99%                2      0%         12          0%         18          0%              1      0%         71          1%
         Merrick County     Borrowers            42           41     98%                0      0%          0          0%          0          0%              1      2%          0          0%
                            Farms               617          617    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   290,608      290,608    100%                0      0%          0          0%          0          0%              0      0%          0          0%

         NE                 Population        5,423        4,952     91%                1      0%         26          0%              7      0%              3      0%        434          8%
         Morrill County     Borrowers            41           40     98%                0      0%          0          0%              1      2%              0      0%          0          0%
                            Farms               458          454     99%                0      0%          0          0%              0      0%              0      0%          4          1%
                            Land in Farms   724,458      724,458    100%                0      0%          0          0%              0      0%              0      0%          0          0%

         NE                 Population        4,275        4,224     99%                1      0%              4      0%              8      0%              0      0%         38          1%
         Nance County       Borrowers            46           45     98%                0      0%              0      0%              0      0%              1      2%          0          0%
                            Farms               440          440    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                            Land in Farms   236,950      236,950    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                 Population        7,980        7,862     99%            71         1%         13          0%         14          0%              0      0%         20          0%
         Nemaha County      Borrowers            47           47    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Farms               511          511    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                            Land in Farms   226,042      226,042    100%             0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1001
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                  Asian                  Other                 Hispanic
                                           Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         NE                Population        5,786        5,760    100%                1      0%              8      0%              0      0%              0      0%         17       0%
         Nuckolls County   Borrowers            44           43     98%                0      0%              0      0%              0      0%              1      2%          0       0%
                           Farms               541          541    100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   333,488      333,488    100%                0      0%              0      0%              0      0%              0      0%          0       0%

         NE                Population       14,252       14,062     99%            25         0%         31          0%         24          0%              4      0%        106       1%
         Otoe County       Borrowers            86           86    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               805          805    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   325,801      325,801    100%             0         0%          0          0%          0          0%              0      0%          0       0%

         NE                Population        3,317        3,290     99%                3      0%              1      0%              4      0%              2      0%         17       1%
         Pawnee County     Borrowers            47           47    100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms               463          463    100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   223,949      223,949    100%                0      0%              0      0%              0      0%              0      0%          0       0%

         NE                Population        3,367        3,299     98%                0      0%              7      0%              7      0%              1      0%         53       2%
         Perkins County    Borrowers            55           54     98%                1      2%              0      0%              0      0%              0      0%          0       0%
                           Farms               479          479    100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   532,901      532,901    100%                0      0%              0      0%              0      0%              0      0%          0       0%

         NE                Population        9,715        9,587     99%                5      0%         15          0%         16          0%              1      0%         91       1%
         Phelps County     Borrowers            32           32    100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               578          578    100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   375,771      375,771    100%                0      0%          0          0%          0          0%              0      0%          0       0%

         NE                Population        7,827        7,779     99%                0      0%         25          0%              9      0%              0      0%         14       0%
         Pierce County     Borrowers            20           20    100%                0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               725          725    100%                0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   297,326      297,326    100%                0      0%          0          0%              0      0%              0      0%          0       0%

         NE                Population       29,820       29,374     99%            53         0%         61          0%         74          0%              3      0%        255       1%
         Platte County     Borrowers            49           49    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms             1,099        1,099    100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   409,715      409,715    100%             0         0%          0          0%          0          0%              0      0%          0       0%

         NE                Population        5,675        5,623     99%                1      0%         10          0%         11          0%              0      0%         30       1%
         Polk County       Borrowers            38           38    100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               625          625    100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   250,086      250,086    100%                0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 1002
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American                  Asian                  Other                 Hispanic
                                               Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                    Population       11,705       11,435     98%            13         0%         20          0%         25          0%              2      0%        210          2%
         Red Willow County     Borrowers            50           50    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Farms               425          425    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Land in Farms   439,475      439,475    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                    Population        9,937        9,701     98%                5      0%        176          2%         11          0%              0      0%         44          0%
         Richardson County     Borrowers            51           51    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                               Farms               712          703     99%                0      0%          9          1%          0          0%              0      0%          0          0%
                               Land in Farms   301,513      297,721     99%                0      0%      3,792          1%          0          0%              0      0%          0          0%

         NE                    Population        2,019        2,012    100%                0      0%              1      0%              0      0%              0      0%              6      0%
         Rock County           Borrowers            31           31    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                               Farms               310          310    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                               Land in Farms   657,906      657,906    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                    Population       12,715       12,486     98%            16         0%         23          0%        111          1%              5      0%         74          1%
         Saline County         Borrowers            50           50    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Farms               742          742    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Land in Farms   312,079      312,079    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                    Population      102,583       91,663     89%         5,236         5%        375          0%      1,856          2%         70          0%      3,383          3%
         Sarpy County          Borrowers            11           11    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                               Farms               362          362    100%             0         0%          0          0%          0          0%          0          0%          0          0%
                               Land in Farms   105,085      105,085    100%             0         0%          0          0%          0          0%          0          0%          0          0%

         NE                    Population       18,285       18,090     99%            14         0%         40          0%         29          0%              8      0%        104          1%
         Saunders County       Borrowers            83           83    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Farms             1,235        1,232    100%             0         0%          0          0%          0          0%              0      0%          3          0%
                               Land in Farms   437,274      437,274    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                    Population       36,025       29,938      83%           51         0%        579          2%        173          0%         47          0%      5,237         15%
         Scotts Bluff County   Borrowers            70           67      96%            0         0%          0          0%          1          1%          0          0%          2          3%
                               Farms               821          787      96%            0         0%          0          0%         19          2%          6          1%          9          1%
                               Land in Farms   417,698      405,060      97%            0         0%          0          0%      9,273          2%          0          0%      3,365          1%

         NE                    Population       15,450       15,280     99%            20         0%         31          0%         35          0%              4      0%         80          1%
         Seward County         Borrowers            47           47    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Farms               879          879    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                               Land in Farms   314,949      314,949    100%             0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1003
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                  Asian                  Other                 Hispanic
                                             Total       Number      Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                Population          6,750        6,170     91%                2      0%        493          7%         15          0%              2      0%         68          1%
         Sheridan County   Borrowers              55           53     96%                0      0%          1          2%          0          0%              1      2%          0          0%
                           Farms                 658          654     99%                0      0%          4          1%          0          0%              0      0%          0          0%
                           Land in Farms   1,481,503    1,481,503    100%                0      0%          0          0%          0          0%              0      0%          0          0%

         NE                Population         3,718         3,697     99%                0      0%              2      0%         10          0%              1      0%              8      0%
         Sherman County    Borrowers             23            22     96%                0      0%              0      0%          0          0%              1      4%              0      0%
                           Farms                500           500    100%                0      0%              0      0%          0          0%              0      0%              0      0%
                           Land in Farms    298,115       298,115    100%                0      0%              0      0%          0          0%              0      0%              0      0%

         NE                Population          1,549        1,501     97%                0      0%              1      0%              2      0%          1          0%         44          3%
         Sioux County      Borrowers              22           22    100%                0      0%              0      0%              0      0%          0          0%          0          0%
                           Farms                 327          319     98%                0      0%              0      0%              0      0%          4          1%          4          1%
                           Land in Farms   1,005,877    1,002,897    100%                0      0%              0      0%              0      0%      1,490          0%      1,490          0%

         NE                Population         6,244         6,157     99%            23         0%         37          1%              4      0%              0      0%         23          0%
         Stanton County    Borrowers             42            42    100%             0         0%          0          0%              0      0%              0      0%          0          0%
                           Farms                557           557    100%             0         0%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms    217,228       217,228    100%             0         0%          0          0%              0      0%              0      0%          0          0%

         NE                Population         6,635         6,546     99%                4      0%         18          0%              7      0%              1      0%         59          1%
         Thayer County     Borrowers             87            87    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                           Farms                623           623    100%                0      0%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms    347,598       347,598    100%                0      0%          0          0%              0      0%              0      0%          0          0%

         NE                Population           851           839     99%                0      0%              1      0%              0      0%              0      0%         11          1%
         Thomas County     Borrowers              4             3     75%                0      0%              0      0%              0      0%              0      0%          1         25%
                           Farms                 97            97    100%                0      0%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms    360,203       360,203    100%                0      0%              0      0%              0      0%              0      0%          0          0%

         NE                Population         6,936         3,857     56%                8      0%      3,002         43%              7      0%              0      0%         62          1%
         Thurston County   Borrowers             43            40     93%                0      0%          2          5%              0      0%              0      0%          1          2%
                           Farms                386           383     99%                0      0%          3          1%              0      0%              0      0%          0          0%
                           Land in Farms    193,556       193,556    100%                0      0%          0          0%              0      0%              0      0%          0          0%

         NE                Population         5,169         5,126     99%                6      0%         10          0%         10          0%              0      0%         17          0%
         Valley County     Borrowers             51            51    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms                488           488    100%                0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    339,358       339,358    100%                0      0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1004
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American                  Asian                  Other                 Hispanic
                                                Total        Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         NE                  Population         16,607        16,348     98%            82         0%         38          0%         34          0%              1      0%        104          1%
         Washington County   Borrowers              91            91    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms                 726           722     99%             4         1%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms     228,167       228,167    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                  Population          9,364         9,241     99%            39         0%         28          0%         34          0%              0      0%         22          0%
         Wayne County        Borrowers              60            59     98%             0         0%          0          0%          0          0%              1      2%          0          0%
                             Farms                 630           630    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms     248,502       248,502    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                  Population          4,279         4,248     99%                1      0%              6      0%         13          0%              0      0%         11          0%
         Webster County      Borrowers              48            48    100%                0      0%              0      0%          0          0%              0      0%          0          0%
                             Farms                 448           448    100%                0      0%              0      0%          0          0%              0      0%          0          0%
                             Land in Farms     307,527       307,527    100%                0      0%              0      0%          0          0%              0      0%          0          0%

         NE                  Population            948           945    100%                0      0%              0      0%              3      0%              0      0%              0      0%
         Wheeler County      Borrowers              19            19    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms                 200           200    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms     263,976       263,976    100%                0      0%              0      0%              0      0%              0      0%              0      0%

         NE                  Population         14,428        14,133     98%            88         1%         48          0%         44          0%              3      0%        112          1%
         York County         Borrowers              50            50    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms                 765           765    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms     345,509       345,509    100%             0         0%          0          0%          0          0%              0      0%          0          0%

         NE                  Population       1,578,385     1,460,095    93%        56,711         4%     11,719          1%     12,026          1%        865          0%     36,969          2%
         STATE               Borrowers            4,224         4,185    99%             2         0%          9          0%          2          0%         19          0%          7          0%
                             Farms               52,923        52,802   100%             4         0%         27          0%         19          0%         10          0%         61          0%
                             Land in Farms   44,393,129    44,321,135   100%             0         0%     25,132          0%      9,273          0%      1,490          0%     36,099          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1005
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             ADAMS, NEBRASKA                                   ANTELOPE, NEBRASKA                                ARTHUR, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                         3                          73                       28                      3                           0
                              Loans                           44                         3                         170                       65                      3                           0
                              Principal and Interest   3,705,622                    10,127                  10,509,924                  714,896                230,256                           0

WHITE                         Borrowers                       33       100%              3        100%              72        99%            28     100%             3        100%               0      0%
                              Loans                           44       100%              3        100%             169        99%            65     100%             3        100%               0      0%
                              Principal and Interest   3,705,622       100%         10,127        100%      10,470,798       100%       714,896     100%       230,256        100%               0      0%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%              1          1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%              1          1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%         39,126          0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1006
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           BANNER, NEBRASKA                                      BLAINE, NEBRASKA                                 BOONE, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                         5                          5                         1                      80                       11
                              Loans                           28                        11                          9                         2                     150                       35
                              Principal and Interest   2,329,272                   519,009                  1,244,634                    18,145              10,510,244                  578,231

WHITE                         Borrowers                       13       100%              5        100%              5       100%              1    100%              80       100%            11     100%
                              Loans                           28       100%             11        100%              9       100%              2    100%             150       100%            35     100%
                              Principal and Interest   2,329,272       100%        519,009        100%      1,244,634       100%         18,145    100%      10,510,244       100%       578,231     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1007
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BOX BUTTE, NEBRASKA                                       BOYD, NEBRASKA                                 BROWN, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                         6                         43                       14                      36                        17
                              Loans                           98                        45                         97                       40                      75                        39
                              Principal and Interest   5,354,175                 2,266,493                  4,509,856                  443,494               7,543,176                 2,439,953
WHITE                         Borrowers                       25       100%              6        100%             43       100%            14     100%             36       100%        17         100%
                              Loans                           98       100%             45        100%             97       100%            40     100%             75       100%        39         100%
                              Principal and Interest   5,354,175       100%      2,266,493        100%      4,509,856       100%       443,494     100%      7,543,176       100% 2,439,953         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1008
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           BUFFALO, NEBRASKA                                        BURT, NEBRASKA                               BUTLER, NEBRASKA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        91                        31                         61                       20                      60                       20
                              Loans                           223                        98                        115                       40                     129                       42
                              Principal and Interest   14,665,525                 2,553,400                  7,635,205                  762,276               7,343,630                  606,538
WHITE                         Borrowers                        91       100%             31        100%             61       100%            20     100%             60       100%            20     100%
                              Loans                           223       100%             98        100%            115       100%            40     100%            129       100%            42     100%
                              Principal and Interest   14,665,525       100%      2,553,400        100%      7,635,205       100%       762,276     100%      7,343,630       100%       606,538     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1009
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               CASS, NEBRASKA                                     CEDAR, NEBRASKA                                  CHASE, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       31                         6                         114                       16                      32                       13
                              Loans                           57                        11                         192                       33                      59                       26
                              Principal and Interest   2,980,217                    94,812                  12,384,453                  182,322               5,905,821                  561,494
WHITE                         Borrowers                       30         97%             6        100%             114       100%            16     100%             32       100%            13     100%
                              Loans                           55         96%            11        100%             192       100%            33     100%             59       100%            26     100%
                              Principal and Interest   2,849,308         96%        94,812        100%      12,384,453       100%       182,322     100%      5,905,821       100%       561,494     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                       1           3%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           2           4%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    130,909           4%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1010
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CHERRY, NEBRASKA                                  CHEYENNE, NEBRASKA                                    CLAY, NEBRASKA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        74                        36                         28                       11                      41                       15
                              Loans                           174                        89                         56                       21                      65                       30
                              Principal and Interest   11,618,114                 1,215,834                  4,761,691                  436,508               5,922,786                  816,527
WHITE                         Borrowers                        73         99%            35          97%            27        96%            10       91%            40         98%           15     100%
                              Loans                           168         97%            86          97%            54        96%            19       90%            64         98%           30     100%
                              Principal and Interest   11,105,774         96%     1,178,006          97%     4,750,248       100%       431,367       99%     5,845,888         99%      816,527     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1           1%             1           3%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            6           3%             3           3%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     512,340           4%        37,828           3%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%             1          4%             1       9%             1          2%              0      0%
                              Loans                                 0      0%                  0      0%             2          4%             2      10%             1          2%              0      0%
                              Principal and Interest                0      0%                  0      0%        11,443          0%         5,142       1%        76,897          1%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1011
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           COLFAX, NEBRASKA                                     CUMING, NEBRASKA                                 CUSTER, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       39                         9                         66                       21                       67                        16
                              Loans                           64                        12                        138                       60                      114                        41
                              Principal and Interest   4,223,409                   206,615                  7,586,808                  696,150               11,346,577                 2,495,134

WHITE                         Borrowers                       39       100%              9        100%             65         98%           21     100%              66        99%        16         100%
                              Loans                           64       100%             12        100%            135         98%           60     100%             113        99%        41         100%
                              Principal and Interest   4,223,409       100%        206,615        100%      7,437,012         98%      696,150     100%      11,296,930       100% 2,495,134         100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%            1           2%              0      0%              1          1%              0      0%
                              Loans                                0      0%                  0      0%            3           2%              0      0%              1          1%              0      0%
                              Principal and Interest               0      0%                  0      0%      149,795           2%              0      0%         49,646          0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1012
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           DAKOTA, NEBRASKA                                      DAWES, NEBRASKA                                 DAWSON, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                          1                         55                       15                       86                       25
                              Loans                           6                          1                        128                       42                      129                       49
                              Principal and Interest    512,530                     10,326                  6,749,562                  449,124               11,308,938                  722,773

WHITE                         Borrowers                       4        100%              1        100%             54         98%           15     100%              86       100%            25     100%
                              Loans                           6        100%              1        100%            126         98%           42     100%             129       100%            49     100%
                              Principal and Interest    512,530        100%         10,326        100%      6,522,934         97%      449,124     100%      11,308,938       100%       722,773     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 1      2%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%            2           2%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      226,628           3%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1013
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             DEUEL, NEBRASKA                                      DIXON, NEBRASKA                                 DODGE, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                               0                    60                       15                       82                        28
                              Loans                           6                               0                   105                       39                      195                        73
                              Principal and Interest    666,118                               0             5,500,193                  660,285               15,014,783                 1,120,297
WHITE                         Borrowers                       4        100%                   0      0%            60       100%            15     100%              82       100%        28         100%
                              Loans                           6        100%                   0      0%           105       100%            39     100%             195       100%        73         100%
                              Principal and Interest    666,118        100%                   0      0%     5,500,193       100%       660,285     100%      15,014,783       100% 1,120,297         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1014
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          DOUGLAS, NEBRASKA                                      DUNDY, NEBRASKA                              FILLMORE, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       8                           1                        21                        5                      29                        7
                              Loans                          18                           2                        42                       10                      46                       11
                              Principal and Interest    711,630                       5,843                 3,138,146                  334,180               3,619,018                  161,982
WHITE                         Borrowers                       8        100%               1       100%             21       100%             5     100%             28         97%            7     100%
                              Loans                          18        100%               2       100%             42       100%            10     100%             44         96%           11     100%
                              Principal and Interest    711,630        100%           5,843       100%      3,138,146       100%       334,180     100%      3,516,128         97%      161,982     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           3%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            2           4%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      102,890           3%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1015
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         FRANKLIN, NEBRASKA                                    FRONTIER, NEBRASKA                                FURNAS, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       30                         9                          64                        22                     30                        9
                              Loans                           59                        16                         126                        46                     47                       15
                              Principal and Interest   3,818,959                   207,759                  11,088,354                 1,617,483              4,808,335                  155,577
WHITE                         Borrowers                       29         97%             9        100%              64       100%             22    100%             30       100%             9     100%
                              Loans                           57         97%            16        100%             126       100%             46    100%             47       100%            15     100%
                              Principal and Interest   3,799,224         99%       207,759        100%      11,088,354       100%      1,617,483    100%      4,808,335       100%       155,577     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          3%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          3%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      19,736          1%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1016
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               GAGE, NEBRASKA                                    GARDEN, NEBRASKA                              GARFIELD, NEBRASKA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       148                        33                          9                         1                     14                         5
                              Loans                           317                        66                         11                         2                     51                        37
                              Principal and Interest   19,012,733                 1,974,953                  1,010,762                     6,745              4,037,033                 1,602,952

WHITE                         Borrowers                       146         99%            33        100%              9       100%              1    100%             14       100%         5         100%
                              Loans                           315         99%            66        100%             11       100%              2    100%             51       100%        37         100%
                              Principal and Interest   18,651,955         98%     1,974,953        100%      1,010,762       100%          6,745    100%      4,037,033       100% 1,602,952         100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        2           1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2           1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     360,777           2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1017
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GOSPER, NEBRASKA                                      GRANT, NEBRASKA                                GREELEY, NEBRASKA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            42                     11                             1                      0                      58                       21
                              Loans                                78                     27                             2                      0                     149                       64
                              Principal and Interest   6,829,421                    534,378                   113,320                           0             11,728,528                 1,633,075

WHITE                         Borrowers                       42        100%             11        100%             1        100%               0      0%             57         98%        20         95%
                              Loans                           78        100%             27        100%             2        100%               0      0%            146         98%        63         98%
                              Principal and Interest   6,829,421        100%        534,378        100%       113,320        100%               0      0%     11,626,514         99% 1,633,074        100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%              0      0%             1           2%              1      5%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%             3           2%              1      2%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%       102,014           1%              2      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1018
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HALL, NEBRASKA                                 HAMILTON, NEBRASKA                                 HARLAN, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                        10                         42                        12                     40                        12
                              Loans                           59                        19                        100                        47                     59                        24
                              Principal and Interest   5,412,613                   757,777                  9,579,293                 2,695,947              8,199,473                 1,049,629

WHITE                         Borrowers                       32         97%             9          90%            42       100%             12    100%             40       100%        12         100%
                              Loans                           58         98%            18          95%           100       100%             47    100%             59       100%        24         100%
                              Principal and Interest   5,345,851         99%       752,316          99%     9,579,293       100%      2,695,947    100%      8,199,473       100% 1,049,629         100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          3%              1         10%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          2%              1          5%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      66,762          1%          5,461          1%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1019
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             HAYES, NEBRASKA                                HITCHCOCK, NEBRASKA                                    HOLT, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                        20                         31                       10                      64                       14
                              Loans                          121                        44                         74                       28                     128                       33
                              Principal and Interest   8,538,951                   890,345                  6,347,723                  861,587               7,134,502                  550,403
WHITE                         Borrowers                       47       100%             20        100%             31       100%            10     100%             64       100%            14     100%
                              Loans                          121       100%             44        100%             74       100%            28     100%            128       100%            33     100%
                              Principal and Interest   8,538,951       100%        890,345        100%      6,347,723       100%       861,587     100%      7,134,502       100%       550,403     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1020
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           HOOKER, NEBRASKA                                    HOWARD, NEBRASKA                                JEFFERSON, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                         3                         59                       15                      113                        33
                              Loans                           21                        13                        131                       37                      252                       100
                              Principal and Interest   1,062,236                    97,297                  8,809,096                  969,232               16,081,913                 2,007,853
WHITE                         Borrowers                        5       100%              3        100%             59       100%            15     100%             113       100%        33         100%
                              Loans                           21       100%             13        100%            131       100%            37     100%             252       100%       100         100%
                              Principal and Interest   1,062,236       100%         97,297        100%      8,809,096       100%       969,232     100%      16,081,913       100% 2,007,853         100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1021
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          JOHNSON, NEBRASKA                                   KEARNEY, NEBRASKA                                   KEITH, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       53                         9                         22                         6                     23                         7
                              Loans                          102                        21                         28                         8                     48                        17
                              Principal and Interest   5,260,552                   547,963                  3,177,719                    39,862              4,233,641                 1,144,061
WHITE                         Borrowers                       53       100%              9        100%             21         95%             6    100%             22         96%         7        100%
                              Loans                          102       100%             21        100%             27         96%             8    100%             47         98%        17        100%
                              Principal and Interest   5,260,552       100%        547,963        100%      3,126,535         98%        39,862    100%      4,188,462         99% 1,144,061        100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%             1          5%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1          4%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%        51,184          2%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          4%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%        45,180          1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1022
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        KEYA PAHA, NEBRASKA                                    KIMBALL, NEBRASKA                                   KNOX, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       49                        23                         20                         4                     144                        30
                              Loans                          113                        59                         23                         4                     349                        87
                              Principal and Interest   6,514,180                   729,644                  2,748,678                    20,673              20,319,082                 2,560,371
WHITE                         Borrowers                       49       100%             23        100%             20       100%              4    100%             139         97%        29         97%
                              Loans                          113       100%             59        100%             23       100%              4    100%             336         96%        85         98%
                              Principal and Interest   6,514,180       100%        729,644        100%      2,748,678       100%         20,673    100%      19,188,325         94% 2,557,671        100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%              3          2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              9          3%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      1,007,922          5%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1          1%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              1          0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%         88,710          0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%              1          1%            1        3%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%              3          1%            2        2%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%         34,125          0%        2,700        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1023
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LANCASTER, NEBRASKA                                     LINCOLN, NEBRASKA                                 LOGAN, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       58                        15                          84                        28                     6                           0
                              Loans                           98                        37                         185                        69                    10                           0
                              Principal and Interest   6,084,963                   357,077                  12,935,830                 1,163,263               287,210                           0

WHITE                         Borrowers                       58       100%             15        100%              82         98%            27     96%             6        100%               0      0%
                              Loans                           98       100%             37        100%             183         99%            68     99%            10        100%               0      0%
                              Principal and Interest   6,084,963       100%        357,077        100%      12,755,900         99%     1,158,600    100%       287,210        100%               0      0%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  1      1%              1      4%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1           1%             1       1%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       111,963           1%         4,663       0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  1      1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  1      1%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%         67,967          1%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1024
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              LOUP, NEBRASKA                                   MADISON, NEBRASKA                             MCPHERSON, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                         2                         17                          0                    10                        4
                              Loans                           16                         2                         26                          0                    24                        8
                              Principal and Interest   1,963,937                    32,952                  1,715,258                          0             1,359,257                   39,594
WHITE                         Borrowers                        9       100%              2        100%             17       100%               0      0%            10       100%             4     100%
                              Loans                           16       100%              2        100%             26       100%               0      0%            24       100%             8     100%
                              Principal and Interest   1,963,937       100%         32,952        100%      1,715,258       100%               0      0%     1,359,257       100%        39,594     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1025
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MERRICK, NEBRASKA                                    MORRILL, NEBRASKA                                 NANCE, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       42                         9                         41                        12                     46                        9
                              Loans                           77                        24                         91                        36                     89                       21
                              Principal and Interest   6,372,113                   914,186                  6,164,929                 1,345,551              6,591,878                  151,272
WHITE                         Borrowers                       41         98%             9        100%             40         98%            12    100%             45         98%            9     100%
                              Loans                           75         97%            24        100%             90         99%            36    100%             87         98%           21     100%
                              Principal and Interest   6,281,419         99%       914,186        100%      6,058,950         98%     1,345,551    100%      6,457,386         98%      151,272     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%            1           2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%            1           1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%      105,980           2%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          2%                  0      0%                 0      0%              0      0%            1           2%              0      0%
                              Loans                            2          3%                  0      0%                 0      0%              0      0%            2           2%              0      0%
                              Principal and Interest      90,694          1%                  0      0%                 0      0%              0      0%      134,492           2%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1026
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           NEMAHA, NEBRASKA                                  NUCKOLLS, NEBRASKA                                     OTOE, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                        13                         44                         9                      86                        26
                              Loans                          112                        32                         81                        27                     193                        68
                              Principal and Interest   4,161,814                   196,210                  6,157,426                 1,263,460              10,309,190                 1,728,381

WHITE                         Borrowers                       47       100%             13        100%             43        98%              9    100%              86       100%        26         100%
                              Loans                          112       100%             32        100%             79        98%             27    100%             193       100%        68         100%
                              Principal and Interest   4,161,814       100%        196,210        100%      6,149,450       100%      1,263,460    100%      10,309,190       100% 1,728,381         100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%              1         2%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%              2         2%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%          7,976         0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1027
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           PAWNEE, NEBRASKA                                      PERKINS, NEBRASKA                                PHELPS, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                        13                          55                        20                     32                        4
                              Loans                           97                        33                         116                        55                     42                        8
                              Principal and Interest   4,081,862                    86,108                  13,712,953                 3,222,455              4,694,813                  410,939
WHITE                         Borrowers                       47       100%             13        100%              54         98%            20    100%             32       100%             4     100%
                              Loans                           97       100%             33        100%             114         98%            55    100%             42       100%             8     100%
                              Principal and Interest   4,081,862       100%         86,108        100%      13,574,362         99%     3,222,455    100%      4,694,813       100%       410,939     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1           2%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             2           2%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       138,591           1%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1028
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            PIERCE, NEBRASKA                                    PLATTE, NEBRASKA                                   POLK, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                         3                         49                        9                      38                        7
                              Loans                           31                         6                         93                       20                      64                       12
                              Principal and Interest   2,603,063                   172,549                  4,488,083                  173,747               6,369,332                  144,370
WHITE                         Borrowers                       20       100%              3        100%             49       100%             9     100%             38       100%             7     100%
                              Loans                           31       100%              6        100%             93       100%            20     100%             64       100%            12     100%
                              Principal and Interest   2,603,063       100%        172,549        100%      4,488,083       100%       173,747     100%      6,369,332       100%       144,370     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1029
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RED WILLOW, NEBRASKA                                 RICHARDSON, NEBRASKA                                  ROCK, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       50                        16                         51                        9                      31                       12
                              Loans                          105                        31                         97                       23                      76                       34
                              Principal and Interest   7,981,119                 1,154,087                  4,942,748                  158,592               5,386,462                  986,871
WHITE                         Borrowers                       50       100%             16        100%             51       100%             9     100%             31       100%            12     100%
                              Loans                          105       100%             31        100%             97       100%            23     100%             76       100%            34     100%
                              Principal and Interest   7,981,119       100%      1,154,087        100%      4,942,748       100%       158,592     100%      5,386,462       100%       986,871     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1030
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SALINE, NEBRASKA                                      SARPY, NEBRASKA                              SAUNDERS, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       50                        11                         11                         2                      83                       22
                              Loans                          109                        29                         22                         3                     141                       31
                              Principal and Interest   6,724,856                   676,514                  1,658,811                    11,798              10,770,609                  948,816

WHITE                         Borrowers                       50       100%             11        100%             11       100%              2    100%              83       100%            22     100%
                              Loans                          109       100%             29        100%             22       100%              3    100%             141       100%            31     100%
                              Principal and Interest   6,724,856       100%        676,514        100%      1,658,811       100%         11,798    100%      10,770,609       100%       948,816     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1031
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SCOTTS BLUFF, NEBRASKA                                   SEWARD, NEBRASKA                              SHERIDAN, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       70                        23                         47                       11                      55                       17
                              Loans                          135                        44                         75                       22                     116                       44
                              Principal and Interest   7,296,460                 1,241,941                  7,173,608                  659,571               5,955,533                  773,199
WHITE                         Borrowers                       67         96%            22          96%            47       100%            11     100%             53         96%           17     100%
                              Loans                          125         93%            40          91%            75       100%            22     100%            112         97%           44     100%
                              Principal and Interest   6,888,835         94%     1,051,699          85%     7,173,608       100%       659,571     100%      5,780,248         97%      773,199     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%            1           2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%            2           2%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%      145,056           2%              0      0%
ASIAN                         Borrowers                        1          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       6,316          0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%             1          2%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%             2          2%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%        30,229          1%              0      0%
HISPANIC                      Borrowers                       2           3%             1           4%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           8           6%             4           9%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest    401,310           6%       190,243          15%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1032
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SHERMAN, NEBRASKA                                  SIOUX, N1/2, NEBRASKA                            SIOUX, S1/2, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       23                         9                         14                        3                      8                         3
                              Loans                           51                        18                         41                       20                     15                         3
                              Principal and Interest   3,277,786                   265,307                  2,732,897                  504,015                428,986                    14,992

WHITE                         Borrowers                       22         96%             9        100%             14       100%             3     100%             8        100%             3     100%
                              Loans                           49         96%            18        100%             41       100%            20     100%            15        100%             3     100%
                              Principal and Interest   3,178,057         97%       265,307        100%      2,732,897       100%       504,015     100%       428,986        100%        14,992     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          4%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      99,729          3%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1033
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          STANTON, NEBRASKA                                      THAYER, NEBRASKA                                THOMAS, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       42                        12                          87                        24                     4                         2
                              Loans                           88                        30                         150                        46                     7                         5
                              Principal and Interest   6,292,719                   331,376                  10,472,556                 1,453,867               523,529                    54,926

WHITE                         Borrowers                       42       100%             12        100%              87       100%             24    100%             3          75%            2     100%
                              Loans                           88       100%             30        100%             150       100%             46    100%             6          86%            5     100%
                              Principal and Interest   6,292,719       100%        331,376        100%      10,472,556       100%      1,453,867    100%       336,684          64%       54,926     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 1     25%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 1     14%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%      186,844          36%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1034
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         THURSTON, NEBRASKA                                     VALLEY, NEBRASKA                             WASHINGTON, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       43                        18                         51                        8                       91                       29
                              Loans                           86                        33                         96                       18                      165                       51
                              Principal and Interest   5,160,143                   492,692                  8,303,131                  125,056               14,353,275                  911,446
WHITE                         Borrowers                       40         93%            18        100%             51       100%             8     100%              91       100%            29     100%
                              Loans                           82         95%            33        100%             96       100%            18     100%             165       100%            51     100%
                              Principal and Interest   4,783,923         93%       492,692        100%      8,303,131       100%       125,056     100%      14,353,275       100%       911,446     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                       2           5%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                           3           3%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest    288,527           6%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                        1          2%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                            1          1%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest      87,693          2%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1035
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            WAYNE, NEBRASKA                                    WEBSTER, NEBRASKA                              WHEELER, NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       60                        19                         48                       14                      19                        2
                              Loans                          123                        39                         79                       25                      33                        6
                              Principal and Interest   6,611,967                   720,940                  6,364,846                  535,965               2,901,626                   21,514

WHITE                         Borrowers                       59         98%            19        100%             48       100%            14     100%             19       100%             2     100%
                              Loans                          121         98%            39        100%             79       100%            25     100%             33       100%             6     100%
                              Principal and Interest   6,513,786         99%       720,940        100%      6,364,846       100%       535,965     100%      2,901,626       100%        21,514     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            2          2%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      98,181          1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1036
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              YORK, NEBRASKA                                     STATE OF NEBRASKA
                                                       Portfolio       Percent   Delinquent       Percent     Portfolio   Percent    Delinquent   Percent
TOTAL                         Borrowers                       50                        13                        4,224                  1,177
                              Loans                           91                        34                        8,529                  2,831
                              Principal and Interest   9,122,524                   815,755                  599,889,512             67,999,688
WHITE                         Borrowers                       50       100%             13        100%            4,185     99%      1,170         99%
                              Loans                           91       100%             34        100%            8,452     99%      2,817        100%
                              Principal and Interest   9,122,524       100%        815,755        100%      594,811,879     99% 67,753,652        100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              2       0%               1      0%
                              Loans                                0      0%                  0      0%              5       0%               1      0%
                              Principal and Interest               0      0%                  0      0%        240,605       0%               2      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%               9      0%              2       0%
                              Loans                                0      0%                  0      0%              23      0%              4       0%
                              Principal and Interest               0      0%                  0      0%       2,292,436      0%         42,491       0%
ASIAN                         Borrowers                            0      0%                  0      0%              2       0%               0      0%
                              Loans                                0      0%                  0      0%              3       0%               0      0%
                              Principal and Interest               0      0%                  0      0%        112,296       0%               0      0%
OTHER                         Borrowers                            0      0%                  0      0%              19      0%              2       0%
                              Loans                                0      0%                  0      0%              31      0%              3       0%
                              Principal and Interest               0      0%                  0      0%       1,609,176      0%         10,603       0%
HISPANIC                      Borrowers                            0      0%                  0      0%              7       0%             2        0%
                              Loans                                0      0%                  0      0%             15       0%             6        0%
                              Prinicpal and Interest               0      0%                  0      0%        823,119       0%       192,943        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                         Page 1037
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE BOONE                 Approved   No. of Applications             28        28   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     26                     0                   0                0                0
                                      Completion to Approval                    21                     0                   0                0                0
                                      Approval to Loan Closing                  38                     0                   0                0                0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    28                      0                   0                0               0
                                      Completion to Rejected                    9                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      8                      0                   0                0               0
                                     Completion to Withdrawn                   10                      0                   0                0               0

 NE    BUFFALO             Approved   No. of Applications            22        22    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    35                      0                   0                0               0
                                      Completion to Approval                   16                      0                   0                0               0
                                      Approval to Loan Closing                 41                      0                   0                0               0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     7                      0                   0                0               0
                                      Completion to Rejected                   24                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 NE    BUTLER              Approved   No. of Applications            16        16    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    33                      0                   0                0               0
                                      Completion to Approval                    9                      0                   0                0               0
                                      Approval to Loan Closing                 44                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   107                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     45                      0                   0                0               0
                                     Completion to Withdrawn                   21                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1038
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE CEDAR                 Approved   No. of Applications             25        25   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     26                     0                   0                0                0
                                      Completion to Approval                     4                     0                   0                0                0
                                      Approval to Loan Closing                  33                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              6         6    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     19                      0                   0                0               0
                                     Completion to Withdrawn                   20                      0                   0                0               0

 NE    CH0Y                Approved   No. of Applications            28        26    93%               0   0%          2       7%           0   0%          0      0%
                                      Receipt to Completion                    94                      0             119                    0               0
                                      Completion to Approval                    1                      0               0                    0               0
                                      Approval to Loan Closing                 35                      0              23                    0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications             18        18    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     31                      0                   0                0               0
                                     Completion to Withdrawn                   12                      0                   0                0               0

 NE    CLAY                Approved   No. of Applications             6         6    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    37                      0                   0                0               0
                                      Completion to Approval                   23                      0                   0                0               0
                                      Approval to Loan Closing                 74                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1039
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE CUMING                Approved   No. of Applications             16        16   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     17                     0                   0                0                0
                                      Completion to Approval                    13                     0                   0                0                0
                                      Approval to Loan Closing                  61                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    31                      0                   0                0               0
                                      Completion to Rejected                   30                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     23                      0                   0                0               0
                                     Completion to Withdrawn                   84                      0                   0                0               0

 NE    CUSTER              Approved   No. of Applications            40        40    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    26                      0                   0                0               0
                                      Completion to Approval                   26                      0                   0                0               0
                                      Approval to Loan Closing                 40                      0                   0                0               0

                           Rejected   No. of Applications            11        11    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications             15        15    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      8                      0                   0                0               0
                                     Completion to Withdrawn                   26                      0                   0                0               0

 NE    DAWES               Approved   No. of Applications            28        28    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    52                      0                   0                0               0
                                      Completion to Approval                    1                      0                   0                0               0
                                      Approval to Loan Closing                 24                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              5         4    80%               0   0%              0   0%           0   0%          1     20%
                                     Receipt to Completion                     90                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1040
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  NE DAWSON                Approved   No. of Applications                8        8      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      19                        0                   0                0                0
                                      Completion to Approval                     18                        0                   0                0                0
                                      Approval to Loan Closing                   28                        0                   0                0                0

                           Rejected   No. of Applications                3           3   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 4           4   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           7                     0                   0                0               0
                                     Completion to Withdrawn                         9                     0                   0                0               0

 NE    DODGE               Approved   No. of Applications            31          31      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       9                        0                   0                0               0
                                      Completion to Approval                     21                        0                   0                0               0
                                      Approval to Loan Closing                   52                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       15                        0                   0                0               0
                                     Completion to Withdrawn                    458                        0                   0                0               0

 NE    GAGE                Approved   No. of Applications            13          13      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      50                        0                   0                0               0
                                      Completion to Approval                     10                        0                   0                0               0
                                      Approval to Loan Closing                   18                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1041
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE HALL                  Approved   No. of Applications             22        22   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     20                     0                   0                0                0
                                      Completion to Approval                    17                     0                   0                0                0
                                      Approval to Loan Closing                  59                     0                   0                0                0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    14                      0                   0                0               0
                                      Completion to Rejected                   26                      0                   0                0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 NE    HOLT                Approved   No. of Applications            20        20    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     5                      0                   0                0               0
                                      Completion to Approval                    3                      0                   0                0               0
                                      Approval to Loan Closing                 65                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     49                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 NE    JEFFERSON           Approved   No. of Applications            22        22    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    28                      0                   0                0               0
                                      Completion to Approval                    9                      0                   0                0               0
                                      Approval to Loan Closing                 34                      0                   0                0               0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     16                      0                   0                0               0
                                     Completion to Withdrawn                   14                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1042
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State   Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE KEITH                  Approved   No. of Applications             13        13   100%              0   0%              0   0%           0   0%           0     0%
                                       Receipt to Completion                     26                     0                   0                0                0
                                       Completion to Approval                    20                     0                   0                0                0
                                       Approval to Loan Closing                  23                     0                   0                0                0

                            Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications              5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      0                      0                   0                0               0
                                      Completion to Withdrawn                    0                      0                   0                0               0

 NE    KNOX                 Approved   No. of Applications            43        42    98%               0   0%          1       2%           0   0%          0      0%
                                       Receipt to Completion                    18                      0               9                    0               0
                                       Completion to Approval                   17                      0              14                    0               0
                                       Approval to Loan Closing                 29                      0              51                    0               0

                            Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     14                      0                   0                0               0
                                      Completion to Withdrawn                   24                      0                   0                0               0

 NE    LANCASTER            Approved   No. of Applications             9         9    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    56                      0                   0                0               0
                                       Completion to Approval                   17                      0                   0                0               0
                                       Approval to Loan Closing                 41                      0                   0                0               0

                            Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    14                      0                   0                0               0
                                       Completion to Rejected                   24                      0                   0                0               0

                            Withdrawn No. of Applications              7         6    86%               0   0%              0   0%           0   0%          1     14%
                                      Receipt to Completion                      2                      0                   0                0               0
                                      Completion to Withdrawn                   35                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1043
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African             Native
 State   Servicing Office   Decision           Average Days       Total     White              American            American            Asian            Hispanic
  NE LINCOLN                Approved   No. of Applications             10        9      90%               0   0%              0   0%           0   0%           1    10%
                                       Receipt to Completion                    21                        0                   0                0                0
                                       Completion to Approval                   20                        0                   0                0                3
                                       Approval to Loan Closing                 79                        0                   0                0              88

                            Rejected   No. of Applications             1            1   100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                        0                     0                   0                0               0
                                       Completion to Rejected                       0                     0                   0                0               0

                            Withdrawn No. of Applications              7         7      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     11                        0                   0                0               0
                                      Completion to Withdrawn                    5                        0                   0                0               0

 NE    MADISON              Approved   No. of Applications             2         2      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    13                        0                   0                0               0
                                       Completion to Approval                   19                        0                   0                0               0
                                       Approval to Loan Closing                 42                        0                   0                0               0

                            Rejected   No. of Applications             5         5      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    32                        0                   0                0               0
                                       Completion to Rejected                   42                        0                   0                0               0

                            Withdrawn No. of Applications              1         1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     56                        0                   0                0               0
                                      Completion to Withdrawn                   85                        0                   0                0               0

 NE    NEMAHA               Approved   No. of Applications             9         9      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    30                        0                   0                0               0
                                       Completion to Approval                   21                        0                   0                0               0
                                       Approval to Loan Closing                 45                        0                   0                0               0

                            Rejected   No. of Applications             3         3      100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    50                        0                   0                0               0
                                       Completion to Rejected                    3                        0                   0                0               0

                            Withdrawn No. of Applications              0            0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                         0                     0                   0                0               0
                                      Completion to Withdrawn                       0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1044
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  NE OTOE                  Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      25                        0                   0                0                0
                                      Completion to Approval                     49                        0                   0                0                0
                                      Approval to Loan Closing                   45                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 NE    PHELPS              Approved   No. of Applications                6        6      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      45                        0                   0                0               0
                                      Completion to Approval                     24                        0                   0                0               0
                                      Approval to Loan Closing                   54                        0                   0                0               0

                           Rejected   No. of Applications                1           1   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 3           3   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 NE    PLATTE              Approved   No. of Applications            22          22      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      20                        0                   0                0               0
                                      Completion to Approval                      2                        0                   0                0               0
                                      Approval to Loan Closing                   35                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1045
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE RED WILLOW            Approved   No. of Applications             19        19   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     24                     0                   0                0                0
                                      Completion to Approval                     6                     0                   0                0                0
                                      Approval to Loan Closing                  21                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     10                      0                   0                0               0
                                     Completion to Withdrawn                   27                      0                   0                0               0

 NE    SAUNDERS            Approved   No. of Applications            18        18    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    34                      0                   0                0               0
                                      Completion to Approval                   11                      0                   0                0               0
                                      Approval to Loan Closing                 59                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 NE    SCOTTS BLUFF        Approved   No. of Applications            43        41    95%               0   0%              0   0%           0   0%          2      5%
                                      Receipt to Completion                     8                      0                   0                0              46
                                      Completion to Approval                   24                      0                   0                0               1
                                      Approval to Loan Closing                 24                      0                   0                0              56

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      4                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1046
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  NE WAYNE                 Approved   No. of Applications             16        15   94%               0   0%              0   0%           0   0%           1     6%
                                      Receipt to Completion                     27                     0                   0                0              23
                                      Completion to Approval                    13                     0                   0                0                6
                                      Approval to Loan Closing                  25                     0                   0                0              17

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                  348                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 NE    WEBSTER             Approved   No. of Applications            12        12    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    22                      0                   0                0               0
                                      Completion to Approval                   22                      0                   0                0               0
                                      Approval to Loan Closing                 38                      0                   0                0               0

                           Rejected   No. of Applications            12        12    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     8                      0                   0                0               0
                                      Completion to Rejected                    8                      0                   0                0               0

                           Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     11                      0                   0                0               0
                                     Completion to Withdrawn                    8                      0                   0                0               0

 NE    YORK                Approved   No. of Applications            14        14    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    40                      0                   0                0               0
                                      Completion to Approval                    7                      0                   0                0               0
                                      Approval to Loan Closing                 60                      0                   0                0               0

                           Rejected   No. of Applications             6         6    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     4                      0                   0                0               0
                                      Completion to Rejected                    3                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1047
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  NE STATE                 Approved   No. of Applications           568      561    99%               0   0%          3       1%           0   0%           4     1%
                                      Receipt to Completion                    28                     0              82                    0              29
                                      Completion to Approval                   14                     0               5                    0                3
                                      Approval to Loan Closing                 39                     0              32                    0              54

                           Rejected   No. of Applications            70       70    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   12                      0                   0                0               0
                                      Completion to Rejected                  15                      0                   0                0               0

                           Withdrawn No. of Applications            121      119    98%               0   0%              0   0%           0   0%          2      2%
                                     Receipt to Completion                    17                      0                   0                0               0
                                     Completion to Withdrawn                  18                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1048
                            Demographics         1050
                        FSA’s Loan Portfolio     1053
                        FSA’s Application data   1059




USDA/OIG-A/50801-4-Hq                                   1049
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian                  Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          NV                 Population        17,938        15,430     86%           200         1%        843      5%        450          3%              7      0%      1,008       6%
          Churchill County   Borrowers             19            15     79%             0         0%          3     16%          0          0%              0      0%          1       5%
                             Farms                529           496     94%             0         0%         11      2%          0          0%              9      2%         13       2%
                             Land in Farms    268,043       262,486     98%             0         0%      4,497      2%          0          0%              0      0%      1,060       0%

          NV                 Population       741,459       558,875    75%         68,858         9%      5,514      1%     24,483          3%        825         0%      82,904       11%
          Clark County       Borrowers              1             0     0%              0         0%          0      0%          0          0%          1       100%           0        0%
                             Farms                223           201    90%              4         2%          7      3%          0          0%          4         2%           7        3%
                             Land in Farms     82,100        81,796   100%              0         0%          0      0%          0          0%        244         0%          60        0%

          NV                 Population        27,637        25,019    91%             81         0%        538      2%        340          1%              7      0%      1,652       6%
          Douglas County     Borrowers              3             3   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                             Farms                172           160    93%              0         0%          7      4%          0          0%              0      0%          5       3%
                             Land in Farms     79,635        79,555   100%              0         0%          0      0%          0          0%              0      0%         80       0%

          NV                 Population         33,530       26,730     80%           249         1%      1,919      6%        265          1%         28          0%      4,339       13%
          Elko County        Borrowers              20           16     80%             0         0%          3     15%          1          5%          0          0%          0        0%
                             Farms                 360          325     90%             0         0%         22      6%          0          0%          0          0%         13        4%
                             Land in Farms   3,149,788    3,122,132     99%             0         0%          0      0%          0          0%          0          0%     27,656        1%

          NV                 Population          1,344        1,137    85%                 7      1%         67      5%              8      1%              0      0%        125       9%
          Esmeralda County   Borrowers               3            3   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Farms                  23           23   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms   1,949,420    1,949,420   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

          NV                 Population         1,547         1,354    88%                 5      0%         40      3%         10          1%              0      0%        138       9%
          Eureka County      Borrowers             33            31    94%                 0      0%          0      0%          0          0%              0      0%          2       6%
                             Farms                 79            79   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms    235,826       235,826   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

          NV                 Population        12,844         9,721     76%            70         1%        656      5%         53          0%          9          0%      2,335       18%
          Humboldt County    Borrowers             25            21     84%             0         0%          3     12%          0          0%          0          0%          1        4%
                             Farms                200           183     92%             0         0%          0      0%          0          0%          4          2%         13        7%
                             Land in Farms    738,041       711,233     96%             0         0%          0      0%          0          0%      1,667          0%     25,141        3%

          NV                 Population         6,266         5,200    83%                 9      0%        248      4%         14          0%              6      0%        789       13%
          Lander County      Borrowers              9             9   100%                 0      0%          0      0%          0          0%              0      0%          0        0%
                             Farms                 72            72   100%                 0      0%          0      0%          0          0%              0      0%          0        0%
                             Land in Farms    494,304       494,304   100%                 0      0%          0      0%          0          0%              0      0%          0        0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1050
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          NV                  Population        3,775        3,463    92%             79         2%         58      2%         16      0%              3      0%        156        4%
          Lincoln County      Borrowers             5            4    80%              0         0%          0      0%          0      0%              0      0%          1       20%
                              Farms               122          122   100%              0         0%          0      0%          0      0%              0      0%          0        0%
                              Land in Farms    48,968       48,968   100%              0         0%          0      0%          0      0%              0      0%          0        0%

          NV                  Population       20,001       17,707    89%             65         0%        572      3%        140      1%              6      0%      1,511       8%
          Lyon County         Borrowers            13           11    85%              0         0%          1      8%          1      8%              0      0%          0       0%
                              Farms               323          311    96%              0         0%          3      1%          3      1%              0      0%          6       2%
                              Land in Farms   189,223      188,463   100%              0         0%          0      0%          0      0%              0      0%        760       0%

          NV                  Population        6,475        4,871     75%           343         5%        645    10%          66      1%              4      0%        546        8%
          Mineral County      Borrowers             4            0      0%             0         0%          4   100%           0      0%              0      0%          0        0%
                              Farms                37           17     46%             0         0%         15    41%           0      0%              0      0%          5       14%
                              Land in Farms         0            0                     0                     0                  0                      0                  0

          NV                  Population       17,781       15,635     88%           274         2%        475      3%        148      1%         12          0%      1,237       7%
          Nye County          Borrowers            12            9     75%             0         0%          3     25%          0      0%          0          0%          0       0%
                              Farms               155          137     88%             2         1%         16     10%          0      0%          0          0%          0       0%
                              Land in Farms   140,380      133,357     95%             0         0%      7,023      5%          0      0%          0          0%          0       0%

          NV                  Population        4,336        3,442    79%             13         0%        192      4%         25      1%              2      0%        662       15%
          Pershing County     Borrowers            17           17   100%              0         0%          0      0%          0      0%              0      0%          0        0%
                              Farms               128          122    95%              0         0%          0      0%          0      0%              0      0%          6        5%
                              Land in Farms   624,606      624,606   100%              0         0%          0      0%          0      0%              0      0%          0        0%

          NV                  Population        2,526        2,345    93%                 8      0%         45      2%         29      1%              3      0%         96       4%
          Storey County       Borrowers             0            0     0%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms                 6            6   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms         0            0     0%                 0      0%          0      0%          0      0%              0      0%          0       0%

          NV                  Population      254,667      212,416    83%          5,414         2%      4,380      2%      9,270      4%        228          0%     22,959       9%
          Washoe County       Borrowers            12            7    58%              0         0%          2     17%          2     17%          1          8%          0       0%
                              Farms               313          291    93%              0         0%          9      3%          0      0%          4          1%          9       3%
                              Land in Farms   710,618      710,047   100%              0         0%          0      0%          0      0%        204          0%        367       0%

          NV                  Population        9,264        7,928    86%            178         2%        262      3%         33      0%         11          0%        852       9%
          White Pine County   Borrowers            13           10    77%              0         0%          0      0%          1      8%          2         15%          0       0%
                              Farms               120          117    98%              0         0%          0      0%          0      0%          0          0%          3       3%
                              Land in Farms   231,758      231,758   100%              0         0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1051
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian              Other             Hispanic
                                            Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
          NV              Population        40,443        35,084    87%            650      2%      1,026      3%        547      1%         26      0%       3,110      8%
          Carson City     Borrowers              0             0     0%              0      0%          0      0%          0      0%          0      0%           0      0%
                          Farms                 28            28   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                          Land in Farms      5,361         5,361   100%              0      0%          0      0%          0      0%          0      0%           0      0%

          NV              Population      1,201,833      946,357     79%        76,503      6%     17,480      1%     35,897      3%      1,177      0%     124,419      10%
          STATE           Borrowers             189          156     83%             0      0%         19     10%          5      3%          4      2%           5       3%
                          Farms               2,890        2,690     93%             6      0%         90      3%          3      0%         21      1%          80       3%
                          Land in Farms   8,948,071    8,879,312     99%             0      0%     11,520      0%          0      0%      2,115      0%      55,124       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                 Page 1052
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CHURCHILL, NEVADA                                     CLARK, NEVADA                                  DOUGLAS, NEVADA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       19                         5                    1                            0                    3                           1
                              Loans                           39                         6                    2                            0                    3                           1
                              Principal and Interest   3,191,338                    66,236              240,978                            0              257,055                       1,668

WHITE                         Borrowers                       15        79%              3     60%                  0      0%              0      0%            3        100%               1       100%
                              Loans                           30        77%              3     50%                  0      0%              0      0%            3        100%               1       100%
                              Principal and Interest   2,560,180        80%         49,650     75%                  0      0%              0      0%      257,055        100%           1,668       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            3    16%               2    40%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                           4         10%              3     50%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    422,430         13%         16,586     25%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%           1         100%               0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%           2         100%               0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%     240,978         100%               0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            1     5%               0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                5    13%               0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest    208,728           7%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1053
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               ELKO, NEVADA                              ESMERALDA, NEVADA                                     EUREKA, NEVADA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       20                        7                     3                          1                      33                        10
                              Loans                           31                       11                     6                          2                     114                        36
                              Principal and Interest   2,178,762                  125,936               282,732                     13,080               6,912,616                   862,261

WHITE                         Borrowers                       16        80%             5      71%            3         100%             1     100%             31        94%              9         90%
                              Loans                           27        87%             9      82%            6         100%             2     100%            102        89%             27         75%
                              Principal and Interest   1,915,915        88%       107,108      85%      282,732         100%        13,080     100%      6,417,799        93%        638,198         74%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            3    15%               2    29%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                           3         10%              2     18%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    148,600          7%         18,827     15%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                       1           5%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                           1           3%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    114,247           5%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%              2        6%                   1    10%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             12       11%                   9    25%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%      494,817           7%       224,063         26%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1054
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          HUMBOLDT, NEVADA                                   LANDER,N, NEVADA                                  LINCOLN, NEVADA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       25                        7                       9                         1                       5                         3
                              Loans                           52                       16                      17                         1                      11                         6
                              Principal and Interest   4,300,045                  362,827               1,288,913                    20,190               1,572,363                   598,025
WHITE                         Borrowers                       21        84%             4      57%              9        100%             1     100%              4        80%              3        100%
                              Loans                           44        85%             9      56%             17        100%             1     100%              9        82%              6        100%
                              Principal and Interest   3,765,864        88%       158,763      44%      1,288,913        100%        20,190     100%      1,547,677        98%        598,025        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                       3         12%             3      43%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                           7         13%             7      44%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    384,029          9%       204,064      56%                   0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                       1           4%              0      0%                  0      0%              0      0%            1         20%                   0      0%
                              Loans                           1           2%              0      0%                  0      0%              0      0%            2         18%                   0      0%
                              Prinicpal and Interest    150,152           3%              0      0%                  0      0%              0      0%       24,686          2%                   0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1055
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              LYON,N, NEVADA                                MINERAL, NEVADA                                          NYE, NEVADA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       13                         2                     4                          1                     11                         4
                              Loans                           21                         3                     6                          2                     24                        11
                              Principal and Interest   1,542,286                    17,387                99,217                      5,346              2,019,966                   383,194

WHITE                         Borrowers                       11        85%              2    100%                  0      0%              0      0%             8        73%              2         50%
                              Loans                           18        86%              3    100%                  0      0%              0      0%            21        88%              9         82%
                              Principal and Interest   1,005,724        65%         17,387    100%                  0      0%              0      0%     1,610,206        80%        358,776         94%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1      8%              0      0%                 4   100%               1   100%                  3    27%                   2    50%
                              Loans                            1          5%              0      0%            6        100%              2    100%             3         13%              2         18%
                              Principal and Interest      14,374          1%              0      0%       99,217        100%          5,346    100%       409,760         20%         24,418          6%

ASIAN                         Borrowers                       1          8%               0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                           2         10%               0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    522,189         34%               0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1056
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               NYE,W, NEVADA                                 PERSHING, NEVADA                                   WASHOE, NEVADA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       1                          1                     17                          2                     12                         3
                              Loans                           1                          1                     44                          2                     20                         8
                              Principal and Interest    235,101                     11,971              2,961,047                        607              4,122,205                 1,116,396
WHITE                         Borrowers                       1        100%              1    100%             17        100%              2    100%              7        58%              1         33%
                              Loans                           1        100%              1    100%             44        100%              2    100%              8        40%              1         13%
                              Principal and Interest    235,101        100%         11,971    100%      2,961,047        100%            607    100%      1,383,595        34%         39,045          3%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%            2         17%                   0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%            4         20%                   0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      210,766          5%                   0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%             2        17%              1         33%
                              Loans                                0      0%              0      0%                  0      0%              0      0%             5        25%              4         50%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%     1,756,032        43%        801,830         72%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%            1          8%              1         33%
                              Loans                                0      0%              0      0%                  0      0%              0      0%            3         15%              3         38%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%      771,812         19%        275,521         25%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1057
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WHITE PINE, NEVADA                                    STATE OF NEVADA
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                        6                      189                         54
                              Loans                           28                       18                      419                        124
                              Principal and Interest   2,891,600                  972,824               34,096,224                  4,557,948

WHITE                         Borrowers                       10        77%             5      83%             156         83%        40          74%
                              Loans                           19        68%            11      61%             349         83%        85          69%
                              Principal and Interest   2,548,775        88%       781,647      80%      27,780,583         81% 2,796,115          61%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%               19       10%              10    19%
                              Loans                                0      0%              0      0%             28           7%           16      13%
                              Principal and Interest               0      0%              0      0%      1,689,176           5%      269,241       6%

ASIAN                         Borrowers                       1          8%             1      17%               5           3%            2       4%
                              Loans                           7         25%             7      39%              15           4%           11       9%
                              Principal and Interest    289,689         10%       191,177      20%       2,682,157           8%      993,007      22%

OTHER                         Borrowers                        2        15%               0      0%              4           2%            1        2%
                              Loans                            2         7%               0      0%              7           2%            3        2%
                              Principal and Interest      53,136         2%               0      0%      1,065,926           3%      275,521        6%

HISPANIC                      Borrowers                            0      0%              0      0%                5         3%              1      2%
                              Loans                                0      0%              0      0%               20         5%              9      7%
                              Prinicpal and Interest               0      0%              0      0%       878,383            3%      224,063        5%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                        Page 1058
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American              Asian            Hispanic
  NV CHURCHILL             Approved   No. of Applications             21        17   81%               0   0%          4       19%            0   0%           0     0%
                                      Receipt to Completion                     33                     0              48                      0                0
                                      Completion to Approval                    23                     0              25                      0                0
                                      Approval to Loan Closing                  31                     0              43                      0                0

                           Rejected   No. of Applications             1         0     0%               0   0%              1   100%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                  0               0
                                      Completion to Rejected                    0                      0                   0                  0               0

                           Withdrawn No. of Applications              4         0     0%               0   0%          4       100%           0   0%          0      0%
                                     Receipt to Completion                      0                      0              10                      0               0
                                     Completion to Withdrawn                    0                      0               4                      0               0

 NV    ELKO                Approved   No. of Applications             3         3    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    44                      0                   0                  0               0
                                      Completion to Approval                    7                      0                   0                  0               0
                                      Approval to Loan Closing                116                      0                   0                  0               0

                           Rejected   No. of Applications             2         2    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    27                      0                   0                  0               0
                                      Completion to Rejected                   27                      0                   0                  0               0

                           Withdrawn No. of Applications              2         1    50%               0   0%          1       50%            0   0%          0      0%
                                     Receipt to Completion                      0                      0              11                      0               0
                                     Completion to Withdrawn                    0                      0              44                      0               0

 NV    HUMBOLDT            Approved   No. of Applications            17        17    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    43                      0                   0                  0               0
                                      Completion to Approval                   30                      0                   0                  0               0
                                      Approval to Loan Closing                 64                      0                   0                  0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0    0%            0   0%          0      0%
                                      Receipt to Completion                    30                      0                   0                  0               0
                                      Completion to Rejected                   29                      0                   0                  0               0

                           Withdrawn No. of Applications              5         5    100%              0   0%              0    0%            0   0%          0      0%
                                     Receipt to Completion                     36                      0                   0                  0               0
                                     Completion to Withdrawn                   30                      0                   0                  0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1059
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total     White           American            American             Asian            Hispanic
  NV STATE                 Approved   No. of Applications             41        37   90%              0   0%          4       10%           0   0%           0     0%
                                      Receipt to Completion                     38                    0              48                     0                0
                                      Completion to Approval                    25                    0              25                     0                0
                                      Approval to Loan Closing                  53                    0              43                     0                0

                           Rejected   No. of Applications             4         3    75%              0   0%              1   25%           0   0%          0      0%
                                      Receipt to Completion                    28                     0                   0                 0               0
                                      Completion to Rejected                   28                     0                   0                 0               0

                           Withdrawn No. of Applications             11         6    55%              0   0%          5       45%           0   0%          0      0%
                                     Receipt to Completion                     30                     0              10                     0               0
                                     Completion to Withdrawn                   25                     0              12                     0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1060
                            Demographics         1062
                        FSA’s Loan Portfolio     1064
                        FSA’s Application data   1068




USDA/OIG-A/50801-4-Hq                                   1061
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                              Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
           NH                 Population       49,216       48,581    99%             62      0%        102      0%        214      0%         12          0%        245       0%
           Belknap County     Borrowers             4            4   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               147          147   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    20,910       20,910   100%              0      0%          0      0%          0      0%          0          0%          0       0%

           NH                 Population       35,410       35,039    99%             64      0%         59      0%        106      0%         10          0%        132       0%
           Carroll County     Borrowers             3            3   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               155          155   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    25,439       25,439   100%              0      0%          0      0%          0      0%          0          0%          0       0%

           NH                 Population       70,121       69,130    99%            201      0%        145      0%        295      0%         16          0%        334       0%
           Cheshire County    Borrowers             6            6   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               219          219   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    33,935       33,935   100%              0      0%          0      0%          0      0%          0          0%          0       0%

           NH                 Population       34,828       34,449    99%             33      0%         62     0%         129      0%              5      0%        150       0%
           Coos County        Borrowers            22           19    86%              0      0%          3    14%           0      0%              0      0%          0       0%
                              Farms               173          173   100%              0      0%          0     0%           0      0%              0      0%          0       0%
                              Land in Farms    46,056       46,056   100%              0      0%          0     0%           0      0%              0      0%          0       0%

           NH                 Population       74,929       72,915    97%            384      1%        184      0%        826      1%         21          0%        599       1%
           Grafton County     Borrowers            26           24    92%              0      0%          1      4%          0      0%          0          0%          1       4%
                              Farms               348          343    99%              0      0%          0      0%          0      0%          0          0%          5       1%
                              Land in Farms    75,733       75,733   100%              0      0%          0      0%          0      0%          0          0%          0       0%

           NH                  Population     336,073      323,113    96%          2,738      1%        575      0%      3,762      1%        189          0%      5,696       2%
           Hillsborough County Borrowers            7            7   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                               Farms              328          328   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms    39,844       39,844   100%              0      0%          0      0%          0      0%          0          0%          0       0%

           NH               Population        120,005      117,997    98%            415      0%        211      0%        572      0%         30          0%        780       1%
           Merrimack County Borrowers              12           12   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Farms                 346          346   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms      46,610       46,610   100%              0      0%          0      0%          0      0%          0          0%          0       0%

           NH                Population       245,845      238,500    97%          2,232      1%        383      0%      2,233      1%        102          0%      2,395       1%
           Rockingham County Borrowers             20           20   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms                339          339   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms     34,292       34,292   100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1062
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian              Other                 Hispanic
                                                Total       Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
           NH                 Population       104,233       101,668    98%            559      1%        194     0%         922      1%         53          0%        837       1%
           Strafford County   Borrowers              9             8    89%              0      0%          1    11%           0      0%          0          0%          0       0%
                              Farms                202           202   100%              0      0%          0     0%           0      0%          0          0%          0       0%
                              Land in Farms     24,716        24,716   100%              0      0%          0     0%           0      0%          0          0%          0       0%

           NH                 Population        38,592        38,092    99%             61      0%        127      0%        138      0%              9      0%        165       0%
           Sullivan County    Borrowers             11            11   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms                188           184    98%              0      0%          0      0%          0      0%              0      0%          4       2%
                              Land in Farms     38,297        38,297   100%              0      0%          0      0%          0      0%              0      0%          0       0%

           NH                 Population      1,109,252    1,079,484    97%          6,749      1%      2,042      0%      9,197      1%        447          0%     11,333       1%
           STATE              Borrowers             120          114    95%              0      0%          5      4%          0      0%          0          0%          1       1%
                              Farms               2,445        2,436   100%              0      0%          0      0%          0      0%          0          0%          9       0%
                              Land in Farms     385,832      385,832   100%              0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1063
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BELKNAP, NEW HAMPSIRE                                CARROLL, NEW HAMPSIRE                                CHESHIRE, NEW HAMPSIRE
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                          0                         3                          0                          6                          1
                              Loans                                5                          0                         4                          0                         14                          1
                              Principal and Interest     127,666                              0               296,569                              0                707,925                       1,000

WHITE                         Borrowers                            4   100%                   0      0%                 3   100%                   0      0%                  6   100%                   1   100%
                              Loans                                5   100%                   0      0%                 4   100%                   0      0%                 14   100%                   1   100%
                              Principal and Interest     127,666       100%                   0      0%       296,569       100%                   0      0%        707,925       100%            1,000      100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1064
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          COOS, NEW HAMPSIRE                                 GRAFTON, NEW HAMPSIRE                                 HILLSBOROUGH, NEW HAMPSIRE
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            22                          5                         26                          4                            7                          3
                              Loans                                71                      14                            95                          5                           13                          3
                              Principal and Interest   3,781,464                      97,706                 3,933,912                      14,663                      395,427                       1,132

WHITE                         Borrowers                            19     86%                  4     80%                 24     92%                  3     75%                    7   100%                   3   100%
                              Loans                                59     83%              11        79%                 92     97%                  3     60%                   13   100%                   3   100%
                              Principal and Interest   2,838,949          75%         92,085         94%     3,826,066          97%          9,298         63%          395,427       100%            1,132      100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             3     14%                  1     20%                  1      4%                  0      0%                    0      0%                  0      0%
                              Loans                                12     17%                  3     21%                  1      1%                  0      0%                    0      0%                  0      0%
                              Principal and Interest     942,516          25%           5,621         6%        34,941           1%                  0      0%                    0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                    0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  1      4%                  1     25%                    0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  2      2%                  2     40%                    0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%        72,905           2%          5,365         37%                    0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                             Page 1065
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MERRIMACK,PT, NEW HAMPSIRE ROCKINGHAM, NEW HAMPSIRE                                                           STRAFFORD, NEW HAMPSIRE
                                                         Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                              12                          5                         20                          4                           9                          1
                              Loans                                  32                          8                         60                      22                             18                          2
                              Principal and Interest     1,376,815                      59,064                 3,836,312                    296,207                    1,079,843                     21,292

WHITE                         Borrowers                              12   100%                   5   100%                  20   100%                   4   100%                    8     89%                  0      0%
                              Loans                                  32   100%                   8   100%                  60   100%               22      100%                   16     89%                  0      0%
                              Principal and Interest     1,376,815        100%          59,064       100%      3,836,312        100%        296,207        100%          919,563         85%                  0      0%

AFRICAN AMERICAN              Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   1     11%                  1   100%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   2     11%                  2   100%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%         160,280         15%         21,292       100%

ASIAN                         Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                               0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                   0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest                  0      0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1066
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SULLIVAN, NEW HAMPSIRE                                STATE OF NEW HAMPSIRE
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            11                          0                     120                          23
                              Loans                                27                          0                     339                          55
                              Principal and Interest   1,055,536                               0             16,591,469                    491,064

WHITE                         Borrowers                            11   100%                   0      0%             114         95%              20        87%
                              Loans                                27   100%                   0      0%             322         95%              48        87%
                              Principal and Interest   1,055,536        100%                   0      0%     15,380,828          93%       458,786          93%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                   5      4%                  2      9%
                              Loans                                 0      0%                  0      0%                  15      4%                  5      9%
                              Principal and Interest                0      0%                  0      0%      1,137,737           7%         26,913          5%

ASIAN                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                   1      1%                  1      4%
                              Loans                                 0      0%                  0      0%                   2      1%                  2      4%
                              Prinicpal and Interest                0      0%                  0      0%         72,905           0%          5,365          1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                      Page 1067
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American             Asian            Hispanic
  NH M0IMACK               Approved   No. of Applications             37        36   97%               0   0%              0   0%            0   0%           1     3%
                                      Receipt to Completion                     30                     0                   0                 0              21
                                      Completion to Approval                    18                     0                   0                 0              16
                                      Approval to Loan Closing                  21                     0                   0                 0              15

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    18                      0                   0                 0               0
                                      Completion to Rejected                   19                      0                   0                 0               0

                           Withdrawn No. of Applications              5         4    80%               0   0%              1   20%           0   0%          0      0%
                                     Receipt to Completion                      4                      0                   0                 0               0
                                     Completion to Withdrawn                   22                      0                   0                 0               0

 NH    STATE               Approved   No. of Applications            37        36    97%               0   0%              0   0%            0   0%          1      3%
                                      Receipt to Completion                    30                      0                   0                 0              21
                                      Completion to Approval                   18                      0                   0                 0              16
                                      Approval to Loan Closing                 21                      0                   0                 0              15

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    18                      0                   0                 0               0
                                      Completion to Rejected                   19                      0                   0                 0               0

                           Withdrawn No. of Applications              5         4    80%               0   0%              1   20%           0   0%          0      0%
                                     Receipt to Completion                      4                      0                   0                 0               0
                                     Completion to Withdrawn                   22                      0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1068
                            Demographics         1070
                        FSA’s Loan Portfolio     1073
                        FSA’s Application data   1079




USDA/OIG-A/50801-4-Hq                                   1069
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other             Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
         NJ                  Population      224,327       165,233    74%         37,734     17%        491      0%      4,565      2%        187      0%     16,117       7%
         Atlantic County     Borrowers            52            51    98%              0      0%          0      0%          0      0%          0      0%          1       2%
                             Farms               391           387    99%              4      1%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms    29,606        29,568   100%             38      0%          0      0%          0      0%          0      0%          0       0%

         NJ                  Population      825,380       682,210    83%         38,037      5%        936      0%     53,776      7%        645      0%     49,776       6%
         Bergen County       Borrowers             0             0     0%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Farms               127           127   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms     2,636         2,636   100%              0      0%          0      0%          0      0%          0      0%          0       0%

         NJ                  Population      395,066       318,109     81%        55,063     14%        866      0%      7,824      2%        385      0%     12,819       3%
         Burlington County   Borrowers           148           129     87%            11      7%          3      2%          2      1%          1      1%          2       1%
                             Farms               816           793     97%             5      1%          0      0%          8      1%          0      0%         10       1%
                             Land in Farms    97,186        95,337     98%             0      0%          0      0%        802      1%          0      0%      1,047       1%

         NJ                  Population      502,824       376,357    75%         77,875     15%        914      0%     11,227      2%        429      0%     36,022       7%
         Camden County       Borrowers             9             8    89%              1     11%          0      0%          0      0%          0      0%          0       0%
                             Farms               188           188   100%              0      0%          0      0%          0      0%          0      0%          0       0%
                             Land in Farms     7,799         7,799   100%              0      0%          0      0%          0      0%          0      0%          0       0%

         NJ                  Population       95,089        87,192     92%         5,223      5%        194      0%        567      1%         58      0%      1,855       2%
         Cape May County     Borrowers            13            11     85%             1      8%          0      0%          1      8%          0      0%          0       0%
                             Farms               163           156     96%             4      2%          0      0%          3      2%          0      0%          0       0%
                             Land in Farms    11,644        11,569     99%             0      0%          0      0%         75      1%          0      0%          0       0%

         NJ                  Population      138,053        95,129    69%         22,167     16%      1,203      1%      1,063      1%        143      0%     18,348       13%
         Cumberland County   Borrowers             0             0     0%              0      0%          0      0%          0      0%          0      0%          0        0%
                             Farms               609           599    98%              6      1%          0      0%          0      0%          0      0%          4        1%
                             Land in Farms    68,627        68,364   100%            208      0%          0      0%          0      0%          0      0%         55        0%

         NJ                  Population      778,206       350,985    45%        305,786     39%      1,382      0%     20,358      3%      1,918      0%     97,777       13%
         Essex County        Borrowers             0             0     0%              0      0%          0      0%          0      0%          0      0%          0        0%
                             Farms                22            22   100%              0      0%          0      0%          0      0%          0      0%          0        0%
                             Land in Farms       613           613   100%              0      0%          0      0%          0      0%          0      0%          0        0%

         NJ                  Population      230,082       202,989    88%         19,591      9%        424      0%      2,798      1%        149      0%      4,131       2%
         Gloucester County   Borrowers            47            44    94%              3      6%          0      0%          0      0%          0      0%          0       0%
                             Farms               704           695    99%              6      1%          0      0%          0      0%          0      0%          3       0%
                             Land in Farms    61,748        61,512   100%            114      0%          0      0%          0      0%          0      0%        122       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                 Page 1070
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other             Hispanic
                                            Total        Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
         NJ                 Population      553,099       262,077     47%        69,856     13%        960      0%     35,046      6%      1,695      0%     183,465      33%
         Hudson County      Borrowers             0             0      0%             0      0%          0      0%          0      0%          0      0%           0       0%
                            Farms                 0             0      0%             0      0%          0      0%          0      0%          0      0%           0       0%
                            Land in Farms         0             0      0%             0      0%          0      0%          0      0%          0      0%           0       0%

         NJ                 Population      107,776       102,400    95%          2,119      2%        104      0%      1,373      1%         48      0%       1,732      2%
         Hunterdon County   Borrowers            19            19   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                            Farms             1,299         1,287    99%              0      0%          0      0%          9      1%          0      0%           3      0%
                            Land in Farms   106,324       105,736    99%              0      0%          0      0%        588      1%          0      0%           0      0%

         NJ                 Population      325,824       236,143    72%         59,449     18%        467      0%      9,736      3%        364      0%      19,665      6%
         Mercer County      Borrowers             0             0     0%              0      0%          0      0%          0      0%          0      0%           0      0%
                            Farms               296           293    99%              0      0%          0      0%          0      0%          0      0%           3      1%
                            Land in Farms    35,786        35,786   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NJ                 Population      671,780       516,948    77%         49,733      7%        808      0%     43,812      7%        703      0%      59,776      9%
         Middlesex County   Borrowers             0             0     0%              0      0%          0      0%          0      0%          0      0%           0      0%
                            Farms               241           233    97%              0      0%          0      0%          5      2%          0      0%           3      1%
                            Land in Farms    25,011        24,966   100%              0      0%          0      0%          0      0%          0      0%          45      0%

         NJ                 Population      553,124       469,109    85%         45,683      8%        649      0%     14,864      3%        412      0%      22,407      4%
         Monmouth County    Borrowers            14            14   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                            Farms               850           820    96%              5      1%          0      0%         18      2%          0      0%           7      1%
                            Land in Farms    58,758        57,680    98%              0      0%          0      0%        979      2%          0      0%          99      0%

         NJ                 Population      421,353       372,418    88%         11,931      3%        378      0%     16,556      4%        256      0%      19,814      5%
         Morris County      Borrowers             2             2   100%              0      0%          0      0%          0      0%          0      0%           0      0%
                            Farms               395           391    99%              0      0%          0      0%          0      0%          0      0%           4      1%
                            Land in Farms    23,915        23,915   100%              0      0%          0      0%          0      0%          0      0%           0      0%

         NJ                 Population      433,203       403,371    93%         11,405      3%        571      0%      3,707      1%        199      0%      13,950      3%
         Ocean County       Borrowers            10             8    80%              1     10%          0      0%          0      0%          1     10%           0      0%
                            Farms               233           229    98%              0      0%          0      0%          0      0%          0      0%           4      2%
                            Land in Farms    10,365        10,332   100%              0      0%          0      0%          0      0%          0      0%          33      0%

         NJ                 Population      453,060       284,276    63%         57,746     13%        739      0%     11,208      2%        999      0%      98,092      22%
         Passaic County     Borrowers             0             0     0%              0      0%          0      0%          0      0%          0      0%           0       0%
                            Farms                55            55   100%              0      0%          0      0%          0      0%          0      0%           0       0%
                            Land in Farms     1,838         1,838   100%              0      0%          0      0%          0      0%          0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1071
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian               Other             Hispanic
                                            Total        Number     Percent     Number    Percent   Number   Percent   Number    Percent   Number   Percent   Number    Percent
         NJ                Population        65,294        53,839    82%          9,391     14%        206      0%        363       1%         59      0%       1,436      2%
         Salem County      Borrowers             56            52    93%              3      5%          1      2%          0       0%          0      0%           0      0%
                           Farms                752           737    98%              7      1%          0      0%          3       0%          0      0%           5      1%
                           Land in Farms     98,256        97,896   100%            114      0%          0      0%          0       0%          0      0%         246      0%

         NJ                Population       240,279       204,834    85%         14,403      6%        227      0%      10,394      4%        234      0%      10,187      4%
         Somerset County   Borrowers              8             8   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                           Farms                435           429    99%              0      0%          0      0%           3      1%          0      0%           3      1%
                           Land in Farms     43,989        43,942   100%              0      0%          0      0%          47      0%          0      0%           0      0%

         NJ                Population       130,943       125,403    96%          1,191      1%        191      0%       1,202      1%         45      0%       2,911      2%
         Sussex County     Borrowers              8             8   100%              0      0%          0      0%           0      0%          0      0%           0      0%
                           Farms                791           778    98%              0      0%          3      0%           0      0%          0      0%          10      1%
                           Land in Farms     75,531        74,321    98%              0      0%          0      0%           0      0%          0      0%       1,210      2%

         NJ                Population       493,819       322,247    65%         89,222     18%        668      0%      13,164      3%        721      0%      67,797      14%
         Union County      Borrowers              0             0     0%              0      0%          0      0%           0      0%          0      0%           0       0%
                           Farms                 28            28   100%              0      0%          0      0%           0      0%          0      0%           0       0%
                           Land in Farms        325           325   100%              0      0%          0      0%           0      0%          0      0%           0       0%

         NJ                Population        91,607        87,697    96%          1,240      1%        112      0%        738       1%         36      0%       1,784      2%
         Warren County     Borrowers             19            19   100%              0      0%          0      0%          0       0%          0      0%           0      0%
                           Farms                684           679    99%              0      0%          0      0%          0       0%          0      0%           5      1%
                           Land in Farms     87,638        87,445   100%              0      0%          0      0%          0       0%          0      0%         193      0%

         NJ                Population      7,730,188    5,718,966     74%       984,845     13%     12,490      0%     264,341      3%      9,685      0%     739,861      10%
         STATE             Borrowers             405          373     92%            20      5%          4      1%           3      1%          2      0%           3       1%
                           Farms               9,079        8,926     98%            37      0%          3      0%          49      1%          0      0%          64       1%
                           Land in Farms     847,595      841,580     99%           474      0%          0      0%       2,491      0%          0      0%       3,050       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 1072
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ATLANTIC, NEW JERSEY                                  BURLINGTON, NEW JERSEY                             BURLINGTON-PT, NEW JERSEY
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             52                      26                             69                     34                       10                             0
                              Loans                            179                          72                        196                       115                        31                             0
                              Principal and Interest   19,162,655                  2,411,821                  11,742,539                  2,366,254                3,040,921                              0

WHITE                         Borrowers                             51     98%              25        96%                  64     93%             30     88%               10      100%                   0      0%
                              Loans                            174         97%              67        93%             173         88%             93     81%               31      100%                   0      0%
                              Principal and Interest   18,776,950          98%     2,258,364          94%     11,147,556          95%     2,169,425      92%       3,040,921       100%                   0      0%

AFRICAN AMERICAN              Borrowers                              0      0%                  0      0%                   3      4%              3      9%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  20     10%             20     17%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%       470,054            4%      173,735        7%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                   0      0%              0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%                   0      0%              0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                   1      1%              1      3%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   2      1%              2      2%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%         71,293           1%       23,095        1%                   0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                   1      1%              0      0%                   0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                   1      1%              0      0%                   0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%         53,635           0%              0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                              1      2%                  1      4%                   0      0%              0      0%                   0      0%                  0      0%
                              Loans                                  5      3%                  5      7%                   0      0%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest     385,705            2%       153,457           6%                   0      0%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 1073
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CAMDEN, NEW JERSEY                                  CAPE MAY, NEW JERSEY                              GLOUCESTER, NEW JERSEY
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             9                          7                         13                      7                      47                        28
                              Loans                                29                      19                            41                     26                     152                       100
                              Principal and Interest   3,215,002                    458,953                  2,897,338                  1,350,509              14,557,499                 4,019,004

WHITE                         Borrowers                             8     89%                  6     86%                 11     85%              7   100%               44        94%             25         89%
                              Loans                                28     97%              18        95%                 38     93%             26   100%              143        94%             92         92%
                              Principal and Interest   3,205,787        100%        458,077        100%      2,769,564          96%     1,350,509    100%      13,435,795         92%     3,438,170          86%

AFRICAN AMERICAN              Borrowers                             1     11%                  1     14%                  1      8%              0      0%                  3      6%                  3     11%
                              Loans                                 1      3%                  1      5%                  2      5%              0      0%                  9      6%                  8      8%
                              Principal and Interest        9,214          0%            876          0%         4,283           0%              0      0%      1,121,704          8%       580,834          14%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  1      8%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  1      2%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%      123,491            4%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1074
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HUNTERDON, NEW JERSEY                                 MONMOUTH, NEW JERSEY                                MORRIS, NEW JERSEY
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            19                          9                         14                      5                         2                          1
                              Loans                                58                      33                            31                     19                         5                          3
                              Principal and Interest   4,258,142                    855,498                  1,656,191                   465,230                518,196                     12,483

WHITE                         Borrowers                            19   100%                   9   100%                  14   100%               5   100%                  2   100%                   1   100%
                              Loans                                58   100%               33      100%                  31   100%              19   100%                  5   100%                   3   100%
                              Principal and Interest   4,258,142        100%        855,498        100%      1,656,191        100%       465,230     100%       518,196        100%         12,483        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1075
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MOUNT HOLLY, NEW JERSEY                                  OCEAN, NEW JERSEY                                   SALEM, NEW JERSEY
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             69                      33                            10                      7                      56                        31
                              Loans                            246                        162                             25                     17                     218                       148
                              Principal and Interest   13,629,292                  5,046,624                  1,901,366                   429,080               14,574,956                 5,768,297

WHITE                         Borrowers                             55     80%              25        76%                  8     80%              6     86%              52        93%             27         87%
                              Loans                            194         79%            129         80%                 22     88%             15     88%             195        89%            129         87%
                              Principal and Interest   11,247,592          83%     4,073,933          81%     1,784,846          94%      425,173       99%     13,061,392         90%     5,347,761          93%

AFRICAN AMERICAN              Borrowers                              8     12%                  5     15%                  1     10%              1     14%                  3      5%                  3     10%
                              Loans                                 42     17%              28        17%                  2      8%              2     12%              16         7%             12          8%
                              Principal and Interest    1,565,769          11%       769,799          15%      104,262            5%         3,907       1%       988,984           7%       379,332           7%

NATIVE AMERICAN               Borrowers                              3      4%                  1      3%                  0      0%              0      0%                  1      2%                  1      3%
                              Loans                                  5      2%                  1      1%                  0      0%              0      0%                  7      3%                  7      5%
                              Principal and Interest     262,136            2%          5,388          0%                  0      0%              0      0%       524,581           4%        41,204           1%

ASIAN                         Borrowers                              1      1%                  1      3%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  3      1%                  3      2%                  0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest     439,147            3%       194,946           4%                  0      0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                              0      0%                  0      0%                  1     10%              0      0%                  0      0%                  0      0%
                              Loans                                  0      0%                  0      0%                  1      4%              0      0%                  0      0%                  0      0%
                              Principal and Interest                 0      0%                  0      0%        12,258           1%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                              2      3%                  1      3%                  0      0%              0      0%                  0      0%                  0      0%
                              Loans                                  2      1%                  1      1%                  0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest     114,648            1%          2,558          0%                  0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1076
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SOMERSET, NEW JERSEY                                    SUSSEX, NEW JERSEY                               WARREN, NEW JERSEY
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             8                          3                          8                      0                     19                        10
                              Loans                                20                      12                            13                      0                     46                        23
                              Principal and Interest   1,144,447                    190,928                   537,351                            0             4,147,535                 1,004,622

WHITE                         Borrowers                             8   100%                   3   100%                   8   100%               0      0%             19      100%              10       100%
                              Loans                                20   100%               12      100%                  13   100%               0      0%             46      100%              23       100%
                              Principal and Interest   1,144,447        100%        190,928        100%       537,351         100%               0      0%     4,147,535       100%      1,004,622        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1077
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         STATE OF NEW JERSEY
                                                        Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        405                        201
                              Loans                          1,290                        749
                              Principal and Interest   96,983,430                  24,379,303

WHITE                         Borrowers                        373         92%            179         89%
                              Loans                          1,171         91%            659         88%
                              Principal and Interest   90,732,265          94%     22,050,173         90%

AFRICAN AMERICAN              Borrowers                             20      5%              16         8%
                              Loans                                 92      7%              71         9%
                              Principal and Interest    4,264,270           4%      1,908,483          8%

NATIVE AMERICAN               Borrowers                              4      1%                  2      1%
                              Loans                                 12      1%                  8      1%
                              Principal and Interest     786,717            1%         46,592          0%

ASIAN                         Borrowers                              3      1%                  2      1%
                              Loans                                  6      0%                  5      1%
                              Principal and Interest     633,931            1%       218,041           1%

OTHER                         Borrowers                              2      0%                  0      0%
                              Loans                                  2      0%                  0      0%
                              Principal and Interest       65,893           0%                  0      0%

HISPANIC                      Borrowers                              3      1%                  2      1%
                              Loans                                  7      1%                  6      1%
                              Prinicpal and Interest     500,353            1%       156,015           1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 1078
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African              Native
 State  Servicing Office   Decision           Average Days       Total       White              American             American            Asian             Hispanic
  NJ BURLINGTON            Approved   No. of Applications                8        7      88%               0   0%               0   0%        1      13%           0     0%
                                      Receipt to Completion                      41                        0                    0            76                    0
                                      Completion to Approval                      1                        0                    0             8                    0
                                      Approval to Loan Closing                   33                        0                    0            54                    0

                           Rejected   No. of Applications                4        2      50%               0   0%               0   0%        2      50%          0      0%
                                      Receipt to Completion                      25                        0                    0            35                   0
                                      Completion to Rejected                     62                        0                    0             1                   0

                           Withdrawn No. of Applications                 0           0    0%               0   0%               0   0%           0   0%           0      0%
                                     Receipt to Completion                           0                     0                    0                0                0
                                     Completion to Withdrawn                         0                     0                    0                0                0

  NJ   CUMBERLAND          Approved   No. of Applications            46          38      83%           5       11%          3       7%           0   0%           0      0%
                                      Receipt to Completion                      51                   22                   59                    0                0
                                      Completion to Approval                      8                   18                    1                    0                0
                                      Approval to Loan Closing                   34                   44                   10                    0                0

                           Rejected   No. of Applications                7        7      100%              0   0%               0   0%           0   0%           0      0%
                                      Receipt to Completion                      56                        0                    0                0                0
                                      Completion to Rejected                     91                        0                    0                0                0

                           Withdrawn No. of Applications                 8        7      88%               0   0%               0   0%           0   0%           1     13%
                                     Receipt to Completion                       13                        0                    0                0               40
                                     Completion to Withdrawn                     30                        0                    0                0               54

  NJ   SALEM               Approved   No. of Applications            16          12      75%           4       25%              0   0%           0   0%           0      0%
                                      Receipt to Completion                      23                   76                        0                0                0
                                      Completion to Approval                      2                    1                        0                0                0
                                      Approval to Loan Closing                   31                   17                        0                0                0

                           Rejected   No. of Applications                3        3      100%              0   0%               0   0%           0   0%           0      0%
                                      Receipt to Completion                      14                        0                    0                0                0
                                      Completion to Rejected                     17                        0                    0                0                0

                           Withdrawn No. of Applications                 3           3   100%              0   0%               0   0%           0   0%           0      0%
                                     Receipt to Completion                           0                     0                    0                0                0
                                     Completion to Withdrawn                         0                     0                    0                0                0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1079
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian             Hispanic
  NJ WARREN                Approved   No. of Applications             11        11   100%              0   0%               0   0%           0   0%            0     0%
                                      Receipt to Completion                     50                     0                    0                0                 0
                                      Completion to Approval                    26                     0                    0                0                 0
                                      Approval to Loan Closing                  57                     0                    0                0                 0

                           Rejected   No. of Applications             6         6    100%              0   0%               0   0%           0   0%           0      0%
                                      Receipt to Completion                    27                      0                    0                0                0
                                      Completion to Rejected                    9                      0                    0                0                0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%           0      0%
                                     Receipt to Completion                      0                      0                    0                0                0
                                     Completion to Withdrawn                    0                      0                    0                0                0

  NJ   STATE               Approved   No. of Applications            81        68    84%           9       11%          3       4%        1      1%           0      0%
                                      Receipt to Completion                    45                 46                   59                76                   0
                                      Completion to Approval                    9                 10                    1                 8                   0
                                      Approval to Loan Closing                 37                 32                   10                54                   0

                           Rejected   No. of Applications            20        18    90%               0   0%               0   0%        2      10%          0      0%
                                      Receipt to Completion                    36                      0                    0            35                   0
                                      Completion to Rejected                   48                      0                    0             1                   0

                           Withdrawn No. of Applications             12        11    92%               0   0%               0   0%           0   0%           1      8%
                                     Receipt to Completion                      8                      0                    0                0               40
                                     Completion to Withdrawn                   19                      0                    0                0               54




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1080
